No. 19-____
IN THE

Supreme Court of the United States
————
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL
AFFAIRS AND MINISTRY OF THE INTERIOR OF THE
REPUBLIC OF SUDAN,
Petitioners,
v.
JAMES OWENS, et al.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
————
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
————
CHRISTOPHER M. CURRAN
Counsel of Record
NICOLE ERB
CLAIRE A. DELELLE
NICOLLE KOWNACKI
CELIA A. MCLAUGHLIN
WHITE & CASE LLP
701 Thirteenth Street, NW
Washington, DC 20005
(202) 626-3600
ccurran@whitecase.com
Counsel for Petitioners
November 15, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

i
APPENDIX TABLE OF CONTENTS

Decisions and Orders on Appeal
Appendix A:
Opinion of the United States Court of
Appeals for the District of Columbia
Circuit, Owens v. Republic of Sudan,
No. 14-5105 (May 21, 2019)................................... 1a
Amended Judgment of the United States
Court of Appeals for the District of
Columbia Circuit, Owens v. Republic of
Sudan, No. 14-5105 (May 21, 2019) ................... 12a
Appendix B:
Answer from the District of Columbia
Court of Appeals, Republic of Sudan v.
Owens, No. 17-SP-837 (September 20,
2018)....................................................................... 15a
Appendix C:
Opinion of the United States Court of
Appeals for the District of Columbia
Circuit, Owens v. Republic of Sudan,
No. 14-5105 (July 28, 2017)................................. 32a
Judgment of the United States Court of
Appeals for the District of Columbia
Circuit, Owens v. Republic of Sudan,
No. 14-5105 (July 28, 2017)............................... 178a

ii
Appendix D: Relevant Orders on Rehearing:
Order of the District of Columbia Court of
Appeals denying petition for rehearing en
banc, Republic of Sudan v. Owens,
No. 17-SP-837 (December 12, 2018) ................. 181a
Order of the United States Court of
Appeals for the District of Columbia
Circuit denying petition for rehearing en
banc, Owens v. Republic of Sudan,
No. 14-5105 (June 18, 2019).............................. 183a

Decisions and Orders of the District Court
Appendix E:
Memorandum Opinion of the United
States District Court for the District of
Columbia, Owens v. Republic of Sudan,
No. 01-cv-2244-JDB (Nov. 28, 2011) (with
respect to the Owens, Wamai, Amduso ,
Mwila, Onsongo , Khaliq cases)......................... 186a
Order of the United States District Court
for the District of Columbia, Owens v.
Republic of Sudan, No. 01-cv-2244-JDB
(Nov. 28, 2011) (with respect to the
Owens, Wamai, Amduso , Mwila, Onsongo ,
Khaliq cases) ....................................................... 244a

iii
Appe ndix F: Memorandum Opinions and
Orders of the United States District Court for
the District of Columbia assessing and
awarding damages based on the Special
Masters’ proposed findings and reports:
Memorandum Opinion, Owens v. Republic
of Sudan, No. 01-cv-2244-JDB (Mar. 28,

2014)..................................................................... 248a
Order, Owens v. Republic of Sudan, No.
01-cv-2244-JDB (Mar. 28, 2014) ....................... 271a
Memorandum Opinion, Mwila v. Islamic
Republic of Iran, No. 08-cv-1377-JDB
(Mar. 28, 2014).................................................... 275a
Order, Mwila v. Islamic Republic of Iran,
No. 08-cv-1377-JDB (Mar. 28, 2014) ................ 295a
Opinion, Amduso
v.
Republic of Sudan, No. 08-cv-1361-JDB

Memorandum

(July 25, 2014) .................................................... 299a
Order, Amduso v. Republic of Sudan, No.
08-cv-1361-JDB (July 25, 2014)........................ 320a

Wamai
v.
Opinion,
Republic of Sudan, No. 08-cv1349-JDB

Memorandum

(July 25, 2014) .................................................... 325a
Order, Wamai v. Republic of Sudan, No.
08-cv1349-JDB (July 25, 2014) ......................... 352a

iv
Opinion, Onsongo v.
Republic of Sudan, No. 08-cv-1380-JDB

Memorandum

(July 25, 2014) .................................................... 358a
Order, Onsongo v. Republic of Sudan, No.
08-cv-1380-JDB (July 25, 2014)........................ 376a
Appendix G:
Memorandum Opinion of the United
States District Court for the District of
Columbia on subject-matter jurisdiction,
liability, and damages, Opati v. Republic
of Sudan, No. 12-cv-1224-JDB (July 25,
2014)..................................................................... 379a
Order of the United States District Court
for the District of Columbia, Opati v.
Republic of Sudan, No. 12-cv-1224-JDB
(July 25, 2014) .................................................... 405a
Appendix H :
Amended Memorandum Opinion of the
United States District Court for the
District of Columbia on subject-matter
jurisdiction, liability, and damages with
respect to the Aliganga Plaintiffs, Owens
v. Republic of Sudan, No. 01-cv-2244-JDB
(Oct. 24, 2014) ..................................................... 413a

v
Amended Order of the United States
District Court for the District of Columbia
entering judgment with respect to the
Aliganga Plaintiffs, Owens v. Republic of
Sudan, No. 01-cv-2244-JDB (Oct. 24,
2014)..................................................................... 430a
Appe ndix I: Memorandum Opinions and
Orders of the United States District Court for
the District of Columbia denying Sudan’s
Motions to Vacate:
Memorandum Opinion, Owens v. Republic
of Sudan, No. 01-cv-2244-JDB (Mar. 23,
2016) (with respect to the Owens, Wamai,
Amduso , Mwila, Onsongo , Khaliq, and
Opati cases)......................................................... 434a
Order, Owens v. Republic of Sudan, No.
01-cv-2244-JDB (Mar. 23, 2016) ....................... 532a
Order, Wamai v. Republic of Sudan, No.
08-cv-1349-JDB (Mar. 23, 2016) ....................... 534a
Order, Amduso v. Republic of Sudan, No.
08-cv-1361-JDB (Mar. 23, 2016) ....................... 536a
Order, Mwila v. Islamic Republic of Iran,
No. 08-cv-1377-JDB (Mar. 23, 2016) ................ 538a
Order, Onsongo v. Republic of Sudan, No.
08-cv-1380-JDB (Mar. 23, 2016) ....................... 540a
Order, Opati v. Republic of Sudan, No. 12cv-1224-JDB (Mar. 23, 2016) ............................ 542a

vi

Other Materials
Appendix J: Constitutional and statutory provisions
involved in the case
U.S. Const. art. I, § 8.......................................... 544a
U.S. Const. art. I, § 10 ....................................... 547a
U.S. Const. art. II, § 2 ........................................ 548a
U.S. Const. art. II, § 3 ........................................ 549a
U.S. Const. art. VI, cl.2 ...................................... 550a
28 U.S.C. § 1330(a), (b) ...................................... 551a
28 U.S.C. § 1391(f).............................................. 552a
28 U.S.C. § 1603(a) ............................................. 553a
28 U.S.C. § 1604 ................................................. 554a
28 U.S.C. § 1605A............................................... 555a
28 U.S.C. § 1606 ................................................. 561a
28 U.S.C. § 1608(e) ............................................. 562a
Appendix K: Miscellaneous
Restatement (Second) of Torts § 46 (1965) ...... 563a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: 05/21/2019]
(Argued: October 11, 2016
Decided: May 21, 2019)
Docket No. 14-5105

JAMES OWENS, et al.,

Appellees,
v.
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS
AND MINISTRY OF THE INTERIOR OF THE REPUBLIC OF
SUDAN,

Appellants.
Consolidated with 14-5106, 14-5107, 14-7124,
14-7125, 14-7127, 14-7128, 14-7207, 16-7044, 167045, 16-7046, 16-7048,16-7049, 16-7050, 16-7052

APPEALS FROM THE UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA
(No. 1:01-cv-02244)

2a
(1:08-CV -01377)
(1:10-CV -00356)
(1:12-CV -01224)
(1:08-CV -01349)
(1:08-CV -01361)
(1:08-CV -01380)
Before:
H ENDERSON and ROGERS, Circuit Judges,
and GINSBURG, Senior Circuit Judge.

Christopher M. Curran, Nicole Erb, Claire A.
DeLelle , and Celia A. McLaughlin were on the
supplemental brief for appellants. Bruce E. Fein
entered an appearance.

Stuart H. Newberger, Clifton E. Elgarten, Aryeh S.
Portnoy, Emily Alban, John L. Murino , Matthew D.
McGill, Lochlan F. Shelfer, Steven R. Perles,
Edward B. MacAllister, John Vail, Thomas Fortune
Fay, Jane Carol Norman, Michael J. Miller, and
David J. Dickens were on the supplemental brief for
appellees. Annie P. Kaplan, John D. Aldock, and
Stephen A. Saltzburg, entered appearances.

GINSBURG, Senior Circuit Judge : The court
originally heard this appeal during the 2016-17 term.
See 864 F.3d 751 (2017). In the resulting order we
certified to the D.C. Court of Appeals the following
question regarding the plaintiffs’ intentional

3a
infliction of emotional distress (IIED) claims: “Must a
claimant alleging emotional distress arising from a
terrorist attack that killed or injured a family
member have been present at the scene of the attack
in order to state a claim for intentional infliction of
emotional distress?” The D.C. Court of Appeals has
now answered the question in the negative. See
Republic of Sudan v. Owens, 194 A.3d 38, 39 (2018).
Sudan nonetheless asks us not to accept the D.C.
court’s answer on the grounds that it encroaches
upon the federal government’s foreign affairs power,
impermissibly discriminates against certain foreign
sovereigns, and violates the presumption against
retroactivity. For the reasons that follow, we reject
Sudan’s arguments and affirm the default judgments
with respect to the plaintiffs’ IIED claims.
I. Background
The underlying facts and the history of this
litigation are recited at length in our initial opinion.
864 F.3d at 762-69. Here we briefly summarize and
highlight matters relevant to Sudan’s present
challenge.
A. Litigation History
The cases in this consolidated appeal are among
the many lawsuits arising out of the August 1998
bombings of the U.S. embassies in Nairobi, Kenya
and Dar es Salaam, Tanzania, which were committed
by al Qaeda. Id. at 762. Beginning in 2001, victims of
the bombings and their family members brought suits
against the Republic of Sudan and the Islamic
Republic of Iran for providing material support to al
Qaeda. Id. at 765-66. They were able to do so through
the so-called “terrorism exception” in the Foreign

4a
Sovereign Immunities Act (FSIA), which covers suits
against state sponsors of terrorism for “personal
injury or death” arising out of certain acts. Id. at 762;
see 28 U.S.C. § 1605A(a).
The original terrorism exception was codified as
a subsection of 28 U.S.C. § 1605, alongside all the
other exceptions to the jurisdictional immunity of
foreign states. 864 F.3d at 763. Under that scheme, a
plaintiff suing a foreign sovereign for acts of statesponsored terrorism had to rely solely upon state
substantive law; this is known as the “pass-through”
approach. Id. at 764. In 2008 the Congress moved the
terrorism exception from § 1605 to the newly enacted
§ 1605A. National Defense Authorization Act for
Fiscal Year 2008, Pub. L. No. 110-181, § 1083, 122
Stat. 3, 338-44 (2008). Unlike the other exceptions in
the FSIA, the § 1605A terrorism exception not only
withdraws sovereign immunity and grants the
federal courts jurisdiction over qualifying cases, it
also provides a substantive cause of action against
foreign sovereigns. 864 F.3d at 765; see § 1605A(c). In
addition, as we held in our earlier opinion, plaintiffs
can continue to bring pass-through state law claims
through the jurisdictional grant in § 1605A. 864 F.3d
at 808; see § 1605A(a).
Because Sudan failed to appear and defend
against the claims, in May 2003 the district court
entered an order of default. Over the next decade, the
litigation took many twists and turns, producing a
tangle of related actions and appeals. See 864 F.3d at
765-68. Finally, in 2014, the district court entered
final judgments in favor of the plaintiffs. The total
damages awarded came to $ 10.2 billion, $ 4.3 billion
of which were punitive damages. Id. at 767.

5a
In April 2015 Sudan filed Rule 60(b) motions to
vacate the default judgments; it also appealed each
case, but we stayed those appeals pending resolution
of the motions to vacate. Id. at 768. In those motions,
Sudan
raised
both
jurisdictional
and
nonjurisdictional arguments, none of which
persuaded the district court. Sudan appealed the
district court’s denials of its motions to vacate, and
those appeals were consolidated with the earlier
appeals, all of which were addressed in our prior
opinion. Id.
B. This Appeal
In our 2017 decision, we affirmed the default
judgments in most respects. We exercised our
discretion to reach the merits of Sudan’s argument
for invalidating the family members’ state law claims
for IIED on the ground that “D.C. tort law requires a
plaintiff to be present at the scene of a defendant’s
outrageous and extreme conduct in order to recover
for IIED,” even though it is nonjurisdictional and
would ordinarily have been forfeited by Sudan’s
default. Id. at 809-11. We did not resolve that issue,
however, because we were “genuinely uncertain
whether the D.C. Court of Appeals would apply the
presence requirement in the Second Restatement of
Torts to preclude recovery for IIED by family
members absent from the scene of a terrorist
bombing.” Id. at 812. Instead we certified the
question to that court. Id.
In September 2018, the D.C. Court of Appeals
answered the certified question, in a word: “No.”
Sudan, 194 A.3d at 39. On its way to doing so, the
court first adopted § 46(2)(a) of the Second

6a
Restatement as the general rule for IIED claims
under D.C. law. Id. at 41. That is, it held that when
emotional distress is caused by conduct directed at a
member of a plaintiff’s family, the plaintiff must be
“present at the time” of the conduct in order to make
out an IIED claim. Id. The court then carved out an
exception to the general rule for cases brought under
§ 1605A, which it referred to as “the FSIA Terrorism
Exception” to the presence requirement. Id. at 42.
Sudan now urges us not to apply the exception in this
case.
II. Analysis
Sudan makes three arguments why this court
should not apply the D.C. court’s ruling here: It (1)
“impermissibly encroaches upon the federal foreign
affairs powers”; (2) violates the non-discrimination
principle in the FSIA, i.e., the principle that a foreign
state is liable “to the same extent as a private
individual under like circumstances”; and (3) would,
if applied in this case, increase Sudan’s liability for
past conduct, in contravention of the presumption
against retroactivity. All of these arguments depend
upon the assumption that the exception crafted by
the D.C. Court of Appeals “creates a new rule of D.C.
law applicable only to certain foreign states.” We
reject this assumption, wherefor all Sudan’s
challenges fail.
A. Fo rfeiture
First, we pause to consider the plaintiffs’
contention that Sudan forfeited its arguments
because it failed to raise them in its initial appeal to
this court and before the D.C. Court of Appeals. “The
rule in this circuit is that litigants must raise their

7a
claims on their initial appeal and not in subsequent
hearings following a remand.” Eli Lilly & Co. v. Home
Ins. Co., 794 F.2d 710, 717 (D.C. Cir. 1986) (finding
“appellants waived their constitutional claims”
against the Supreme Court of Indiana’s answer to
this court’s certified question). In this case, Sudan
made its arguments for the first time in its petition
for rehearing to the D.C. Court of Appeals.
In Eli Lilly “all of the legal rulings that
appellants find to be constitutionally offensive were
stated with some precision in the District Court’s
memorandum opinion.” Id. Not so here. As explained
in greater detail below, Sudan’s arguments are
predicated upon the way in which the D.C. Court of
Appeals characterized the substantive legal rule it
crafted in its opinion, as contrasted with this court’s
formulation of the certified question. Sudan cannot
reasonably be faulted for having failed to bring these
issues to our attention during its initial appeal; they
did not arise until the D.C. Court issued its opinion in
response to the certified question. We therefore
conclude Sudan’s objections are not forfeit and
proceed to address them on the merits.
B. Me rits
Again, each of Sudan’s arguments proceeds
from the premise that the D.C. Court of Appeals
crafted a new rule of substantive law applicable only
to foreign states lacking immunity under § 1605A
and not to other possible defendants in terrorism
cases. Sudan’s first argument invokes the foreign
affairs preemption doctrine, which provides that,
because the Constitution entrusts foreign policy
exclusively to the National Government, even if those

8a
subject to the state law could comply with both it and
federal law, the “imposition of any state law create[s]
a conflict with federal foreign policy interests.” Saleh
v. Titan Corp., 580 F.3d 1, 13 (D.C. Cir. 2009). Here,
says Sudan, “by fashioning a new rule of law
targeting a subset of foreign states . . . the D.C. Court
of Appeals . . . makes an impermissible foray into the
delicate realm of foreign affairs.” Appellant’s Br. 5.
Next, Sudan contends the D.C. court’s rule
violates the principle that foreign states lacking
immunity “shall be liable in the same manner and to
the same extent as a private individual under like
circumstances,” as codified in 28 U.S.C. § 1606,
because it “applies only to foreign states lacking
immunity under § 1605A.” Appellant’s Br. 7. In our
prior opinion, we explained that § 1606 covers claims
brought under § 1605 but not under § 1605A. 864
F.3d at 809. Sudan’s argument is that the Congress
nevertheless intended to preserve the nondiscrimination requirement for § 1605A cases that
use the pass-through approach. Finally, Sudan
argues in the alternative that, if the nondiscrimination principle “no longer applies by reason
of § 1605A’s enactment,” then the “backdoor lifting” of
that limitation on Sudan’s liability violates the
presumption against retroactivity, as set out in
Landgraf v. USI Film Products, 511 U.S. 244, 265,
114 S. Ct. 1483, 128 L. Ed. 2d 229 (1994). Appellant’s
Br. 12-13.
In short, Sudan’s objections to the D.C. court’s
exception to the presence requirement all presume
that D.C. law treats state actors differently from nonstate actors. Because we reject Sudan’s interpretation
of the D.C. court’s holding, we do not reach the

9a
substantive question whether it would be
impermissible for the D.C. court to single out certain
foreign sovereigns for IIED liability in terrorism
cases.
We formulated the question certified to the
D.C. Court of Appeals as follows:
Must a claimant alleging emotional
distress arising from a terrorist attack
that killed or injured a family member
have been present at the scene of the
attack in order to state a claim for
intentional infliction of emotional
distress?

Owens, 864 F.3d at 812. That court responded, “For
the reasons that follow, we answer this question ‘No.’
” Sudan, 194 A.3d at 39.
The D.C. court went on, however, to restate the
certified question and to describe its holding with
specific reference to the FSIA. The court restated the
certified question as follows: “The D.C. Circuit has
asked us to determine whether the caveat [to § 46]
applies to the scenario presented here — an IIED
case where the defendant is a state sponsor of
terrorism denied sovereign immunity by the FSIA.”
Id. at 43. Then the court made clear that its opinion
was addressed to “IIED cases where the jurisdictional
elements of § 1605A are satisfied and the plaintiff’s
severe distress arises from a terrorist attack that
killed or injured a member of his or her immediate
family.” Id. at 45; see also id. at 44 (“Our holding
excuses the presence requirement only when
plaintiffs demonstrate that [the] predicates [to §
1605A] are met”).

10a
The D.C. Court of Appeals has previously
asserted its “latitude . . . to consider nondesignated
questions and to reformulate, if necessary, the
questions as certified.” District of Columbia v.
Beretta, 872 A.2d 633, 641 (D.C. 2005) (cleaned up).
Several circuits have, for their part, allowed as how
their “phrasing of the [certified] question is not
intended to restrict the scope or inquiry by” the state
supreme court to which it is directed. Tillman v. R.J.
Reynolds Tobacco , 253 F.3d 1302, 1308 (11th Cir.
2001); see also Mineral County v. Walker River
Irrigation Dist., 900 F.3d 1027, 1034 (9th Cir. 2018);
Penguin Group, Inc., v. American Buddha, 640 F.3d
497, 499-500 (2d Cir. 2011); Lamar Homes v. MidContinent Casualty Co., 428 F.3d 193, 201 (5th Cir.
2005). Here, the D.C. court narrowed its inquiry to
cases brought under § 1605A of the FSIA, even
though our certified question asked more generally
about a “terrorism exception.”
Nevertheless, we do not construe the D.C.
court’s opinion as creating a disparity between state
and non-state actors. We agree with the plaintiffs
that the D.C. court was simply “reasoning by
reference to the facts of the case before it.” Because
the court was not faced with a terrorism case
involving a non-state actor, it was not necessary to
decide whether the exception would apply there. We
see no reason to anticipate that, in an appropriate
case, the D.C. court would refuse to extend the
exception to a private actor, such as al Qaeda.
Indeed, as the appellees point out, the D.C.
court’s reasoning as to the purposes of the presence
requirement “was not limited to cases involving
foreign sovereigns.” The court identified three

11a
objectives of the presence requirement: to (1) “shield
defendants from unwarranted liability”; (2) “ensure
that compensation is awarded only to victims with
genuine claims of severe emotional distress”; and (3)
“provide a judicially manageable standard that
protects courts from a flood of IIED claims.” 194 A.3d
at 43 (cleaned up). The court then concluded the first
and second objectives are inapplicable “in this special
context” for reasons true of “acts of terrorism” more
generally. Id. at 42. The court explained that “acts of
terrorism are, by their very nature, designed to create
maximum emotional impact, particularly on third
parties” and “the risk of trivial or feigned claims is
exceedingly low when the anguish derives from a
terrorist attack.” Id. at 43. Hence, although the D.C.
court’s opinion addresses only FSIA cases, its
rationale invites application of the exception to
terrorism cases against non-state actors.
Under these circumstances, we decline Sudan’s
invitation to construe the D.C. Court of Appeals’s rule
as singling out certain foreign sovereigns.
III. Conclusion
We therefore affirm the district court’s
judgments as to the plaintiffs’ IIED claims to the
extent they are not inconsistent with our initial panel
opinion at 864 F.3d 751 (D.C. Cir. 2017).

So ordered.

12a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: 05/21/2019]
September Term 2018
Docket No: 14-5105

JAMES OWENS, et al.,

Appellees,
v.
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS
AND MINISTRY OF THE INTERIOR OF THE REPUBLIC OF
THE SUDAN,

Appellants.
Consolidated with 14-5106, 14-5107, 14-7124,
14-7125, 14-7127, 14-7128, 14-7207, 16-7044, 167045, 16-7046, 16-7048,16-7049, 16-7050, 16-7052

13a
APPEALS FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(No. 1:01-cv-02244)
(1:08-CV -01377)
(1:10-CV -00356)
(1:12-CV -01224)
(1:08-CV -01349)
(1:08-CV -01361)
(1:08-CV -01380)

Before:
H ENDERSON and ROGERS, Circuit Judges,
and GINSBURG, Senior Circuit Judge.

AMENDED JUDGMENT
These causes came to be heard on the record on
appeal from the United States District Court for the
District of Columbia and were argued by counsel.
Thereafter the District of Columbia Court of Appeals
issued an opinion on a question of law that this court
certified to it, and the parties filed supplemental
briefs. On consideration thereof, it is

14a

ORDERED and ADJUDGED that the
judgment filed July 28, 2017 be amended insofar as
the district court’s judgments as to the plaintiffs’
IIED claims are hereby affirmed to the extent they
are not inconsistent with the initial panel opinion at
864 F.3d 751 (2017).
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:
/s/
Michael C. McGrail
Deputy Clerk
Date: May 21, 2019
Opinion for the court filed by Senior Circuit Judge
Ginsburg.

15a
APPENDIX B
DISTRICT OF COLUMBIA COURT OF APPEALS
[Filed: 09/20/2018]
(Argued: February 14, 2018
Decided: September 20, 2018)
Docket No. 17-SP-837

REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS,
et al.,

Appellants,
v.
JAMES OWENS, et al.,

Appellees.
ON CERTIFIED QUESTION FROM THE UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF COLUMBIA
CIRCUIT
(No. 14-5105)
Before:
FISHER and THOMPSON, Associate Judges,
and FARRELL, Senior Judge.

16a
CHRISTOPHER M. CURRAN argued the cause for
appellants. With him on the briefs were Nicole Erb,
Claire A. DeLelle , and Celia A. McLaughlin.
MATTHEW D. MCGILL argued the causes for appellees
James Owens, et. al. With them on the brief were
Stuart H. Newberger, Clifton S. Elgarten, Aryeh S.
Portnoy, Thomas Fortune Fay, Lochlan F. Shelfer,
Steven R. Perles, Edward B. Macallister, Jane
Carol Norman, John Vail, Michael J. Miller, and
David J. Dickens.

17a
FISHER, Associate Judge : Almost simultaneously
on August 7, 1998, al Qaeda terrorists detonated
powerful truck bombs outside the United States
embassies in Dar es Salaam, Tanzania, and Nairobi,
Kenya, killing over two hundred people and injuring
more than a thousand others. Owens v. Republic of
Sudan, 864 F.3d 751, 762 (D.C. Cir. 2017). Three
years after the attacks, groups of plaintiffs began
filing suit in the United States District Court for the
District of Columbia, seeking to hold Sudan
accountable for its role in the bombings. Id.
Eventually, the case reached the United States Court
of Appeals for the District of Columbia Circuit and,
pursuant to D.C. Code § 11-723 (2012 Repl.), it
certified the following question of District of
Columbia law to this court:
Must a claimant alleging emotional
distress arising from a terrorist attack
that killed or injured a family member
have been present at the scene of the
attack in order to state a claim for
intentional infliction of emotional
distress?

Id. at 812. For the reasons that follow, we answer this
question “No.”

I.

Background

The D.C. Circuit and the district court have fully
recounted the relevant facts and procedural history,
see id. at 765-69, 781-84; Owens v. Republic of Sudan,
826 F. Supp. 2d 128, 133-35, 139-46 (D.D.C. 2011),

18a

aff’d in part, vacated in part, 864 F.3d 751 (D.C. Cir.
2017), so we will discuss them only briefly here.

Much of the litigation in federal court centered
on the Foreign Sovereign Immunity Act (FSIA),
which generally bars suits against foreign sovereigns
in federal and state courts. 28 U.S.C. § 1604 (2012).
The FSIA contains exceptions, including the
“[t]errorism exception,” 28 U.S.C. § 1605A, which
strips foreign states of immunity, and grants courts
jurisdiction, in cases where certain plaintiffs sue
state sponsors of terrorism for committing, or
“provi[ding] material support” for, enumerated
terrorist activities. 1
§1605A(a)(1),(2). Section
1605A(c) establishes a private right of action for the
same conduct that gives rise to jurisdiction; however,
only a subcategory of those plaintiffs who obtain
jurisdiction under the terrorism exception can also
invoke the statutory cause of action. 864 F.3d at 809.
The remainder must assert claims based “upon
alternative sources of substantive law,” such as state
tort law. Id. at 808 (analyzing §§ 1605A and 1606).
Appellees are a subset of the plaintiffs who sued
Sudan for its role in the embassy bombings. All of
them are non-U.S. nationals related to someone who
died or suffered injuries in one of the attacks. They
In general, the terrorism exception to the jurisdictional
immunity of a foreign state applies where plaintiffs seek “money
damages . . . against a foreign state for personal injury or death .
. . caused by an act of torture, extrajudicial killing, aircraft
sabotage, hostage taking, or the provision of material support or
resources for such an act if . . . engaged in by an official,
employee, or agent of [a] foreign state . . . designated as a state
sponsor of terrorism.” 28 U.S.C. § 1605A(a)(1)-(2)(A)(i)(I).
1

19a
allege that the injuries to their family members
caused them severe emotional distress, and seek to
recover damages for that injury to themselves.
The district court determined, 826 F. Supp. 2d at
148, and the D.C. Circuit later affirmed, 864 F.3d at
769, that it had jurisdiction over appellees’ claims
under § 1605A. However, the district court also
concluded that appellees could not rely on §
1605A(c)’s cause of action and would instead need to
invoke an independent legal basis for recovery. 826 F.
Supp. 2d at 153. After conducting a choice of law
analysis, the court determined that District of
Columbia law governed the “claims that [did] not
arise under the federal cause of action at § 1605A(c),”
id. at 157, and, applying our tort law, held Sudan
liable to appellees for intentional infliction of
emotional distress (“IIED”). See, e.g., Onsongo v.
Republic of Sudan, 60 F. Supp. 3d 144, 149 (D.D.C.
2014), aff’d in part, vacated in part sub nom. Owens
v. Republic of Sudan, 864 F.3d 751 (D.C. Cir. 2017).
The orders finding Sudan liable and awarding
damages to appellees took the form of default
judgments. 864 F.3d at 767. Sudan did not
participate in much of the litigation and even
declined to engage in the evidentiary hearings held
on issues related to jurisdiction, liability, and
damages. Id. However, after the entry of default
judgments, Sudan adopted a more active strategy. It
filed motions for relief from the judgments under Fed.
R. Civ. P. 60(b), and appealed the denial of that
motion, as well as the underlying default judgments,
to the D.C. Circuit. Id. at 768.

20a
In both proceedings Sudan argued that appellees
could recover for IIED only if they were present when
their family members were killed or injured, id. at
809-10; Owens v. Republic of Sudan, 174 F. Supp. 3d
242, 286-87 (D.D.C. 2016), a requirement the district
court had not imposed, see, e.g., Onsongo , 60 F. Supp.
3d at 149. On appeal, the D.C. Circuit reviewed our
case law and was “genuinely uncertain” whether this
jurisdiction “would apply the presence requirement in
the Second Restatement of Torts to preclude recovery
for IIED by family members absent from the scene of
a terrorist bombing.” 864 F.3d at 812. Consequently,
it certified to us the question of law quoted above. Id.
II.

The General Rule

The certified question raises two issues of first
impression. We must, as a general matter, identify
the elements of an IIED claim arising from injury to a
member of the plaintiff’s immediate family.
Depending on the answer to that question, we may
then need to determine whether to permit more
expansive liability when injury to the family member
was caused by a terrorist attack.
Our analysis starts with § 46 of the Restatement
(Second) of Torts (Am. Law Inst. 1965) (“Second
Restatement” or “Restatement Second”), which
defines the elements of IIED liability as follows:
(1) One who by extreme and outrageous
conduct intentionally or recklessly causes
severe emotional distress to another is subject
to liability for such emotional distress, and if

21a
bodily harm to the other results from it, for
such bodily harm.
(2) Where such conduct is directed at a third
person, the actor is subject to liability if he
intentionally or recklessly causes severe
emotional distress
(a) to a member of such person’s
immediate family who is present at the
time, whether or not such distress
results in bodily harm, or
(b) to any other person who is present at
the time, if such distress results in
bodily harm.
Section 46(1) governs IIED claims where the
defendant “intentionally or recklessly causes severe
emotional distress” to the plaintiff. In such cases the
defendant typically has targeted the plaintiff. See,
e.g., Howard Univ. v. Best, 484 A.2d 958, 985-86
(D.C. 1984) (holding that plaintiff “made out a prima
facie case of intentional infliction of emotional
distress . . . [by] demonstrat[ing] repeated ‘sexual
harassment’ by . . . her supervisor”). By contrast, §
46(2)(a) applies when defendants “direct” their
extreme and outrageous acts at a third person and
“intentionally or recklessly cause[ ] severe emotional
distress” to a member of that person’s “immediate
family who is present at the time.” 2 This court has
addressed many § 46(1)-type claims and, in doing so,
has expressly adopted the Second Restatement’s
approach. See, e.g., Sere v. Grp. Hospitalization, Inc.,
It appears that we have not applied § 46(2)(b) in the District of
Columbia, and there is no need to discuss that section here.

2

22a
443 A.2d 33, 37 (D.C. 1982) (quoting elements of IIED
from Second Restatement § 46(1)); Waldon v.
Covington, 415 A.2d 1070, 1076 & n.21 (D.C. 1980)
(quoting from § 46 of Second Restatement). However,
none of our published opinions has analyzed an IIED
claim where § 46(2)(a) might apply. As a result,
before we can discuss cases involving terrorist
attacks, we must determine whether § 46(2)(a), and
with its requirement that the plaintiff be “present at
the time,” generally governs IIED claims where the
plaintiff’s distress was caused by harm to a member
of his or her immediate family.
We conclude that it does. As noted, this court has
embraced the Restatement Second’s approach to IIED
liability. Subsection (2)(a) is an integral part of that
regime and, in formally adopting that subsection
today, we make explicit what our earlier cases
implied. This holding is consistent with our
customary caution when facing “the problem of
potentially infinite liability that has been of central
judicial concern in emotional distress cases.”
Hedgepeth v. Whitman Walker Clinic, 22 A.3d 789,
801-02 (D.C. 2011) (en banc). For decades, this court
permitted relief for negligent infliction of emotional
distress only “if the distress result[ed] from a physical
impact and [was] accompanied by physical injury.” Id.
at 796. While we ultimately abandoned that rule, we
replaced it with new ones deliberately crafted to
contain “self-limiting principle[s],” id. at 812, and to
avoid “virtually infinite liability,” Williams v. Baker,
572 A.2d 1062, 1069 (D.C. 1990) (en banc). 3
For example, in Williams, we held that “[w]here the plaintiff
was within the zone of physical danger and as a result of

3

23a
Like the rules cabining relief for negligent
infliction of emotional distress, § 46(2)(a) defines this
related tort to guard against potentially unbounded
liability. Indeed, the reporters of the Second
Restatement explained that § 46(2)(a)’s “presence”
requirement exists, in part, to serve that very goal. §
46 cmt. l. Limiting recovery to those who are present
and perceive the harm as it happens prevents
excessive liability while affording relief to plaintiffs
who suffer a uniquely traumatic experience.
Accordingly, we hold that, as a general matter, to
recover for IIED, a plaintiff whose emotional distress
arises from harm suffered by a member of his or her
immediate family must be “present” when the harm
occurs and otherwise satisfy the rule established in
Restatement Second § 46(2)(a). 4
defendant’s negligence feared for his or her own safety, . . . it is
reasonable to permit the plaintiff to recover as an element of
damages mental distress caused by fear for the safety of a
member of the plaintiff’s immediate family who was endangered
by the negligent act.” 572 A.2d at 1069. This “zone of danger”
test is essentially a requirement that the plaintiff be present.
We adhere to the Second Restatement even though the
American Law Institute has published a new version with a
slightly modified approach to IIED liability. See Restatement
(Third) of Torts: Liab. for Physical & Emotional Harm § 46
(2012). This court has proceeded cautiously in adopting the
Third Restatement. See Hedgepeth, 22 A.3d at 800 n.15
(declining, even while sitting en banc, to endorse more than
select comments from the (then-draft) Restatement Third
section on negligent infliction of emotional distress). Moreover,
as a panel of the court, we cannot overrule prior decisions that
have relied upon § 46(1) of the Second Restatement. See M. A. P.
v. Ryan, 285 A.2d 310, 312 (D.C. 1971). Adopting the
Restatement Third approach for § 46(2)-type claims would
4

24a
III. The FSIA Terrorism Exception to the Presence
Requirement
A caveat to § 46 of the Second Restatement
leaves open the possibility of “other circumstances” in
which a defendant could face liability for IIED,
including “situations in which [the plaintiff’s]
presence at the time may not be required.” § 46
Caveat & cmt. l. 5 The D.C. Circuit has asked us to
determine whether the caveat applies to the scenario
presented here—an IIED case where the defendant is
a state sponsor of terrorism denied sovereign
immunity by the FSIA. See 864 F.3d at 812. Having
considered the reasons for the requirement in more
typical cases, we conclude that presence at the scene
is not required in this special context. Accordingly,
we answer the certified question in the negative.
The presence requirement serves many
purposes. It shields defendants from unwarranted
liability, tries to ensure that compensation is
awarded only to victims with genuine claims of severe
emotional distress, and provides a judicially
manageable standard that protects courts from a
flood of IIED claims. See Restatement Second § 46
create a confusing and unseemly situation where some IIED
claims were governed by the Second Restatement and others by
the Third.
“The Institute expresses no opinion as to whether there may
not be other circumstances under which the actor may be
subject to liability for the intentional or reckless infliction of
emotional distress.” Restatement (Second) of Torts § 46 Caveat
(Am. Law Inst. 1965)

5

25a
cmt. l. In FSIA terrorism cases, however, the presence
requirement is not needed to achieve these goals: the
very facts that justify stripping foreign sovereigns of
their immunity allay the concerns that the presence
requirement was designed to address. As a result,
adhering to the rule in this context would serve only
to create a high risk that compelling claims will go
uncompensated. By establishing the caveat, the
Restatement Second sought to prevent such unfair
outcomes; by invoking it here, we do just that.
We begin our analysis by considering the role of
the presence requirement in ensuring fairness to
defendants. As noted previously, § 46(2)(a) governs
cases in which the plaintiffs suffer severe emotional
distress from conduct directed at a member of their
immediate family. The Restatement Second
appreciated that, in such cases, defendants might no t
anticipate the degree to which their conduct would
affect family members absent from the scene—
individuals whom such defendants did not target and
did not see when they engaged in their extreme and
outrageous conduct. See § 46 cmt. l. Requiring that
the plaintiff have been “present at the time”
mitigated this concern. “[W]here, for example, a
husband is murdered in the presence of his wife, the
actor may know that it is substantially certain, or at
least highly probable, that it will cause severe
emotional distress to the plaintiff.” Id. Although §
46(2)(a) separately requires that the defendant
“intentionally or recklessly cause” the plaintiff’s
anguish, the wife’s presence at the time gives added

26a
assurance that the defendant knew he would cause
her severe emotional distress. 6
Defendants in FSIA terrorism cases do not need
this additional protection. Acts of terrorism are, by
their very nature, designed “ ‘to create maximum
emotional impact,’ particularly on third parties.”
Estate of Heiser v. Islamic Republic of Iran, 659 F.
Supp. 2d 20, 27 (D.D.C. 2009) (quoting Eisenfeld v.
Islamic Republic of Iran, 172 F. Supp. 2d 1, 7 (D.D.C.
2000)); see 18 U.S.C. § 2331(1) (definition of
“international terrorism” includes violent acts that
“appear to be intended . . . to intimidate or coerce a
civilian population . . . [or] to influence the policy of a
government by intimidation or coercion”); D.C. Code §
22-3152 (1) (2012 Repl.) (“act of terrorism” similarly
defined). Therefore, when foreign states provide
material support for terrorist attacks, it should come
as no surprise that the acts they facilitated have
caused severe emotional distress to persons who were
not present at the time.
Another purpose of the presence requirement is to
increase the likelihood that only plaintiffs with
“genuine” complaints of severe distress can recover.
See Restatement Second § 46 cmt. l. Yet, the risk of
trivial or feigned claims is exceedingly low when the
Sudan contends that it did not recklessly disregard the risk
that its conduct would harm appellees, much less intend that
result. We reiterate that Sudan defaulted on the issue of
liability, 864 F.3d at 767, and belatedly challenged the district
court’s conclusions regarding that issue under the demanding
standard of Fed. R. Civ. P. 60(b). Perhaps more importantly,
whether Sudan acted with the requisite mental state is beyond
the scope of the question certified to us. See id. at 812.

6

27a
anguish derives from a terrorist attack that killed or
injured a member of the plaintiff’s immediate family.
Individuals naturally experience severe distress in
response to such horrific events. Consequently, in
such circumstances, courts need not rigidly enforce
the presence requirement to ward off disingenuous
claims.
Lastly, the presence requirement serves the goal
of avoiding “virtually unlimited” liability and
recognizes “the practical necessity of drawing the line
somewhere.” Id. Sudan emphasizes this point,
arguing that invoking the caveat in this case would
untether the tort from judicially manageable
standards and unwisely discard our carefully
considered limits on liability for causing emotional
distress. Indeed, Sudan suggests that any resort to
the caveat is suspect.
We agree that the caveat should be invoked only
rarely, but Sudan’s argument seems to treat it as a
nullity. Relaxing the presence requirement in cases
where § 1605A applies should not open the floodgates
to litigation. Indeed, the FSIA terrorism exception we
recognize here is quite limited in scope. The
provisions of 28 U.S.C. § 1605A are restricted to (1)
plaintiffs who meet precise qualifications, §
1605A(a)(2)(A)(ii); (2) a limited range of conduct (in
this instance “extrajudicial killing”), § 1605A(a)(1);
and (3) defendants that have been classified as state
sponsors of terrorism, § 1605A(a)(2)(A)(i). Our
holding excuses the presence requirement only when
plaintiffs demonstrate that these predicates are met.
And even when they can make such a showing,
plaintiffs may obtain relief only upon satisfying the

28a
remaining elements of § 46(2)(a)—that is, they must
establish that the defendant engaged in “extreme and
outrageous conduct” and “intentionally or recklessly”
caused the plaintiffs’ “severe emotional distress” by
harming a member of their “immediate family.”
These are judicially manageable standards that
should be sufficient to prevent a precipitous slide
down the proverbial slippery slope.
This analysis demonstrates that when § 1605A
applies, the need for the presence requirement does
not. In such circumstances, rigid adherence to the
rule would do little more than shield culpable
defendants from liability and deny relief to deserving
plaintiffs. The caveat exists precisely to avoid such
unfair results, which is why we choose to invoke it.
Furthermore, precluding liability in contexts like
the one at bar is not simply unjust but also unwise,
as doing so would forego an opportunity to advance a
policy goal of national importance. Congress enacted
§ 1605A “to deter [sovereign nations] from engaging,
either directly or indirectly, in terrorist acts.” 864
F.3d at 776. It viewed the goal of deterrence as
sufficiently important—and the means of civil
liability sufficiently effective—that it curtailed
sovereign immunity to promote it. Invoking the
caveat here will increase the IIED liability of foreign
states if they sponsor terrorism, furthering the
objective of deterrence that Congress has
emphasized. While § 1605A does not dictate our
response to the certified question and we are not
obligated to promote the purposes of that statute, it is
sound jurisprudence to consider how our decisions
will affect policies of national significance. Here,

29a
Congress deems civil litigation a useful tool in the
nation’s efforts to deter foreign states from
sponsoring terrorism. Our holding today is consistent
with that legislative judgment. 7
At the same time, we emphasize that our decision
is not based simply on the outrageousness of the
actions at issue. Sudan correctly reminds us that
conduct must always be “extreme and outrageous”
even to make out a prima facie case of IIED. And we
take Sudan’s point that creating gradations among
extreme and outrageous wrongs is a precarious basis
for determining whether and when to enforce the
presence requirement. Rather, we endorse an FSIA
terrorism exception because few IIED claims involve
facts that address the concerns of the presence
requirement while simultaneously touching a matter
of such national significance.
Arguing against excusing the presence
requirement, Sudan relies heavily on the note to
Restatement Third § 46. There, the reporters
reviewed federal district court decisions that have
declined or failed to apply the presence requirement
in terrorism cases and concluded that this trend,
although “worthy of note, . . . falls well short of the
Sudan argues that if Congress wanted appellees and similarly
situated plaintiffs to recover damages, it would have made them
eligible to plead the cause of action created by § 1605A(c).
Instead, it required such plaintiffs to rely on state tort law,
which in some instances bars their recovery. However, the fact
that Congress left it to the states to decide whether plaintiffs
such as appellees may recover in no way suggests that it wanted
to prevent such plaintiffs from obtaining relief. Nor does that
legislative decision curtail our common law authority to shape
our own tort law.
7

30a
development of another exception to the presence
requirement that the Institute would endorse.”
Restatement (Third) of Torts: Liab. for Physical &
Emotional Harm § 46 reporter’s note cmt. m (Am.
Law Inst. 2012). This statement does not draw our
holding into question. The reporters primarily
criticized the district courts for treating family
members of those harmed in terrorist attacks as
“direct” victims under Restatement Second § 46(1),
see id., a rationale we do not rely on here. 8
In sum, this is a situation contemplated by the
Second Restatement “in which presence at the time
[should] not be required.” § 46 cmt. l. We see little
need to enforce the presence requirement in IIED
cases where the jurisdictional elements of § 1605A
are satisfied and the plaintiff’s severe distress arises
from a terrorist attack that killed or injured a
member of his or her immediate family. Excusing the
presence element in such cases may further deter
foreign states from sponsoring terrorism and allow
deserving plaintiffs to hold culpable defendants
accountable for their conduct. At the same time,
making such an exception is not likely to produce the
type of unfair and unbounded liability that the
presence element is intended to prevent. In this
8 Indeed, we share the reporters’ skepticism. Terrorists
undoubtedly intend to distress the public at large—see, for
example, the definitions of terrorism found in 18 U.S.C. §
2331(1) and D.C. Code § 22-3152 (1), quoted above. Perhaps it
could be proven in an individual case (such as hostage taking)
that the terrorists intended to cause distress to family members
in particular, but we are unwilling to conclude as a matter of
law that they do so in all circumstances. In other words, we
think this case is governed by § 46(2)(a) of the Second
Restatement, not by § 46(1).

31a
limited context, therefore, we hold that the presence
requirement does not apply.
IV. Conclusion
For the reasons stated, we answer the certified
question “No.” In accordance with D.C. Code § 11-723
(g) (2012 Repl.), the Clerk is directed to transmit a
copy of this opinion to the United States Court of
Appeals for the District of Columbia Circuit, to each
of the parties, and to amici.

32a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: 07/28/2017]
(Argued: October 11, 2016
Decided: July 28, 2017)
Docket No. 14-5105

JAMES OWENS, et al.,

Appellees,
v.
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS
AND MINISTRY OF THE INTERIOR OF THE REPUBLIC OF
SUDAN,

Appellants.

Consolidated with 14-5106, 14-5107, 14-7124, 147125, 14-7127, 14-7128, 14-7207, 16-7044, 16-7045,
16-7046, 16-7048, 16-7049, 16-7050, 16-7052

APPEALS FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(No. 1:01-cv-02244)
(1:08-CV -01377)

33a
(1:10-CV -00356)
(1:12-CV -01224)
(1:08-CV -01349)
(1:08-CV -01361)
(1:08-CV -01380)
Before:
H ENDERSON and ROGERS, Circuit Judges,
and GINSBURG, Senior Circuit Judge.

CHRISTOPHER M. CURRAN argued the cause for
appellants. With him on the briefs were Nicole Erb,
Claire A. DeLelle , and Celia A. McLaughlin. Bruce
E. Fein entered an appearance.
STUART H. NEWBERGER and MATTHEW D. MCGILL
argued the causes for appellees James Owens, et.
al. With them on the brief were Clifton S. Elgarten,
Aryeh S. Portnoy, Emily Alban, John L. Murino ,
Jonathan C. Bond, Michael R. Huston, Steven R.
Perles, Edward B. MacAllister, John Vail, Thomas
Fortune Fay, Jane Carol Norman, Michael J.
Miller, and David J. Dickens. Annie P. Kaplan,
John D. Aldock, and Stephen A. Saltzburg, entered
appearances.

34a
Table of Contents
I. Background
A. The FSIA Terrorism Exception
B. History of this Litigation

5
6
11

II. Extrajudicial Killings

19

A. Textual Arguments

21

1. State action requirements
under international law

21

2. International law and the TVPA

24

3. State action requirements in the
TVPA and the FSIA terrorism exception 27
B. Statutory Purpose

31

C. Statutory History

33

III. Sufficiency of the Evidence Supporting
Jurisdiction
A. The Evidentiary Hearing

36
39

1. The sources of evidence presented

39

2. The district court’s findings of fact

42

B. Standard of Review

48

C. Admissibility of the Evidence

52

1. The expert testimony

53

2. The State Department reports

63

D. Sufficiency of the Evidence
1. Proximate causation

66
67

35a
2. Sudan’s specific intent

76

IV. Timeliness of Certain Claims

78

V. Jurisdiction and Causes of Action for
Claims of Third Parties

88

A. Jurisdiction

89

B. Causes of Action

94

C. Intentional Infliction of Emotional Distress 98
VI. Punitive Damages
A. Whether to Review the Awards of
Punitive Damages
B. Retroactivity of Punitive Damages
Under § 1605A(c)

103
104
107

1. Section 1605A operates retroactively 108
2. Clear statement of retroactive effect

111

C. Retroactivity of Punitive Damages Under
State Law
114
VII. Vacatur Under Rule 60(b)
A. Excusable Neglect Under Rule 60(b)(1)

115
116

B. Extraordinary Circumstances Under Rule
60(b)(6)
127
GINSBURG, Senior Circuit Judge : On August 7,
1998 truck bombs exploded outside the United States
embassies in Nairobi, Kenya and in Dar es Salaam,
Tanzania. The explosions killed more than 200 people
and injured more than a thousand. Many of the
victims of the attacks were U.S. citizens, government
employees, or contractors.

36a
As would later be discovered, the bombings were
the work of al Qaeda, and only the first of several
successful attacks against U.S. interests culminating
in the September 11, 2001 attack on the United
States itself. From 1991 to 1996, al Qaeda and its
leader, Usama bin Laden, maintained a base of
operations in Sudan. During this time, al Qaeda
developed the terrorist cells in Kenya and Tanzania
that would later launch the embassy attacks. This
appeal considers several default judgments holding
Sudan liable for the personal injuries suffered by
victims of the al Qaeda embassy bombings and their
family members.
I. Background
Starting in 2001 victims of the bombings began
to bring suits against the Republic of Sudan and the
Islamic Republic of Iran, alleging that Sudan, its
Ministry of the Interior, Iran, and its Ministry of
Information and Security materially supported al
Qaeda during the 1990s. Specifically, the plaintiffs
contended Sudan provided a safe harbor to al Qaeda
and that Iran, through its proxy Hezbollah, trained al
Qaeda militants. In bringing these cases, the
plaintiffs relied upon a provision in the Foreign
Sovereign Immunity Act (FSIA) that withdraws
sovereign immunity and grants courts jurisdiction to
hear suits against foreign states designated as
sponsors of terrorism. 28 U.S.C. § 1605(a)(7). This
provision and its successor are known as the
“terrorism exception” to foreign sovereign immunity.
Initially, neither Sudan nor Iran appeared in
court to defend against the suits. In 2004 Sudan
secured counsel and participated in the litigation.

37a
Within a year, its communication with and payment
of its attorneys ceased but counsel continued to
litigate until allowed to withdraw in 2009. In the
years that followed, several new groups of plaintiffs
filed suits against Sudan and Iran. The sovereign
defendants did not appear in any of these cases, and
in 2010 the district court entered defaults in several
of the cases now before us. After an evidentiary
hearing in 2010 and the filing of still more cases, the
court in 2014 entered final judgments in all pending
cases. Sudan then reappeared, filing appeals and
motions to vacate the judgments. The district court
denied Sudan’s motions to vacate, and Sudan again
appealed.
Today we address several challenges brought
by Sudan on direct appeal of the default judgments
and collateral appeal from its motions to vacate. Most
of Sudan’s contentions require interpretation of the
FSIA terrorism exception, to which we now turn.
A.

The FSIA Terrorism Exception

Enacted in 1976, the FSIA provides the sole
means for suing a foreign sovereign in the courts of
the United States. Argentine Republic v. Amerada
Hess Shipping Corp., 488 U.S. 428, 439 (1989). A
foreign state is presumptively immune from the
jurisdiction of the federal and state courts, 28 U.S.C.
§ 1604, subject to several exceptions codified in §§
1605, 1605A, 1605B, and 1607.
When first enacted, the FSIA generally codified
the “restrictive theory” of sovereign immunity, which
had governed sovereign immunity determinations
since 1952. Under the restrictive theory, states are
immune from actions arising from their public acts

38a
but lack immunity for their strictly commercial acts.
Verlinden B.V. v. Cent. Bank of Nigeria, 461 U.S.
480, 487-88 (1983). Thus, the original exceptions in
the FSIA withdrew immunity for a sovereign’s
commercial activities conducted in or causing a direct
effect in the United States, 28 U.S.C. § 1605(a)(2),
and for a few other activities not relevant here. See
28 U.S.C. § 1605(a)(1)-(6).
None of the original exceptions in the FSIA
created a substantive cause of action against a
foreign state. Rather, the FSIA provided “the foreign
state shall be liable in the same manner and to the
same extent as a private individual under like
circumstances” except that it prohibited the award of
punitive damages against a sovereign. 28 U.S.C. §
1606. As a result, a plaintiff suing a foreign sovereign
typically relied upon state substantive law to redress
his grievances. In this way, the FSIA “operate[d] as a
‘pass-through’ to state law principles,” Pescatore v.
Pan Am. World Airways, Inc., 97 F.3d 1, 12 (2d Cir.
1996), granting jurisdiction yet leaving the
underlying substantive law unchanged, First Nat’l

City Bank v. Banco Para El Comercio Exterior de
Cuba, 462 U.S. 611, 620 (1983).

Until 1996 the FSIA provided no relief for victims
of a terrorist attack. Courts consistently rebuffed
plaintiffs’ efforts to fit terrorism-related suits into an
existing exception to sovereign immunity. See, e.g.,
Saudi Arabia v. Nelson, 507 U.S. 349 (1993); Cicippio
v. Islamic Republic of Iran, 30 F.3d 164 (D.C. Cir.
1994); Smith v. Socialist People’s Libyan Arab
Jamahiriya, 886 F. Supp. 306 (E.D.N.Y. 1995). This
changed with the passage of the Antiterrorism and
Effective Death Penalty Act (AEDPA) of 1996, Pub. L.

39a
No. 104-132, 110 Stat. 1214, which added a new
exception to the FSIA withdrawing immunity and
granting jurisdiction over cases in which
money damages are sought against a
foreign state for personal injury or death
that was caused by an act of torture,
extrajudicial killing, aircraft sabotage,
hostage taking, or the provision of
material support or resources . . . for
such an act if such act or provision of
material support is engaged in by an
official, employee, or agent of such
foreign state while acting within the
scope of his or her office, employment, or
agency.

Id. at § 221, 110 Stat. at 1241-43 (codified at 28

U.S.C. § 1605(a)(7) (2006) (repealed)).

This new “terrorism exception” applied only to (1)
a suit in which the claimant or the victim was a U.S.
national, 28 U.S.C. § 1605(a)(7)(B)(ii), and (2) the
defendant state was designated a sponsor of
terrorism under State Department regulations at or
around the time of the act giving rise to the suit, §
1605(a)(7)(A) (referencing 50 U.S.C. App. § 2405(j)
and 22 U.S.C. § 2371). The AEDPA also set a filing
deadline for suits brought under the new exception at
ten years from the date upon which a plaintiff’s claim
arose. 28 U.S.C. § 1605(f).
Initially, there was some confusion about whether
the new exception created a cause of action against
foreign sovereigns. See In re Islamic Republic of Iran
Terrorism Litig., 659 F. Supp. 2d 31, 42-43 (D.D.C.
2009). Within five months of enacting the AEDPA,

40a
the Congress clarified the situation with an
amendment, codified as a note to the FSIA, Pub. L.
No. 104-208, § 589, 110 Stat. 3009, 3009-172 (1996)
(codified at 28 U.S.C. § 1605 note), which provides:
[A]n official, employee, or agent of a
foreign state designated as a state
sponsor of terrorism . . . while acting
within the scope of his or her office,
employment, or agency shall be liable to
a United States national or the
national’s legal representative for
personal injury or death caused by acts
of that official, employee, or agent for
which the courts of the United States
may maintain jurisdiction under section
1605(a)(7) of title 28, United States
Code, for money damages which may
include economic damages, solatium,
pain, and suffering, and punitive
damages if the acts were among those
described in section 1605(a)(7).
This amendment was known as the Flatow
Amendment after Alisa Flatow, a Brandeis
University student mortally wounded in a suicide
bombing in the Gaza Strip. The Flatow Amendment,
which the Congress intended to deter state support
for terrorism, (1) provided a cause of action against
officials, employees, or agents of a designated state
sponsor of terrorism and (2) authorized the award of
punitive damages against such a defendant. These
two changes marked a departure from the other FSIA
exceptions, none of which provided a cause of action
or allowed for punitive damages. See 28 U.S.C. §
1606.

41a
Although it referred in terms only to state
officials, for a time some district courts read the
Flatow Amendment and § 1605(a)(7) to create a
federal cause of action against foreign states
themselves. See, e.g., Kilburn v. Republic of Iran, 277
F. Supp. 2d 24, 36-37 (D.D.C. 2003). But see Roeder
v. Islamic Republic of Iran, 195 F. Supp. 2d 140, 171
(D.D.C. 2002). In Cicippio-Puleo v. Islamic Republic
of Iran, we rejected this approach, holding that
“neither 28 U.S.C. § 1605(a)(7) nor the Flatow
Amendment, nor the two considered in tandem,
creates a private right of action against a foreign
government.” 353 F.3d 1024, 1033 (D.C. Cir. 2004).
We based this conclusion upon the plain text of the
Flatow Amendment – which applied only to state
officials – and upon the function of all the other
exceptions to the FSIA, which withdraw immunity
but leave the substantive law of liability unchanged.
Id. at 1033-34 (noting the “settled distinction in
federal law between statutory provisions that waive
sovereign immunity and those that create a cause of
action”). Because there was no federal cause of action,
we remanded the case “to allow plaintiffs an
opportunity to amend their complaint to state a cause
of action under some other source of law, including
state law.” Id. at 1036. Hence, a plaintiff proceeding
under the terrorism exception would follow the same
pass-through process that governed an action under
the original FSIA exceptions.
The pass-through approach, however, produced
considerable difficulties. In cases with hundreds or
even thousands of claimants, courts faced a
“cumbersome and tedious” process of applying choice
of law rules and interpreting state law for each claim.

42a

See Iran Terrorism Litig., 659 F. Supp. 2d at 48.

Differences in substantive law among the states
caused recoveries to vary among otherwise similarly
situated claimants, denying some any recovery
whatsoever. See Peterson v. Islamic Republic of Iran,
515 F. Supp. 2d 25, 44-45 (D.D.C. 2007) (denying
recovery for intentional infliction of emotional
distress to plaintiffs domiciled in Pennsylvania and
Louisiana while permitting recovery for plaintiffs
from other states).
The Congress addressed these problems in 2008.
Section 1083 of the National Defense Authorization
Act for Fiscal Year 2008 (NDAA) repealed §
1605(a)(7) and replaced it with a new “Terrorism
exception to the jurisdictional immunity of a foreign
state.” Pub. L. No. 110-181, § 1083, 122 Stat. 3, 33844 (2008) (hereinafter NDAA) (codified at 28 U.S.C. §
1605A). The new exception withdrew immunity,
granted jurisdiction, and authorized suits against
state sponsors of terrorism for “personal injury or
death” arising from the same predicate acts – torture,
extrajudicial killing, aircraft sabotage, hostage
taking, and the provision of material support – as had
the old exception. 28 U.S.C. § 1605A(a)(1).
Jurisdiction for suits under the new exception
extended to “claimants or victims” who were U.S.
nationals, and for the first time, to members of the
armed forces and to government employees or
contractors acting within the scope of their
employment. 28 U.S.C. § 1605A(a)(2)(A)(ii). Most
important, the new exception authorized a “[p]rivate
right of action” against a state over which a court
could maintain jurisdiction under § 1605A(a). 28
U.S.C. § 1605A(c). By doing so, the Congress

43a
effectively abrogated Cicippio-Puleo and provided a
uniform source of federal law through which
plaintiffs could seek recovery against a foreign
sovereign. Iran Terrorism Litig., 659 F. Supp. 2d at
59. A claimant who was a U.S. national, military
service member, government employee or contractor
acting within the scope of his employment, and the
claimant’s legal representative could make use of this
cause of action. As with the Flatow Amendment but
unlike § 1605(a)(7), the NDAA authorized awards of
punitive damages under the new federal cause of
action. The exception also provided claimants a host
of other new benefits not relevant here.
Like its predecessor, the new exception contained
a ten-year limitation period on claims brought under
§ 1605A. Notwithstanding the limitation period, the
NDAA provided two means of bridging the gap
between the now-repealed § 1605(a)(7) and the new §
1605A. Claimants with claims “before the courts in
any form” who had been adversely affected by the
lack of a federal cause of action in § 1605(a)(7) could
move to convert or refile their cases under § 1605A(c).
NDAA § 1083(c)(2). Furthermore, “[i]f an action
arising out of an act or incident has been timely
commenced under section 1605(a)(7) or [the Flatow
Amendment],” then a claimant could bring a “related
action” “arising out of the same act or incident”
within 60 days of the entry of judgment in the
original action or of the enactment of the NDAA,
whichever was later. NDAA § 1083(c)(3). Each of
these provisions is examined below in greater detail
as they relate to Sudan’s arguments.

44a
B.

H istory o f this Litigation

This appeal follows 15 years of litigation against
Sudan arising from the 1998 embassy bombings. In
October 2001 plaintiff James Owens filed the first
lawsuit against Sudan and Iran for his personal
injuries. Other plaintiffs joined the Owens action in
the following year. These included individuals (or the
legal representatives of individuals) killed or injured
in the bombings, who sought recovery for their
physical injuries (or deaths), and the family members
of those killed or injured, who sued for their
emotional distress. The Owens complaint alleged that
the embassy bombings were “extrajudicial killings”
under the FSIA and that Sudan provided material
support for the bombings by sheltering and protecting
al Qaeda during the 1990s.
When Sudan failed to appear, the district court
entered an order of default in May 2003. The default
was translated into Arabic and sent to Sudan in
accordance with 28 U.S.C. § 1608(e). In February
2004 Sudan secured counsel and in March 2004
moved to vacate the default and to dismiss the Owens
action. Sudan argued, among other things, it
remained immune under the FSIA because the
plaintiffs had not adequately pleaded facts showing it
had materially supported al Qaeda or that its support
had caused the bombings. Sudan attached to its
motion declarations from a former U.S. Ambassador
to Sudan and a former FBI agent stating that it
neither assisted al Qaeda nor knew of the group’s
terrorist aims during the relevant period.
In March 2005 the district court granted, in part,
Sudan’s motion to dismiss and vacated the order of

45a
default. Owens v. Republic of Sudan, 374 F. Supp. 2d
1, 9-10 (D.D.C. 2005) (Owens I). The court, however,
allowed the plaintiffs to amend their complaint in
order to develop more fully their allegations of
material support. Id. at 15. The court further noted
that although “the Sudan defendants severed ties to
al Qaeda two years before the relevant attacks,” this
timing did not necessarily foreclose the conclusion
that Sudan had “provided material support within
the meaning of the statute and that this support was
a proximate cause of the embassy bombings.” Id. at
17.
The plaintiffs then amended their complaint, and
Sudan again moved to dismiss. Sudan once again
argued the complaint had not sufficiently alleged
material support and that any support it provided
was not a legally sufficient cause of the embassy
bombings. Assuming the truth of the plaintiffs’
allegations, the district court denied Sudan’s motion
in its entirety. Owens v. Republic of Sudan, 412 F.
Supp. 2d 99, 108, 115 (D.D.C. 2006) (Owens II).
While the motions to dismiss were pending,
difficulties arose between Sudan and its counsel.
After filing the first motion to dismiss, Sudan’s initial
counsel withdrew due to a conflict of interest with the
Iranian codefendants. Sudan retained new counsel,
but their relationship soon deteriorated. Starting in
January 2005 new counsel filed several motions to
withdraw, citing Sudan’s unresponsiveness and
failure to pay for legal services. Sudan’s last
communication with counsel was in September 2008.
The district court eventually granted a final motion
to withdraw in January 2009, leaving Sudan without
representation.

46a
Despite these difficulties, counsel for Sudan
continued to defend their client until the court
granted the motion to withdraw in January 2009.
Following the denial of its second motion to dismiss,
Sudan pursued an interlocutory appeal to this court.
Its appeal, in part, challenged the legal sufficiency of
the plaintiffs’ allegations that Sudan’s material
support had caused the embassy bombings. In July
2008 we affirmed the district court’s decision, holding
that “[a]ppellees’ factual allegations and the
reasonable inferences that can be drawn therefrom
show a reasonable enough connection between
Sudan’s interactions with al Qaeda in the early and
mid-1990s and the group’s attack on the embassies in
1998” to maintain jurisdiction under the FSIA.
Owens v. Republic of Sudan, 531 F.3d 884, 895 (D.C.
Cir. 2008) (Owens III). We then remanded the case to
allow the plaintiffs to pursue the merits of their
claims.
Shortly after our decision, several new groups of
plaintiffs filed actions against Sudan and Iran arising
from the embassy bombings. These actions – brought
by the Wamai, Amduso, Mwila, and Osongo plaintiffs
– were filed after the enactment of the new terrorism
exception and before the expiration of its limitation
period. This brought the total number of suits against
Sudan to six, including the original Owens action and
a suit filed by the Khaliq plaintiffs under §
1605(a)(7).
From that point on, neither Sudan nor its counsel
participated in the litigation again until after the
2014 entry of final judgment in Owens. After entering
new orders of defaults against Sudan in several of the
pending actions, the court held a consolidated

47a
evidentiary hearing in order to satisfy a requirement
in the FSIA that “the claimant establish[] his claim or
right to relief by evidence satisfactory to the court.”
28 U.S.C. § 1608(e). Without considering this
evidence, the court could not transform the orders of
default
into
enforceable
default
judgments
establishing liability and damages against Sudan.
For three days, the district court heard expert
testimony and reviewed exhibits detailing the
relationship between both Iran and Sudan and al
Qaeda during the 1990s. Shortly after this hearing
the district court held both defendants liable for
materially supporting the embassy bombings. Owens
v. Republic of Sudan, 826 F. Supp. 2d 128, 157
(D.D.C. 2011) (Owens IV). More specifically, the
district court found Sudan had provided al Qaeda a
safe harbor from which it could establish and direct
its terrorist cells in Kenya and Tanzania. Id. at 13943, 146. The court further found Sudan provided
financial, military, and intelligence assistance to the
terrorist group, which allowed al Qaeda to avoid
disruption by hostile governments while it developed
its capabilities in the 1990s. Id. at 143-46. These
findings established both jurisdiction over and
substantive liability for claims against Sudan and
Iran.
The court also addressed the claims of nonAmerican family members of those killed or injured
in the bombings. Although those plaintiffs could not
make use of the federal cause of action in § 1605A(c),
the court concluded they could pursue claims under
state law, as was the practice under the previous
terrorism exception. Id. at 153. The court’s opinion

48a
was translated into Arabic and served upon Sudan in
September 2012.
The district court then referred the cases to
special masters to hear evidence and recommend the
amounts of damages to be awarded. While this
process was ongoing, two new sets of plaintiffs
entered the litigation. In July 2012 the Opati
plaintiffs filed suit against Sudan, claiming their
suits were timely as a “related action” with respect to
the original Owens litigation. In May 2012 the
Aliganga plaintiffs sought to intervene in the Owens
suit. Notwithstanding the expiration of the ten-year
limitation period starting from the date of the
bombings, the district court allowed both groups of
plaintiffs to proceed against Sudan and to rely upon
the court’s factual findings of jurisdiction and
liability. The court then referred the Aliganga and
Opati claims to the special masters.
In 2014 the district court entered final judgments
in favor of the various plaintiffs. All told, the
damages awarded against Sudan came to more than
$10.2 billion. Family members, who outnumbered
those physically injured by the bombing, received the
bulk of the award – over $7.3 billion. Of the total
$10.2 billion, approximately $4.3 billion was punitive
damages. See, e.g., Opati v. Republic of Sudan, 60 F.
Supp. 3d 68, 82 (D.D.C. 2014).
Within a month of the first judgments, Sudan
retained counsel and reappeared in the district court.
Sudan appealed each case and in April 2015 filed
motions in the district court to vacate the default
judgments under Federal Rule of Civil Procedure

49a
60(b). We stayed the appeals pending the district
court’s ruling on the motions.
In those motions, Sudan raised a number of
arguments for vacatur, most of them challenging the
district court’s subject matter jurisdiction. As before,
Sudan also attacked the plaintiffs’ evidence. It argued
the judgments were void because they rested solely
upon inadmissible evidence to prove jurisdictional
facts, which Sudan argued was impermissible under §
1608(e). It also argued the evidence did not show it
proximately caused the bombings because al Qaeda
did not become a serious terrorist threat until after
Sudan had expelled bin Laden in 1996.
Sudan raised a host of new arguments as well. In
its most sweeping challenge, Sudan argued it did not
provide material support for any predicate act that
would deprive it of immunity under the FSIA. In
making this argument, Sudan contended the embassy
bombings, carried out by al Qaeda, were not
“extrajudicial killings” because that term requires the
involvement of a state actor in the act of killing.
Sudan also contended the claims brought by the
Opati, Aliganga, and Khaliq plaintiffs were barred by
the statute of limitation in § 1605A(b) which, it
argued, deprived the court of jurisdiction to hear
their suits. 1
Sudan’s last jurisdictional challenge took aim at
the family members of those physically injured or
killed by the bombings. Sudan argued that the court
could hear claims only from a person who was
physically harmed or killed by the bombings or the
1 As we discuss infra, the Khaliq plaintiffs later asserted
claims under § 1605A.

50a
legal representative of that person. And even if
jurisdiction was proper, Sudan contended, foreign
(i.e., non-U.S.) family members could not state a
claim under either the federal cause of action or state
law.
Finally, Sudan raised two nonjurisdictional
arguments: First, it urged the district court to vacate
its awards of punitive damages to the plaintiffs
proceeding under state law, contending § 1605A(c) is
the sole means for obtaining punitive damages
against a foreign state. Second, Sudan argued the
court should vacate the default judgments under
Federal Rule of Civil Procedure 60(b) for
“extraordinary circumstances” or “excusable neglect”
on Sudan’s part. In support of the latter argument,
Sudan submitted a declaration from the Sudanese
Ambassador to the United States detailing the
country’s troubled history of civil unrest, natural
disaster, and disease, which allegedly impeded
Sudan’s participation in the litigation.
After a consolidated hearing, the district court
denied the motions to vacate in all respects. Owens v.
Republic of Sudan, 174 F. Supp. 3d 242 (D.D.C. 2016)
(Owens V). Sudan appealed and its appeal was
consolidated with its earlier appeals from the final
judgments. Sudan’s briefs before this court are
directed primarily to the district court’s jurisdiction,
and present novel questions of law, which we review
de novo. See Jerez v. Republic of Cuba, 775 F.3d 419,
422 (D.C. Cir. 2014). Ordinarily, all of Sudan’s
nonjurisdictional arguments would be forfeited by
reason of its having defaulted in the district court.
See Practical Concepts, Inc. v. Republic of Bolivia,
811 F.2d 1543, 1547 (D.C. Cir. 1987). In this case,

51a
however, due to the size of the judgments against
Sudan, their possible effects upon international
relations, and the likelihood that the same arguments
will arise in future litigation, we exercise our
discretion to consider some, but not all, of Sudan’s
nonjurisdictional objections. See Acree v. Republic of
Iraq, 370 F.3d 41, 58 (D.C. Cir. 2004) (“while we will
ordinarily refrain from reaching non-jurisdictional
questions that have not been raised by the parties . . .
we may do so on our own motion in ‘exceptional
circumstances’”).
At the end of the day, we affirm the judgments in
most respects, holding the FSIA grants jurisdiction
over all the claims and claimants present here. We
hold also that those plaintiffs ineligible to proceed
under the federal cause of action may continue to
press their claims under state law. We also vacate all
the awards of punitive damages and certify a
question of local tort law to the District of Columbia
Court of Appeals.
We turn first to Sudan’s challenges to the district
court’s subject matter jurisdiction, starting with
those that would dispose of the entire case. In Part II
we address Sudan’s challenge to the meaning of
“extrajudicial killings” under the FSIA. In Part III we
review the sufficiency of the evidence supporting the
conclusions that Sudan provided material support to
al Qaeda and that this support was a jurisdictionally
sufficient cause of the embassy bombings.
We then proceed to Sudan’s jurisdictional
challenges that would eliminate the claims of
particular plaintiffs. In Part IV we consider whether
some of the plaintiffs’ claims are barred by the

52a
statute of limitation in the FSIA terrorism exception,
which Sudan contends is jurisdictional. In Part V we
address both jurisdictional and nonjurisdictional
arguments opposing the claims of the family
members of victims physically injured or killed by the
embassy bombings. Finally, we address Sudan’s
purely nonjurisdictional arguments in Part VI –
whether the new terrorism exception authorizes
punitive damages for a sovereign’s pre-enactment
conduct – and Part VII – addressing Sudan’s
arguments for vacatur under Rule 60(b)(1) and
60(b)(6).
II. Extrajudicial Killings
Sudan first argues the 1998 embassy bombings
were not “extrajudicial killings” within the meaning
of the FSIA terrorism exception. As noted above, §
1605A divests a foreign state of immunity and grants
courts jurisdiction over cases
in which money damages are sought
against a foreign state for personal
injury or death that was caused by . . .
extrajudicial killing . . . or the provision
of material support or resources for such
an act if such act or provision of material
support or resources is engaged in by an
official, employee, or agent of such
foreign state while acting within the
scope of his or her office, employment, or
agency.
Because this argument poses a challenge to the
court’s subject matter jurisdiction, it was not forfeited
by Sudan’s failure to appear in the district court. See
Practical Concepts, 811 F.2d at 1547. This is Sudan’s

53a
most sweeping challenge, and, if correct, then the
claims of all the plaintiffs must fail. The district court
rejected Sudan’s jurisdictional argument based upon
the plain meaning of “extrajudicial killing.” Owens V ,
174 F. Supp. 3d at 259-66. Reviewing de novo this
question of law relating to our jurisdiction, we agree
that “extrajudicial killings” include the terrorist
bombings that gave rise to these cases.
Section 1605A(h)(7) of the FSIA provides that the
term “extrajudicial killing” has the meaning given to
it in § 3(a) of the Torture Victim Protection Act of
1991, which defines an extrajudicial killing as:
a deliberated killing not authorized by a
previous judgment pronounced by a
regularly constituted court affording all
the judicial guarantees which are
recognized as indispensable by civilized
peoples. Such term, however, does not
include any such killing that, under
international law, is lawfully carried out
under the authority of a foreign nation.
Pub. L. No. 102-256, § 3(a), 106 Stat. 73, 73 (1991)
(codified at 28 U.S.C. § 1350 note) (hereinafter
TVPA).
On its face, this definition contains three
elements: (1) a killing; (2) that is deliberated; and (3)
is not authorized by a previous judgment pronounced
by a regularly constituted court. The 1998 embassy
bombings meet all three requirements and do not fall
within the exception for killings carried out under the
authority of a foreign nation acting in accord with
international law. First, the bombings caused the
death of more than 200 people in Kenya and

54a
Tanzania. The bombings were “deliberated” in that
they involved substantial preparation, meticulous
timing, and coordination across multiple countries in
the region. See Mamani v. Berzain, 654 F.3d 1148,
1155 (11th Cir. 2011) (defining “deliberated” under
the TVPA as “being undertaken with studied
consideration and purpose”). Finally, the bombings
themselves were neither authorized by any court nor
by the law of nations. Therefore, on its face, the FSIA
would appear to cover the bombings as extrajudicial
killings.
Sudan offers a host of reasons we should ignore
the plain meaning of “extrajudicial killing” in the
TVPA and exclude terrorist bombings like the 1998
embassy attacks from jurisdiction under the FSIA
terrorism exception. Sudan’s arguments draw upon
the text and structure, the purpose, and the
legislative history of the TVPA and of the FSIA
terrorism exception. Each of Sudan’s arguments
shares the same basic premise: Only a state actor, not
a nonstate terrorist, may commit an “extrajudicial
killing.”
A. Textual Arguments
We begin, as we must, with the text of the statute.
First, Sudan contends the text of the TVPA, and, by
extension of the FSIA, defines an “extrajudicial
killing” in terms of international law, specifically the
Geneva
Conventions.
According
to
Sudan,
international law generally and the Geneva
Conventions specifically prohibit only killings carried
out by a state actor. The plaintiffs vigorously contest
both propositions.

55a
1. State action requirements under international law
Sudan bases its argument that principles of
international
law
supply
the
meaning of
“extrajudicial killing” in the FSIA upon similarities
between the TVPA and the prohibition on “summary
executions” in Common Article 3 of the Geneva
Conventions of 1949, which condemns “the passing of
sentences and the carrying out of executions without
previous judgment pronounced by a regularly
constituted court, affording all the judicial
guarantees which are recognized as indispensable by
civilized peoples.” Geneva Convention for the
Amelioration of the Condition of the Wounded and
Sick in Armed Forces in the Field, art. 3(1)(d), Aug.
12, 1949, 6 U.S.T. 3114, 75 U.S.T.S. 85. The
similarities between the two definitions, Sudan
contends, shows the Congress intended to define an
“extrajudicial killing” in the TVPA with reference to
principles of international law adopted in the Geneva
Conventions.
To Sudan, this is of critical importance because
the Geneva Conventions and international law, it
argues, proscribe killings only when committed by a
state agent, not when perpetrated by a nonstate
actor. Three pieces of evidence are said to
demonstrate this limitation. First, Sudan notes, the
United Nations adopted a resolution in 1980
condemning as inconsistent with international law
“[e]xtra-legal executions” carried out by “armed
forces, law enforcement or other governmental
agencies.” Congress on the Prevention of Crime and
the Treatment of Offenders Res., A/Conf.87/L.11 (Sep.

56a
5, 1980). Second, Sudan cites a United Nations
annual report, S. Amos Wako (Special Rapporteur on
Extrajudicial, Summary or Arbitrary Executions),
Summary or Arbitrary Executions, ¶¶ 74-85, U.N.
Doc. E/CN.4/1983/16 (Jan. 31, 1983), which describes
“extralegal executions” and “summary executions” in
terms suggesting state involvement. And third,
Sudan references an online database of the United
Nations, which links the term “extrajudicial killing”
to the definition of “extra-legal execution.” U.N.
Terminology
Database,
http://unterm
portal.un.org/UNTERM/display/Record/UNHQ/extralegal_execution/c253667 (last visited July 19, 2017).
Each of these references to international law is
both inapposite and rebutted by the plaintiffs. If
Sudan means to say the TVPA incorporates the
prohibition against a “summary execution” in the
Geneva Conventions, then it must show what was
meant by that term in the Geneva Conventions
themselves. In doing so, however, Sudan principally
relies upon U.N. documents published more than a
quarter century after the ratification of the Geneva
Conventions in 1949, rather than the deliberations
over the proposed Conventions, which Sudan does not
cite at all. Odder still, none of these documents (or
the terminology database) actually says the Geneva
Conventions proscribe only “summary executions”
committed by a state actor. See Summary or
Arbitrary Executions, supra p. 22, ¶¶ 35-36 (noting
Article 3 of the Geneva Conventions prohibits
“murder” in general and “also specifically prohibits
the passing of sentences and the carrying out of
executions without previous judgement pronounced
by a regularly constituted court”). Indeed, the

57a
plaintiffs present reasons to doubt whether the
Geneva Conventions in specific, or international law
in general, prohibit only killings by a state actor. As
the plaintiffs note, Article 3 of the First Convention
prohibits “violence to life and person, in particular
murder of all kinds.” Geneva Convention, art. 3(1)(a),
Aug. 12, 1949, 6 U.S.T. 3114, 75 U.S.T.S. 85.
Likewise, the U.N. Terminology Database lists
“[k]illings committed by vigilante groups” as an
example of an “extrajudicial killing.” And finally, a
“Handbook” published by the U.N. Special
Rapporteur on Summary or Arbitrary Executions
contains a full chapter on “killings by non-state
actors and affirmative state obligations,” which states
that “Human rights and humanitarian law clearly
apply to killings by non-State actors in certain
circumstances.” Project on Extrajudicial Executions,

UN Special Rapporteur on Extrajudicial Executions
Handbook,
¶
45,
http://www.extrajudicial

executions.org/application/media/Handbook%20Chap
ter%203Responsibility%20of%20states%20for%20non
-state%20killings.pdf (last visited July 19, 2017).
This does not mean Sudan’s interpretation of
international law as it pertains to summary
executions (as opposed to extrajudicial killings) is
wrong or that direct state involvement is not needed
for certain violations of international law. Rather, the
point is that the role of the state in an extrajudicial
killing appears less clear under international law
than Sudan would have us believe; indeed it appears
less clear than the definition of an “extrajudicial
killing” in the TVPA itself. Accordingly, we doubt the
Congress intended categorically to preclude state
liability for killings by nonstate actors by adopting a

58a
definition of “extrajudicial killing” similar to that of a
“summary execution” in the Geneva Conventions.
2. International law and the TVPA
More important, even if Sudan’s interpretation of
the Geneva Conventions and international law is
correct, its argument would fail because the TVPA
does not appear to define an “extrajudicial killing”
coextensive with the meaning of a “summary
execution” (or any similar prohibition) under
international law. For example, the TVPA does not
adopt the phrasing of the Geneva Conventions
wholesale. Rather, as the plaintiffs point out, the
TVPA substitutes the term “deliberated killing” for
“the passing of sentences and the carrying out of
executions” in the Geneva Conventions. While “the
passing of sentences and the carrying out of
executions” strongly suggests at least some level of
state involvement, a nonstate party may commit a
“deliberated killing” as readily as a state actor.
Indeed, several other statutes contemplate
“deliberate” attacks by nonstate entities, including
terrorist groups. See, e.g., 6 U.S.C. § 1169(a)
(requiring the Secretary of Transportation to assess
vulnerability of hazardous materials in transit to a
“deliberate terrorist attack”); 42 U.S.C. § 16276
(mandating research on technologies for increasing
“the security of nuclear facilities from deliberate
attacks”). Due to the substitution of “deliberated”
killings for “the passing of sentences and the carrying
out of executions,” the inference of direct state
involvement is much less strong in the TVPA than in
the Geneva Conventions. The difference between the
definition in the TVPA and the prohibition in the
Geneva Conventions also signals the Congress

59a
intended the TVPA to reach a broader range of
conduct than just “summary executions.” For the
court to rely upon the narrower prohibition in the
Geneva Conventions would contravene the plain text
of the TVPA, which is, after all, the sole
“authoritative statement” of the law. See Exxon Mobil
Corp. v. Allapattah Servs., Inc., 545 U.S. 546, 568
(2005).
Resisting this conclusion, Sudan points to two
phrases that, it contends, impose a state actor
requirement upon the definition of an extrajudicial
killing in the TVPA. First, Sudan notes that an
extrajudicial killing must not be one “authorized by a
previous judgment pronounced by a regularly
constituted court.” As Sudan would have it, the “only
killings that can be reasonably be imagined to be
authorized by a ‘previous judgment’ are those by
state actors.” Regardless whether Sudan is right on
this point, the argument does not imply what Sudan
intends. If only a state actor may lawfully kill based
upon a “previous judgment,” then all killings
committed by a nonstate actor are, by definition, not
“authorized by a previous judgment.” Therefore, only
a killing committed by a state actor might not be an
“extrajudicial killing,” that is, if it was “authorized by
a previous judgment pronounced by a regularly
constituted court.” Accepting Sudan’s premise, no
other outcome can “reasonably be imagined.”
Similarly, Sudan argues the second sentence in
the definition of an “extrajudicial killing” in the
TVPA anchors the meaning of the first sentence in
international law which, in Sudan’s view, prohibits
only summary executions by state actors. Even
accepting Sudan’s view of international law, we are

60a
not persuaded. In the first sentence of § 3(a), the
Congress defined the proscribed conduct (i.e., a
“deliberated killing”) in terms that extended beyond
the prohibition on a “summary execution” under
international law. The second sentence excludes from
the definition of “extrajudicial killing” “any . . . killing
that, under international law, is lawfully carried out
under the authority of a foreign nation.” This ensured
that the more expansive prohibition of the first
sentence would not reach the traditional prerogatives
of a sovereign nation. Were “extrajudicial killings” no
broader than “summary executions,” the limitation in
international
law
of
what constitutes an
“extrajudicial killing” would be unnecessary because,
by Sudan’s own argument, a “summary execution”
always violates international law. Therefore, Sudan’s
interpretation would make superfluous the reference
to killings “lawfully carried out” “under international
law,” contrary to the “cardinal principle of statutory
construction that we must give effect, if possible, to
every clause and word of a statute.” See Williams v.
Taylor, 529 U.S. 362, 404 (2000) (internal quotation
marks and citation omitted).
Moreover, the reference to international law in the
second sentence of § 3(a) of the TVPA highlights its
omission in the first sentence. Had the Congress
intended the definition of an “extrajudicial killing” to
track precisely with that of a “summary execution”
under international law, § 3(a) could have expressly
referenced international law in both the prohibition
and its limitation. That approach is found elsewhere
in the FSIA, see 28 U.S.C. § 1605(a)(3) (authorizing
jurisdiction where “rights in property [are] taken in
violation of international law”), as well as in other

61a
statutes, see 18 U.S.C. § 1651 (proscribing “the crime
of piracy as defined by the law of nations”). Indeed,
the Congress specifically defined other predicate acts
in § 1605A by reference to international treaties, see
28 U.S.C. § 1605A(h)(1),(2) (defining “aircraft
sabotage” and “hostage taking” with reference to
international treaties), but referenced only a U.S.
statute, the TVPA, in its definition of “extrajudicial
killing.”
That
the
Congress
incorporated
international law expressly into other jurisdictional
provisions undermines the inference that it intended
implicitly to do so here. See Dep’t of Homeland Sec. v.
MacLean, 135 S. Ct. 913, 919 (2015) (“Congress
generally acts intentionally when it uses particular
language in one section of a statute but omits it in
another”).
3. State action requirements i n t he T VPA a n d t he
FSIA terrorism exception
The plaintiffs provide another persuasive reason
Sudan’s textual arguments are flawed. The TVPA
authorizes an action only for harms arising from the
conduct of a state actor. See TVPA § 2(a) (providing a
cause of action against an “individual who, under
actual or apparent authority, or color of law, of any
foreign nation” engages in torture or extrajudicial
killing). Sudan argues the state actor requirement for
a suit under the TVPA is “necessarily incorporated”
in § 3(a) and therefore applies to those actions arising
from “extrajudicial killings” under the FSIA. The
limitation of actions to state actors, however, is found
not in § 3(a) but in § 2(a) of the TVPA. As the
plaintiffs note, when passing the current and prior
FSIA terrorism exceptions, the Congress each time
incorporated the section of the TVPA that defined an

62a
“extrajudicial killing” but not the section that limited
the cause of action under the TVPA to state actors. If
the Congress had wanted to limit extrajudicial
killings to state actors, then it could have
incorporated both sections of the TVPA into the FSIA
terrorism exception. That it did not compels us to
conclude the state actor limitation in the TVPA does
not transfer to the definition of an “extrajudicial
killing” in the FSIA. Cf. Sebelius v. Cloer, 133 S. Ct.
1886, 1894 (2013) (declining to apply limitations from
one section of a statue when the text of another
section does not cross-reference the first section).
Indeed, the reason the Congress declined to
incorporate the state-actor limitation in the TVPA is
plain on the face of the FSIA terrorism exception. As
the plaintiffs observe, the TVPA and the FSIA share
a similar structure. Each statute defines the
predicate acts that give rise to liability in one section
– TVPA § 3 and FSIA § 1605A(h) – and then limits
who may be subjected to liability in another – TVPA §
2 and FSIA §§ 1605A(a)(1) and (c). Both statutes also
require a plaintiff to show a certain type of nexus to a
foreign sovereign. In the TVPA, a state official must
act “under actual or apparent authority, or color of
law” of a foreign sovereign. In the FSIA, liability
arises when the state official, employee, or agent
acting within the scope of his authority either directly
commits a predicate act or provides “material support
or resources” for another to commit that act. If the
more stringent state-actor limitation in the TVPA
traveled with the definition of an “extrajudicial
killing” in that statute, then it would all but
eliminate the “material support” provision of
§ 1605A(a), at least with respect to extrajudicial

63a
killings. For example, § 1605A(a) would extend
jurisdiction over a sovereign that did not directly
commit an extrajudicial killing only if an official of
the defendant state materially supported a killing
committed by a state actor from a different state. We
seriously doubt the Congress intended the exception
to immunity for materially supporting an
extrajudicial killing to be so narrow.
Sudan attempts to avoid the conclusion that the
FSIA does not adopt the state-actor limitation in the
TVPA in two ways. First, Sudan contends the
introductory clause of § 3(a) implicitly incorporates
the state actor limitation of § 2(a). This clause states
that an “extrajudicial killing” is defined “[f]or the
purposes of this Act.” That supposedly indicates the
Congress intended to import the state actor
limitation of § 2(a) into the definition of an
extrajudicial killing in § 3(a). But Sudan’s reading of
this phrase leads to an illogical conclusion. A
statutory definition made expressly “[f]or the
purposes of this Act” informs our understanding of
the entire statute. In other words, the definitions in
TVPA § 3 govern the use of those defined terms
elsewhere in the Act. Under Sudan’s interpretation,
however, the reverse would occur: in order to
understand the meaning of a defined term, we would
have to look to the remainder of the statute, and not
to the definition itself. What then, we wonder, would
the definition contribute to the statute? Would it be
wholly redundant, a conclusion that conflicts with our
usual interpretive presumptions? See Nat’l Ass’n of
Home Builders v. Defs. of Wildlife , 551 U.S. 644, 669
(2007). Or, if not redundant, how would a court then
apply the definition to terms used in the remainder of

64a
the statute if the remainder of the statute, in turn,
gave meaning to the definition? Given these
paradoxes, the phrase “[f]or the purposes of this Act”
cannot mean what Sudan contends. Instead, that
phrase simply means that the definition of an
“extrajudicial killing” in TVPA § 3(a) informs the
remainder of the TVPA (and, by extension, the FSIA),
and not the reverse.
Second, Sudan contends the definition of an
“extrajudicial killing” in the TVPA implicitly
incorporates international law (and the supposed
state-actor limitation therein) even without reference
to the state-actor limitation in § 2(a). Here Sudan
relies principally upon a dictum in a Second Circuit
opinion discussing the TVPA in a case arising under
the Alien Tort Claims Act (ATCA), which expressly
incorporates international law: “torture and
summary execution – when not perpetrated in the
course of genocide or war crimes – are proscribed by
international law only when committed by state
officials or under color of law.” Kadić v. Karadžić, 70
F.3d 232, 243 (1995). The court further noted that
“official torture is prohibited by universally accepted
norms of international law, and the Torture Victim
Act confirms this holding and extends it to cover
summary execution.” Id. at 244 (citation omitted).
This, Sudan contends, shows the TVPA definition of
an “extrajudicial killing” (and not just the TVPA in
general) draws upon international law. The court’s
discussion in that case, however, relied not only upon
the definition of an “extrajudicial killing” in TVPA §
3(a) but also upon the limitation of the cause of action
to state actors in TVPA § 2(a). Id. at 243. Indeed, the
court later separately summarized the two provisions

65a
of the TVPA, distinguishing § 2(a), which “provides a
cause of action” against an individual acting under
state authority, from § 3, which “defines the terms
‘extrajudicial killing’ and ‘torture.’” Id. at 245.
Sudan’s argument that the definitions in the
TVPA incorporate international law is flawed as a
matter of statutory interpretation. If the definition of
an “extrajudicial killing” (and “torture”) in TVPA §
3(a) already had a state actor limitation from
international law, then the additional state actor
limitation in § 2(a) would be surplusage. See
Gustafson v. Alloyd Co., 513 U.S. 561, 574 (1995)
(instructing courts in interpreting a statute to “avoid
a reading which renders some words altogether
redundant”). That the Congress included § 2(a) in the
TVPA therefore implies either that the definition of
extrajudicial killing in § 3(a) of the FSIA does not
incorporate international law or that international
law contains no state actor limitation. Either way,
Sudan is out of luck.
In sum, Sudan’s textual arguments that an
extrajudicial killing requires a state actor all fail.
Even if international law contained such a limitation
– a proposition we doubt but do not decide – the
TVPA does not incorporate international law (or any
limitations therein) into its definition of an
“extrajudicial killing.” Because the FSIA terrorism
exception references only the definitions in TVPA § 3,
and not the limitation to state actors in TVPA § 2(a),
nothing in the text of the FSIA makes a state actor a
prerequisite to an extrajudicial killing.

66a
B. Statutory Purpose
Without a viable textual basis for its position,
Sudan argues the purpose of the TVPA and the FSIA
extend only to an “extrajudicial killing” committed by
a state actor. Even if we could ignore the statutory
text in pursuit of its supposed purpose, Sudan’s
arguments from the purpose of the statutes would
still not be convincing.
With respect to the purpose of the TVPA, Sudan
pursues a line of reasoning parallel to that of its
textual arguments: Because the TVPA was intended
to “carry out obligations of the United States under
the United Nations Charter and other international
agreements . . . by establishing a civil action for
recovery of damages from an individual who engages
in torture or extrajudicial killing,” Pub. L. No. 102256, 106 Stat. at 73 (preamble), Sudan contends the
supposed state-actor requirement for a killing to
violate international law also limits the definition of
an “extrajudicial killing” in the TVPA and hence the
jurisdictional requirements of the FSIA. Even if
international law both motivated enactment of the
TVPA and limits extrajudicial killing to a killing by
state actor, Sudan’s argument about the purpose of
the TVPA still would fail. The TVPA may well be
intended to carry out certain international
obligations, but this purpose is reflected in the TVPA
as a whole, not in each individual provision viewed in
isolation. One would struggle to find a distinct
purpose in the definition section of the TVPA, which
neither creates rights nor imposes duties, divorced
from the broader statute. When one statute, such as
the FSIA, incorporates a definition from another
statute, here the TVPA, it imports only the specified

67a
definition and not the broader purpose of the statute
from which it comes.
In any event, the different purposes of the TVPA
and the FSIA are plain on the face of those statutes.
The TVPA targets individual state officials for their
personal misconduct in office, while the terrorism
exception to the FSIA targets sovereign nations in an
effort to deter them from engaging, either directly or
indirectly, in terrorist acts.
Sudan’s own arguments tacitly admit the FSIA
serves a different purpose than the TVPA, but it
again frames this purpose in terms of international
law. To Sudan, the FSIA serves to withdraw
sovereign immunity only for “certain universally
defined and condemned acts” that are “firmly
grounded in international law.” Once again Sudan
contends, this excludes killings committed by
nonstate terrorists because international law
proscribes killings only when committed by a state
actor. Furthermore, § 1605A, Sudan contends, should
be read to exclude acts of terrorism because terrorism
lacks “universal condemnation, or even [an] accepted
definition . . . under international law.” Other
predicate acts included in § 1605A, particularly
aircraft sabotage and hostage taking, are inconsistent
with this reading of the FSIA. As the plaintiffs and
the district court recognized, “[f]or the past fifteen
years it has been hard to think of a more
quintessential act of terrorism than the purposeful
destruction of a passenger aircraft in flight – yet such
an act is manifestly covered by § 1605A.” Owens V,
174 F. Supp. 3d at 264. Indeed, both aircraft sabotage
and hostage taking are more often committed by a
nonstate terrorist than by a state actor, and both

68a
often result in extrajudicial killings. Moreover, the
definitions of these acts in the FSIA clearly do not
require state action. 28 U.S.C. §§ 1605A(h)(1)
(referencing the Convention for the Suppression of
Unlawful Acts Against the Safety of Civil Aviation,
art. 1, Sept. 23, 1971, 24 U.S.T. 564, 974 U.N.T.S. 177
(proscribing aircraft sabotage committed by “[a]ny
person”)); 1605A(h)(2) (referencing the International
Convention Against the Taking of Hostages, art. 1,
Dec. 17, 1979, 1316 U.N.T.S. 205 (proscribing hostage
taking by “[a]ny person”)). It would be more than odd
if a provision designed to sanction acts “firmly
grounded in international law” – but not
international terrorism – included only acts
synonymous with international terrorism while
excluding other violations of international law, such
as genocide, not closely associated with terrorist
groups. Against this backdrop, it also strains belief
that the Congress would assert jurisdiction over
claims against a state that materially supports
nonstate terrorists who kill via aircraft sabotage or
hostage taking, yet deny jurisdiction for similarly
supported killings caused by a truck bombing or a
kidnapping. It is far more likely the Congress
intended to penalize a state’s provision of material
support for terrorist killings in general, rather than
to codify broad principles of international law or to
regulate the specific way state-supported terrorists go
about their horrific deeds. Were the law otherwise,
designated state sponsors of terrorism could
effectively contract out certain terrorist acts and
avoid liability under the FSIA.
As the district court correctly recognized, § 1605A
strives to hold designated state sponsors of terrorism

69a
accountable for their sponsorship of terror, regardless
whether they commit atrocities themselves or aid
others in doing so. Owens V, 174 F. Supp. 3d at 262.
Therefore, the purpose of the statute clearly
embraces liability for the embassy bombings here in
question.
C. Statutory History
Sudan next resorts to the legislative history of the
FSIA and the TVPA to explain why an “extrajudicial
killing” requires state involvement. The short answer
to its long and winding argument through the
characteristically inconclusive background materials
is that when the meaning of a statute is clear enough
on its face, “reliance on legislative history is
unnecessary.” See Mohamad v. Palestinian Auth.,
132 S. Ct. 1702, 1709 (2012) (citation omitted).
Subsequent legislation, on the other hand,
because it is enacted and not just compiled, may
inform our understanding of a prior enactment with
which it should be read in harmony. In this instance,
the Congress made clear that an extrajudicial killing
includes a terrorist bombing when, in 1996, it enacted
the Flatow Amendment to the FSIA to provide a
federal cause of action against state officials who had
committed or materially supported one of the
predicate acts listed in § 1605(a)(7), including an
extrajudicial killing. See Pub. L. No. 104-208, § 589,
110 Stat. at 3009-172. The Flatow Amendment
responded to a suicide bombing in Israel, carried out
by a nonstate terrorist group supported by Iran; it
aimed to deter terrorism by making officials of states
that sponsor terrorism liable for punitive damages.
We do not believe the Congress would provide a cause

70a
of action aimed at killings over which it had not
authorized jurisdiction.
Subsequent events in the Flatow saga reinforce
this conclusion. Immediately following passage,
relatives of the victim sued Iran under the
Amendment, and the district court asserted
jurisdiction based upon this “extrajudicial killing.”
Flatow, 999 F. Supp. at 18. The plaintiffs won a
default judgment but could not collect due to Iran’s
lack of attachable assets. In 2000 the Congress again
responded, passing a compensation scheme to pay
individuals who “held a final judgment for a claim or
claims brought under section 1605(a)(7) of title 28,”
including the Flatows. See Victims of Trafficking and
Violence Protection Act of 2000, Pub. L. No. 106-386,
§ 2002(a)(2)(A), 114 Stat. 1464, 1541-43 (authorizing
payment to claimants with judgments against Iran,
which included the Flatows); H.R. REP. NO. 106-939,
at 116 (2000). This legislation too would make little
sense if the judgments themselves were void because
no extrajudicial killing had occurred.
Finally, after courts had applied the FSIA
terrorism exception to terrorist bombings for over a
decade, 2 the Congress reenacted the same predicate
2 See, e.g. , Salazar v. Islamic Republic of Iran, 370 F. Supp. 2d
105, 113 (D.D.C. 2005) (applying the terrorism exception to the
U.S. embassy bombing in Beirut); Peterson v. Islamic Republic
of Iran, 264 F. Supp. 2d 46, 61 (D.D.C. 2003) (U.S. Marine
barracks in Beirut), approved of by 627 F.3d 1117, 1122-23 (9th
Cir. 2010); Wagner v. Islamic Republic of Iran, 172 F. Supp. 2d
128, 133 (D.D.C. 2001) (U.S. embassy annex in East Beirut);
Ben-Rafael v. Islamic Republic of Iran, 540 F. Supp. 2d 39, 53
(D.D.C. 2008) (Israeli embassy in Buenos Aires); Blais v. Islamic
Republic of Iran, 459 F. Supp. 2d 40, 53 (D.D.C. 2006) (Khobar
Towers military residence in Saudi Arabia); Rux v. Republic of

71a
acts in § 1605(a)(7) when authorizing the new FSIA
exception under § 1605A. The Congress thereby
ratified the Flatow court’s understanding – and those
of every other court since then – that a nonstate actor
may commit an extrajudicial killing. See Lorillard v.
Pons, 434 U.S. 575, 580 (1978) (“Congress is
presumed to be aware of an administrative or judicial
interpretation of a statute and to adopt that
interpretation when it re-enacts a statute without
change”). Now, after more than two decades of
consistent judicial application of the FSIA, narrowing
the term “extrajudicial killing” to include only
killings committed by a state actor would contravene
the Congress’s revealed intent in repeatedly
authorizing judicial remedies for victims of terrorist
bombings.
To summarize, the plain meaning of § 1605A(a)
grants the courts jurisdiction over claims against
designated state sponsors of terrorism that
materially support extrajudicial killings committed
by nonstate actors. Contrary to Sudan’s contention,
the purpose and statutory history of the FSIA
terrorism exception confirm this conclusion.
Therefore, this court may assert jurisdiction over
claims arising from al Qaeda’s bombing of the U.S.
embassies in 1998 if the plaintiffs have adequately
demonstrated Sudan’s material support for those
bombings.
Sudan, No. 2:04-cv-428, 2005 WL 2086202, at *13 (E.D. Va. Aug.
26, 2005) (USS Cole), aff’d in relevant part, 461 F.3d 461 (4th
Cir. 2006); see also Owens II, 412 F. Supp. 2d at 106 n.11 (“[T]he
Sudan defendants do not dispute that the embassy bombings
constitute an act of extrajudicial killing”), aff'd, 531 F.3d 884.

72a
III. Sufficiency o f the Evide nce Suppo rting
Jurisdiction
Sudan’s weightiest challenge to jurisdiction
relates to the admissibility and sufficiency of the
evidence that supported the district court’s finding of
jurisdiction. As discussed above, § 1605A(a)(1) of the
FSIA grants jurisdiction and withdraws immunity for
claims “caused by an act of . . . extrajudicial killing . .
. or the provision of material support or resources for
such an act.”
In order to establish the court’s jurisdiction, the
plaintiffs in this case must show (1) Sudan provided
material support to al Qaeda and (2) its material
support was a legally sufficient cause of the embassy
bombings. See Kilburn v. Socialist People’s Libyan
Arab Jamahiriya, 376 F.3d 1123, 1127 (D.C. Cir.
2004) (treating causation as a jurisdictional
requirement). Sudan challenges the district court’s
factual findings on both accounts. Because the
elements of material support and causation are
jurisdictional, Sudan may contest them on appeal
even though it forfeited its right to contest the merits
of the plaintiffs’ claims. See Practical Concepts, 811
F.2d at 1547. This does not mean, however, that the
plaintiffs on appeal must offer the same quantum of
evidence needed to show liability in the first instance.
Establishing material support and causation for
jurisdictional purposes is a lighter burden than
proving a winning case on the merits. See Agudas
Chasidei Chabad of U.S. v. Russian Federation, 528
F.3d 934, 940 (D.C. Cir. 2008).
In its opinion rejecting Sudan’s motion to vacate
the default judgments, the district court identified

73a
two bases upon which the plaintiffs established
material support and causation for the purpose of
jurisdiction. For plaintiffs proceeding under the
federal cause of action in § 1605A(c), the court –
following then-binding Circuit precedent – held the
plaintiffs had established jurisdiction by making a
“non-frivolous” claim that Sudan materially
supported al Qaeda and that such support
proximately caused their injuries. Owens V, 174 F.
Supp. 3d at 272-75. Since that decision, the Supreme
Court has overruled the precedent upon which the
district court relied, requiring a plaintiff to prove the
facts supporting the court’s jurisdiction under the
FSIA, rather than simply to make a “non-frivolous”
claim to that effect. Bolivarian Republic of Venezuela
v. Helmerich & Payne Int’l Drilling Co., 137 S. Ct.
1312, 1316 (2017). The Court’s decision eliminates
the first basis for the district court’s jurisdictional
holding.
The decision in Helmerich, however, left intact the
district court’s second basis for concluding the
plaintiffs had sufficiently shown material support
and causation in this case. For reasons no longer
relevant, the district court concluded that plaintiffs
who are ineligible to use the federal cause of action in
§ 1605A(c) – namely, victims or claimants who were
not U.S. nationals, military service members, or
government employees or contractors – could not
establish jurisdiction simply by making a nonfrivolous claim of material support and causation.
Owens V, 174 F. Supp. 3d at 275. Consequently, the
court required those plaintiffs to offer evidence
proving these jurisdictional elements. Id. First in its
2011 opinion on liability and again in its 2016 opinion

74a
denying vacatur, the district court weighed the
plaintiffs’ evidence of material support and causation
and concluded it satisfied the jurisdictional standard.
Owens V, 174 F. Supp. 3d at 276; Owens IV, 826 F.
Supp. 2d at 150-51. Because the court’s finding of
Sudan’s material support for the 1998 embassy
bombings plainly applies to all claimants and all
claims before this court, Sudan can prevail in its
challenge to material support and causation only if
the district court erred in its factual findings of
jurisdiction. We conclude it did not.
In each of the cases, the plaintiffs’ evidence was
received at the three-day evidentiary hearing held by
the district court in October 2010. The court held that
hearing to satisfy the FSIA requirement that, in
order to secure a default judgment, a claimant must
“establish[] his claim or right to relief by evidence
satisfactory to the court.” 28 U.S.C. § 1608(e). At the
hearing, the court received evidence of both Iran’s
and Sudan’s support for al Qaeda in advance of the
embassy bombings, but we limit our discussion here
to the evidence pertaining to Sudan.
In evaluating Sudan’s evidentiary arguments, we
proceed in three steps. First, we summarize the
proceedings at the 2010 evidentiary hearing and the
facts presented by the plaintiffs and their expert
witnesses. Then we consider Sudan’s two challenges
to this evidence. In the first, Sudan argues the
district court relied upon inadmissible evidence to
conclude that it materially supported al Qaeda. In the
second, Sudan contends that, even if admissible, the
evidence presented could not establish material
support and causation as a matter of law.

75a
A. The Evidentiary Hearing
At the October 2010 evidentiary hearing the
plaintiffs presented evidence from a variety of
sources. Reviewing this evidence as a whole, the
district court concluded it sufficed both to establish
jurisdiction and to prove Sudan’s liability on the
merits. We first describe the sources of evidence the
court received and then briefly summarize the factual
findings the court drew from this evidence.
1. The sources of evidence presented
As is apparent from the opinions of the district
court, the testimony of expert witnesses and al Qaeda
operatives was of critical importance to its factual
findings. For this reason, we discuss the experts’ and
operatives’ testimony first and in greatest detail. The
plaintiffs produced three expert witnesses and prior
recorded testimony from three former members of al
Qaeda.
First, the plaintiffs called terrorism consultant
Evan Kohlmann to testify about the relationship
between Sudan and al Qaeda in the 1990s. Kohlmann
advised government and private clients on terrorist
financing, recruitment, and history. He has authored
a book and several articles on terrorism and has
testified as an expert in multiple criminal trials.
Kohlmann based his opinions regarding Sudan’s
support for al Qaeda upon a review of secondary
source materials, including but not limited to the
exhibits introduced at the hearing, testimony from
criminal trials, and firsthand interviews he
conducted with al Qaeda affiliates over the past
decade. Kohlmann testified that this information was

76a
of the type routinely relied upon by experts in the
counterterrorism field.
Next, the court received a written expert report
from Dr. Lorenzo Vidino on “Sudan’s State
Sponsorship of al Qaeda.” Dr. Vidino was a fellow at
the Belfer Center for Science and International
Affairs, Kennedy School of Government, at Harvard
University. Like Kohlmann, Vidino has authored
books and articles on terrorism and has previously
testified in federal court on Sudan’s support for al
Qaeda. Vidino based his report upon open source
materials initially gathered around 2004, which he
reviewed and updated for the present case.
The district court also received live testimony and
a written report from Steven Simon, a security
consultant and Special Advisor for Combatting
Terrorism at the Department of State. From 1995 to
1999, during which time al Qaeda bombed the
embassies, Simon served on the National Security
Council (NSC) as Senior Director for Transnational
Threats. His responsibilities at the NSC included
directing counterterrorism policy and operations on
behalf of the White House. After his government
service, Simon published a book and several articles
on international terrorism and taught graduate
courses on counterterrorism.
The court also heard recorded trial testimony from
three former al Qaeda operatives. In particular, the
plaintiffs’ star witness, Jamal al Fadl, cast a long
shadow over the proceedings. al Fadl was a Sudanese
national and former senior al Qaeda operative turned
FBI informant. Now in the witness protection
program, in 2001 he testified at the criminal trial of

77a
Usama bin Laden and other terrorists arising from
the African embassy bombings. Al Fadl was
particularly well-suited to address the relationship
between al Qaeda and the government of Sudan in
the 1990s because he served then as a principal
liaison between the terrorist group and Sudanese
intelligence. He had also been instrumental in
facilitating al Qaeda’s relocation from Afghanistan to
Sudan in 1991 and had assisted the group in
acquiring properties there. Although al Fadl did not
testify at the evidentiary hearing, his prior testimony
provided much of the factual basis for the expert
witnesses’ opinions.
The court also received transcripts of prior
testimony from two other al Qaeda operatives: Essam
al Ridi and L’Houssaine Kherchtou. Both al Ridi and
Kherchtou were members of al Qaeda when the
terrorist group was based in Sudan, and both
testified at the bin Laden trial. They testified, based
upon first-hand knowledge, about the Sudanese
government and military facilitating al Qaeda’s
movement throughout East Africa and protecting al
Qaeda leadership. The plaintiffs also submitted a
deposition from al Ridi prepared for the instant case.
In addition to this witness testimony, the court
viewed videos produced by al Qaeda describing its
move to Sudan and its terrorist activities thereafter.
And finally, the court considered reports from the
U.S. Department of State and the Central
Intelligence Agency describing Sudan’s relationship
with al Qaeda in the 1990s. 3
3 Sudan did put some evidence into the record before
absenting itself from the litigation. For its 2004 motion to

78a
2. The district court’s findings of fact
From the plaintiffs’ evidence, the district court
found that Sudan had provided material support to al
Qaeda and that such support caused the embassy
bombings. This support was provided in several ways,
which we recount in a much abbreviated form.
First, the district court found Sudan provided al
Qaeda a safe harbor from which it could direct its
dismiss, Sudan obtained statements disputing its support for
the 1998 embassy bombings from Timothy Carney, the U.S.
Ambassador to Sudan from 1995 to 1997, and from John
Cloonan, a FBI Special Agent charged with building the
conspiracy case against Bin Laden during the 1990s. The
plaintiffs moved for leave to depose Carney and Cloonan, but the
FBI and the Department of State successfully opposed the
motion, arguing the request did not comply with each agency’ s
so-called Touhy regulations for obtaining permission to solicit
testimony from former government officials, see 22 C.F.R. §§
172.1-172.9; 28 C.F.R. §§ 16.21-16.29. The agencies also noted
that Sudan had not properly sought approval to take the
declarations.
Sudan then ceased participating in the litigation. Although
Sudan does not now contend the declarations were admissible,
see Owens V, 174 F. Supp. 3d at 276 n.16, at oral argument it
complained the court unfairly considered the plaintiffs’
supposedly inadmissible evidence but not the Carney and
Cloonan declarations. The matter stands precisely as the district
court left it in 2005. Sudan likely violated the agencies’ Touhy
regulations in obtaining the declarations in 2004. Allowing it to
use the declarations on appeal, without affording the plaintiffs
an opportunity to seek depositions from Carney and Cloonan in
compliance with the regulations, would work a substantial
injustice.

79a
operations. Owens IV, 826 F. Supp. 2d at 139-43.
This began with the overthrow of the Sudanese
government in 1989 by Omar al Bashir, leader of the
Sudanese military, and Hassan al Turabi, head of the
National Islamic Front (NIF), Sudan’s most powerful
political party. Kohlmann and Simon testified that al
Turabi initiated contact with al Qaeda and other
extremist groups, encouraging them to relocate to
Sudan. Al Bashir formalized this initial outreach
with a 1991 letter of invitation to Usama bin Laden.
According to all three experts, Sudan’s outreach to al
Qaeda was part of a broader strategy of inviting
radical Islamist groups to establish bases of
operations in the country, which is confirmed by the
State Department Patterns of Global Terrorism
reports. See U.S. DEP’T OF STATE, PATTERNS OF
GLOBAL TERRORISM : 1991, at 3 (1991) (“The
government reportedly has allowed terrorist groups
to train on its territory and has offered Sudan as a
sanctuary to terrorist organizations”). Sudan’s
extensive ties to terrorist groups prompted the
Department of State to designate Sudan as a state
sponsor of terrorism in August 1993. U.S. DEP’T OF
STATE, PATTERNS OF GLOBAL TERRORISM : 1993, at 25
(1994).
In 1991 al Qaeda accepted Sudan’s invitation.
According to Kohlmann and Simon, the invitation
benefited both bin Laden and the Sudanese
government. For bin Laden, it allowed al Qaeda to
depart an increasingly unstable Afghanistan and
relocate closer to its strategic interests in the Middle
East. For Sudan, outreach to terrorist groups
provided leverage against the government’s enemies
at home and abroad and advanced al Turabi’s

80a
ideological ambition for Sudan to become “the new
haven for Islamic revolutionary thought.” Sudan also
viewed al Qaeda as a source of domestic investment
as bin Laden was rumored to be extremely wealthy
and was well-known as a financier of the mujahedeen
insurgency in Afghanistan.
Once bin Laden had determined Sudan was a
trustworthy partner, al Qaeda moved its operations
there. All three experts described al Qaeda
purchasing several properties in Sudan, including a
central office and a guesthouse in Khartoum, and
starting terrorist training camps on farms
throughout the country. Al Fadl personally
participated in some of these transactions. For a
time, according to Kohlmann, al Qaeda even shared
offices with the al Turabi’s NIF party in Khartoum.
The close relationship between al Qaeda and the
Sudanese government continued throughout the
early 1990s, according to Kohlmann and Vidino, even
after bin Laden publicized his intent to attack
American interests in a series of fatwas and after al
Qaeda members claimed responsibility for the killing
of U.S. soldiers in Mogadishu, Somalia. For example,
bin Laden appeared in multiple television broadcasts
with al Bashir and al Turabi celebrating the
completion of infrastructure projects financed, in
part, by bin Laden. Sudanese intelligence officials
also worked hand-in-glove with al Qaeda operatives
to screen purported al Qaeda volunteers entering the
country in order “to ensure that they were not
seeking to infiltrate bin Laden’s organization on
behalf of a foreign intelligence service.” Al Fadl
personally took part in these efforts.

81a
Sudan also helped al Qaeda develop contacts with
other terrorist organizations. In 1991 the NIF
organized an unprecedented gathering of terrorist
organizations from around the world in Khartoum at
the Popular Arab and Islamic Congress. Several of
these groups, including the Egyptian Islamic Jihad
(EIJ), whose membership would later overlap with
that of al Qaeda, and the Iranian-backed Hezbollah,
which later provided training to al Qaeda operatives,
also established bases in Sudan. According to
Kohlmann and Simon, Sudanese intelligence actively
assisted al Qaeda in forming contacts with these
groups, allowing the nascent organization to acquire
skills and to recruit members from the more
experienced groups that it would later use with
devastating effect.
Although Sudan expelled bin Laden in 1996 under
international pressure, Kohlmann, Vidino, and one
other expert testified that some al Qaeda operatives
remained in the country thereafter. They based this
conclusion, in part, upon an unclassified report of the
CIA, dated December 1998. A State Department
report from 1998, published after the embassy
bombings, reinforced the conclusion that “Sudan
continued to serve as a meeting place, safe haven,
and training hub for a number of international
terrorist groups, particularly Usama Bin Ladin’s alQaida organization.” U.S. DEP’T OF STATE, PATTERNS
OF GLOBAL TERRORISM : 1998 (1999). Although
expelling bin Laden was a “positive step[],” the CIA
concluded Sudan continued to send “mixed signals
about cutting its terrorist ties” after his expulsion but
before the embassy bombings. CENT. INTEL. AGENCY,
SUDAN: A PRIMER ON BILATERAL ISSUES WITH THE

82a
UNITED STATES, at 4 (May 12, 1997). Notably, Sudan
remains a designated state sponsor of terrorism
today.
The district court also found Sudan had provided
financial, governmental, military, and intelligence
support to al Qaeda. Owens IV, 826 F. Supp. 2d at
143-46. During its time in Sudan, al Qaeda operated
several business and charities. All three experts
explained that these enterprises provided legitimate
employment for al Qaeda operatives as well as cover
for the group’s illicit activities throughout the region.
The Sudanese government actively promoted al
Qaeda’s businesses in several ways. As described by
al Fadl, Sudan partnered with al Qaeda-affiliated
businesses in major infrastructure projects, allowing
al Qaeda to gain access to and experience with
explosives. Sudan also granted al Qaeda businesses
“customs exemptions” and “tax privileges” which,
according to Vidino, enabled al Qaeda nearly to
monopolize the export of several agricultural
products. Sudan offered al Qaeda the services of its
banking system, which helped the organization in
“laundering money and facilitating other financial
transactions that stabilized and ultimately enlarged
Bin Laden’s presence in the Sudan.”
From the very beginning Sudan also aided al
Qaeda’s movement throughout the region. Relying
upon al Fadl’s testimony, Kohlmann testified that al
Qaeda circulated copies of President al Bashir’s letter
of invitation among its operatives. Al Qaeda agents
could present these copies to Sudanese officials in
order to “avoid having to go through normal
immigration and customs controls” and to head off
any “problems with the local police or authorities.”

83a
According to Kohlmann, Sudanese intelligence also
transported weapons and equipment for al Qaeda
from Afghanistan to Sudan via the state-owned
Sudan Airways. On at least one occasion, Sudan
allowed al Qaeda operative Kherchtou to smuggle
$10,000 in currency – an amount above that
permitted by law – to an al Qaeda cell in Kenya. This
Kenyan cell ultimately carried out the bombing of the
U.S. embassy in Nairobi in 1998.
In addition to aiding al Qaeda’s movements
directly, all three experts testified that the
government provided al Qaeda members hundreds of
passports and Sudanese citizenship. Al Qaeda
operatives needed these passports because they were
“de facto stateless individuals” who could no longer
safely travel on passports from their countries of
origin. Upon returning from abroad, Sudanese
officials allowed al Qaeda operatives to bypass
customs and immigration controls. As al Fadl
testified, this allowed militants to avoid having their
passport stamped by a nation that had come under
increasing scrutiny for its ties to terrorist
organizations.
Finally, the district court identified several
instances in which Sudan provided security to al
Qaeda leadership. Owens IV, 826 F. Supp. 2d at 145.
In his prior testimony, al Fadl recounted an occasion
when Sudanese intelligence intervened to prevent the
arrest of al Qaeda operatives by local police. Al Ridi
also testified that Sudan assigned 15 to 20 uniformed
soldiers to act as personal bodyguards for bin Laden
and other al Qaeda members. In 1994, according to
Kohlmann, Sudanese intelligence even foiled an
assassination attempt against bin Laden in

84a
Khartoum.
On
another
occasion,
Sudanese
intelligence thwarted a plot against al Qaeda’s
second-in-command, Ayman al-Zawahiri. Even as
international pressure mounted on Sudan to expel
bin Laden, Simon – who covered terrorism matters
for the NSC during the events in question – explained
that the Sudanese government refused to provide
actionable intelligence on al Qaeda’s plans
throughout the region or to hand bin Laden over to
the United States. Simon echoed the State
Department’s conclusion that bin Laden’s eventual
expulsion was nothing more than a “symbolic gesture
designed to placate the international community”
that changed little in the day-to-day reality of
Sudan’s support for terrorism. See U.S. DEP’T OF
STATE, PATTERNS OF GLOBAL TERRORISM : 1998.
From this evidence, all three experts concluded
Sudan provided material support to al Qaeda.
Moreover, the experts viewed this support as
“indispensable” to the success of the 1998 embassy
bombings. Without “a country that not only tolerated,
but actually actively assisted . . . al Qaeda terrorist
activities,” Vidino asserted, “al Qaeda could not have
achieved its attacks on the US Embassies.” Noting
that “the vast majority of planning and preparation
[for the attacks] took place between the years of 1991
and 1997,” Kohlmann opined “without the base that
Sudan provided, without the capabilities provided by
the Sudanese intelligence service, without the
resources provided, none of this would have
happened.” Simon likewise surmised “it’s difficult to
see how . . . the attacks could have been carried out
with equal success” without Sudan’s “active support”
and safe haven.

85a
From the expert testimony, trial transcripts, and
government reports, the district court concluded that
the plaintiffs had met their burden of demonstrating
“to the satisfaction of the court” that Sudan had
provided material support to al Qaeda and that such
support was a legally sufficient cause of the embassy
bombings. Owens IV, 826 F. Supp. 2d. at 150. As
such, the plaintiffs both established jurisdiction and
prevailed on the merits of liability. When faced with
Sudan’s Rule 60(b)(4) motion to vacate the default
judgments as void, the district court reaffirmed that
its findings of material support and causation
satisfied the standard for jurisdiction under §
1605A(a). Owens V, 174 F.3d at 276.
On this appeal, Sudan contends the record
contains insufficient evidence of material support and
causation to give the court jurisdiction under the
FSIA. Its attack comes in two forms. First, Sudan
disputes the admissibility of much of the evidence
introduced to support the district court’s factual
findings. It does so despite having failed to
participate in the evidentiary hearing, where such
challenges would have been properly raised. Second,
even assuming the evidence was admissible, Sudan
contends the district court’s factual findings on
material support and causation were clearly
erroneous and insufficient to sustain jurisdiction as a
matter of law. As we shall see, neither argument has
merit.
B. Standard of Review
Sudan faces an uphill battle with its evidentiary
challenges for two reasons. First is the burden of
proof applicable to a FSIA case. The FSIA “begins

86a
with a presumption of immunity” for a foreign
sovereign. Bell Helicopter Textron, Inc. v. Islamic
Republic of Iran, 734 F.3d 1175, 1183 (D.C. Cir.
2013). The plaintiff bears an initial burden of
production to show an exception to immunity, such as
§ 1605A, applies. Id. Then, “the sovereign bears the
ultimate burden of persuasion to show the exception
does not apply,” id., by a preponderance of the
evidence. See Simon v. Republic of Hungary, 812 F.3d
127, 147 (D.C. Cir. 2016). Therefore, if a plaintiff
satisfies his burden of production and the defendant
fails to present any evidence in rebuttal, then
jurisdiction attaches.
Although a court gains jurisdiction over a claim
against a defaulting defendant when a plaintiff meets
his burden of production, the plaintiff must still prove
his case on the merits. This later step, however, does
not affect the court’s jurisdiction over the case, and a
defaulting defendant normally forfeits its right to
raise nonjurisdictional objections. See Practical
Concepts, 811 F.2d at 1547. Thus, the only question
before this court is whether the plaintiffs have met
their rather modest burden of production to establish
the court’s jurisdiction.
This brings us to Sudan’s second obstacle on
appeal. When assessing whether a plaintiff has met
his burden of production, appellate review of the
district court’s findings of fact and evidentiary
rulings is narrowly circumscribed. With respect to a
defaulting sovereign, the FSIA requires only that a
plaintiff “establish[] his claim or right to relief by
evidence satisfactory to the court.” 28 U.S.C. §
1608(e). This standard mirrors a provision in Federal
Rule of Civil Procedure 55(d) governing default

87a
judgments against the U.S. Government. Commercial
Bank of Kuwait v. Rafidain Bank, 15 F.3d 238, 242
(2d Cir. 1994). While both § 1608(e) and Rule 55(d)
give an unresponsive sovereign some protection
against an unfounded default judgment, see Jerez,
775 F.3d at 423, neither provision “relieves the
sovereign from the duty to defend cases,” Rafidain
Bank, 15 F.3d at 242. Moreover, § 1608(e) does not
“require the court to demand more or different
evidence than it would ordinarily receive,” cf.
Marziliano v. Heckler, 728 F.2d 151, 158 (2d Cir.
1984) (applying Rule 55(d)); indeed, “the quantum
and quality of evidence that might satisfy a court can
be less than that normally required.” Alameda v.
Sec’y of Health, Ed. & Welfare , 622 F.2d 1044, 1048
(1st Cir. 1980) (applying Rule 55(d)).
Unlike the court’s conclusions of law, which we
review de novo, we review for abuse of discretion the
district court’s satisfaction with the evidence
presented. Hill v. Republic of Iraq, 328 F.3d 680, 683
(D.C. Cir. 2003). A district court abuses its discretion
when it relies upon a clearly erroneous finding of fact.
Amador County v. U.S. Dep’t of the Interior, 772 F.3d
901, 903 (D.C. Cir. 2014). In a FSIA default
proceeding, a factual finding is not deemed clearly
erroneous if “there is an adequate basis in the record
for inferring that the district court . . . was satisfied
with the evidence submitted.” Rafidain Bank, 15 F.3d
at 242 (quoting Marziliano , 728 F.2d at 158). That
inference is drawn when the plaintiff shows “her
claim has some factual basis,” cf. Giampaoli v.
Califano , 628 F.2d 1190, 1194 (9th Cir. 1980)
(applying Rule 55(d)), even if she might not have
prevailed in a contested proceeding. Provided “the

88a
claimant’s district court brief and reference to the
record appear[] relevant, fair and reasonably
comprehensive,” we will not set aside a default
judgment for insufficient evidence. Alameda, 622
F.2d at 1049. This lenient standard is particularly
appropriate for a FSIA terrorism case, for which
firsthand evidence and eyewitness testimony is
difficult or impossible to obtain from an absent and
likely hostile sovereign.
The district court also has an unusual degree of
discretion over evidentiary rulings in a FSIA case
against a defaulting state sponsor of terrorism. For
example, we have allowed plaintiffs to prove their
claims using evidence that might not be admissible in
a trial. See Han Kim v. Democratic People’s Republic
of Korea, 774 F.3d 1044, 1048-51 (D.C. Cir. 2014)
(noting “courts have the authority – indeed, we think,
the obligation – to adjust evidentiary requirements to
differing situations” and admitting affidavits in a
FSIA default proceeding) (internal alterations and
quotation marks removed). This broad discretion
extends to the admission of expert testimony, which,
even in the ordinary case, “does not constitute an
abuse of discretion merely because the factual bases
for an expert’s opinion are weak.” Joy v. Bell
Helicopter Textron, Inc., 999 F.2d 549, 567 (D.C. Cir.
1993). Section 1608(e) does not require a court to step
into the shoes of the defaulting party and pursue
every possible evidentiary challenge; only where the
court relies upon evidence that is both clearly
inadmissible and essential to the outcome has it
abused its discretion. This is part of the risk a
sovereign runs when it does not appear and alert the

89a
court to evidentiary problems. Cf. Bell Helicopter
Textron, 734 F.3d at 1181.
In this case, the district court has already
undertaken to weigh the plaintiffs’ evidence and
determine its admissibility without any assistance
from Sudan. Under these circumstances, we accord
even more deference to the district court’s factual
findings and evidentiary rulings in a FSIA case than
in reviewing default judgments to which the
strictures of § 1608(e) (or Rule 55(d)) do not apply.
Deference is especially appropriate when
considering the lengthy history of the proceedings in
the district court. The same learned judge has
presided over this litigation since 2001. Over that
time, the court has gained considerable familiarity
with the plaintiffs’ evidence and, during the periods
when Sudan participated, with its objections to that
evidence. The court has issued four lengthy and
detailed opinions that directly address many of
Sudan’s challenges to the evidence of material
support and jurisdictional causation. Through its
opinions and actions, it is abundantly clear that the
district court both appreciated and carried out is
obligation under §
1608(e). Cf. Compania

Interamericana Exp.-Imp., S.A. v. Compania
Dominicana de Aviacion, 88 F.3d 948, 951 (11th Cir.

1996) (vacating default judgment when “the record
does not reflect that the court considered the differing
standard required by § 1608(e)”). Only if we found the
record wholly lacking an “adequate basis” for the
district court’s conclusions would we overturn its
jurisdictional findings.

90a
C. Admissibility of the Evidence
Sudan first challenges the admissibility of
evidence supporting the district court’s findings of
material support and jurisdictional causation. In
order to issue a default judgment under § 1608(e), a
court must base its findings of fact and conclusions of
law upon evidence admissible under the Federal
Rules of Evidence. Kim, 774 F.3d at 1049. If
inadmissible evidence alone substantiates an
essential element of jurisdiction, then the court
abuses its discretion in concluding the claimant has
established his case “by evidence satisfactory to the
court.” 28 U.S.C. § 1608(e).
Reviewing the
admissibility of evidence
supporting a default judgment presents significant
challenges, which color our treatment of Sudan’s
arguments. The adversarial process gives the parties
an incentive to raise evidentiary challenges at the
earliest opportunity because failure to do so
ordinarily results in their forfeiture. Raising
evidentiary challenges early on also provides the
proponent of the evidence the opportunity to respond
by offering an alternative theory of admissibility or
different, admissible evidence on the same point.
Thus, the adversarial process properly places the
burden of admissibility upon the interested party,
allocates the original determination of admissibility
to the district court, which is more familiar with the
evidence, and preserves evidentiary disputes for
appellate review with the aid of a full trial record.
Furthermore, allowing a defaulting defendant to
benefit from sandbagging the plaintiff with an
admissibility objection on appeal would be unfair and
would encourage
gamesmanship. When the

91a
defendant defaults, therefore, we do not consider its
evidentiary challenges on appeal.
These principles do not map neatly to a FSIA case
because a defaulting defendant may challenge the
factual basis for the court’s jurisdiction for the first
time on appeal. And because a FSIA plaintiff must
produce evidence that is both admissible, Kim, 774
F.3d at 1049, and “satisfactory to the court,” 28
U.S.C. § 1608(e), in order to obtain a default
judgment, we presume a defendant may also
challenge for the first time on appeal the
admissibility of evidence supporting a jurisdictional
fact. As previously noted, however, a defendant
sovereign that defers its challenge until appealing a
default judgment makes the district court’s decision
less fully informed and deprives the reviewing court
of a fully developed record; it also handicaps the nondefaulting plaintiff in filling out the evidentiary
record. For these reasons, we will not accept a belated
challenge to admissibility raised by a defaulting
sovereign unless the contested evidence is clearly
inadmissible and we seriously doubt the plaintiff
could have provided alternative evidence that would
have been admissible. Those circumstances are not
present here.
In this case, Sudan principally challenges the
admissibility of two types of evidence: (1) the
plaintiffs’ expert testimony and (2) reports from the
Department of State and the CIA. We find no error in
the district court’s reliance upon either.
1. The e xpert testimony
In its opinions on liability and on Sudan’s Rule
60(b) motion, the district court discussed the experts’

92a
testimony in great detail and concluded it sufficed to
establish jurisdiction. Owens V, 174 F. Supp. 3d at
276. Because it may be dispositive, we, too, start with
the expert testimony.
The testimony of expert witnesses is of crucial
importance in terrorism cases, see, e.g., Kilburn, 376
F.3d at 1132 (jurisdiction satisfied based solely upon
the declaration of an expert witness); Boim v. Holy
Land Found. for Relief & Dev., 549 F.3d 685, 704 (7th
Cir. 2008); United States v. Damrah, 412 F.3d 618,
625 (6th Cir. 2005), because firsthand evidence of
terrorist activities is difficult, if not impossible, to
obtain. Victims of terrorist attacks, if not dead, are
often incapacitated and unable to testify about their
experiences. Perpetrators of terrorism typically lie
beyond the reach of the courts and go to great lengths
to avoid detection. Eyewitnesses in a state that
sponsors terrorism are similarly difficult to locate
and may be unwilling to testify for fear of retaliation.
The sovereigns themselves often fail to appear and to
participate in discovery, as Sudan did here. With a
dearth of firsthand evidence, reliance upon secondary
materials and the opinions of experts is often critical
in order to establish the factual basis of a claim under
the FSIA terrorism exception.
Sudan raises three challenges to the expert
testimony presented at the evidentiary hearing. First,
despite conceding that expert testimony is “doubtless
admissible” in a FSIA default proceeding, Sudan
contends that experts alone are insufficient to
establish jurisdiction in the absence of other direct,
admissible evidence. Second, Sudan objects that the
plaintiffs’ experts merely served as conduits for
inadmissible hearsay, upon which the district court

93a
relied. Finally, Sudan quarrels with the inferences
drawn by the experts and by the district court from
the underlying factual background. None of these
arguments is persuasive.
a. Ne ed for direct evidence
The recent case of Han Kim v. Democratic
People’s Republic of Korea demonstrates the
importance of expert testimony in FSIA proceedings
and forecloses Sudan’s first argument. In Kim,
relatives of a pastor who was a U.S. citizen sued the
Democratic People’s Republic of Korea (DPRK) under
the FSIA terrorism exception, alleging the regime
abducted, tortured, and killed the cleric for his
ministry to DPRK refugees. 774 F.3d at 1046.
Because the DPRK refused to participate in the
litigation and intimidated potential eyewitnesses, the
plaintiffs could offer no direct evidence of their
relative’s torture and killing by the DPRK. Instead,
two experts submitted declarations stating that
North Korea invariably tortured and killed its
political prisoners. Id. The court in Kim found these
declarations “doubtless admissible” under Federal
Rule of Evidence 702 and refused categorically to
require eyewitness testimony or direct evidence on
both practical and policy grounds:
In these circumstances, requiring that
the Kims prove exactly what happened
to the Reverend and when would defeat
the Act's very purpose: to give American
citizens an important economic and
financial weapon to compensate the
victims of terrorism, and in so doing to
punish foreign states who [sic] have

94a
committed or sponsored such acts and
deter them from doing so in the future.
This is especially true in cases of forced
disappearance, like this one, where
direct evidence of subsequent torture
and execution will, by definition, almost
always be unavailable, even though
indirect evidence may be overwhelming.
Were we to demand more of plaintiffs
like the Kims, few suits like this could
ever proceed, and state sponsors of
terrorism could effectively immunize
themselves by killing their victims,
intimidating witnesses, and refusing to
appear in court.

Id. at 1048-49 (internal citations and quotation
marks omitted).
Here, as in Kim, the plaintiffs face a state sponsor
of terrorism that has refused to participate in the
litigation. By skipping discovery and the evidentiary
hearing, Sudan made it virtually impossible for the
plaintiffs to get eyewitness accounts of its activities
in the 1990s. Nor can the plaintiffs ordinarily
subpoena members of al Qaeda, many of whom are
dead or in hiding, to testify regarding the actions of
the regime. The Congress originally enacted the
terrorism exception in the FSIA because state
sponsors of terrorism “ha[d] become better at hiding
their material support” and misdeeds. Kilburn, 376
F.3d at 1129 (internal quotation marks omitted). Just
as requiring firsthand evidence of the DPRK’s covert
atrocities in Kim would “effectively immunize” the
regime from responsibility for its crimes, requiring
that a victim of a state-supported bombing offer

95a
direct evidence of material support would shield state
sponsors of terrorism from liability for the very
predicate act – material support – that gives the
court jurisdiction.
Nevertheless, Sudan persists that expert
testimony alone cannot establish jurisdiction and
liability under the FSIA. To wit, Sudan complains
that the plaintiffs did not offer “any admissible
factual evidence” or “call any percipient witnesses
competent to testify about relevant facts in Sudan in
the 1990s.” In particular, Sudan would have us
distinguish Kim as having turned solely upon a piece
of non-expert evidence.
Sudan’s argument is both legally and factually
flawed. Neither § 1608(e) nor any other provision of
the FSIA requires a court to base its decision upon a
particular type of admissible evidence. As long as the
evidence itself is admissible, as expert testimony
certainly may be, and the court finds it satisfactory,
its form or type is irrelevant. Cf. Holland v. United
States, 348 U.S. 121, 140 (1954) (refusing to
distinguish between different types of evidence in a
criminal prosecution). Indeed, cases in this Circuit
and in others have repeatedly sustained jurisdiction
or liability or both under the terrorism exception to
the FSIA and in other terrorism cases based solely
upon expert testimony. Kilburn, 376 F.3d at 1132;
Boim, 549 F.3d at 705 (“[W]ith [the plaintiff’s expert
report] in the record and nothing on the other side
the [district] court had no choice but to enter
summary judgment for the plaintiffs with respect to
Hamas’s responsibility for the Boim killing”).
Therefore the plaintiffs’ “failure” to present
eyewitness testimony or other direct evidence is of no

96a
moment as to whether they have satisfied their
burden of production.
Sudan’s attempt to distinguish Kim on its facts is
similarly unpersuasive. True, in Kim, we placed great
weight upon a single piece of admissible non-expert
evidence: the conviction of a DPRK agent who had
kidnapped the victim, of which the district court too k
judicial notice. Kim, 774 F.3d at 1049. This conviction
placed the victim at the scene of the crime and
allowed the court to conclude he had been subjected
to the torture and killing that the DPRK “invariably”
inflicts upon its prisoners. Id. at 1051.Without this
conviction, we noted, “[o]ur conclusion would no
doubt differ” because there was no other evidence
linking the DPRK to the victim’s disappearance. Id.
Our conclusion, however, turned upon the specific
facts of that case; we did not announce a categorical
requirement of direct evidence in FSIA cases.
Whereas the conviction in Kim linked the defendant
sovereign to the plaintiff’s disappearance, in the
present case there is no missing link between Sudan’s
actions and the embassy bombings. It is undisputed
that al Qaeda came to Sudan in the early 1990s and
maintained its headquarters there. It is also beyond
question that al Qaeda perpetrated the embassy
bombings in 1998. As in Kim, expert testimony
supplies the predicate act (here material support, in
Kim torture and extrajudicial killing) linking these
two events and conferring jurisdiction upon the court.
But here, unlike in Kim, we need no further evidence
beyond the expert testimony to connect the defendant
sovereign to the extrajudicial killings. The expert
testimony therefore suffices to meet the plaintiffs’
burden of production on jurisdiction.

97a
b. Reliance upon inadmissible hearsay
Sudan next contends the experts recited facts
based upon inadmissible hearsay and the district
court improperly relied upon those facts to establish
jurisdiction and to hold Sudan liable.
Under Federal Rule of Evidence 703, a properly
qualified expert may base his opinion upon otherwise
inadmissible sources of information as long as those
sources are reasonably relied upon in his field of
expertise. Further, the expert may disclose to the
factfinder otherwise inadmissible “underlying facts or
data as a preliminary to the giving of an expert
opinion.” See, e.g., FED. R. EV ID. 705 advisory
committee’s note. Indeed, disclosure is often
necessary to enable the court to “decid[e] whether,
and to what extent, the person should be allowed to
testify.” Id.; 2 MCCORMICK ON EV IDENCE § 324.3 (7th
ed. 2016) (“otherwise the opinion is left unsupported
with little way for evaluation of its correctness”).
Nevertheless, “the underlying information” relied
upon by a qualified expert “is not admissible simply
because the [expert’s] opinion or inference is
admitted.” See FED. R. EV ID. 703 advisory
committee’s note. Thus, as Sudan points out, “a party
cannot call an expert simply as a conduit for
introducing hearsay under the guise that the
testifying expert used the hearsay as the basis of his
testimony.” Marvel Characters, Inc. v. Kirby, 726
F.3d 119, 136 (2d Cir. 2013) (internal quotation
marks omitted).
Applying these standards to the case at hand, we
see that the district court properly distinguished the
experts’ clearly admissible opinions from the

98a
potentially inadmissible facts underlying their
testimony. Sudan principally objects to the district
court’s recitation of those underlying facts in its 2011
opinion on liability, which facts it claims are
inadmissible even if the experts’ opinions were
properly admitted. The district court acknowledged
this complication in its 2016 opinion on Sudan’s
motion to vacate: “Sudan may have plausible
arguments” that not “every factual proposition in the
Court’s 2011 opinion can be substantiated by record
evidence admissible under the Federal Rules of
Evidence.” Owens V, 174 F. Supp. 3d at 275. But even
if “particular statements in that opinion may not be
adequately supported,” the experts’ opinions
“nonetheless” provided “sufficient evidence in the
record of the necessary jurisdictional facts.” Id. We
agree with this conclusion.
At the outset, we note the district court did not err
– much less prejudicially err – in reciting potentially
inadmissible facts in its 2011 opinion on liability. For
their conclusions to be admissible and credible, the
plaintiffs’ experts needed to disclose the factual basis
for their opinions. See, e.g., Fox v. Taylor Diving &
Salvage Co., 694 F.2d 1349, 1356 (5th Cir. 1983) (“An
expert is permitted to disclose hearsay for the limited
purpose of explaining the basis for his expert
opinion”). Without that disclosure, the district court
would have been at a loss to determine whether the
opinions were admissible as reliable expert
testimony. See FED. R. EV ID. 702 (requiring court to
determine whether expert’s knowledge “is based on
sufficient facts or data,” and is “the product of
reliable principles and methods” that have been
“reliably applied . . . to the facts of the case”).

99a
Therefore, the court did not err in allowing the
plaintiffs’ experts to recount potentially inadmissible
facts in order to establish the basis for their
admissible opinions.
The district court also needed to engage with the
underlying facts in order to explain why it admitted
and credited the experts’ opinions. Without those
facts, we too would struggle to evaluate Sudan’s
evidentiary challenges to the opinion testimony.
Hence, some discussion of the potentially
inadmissible underlying facts was unavoidable in the
2011 opinion in order to admit, to credit, and to
enable our review of the experts’ opinions.
More important, the district court properly based
its findings upon the experts’ “undoubtedly
admissible” opinions and not upon any arguably
inadmissible facts. The district court’s 2011 and 2016
opinions extensively quote the experts’ opinions in
reaching the conclusion that Sudan’s material
support caused the embassy bombings. See Owens V,
174 F. Supp. 3d at 277-79 (quoting the opinions of
Kohlmann, Simon, and Vidino); Owens IV, 826 F.
Supp. 2d at 146 (quoting Simon and Kohlmann to
conclude “Sudanese government support was critical
to the success of the 1998 embassy bombings”). We
therefore see no error in the court’s conclusion that
the expert testimony satisfied the plaintiffs’ burden of
production on jurisdictional causation.
In a supplemental filing, Sudan compares the
experts’ opinions in this case to those held
inadmissible in Gilmore v. Palestinian Interim SelfGovernment Authority, 843 F.3d 958 (D.C. Cir. 2016),
but the gulf between the two cases is wide. In

100a

Gilmore , the plaintiff’s expert neither stated nor

applied “a reliable methodology” from which he had
derived his opinions. Id. at 972-73. Instead, “his
analysis consist[ed] entirely of deductions and
observations that flow directly from the content of the
hearsay statements and would be self-evident to a
layperson.” Gilmore v. Palestinian Interim Self-Gov’t
Auth., 53 F. Supp. 3d 191, 213 (D.D.C. 2014). Indeed,
the Gilmore expert’s opinion derived solely from
materials that had been proffered at trial but
excluded as inadmissible hearsay. Id. at 212-13. In
this case, the plaintiffs’ experts relied upon their own
extensive research into terrorist organizations to
conclude that Sudan provided material support that
caused the embassy bombings. In doing so, the
experts – unlike the expert in Gilmore – drew upon
both materials admitted at the evidentiary hearing
and sources encountered in their research and
professional experience. A “layperson” could not
reliably have reached the same conclusions as the
experts in this case.
Finally, Sudan belatedly challenges the reliability
of the factual bases for the experts’ testimony. Of
course, “the decision whether to qualify an expert
witness is within the broad latitude of the trial court
and is reviewed for abuse of discretion.” Haarhuis v.
Kunnan Enters., 177 F.3d 1007, 1015 (D.C. Cir. 1999)
(citing Kumho Tire Co. v. Carmichael, 526 U.S. 137,
152 (1999)). As previously stated, experts may rely
upon hearsay evidence in forming their admissible,
professional opinions. Indeed, it is hard to imagine
what other than hearsay an expert on terrorism could
use to formulate his opinion. See Boim, 549 F.3d at
704 (“Biologists do not study animal behavior by

101a
placing animals under oath, and students of
terrorism do not arrive at their assessments solely or
even primarily by studying the records of judicial
proceedings”). All the Federal Rules require is that
the “facts or data in the particular case upon which
an expert bases an opinion or inference . . . [are] of a
type reasonably relied upon by experts in the
particular field in forming opinions or inferences
upon the subject.” FED. R. EV ID. 703 (2010) (amended
without substantive change 2011).
Here, the plaintiffs’ experts used, among other
things, trial testimony of al Qaeda informants,
intelligence reports from the U.S. Government, and
their exhaustive review of secondary sources to reach
their conclusions. Courts have consistently held these
sorts of materials provide an adequate basis for
expert testimony on terrorism. See Damrah, 412 F.3d
at 625 & n.4 (approving an expert’s reliance upon
books, press releases, newspaper articles, and the
State Department’s Patterns of Global Terrorism
reports); Boim, 549 F.3d at 704-05 (approving
reliance upon terrorist websites and observations
from prior criminal trials). In light of the general
acceptance of the plaintiffs’ experts’ sources and
methodologies, we conclude the district court did not
abuse its discretion in qualifying the experts,
summarizing their testimony, or crediting their
conclusions.
c. Reliability of the experts’ conclusions
Sudan’s third objection attacks the reliability of
the experts’ opinions in this case as inconsistent with
the underlying facts. In other words, Sudan asks this
court to hold the expert opinions are inadmissible

102a
because the plaintiffs’ witnesses have not “reliably
applied [their] principles and methods to the facts of
the case.” See FED. R. EV ID. 702(d). This challenge
also implies the district court based its findings of
jurisdiction upon clearly erroneous facts. See Price ,
389 F.3d at 197 (reviewing for clear error
jurisdictional findings of fact in a FSIA terrorism
case); see also Duke Power Co. v. Carolina Envtl.
Study Grp., 438 U.S. 59, 74-77 (1978).
The problem with this argument is that Sudan
has not explained – either at the evidentiary hearing
or on appeal – why these expert opinions are
unreliable or clearly erroneous. By refusing to
participate in the evidentiary hearing, Sudan gave up
its opportunity to challenge the fit between the
experts’ opinions and the underlying facts. At the
hearing, the witnesses described the general bases of
their expertise, and the district court found them
qualified to give opinions on Sudan’s material
support for al Qaeda. In doing so, the experts said
they had relied upon multiple sources of information,
including but not limited to those presented at the
hearing. But the experts did not – and did not need to
– provide the specific basis for their knowledge for
each factual proposition they advanced. See FED. R.
EV ID. 705 (“an expert may state an opinion – and give
the reasons for it – without first testifying to the
underlying facts or data”). Therefore, we cannot know
with certainty whether the experts’ opinions were
consistent or in conflict with the underlying facts
upon which they relied. Had Sudan participated in
the hearing, it could have challenged the experts to
substantiate each and every factual proposition they
asserted. Cf. Bryan v. John Bean Div. of FMC Corp.,

103a
566 F.2d 541, 545 (5th Cir. 1978) (noting “the onus of
eliciting the bases of the opinion is placed on the”
party opposing admission). That would have allowed
this court to determine whether the experts’ opinions
reliably reflected the more developed factual record.
By deferring its attack until this appeal, Sudan has
deprived the experts of an opportunity to respond,
and instead asks this court to rule on an incomplete
record. We decline the invitation. See Boim, 549 F.3d
at 704-05 (rejecting a challenge to the reliability of an
expert’s inferences first brought on appeal).
2. The State Department reports
Of course, the district court did not rely solely
upon expert testimony to establish jurisdiction and
liability. Of particular importance, the plaintiffs
marshaled nearly a decade of State Department
reports that speak directly to Sudan’s support for
terrorist groups, including al Qaeda. See, e.g., U.S.
DEP’T OF STATE, PATTERNS OF GLOBAL TERRORISM :
1993 (“Despite several warnings to cease supporting
radical extremists the Sudanese government
continued to harbor international terrorist groups in
Sudan”); U.S. DEP’T OF STATE, PATTERNS OF GLOBAL
TERRORISM : 1998 (“Sudan provides safe haven to
some of the world’s most violent terrorist groups,
including Usama Bin Ladin’s al-Qaida”); U.S. DEP’T
OF STATE, PATTERNS OF GLOBAL TERRORISM : 2000
(2001) (“Sudan . . . continued to be used as a safe
haven by members of various groups, including
associates of Osama bin Laden’s al-Qaeda
organization”). These reports both bolster the experts’
conclusions about Sudan’s material support for the al
Qaeda embassy bombings and independently show

104a
the plaintiffs’ claims “ha[ve] some factual basis,” as
required by § 1608(e). Giampaoli, 628 F.2d at 1194.
As with the expert testimony, Sudan contends
these reports are inadmissible hearsay. The plaintiffs
urge the State Department reports were admissible
under the hearsay exception for public records. See
FED. R. EV ID. 803(8). That exception allows the
admission of “a record or statement of a public office
if” it: (1) contains factual findings (2) from a legally
authorized investigation. Id at 803(8)(iii). Pursuant to
the “broad approach to admissibility” under Rule
803(8), a court may also admit “conclusion[s] or
opinion[s]” contained within a public record. Beech
Aircraft Corp. v. Rainey, 488 U.S. 153, 170 (1988).
Once proffered, a public record is presumptively
admissible, and the opponent bears the burden of
showing it is unreliable. Bridgeway Corp. v. Citibank,
201 F.3d 134, 143 (2d Cir. 2000).
The State Department’s Patterns of Global
Terrorism reports fit squarely within the public

records exception. First, the reports contain both
factual findings and conclusions on Sudan’s support
for terrorism in general and al Qaeda in particular.
Second, the reports were created pursuant to statute,
see 22 U.S.C. § 2656f(a) (requiring annual reports on
terrorism), and are therefore the product of a “legally
authorized investigation.” See Bridgeway, 201 F.3d at
143 (holding State Department reports required by
statute are public records). Indeed, in contested FSIA
proceedings we have previously approved admission
of the very reports Sudan challenges, Simpson, 470
F.3d at 361; Kilburn, 277 F. Supp. 2d at 33, aff'd 376
F.3d at 1131, as have other courts, Damrah, 412 F.3d
at 625 n.4.

105a
Sudan objects on appeal to the “trustworthiness”
of these reports, but that objection should have been
made in the district court. See FED. R. EV ID. 803(8)(B)
(providing for the admission of public records if “the
opponent does not show that the possible source of
the information or other circumstances indicate a
lack of trustworthiness”). Even now, Sudan does not
present any reason, beyond their reliance upon
hearsay, to deem these reports unreliable. See Kehm
v. Procter & Gamble Mfg. Co., 724 F.2d 613, 618 (8th
Cir. 1983) (holding inclusion of hearsay is not a
sufficient ground for excluding a public record as
unreliable). 4 Although the reports lack the details
that the expert witnesses provided concerning
Sudan’s material support, they are competent,
admissible evidence, which together with the
plaintiffs’ admissible opinion evidence satisfy the
burden of production on material support and
jurisdictional causation. Because
Sudan, by
defaulting in the district court, has not carried its
burden of persuasion, the district court properly
asserted jurisdiction over the cases. 5
In a supplemental filing, Sudan compares these reports to
excerpts on an Israeli governmental website in Gilmore that we
excluded as inadmissible hearsay outside the exception for
public records. But Gilmore turned upon the plaintiffs’ failure to
establish a foundation for admissibility; they “rested on a bare,
one-sentence assertion that the web pages were admissible
under Rule 803(8)” and gave no “further explication of how the
pages conveyed ‘factual findings from a legally authorized
investigation.’” 843 F.3d at 969-70. The webpages themselves
“offer[ed] no information explaining who made the findings or
how they were made.” Id. at 969.
4

5 Sudan also objects to the admission of the recorded
testimony of Jamal al Fadl at the Bin Laden criminal trial,

106a
D. Sufficiency of the Evidence
This brings us to Sudan’s second major challenge
to the plaintiffs’ evidence. In addition to disputing the
admissibility of the evidence, Sudan argues the
totality of the evidence cannot establish material
support and jurisdictional causation as a matter of
law. First, Sudan contends the plaintiffs cannot show
its actions caused the plaintiffs’ injuries because its
conduct neither substantially nor foreseeably
provided material support for the embassy bombings.
Second, Sudan argues the plaintiffs cannot recover

contending it is inadmissible hearsay. We agree to the extent
that al Fadl’s prior testimony is not admissible as “former
testimony” under the hearsay exception in Rule 804(b)(1)
because it was not “offered against a party who had . . . an
opportunity and similar motive to develop it by” crossexamination in the prior criminal case.
The district court held, and the plaintiffs argue on appeal,
that Sudan’s inability to cross-examine al Fadl was irrelevant in
a non-adversarial evidentiary hearing. After all, they note,
courts have admitted sworn affidavits in § 1608(e) hearings in
previous FSIA cases. Owens V, 174 F. Supp. 3d at 280-81 & n.18
(citing Antoine v. Atlas Turner, Inc., 66 F.3d 105, 111 (6th Cir.
1995) and Kim , 774 F.3d at 1049-51). But in each case cited, the
out-of-court declarant was at least potentially available to
testify in court, should the need arise. Plaintiffs here have made
no such showing regarding al Fadl, who is in the witness
protection program. For this reason, we hesitate to equate
affidavits prepared for a FSIA hearing with former trial
testimony recorded for a wholly separate purpose. We, however,
need not decide whether al Fadl’s prior trial testimony is
otherwise admissible because sufficient, admissible evidence
sustains the district court’s findings of jurisdiction in this case.

107a
because its support, if any, was not intended to cause
the bombings.
1. Proximate causation
Sudan’s first challenge to the sufficiency of the
evidence rests upon the standard for jurisdictional
causation, viz., proximate cause. In Kilburn, we held
a plaintiff must show proximate cause to establish
jurisdiction under § 1605(a)(7), the predecessor of the
current FSIA terrorism exception. 376 F.3d at 1128.
Because § 1605A(a) restates the predicate acts of
§ 1605(a)(7), it stands to reason that proximate cause
remains the jurisdictional standard.
Proximate cause requires “some reasonable
connection between the act or omission of the
defendant and the damage which the plaintiff has
suffered.” Id. (quoting PROSSER & KEETON ON THE
LAW OF TORTS 263 (5th ed. 1984)). It “normally
eliminates the bizarre,” Jerome B. Grubart, Inc. v.
Great Lakes Dredge & Dock Co., 513 U.S. 527, 536
(1995), “preclud[ing] liability in situations where the
causal link between conduct and result is so
attenuated that the consequence is more aptly
described as mere fortuity.” Paroline v. United
States, 134 S. Ct. 1710, 1719 (2014). As Sudan points
out, the inquiry into proximate cause contains two
similar but distinct elements. First, the defendant’s
actions must be a “substantial factor” in the sequence
of events that led to the plaintiff’s injury. Rothstein v.
UBS, 708 F.3d 82, 91 (2d Cir. 2013). Second, the
plaintiff’s injury must have been “reasonably
foreseeable or anticipated as a natural consequence”
of the defendant’s conduct. Id. Sudan contends that
its support satisfies neither element of the inquiry

108a
into proximate cause with respect to the 1998
embassy bombings here at issue.
a. Substantial factor
Sudan offers two reasons its actions were not a
“substantial factor” in al Qaeda’s embassy bombings.
Most basically, Sudan contends it did not provide any
material support at all to al Qaeda during the 1990s,
making proximate causation impossible. Much of this
argument reprises Sudan’s objections to the
inferences drawn by the experts from al Fadl’s
testimony, which objections we have considered and
rejected.
Nevertheless, Sudan points to a number of events
as to which it contends the district court erroneously
found material support for al Qaeda. For example,
Sudan criticizes the district court’s discussion of al
Qaeda purchasing properties, starting businesses,
and establishing terrorist training camps in Sudan.
Owens IV, 826 F. Supp. 2d at 141, 143-44. Viewed in
isolation, none of these events necessarily evinces a
Sudanese hand in al Qaeda’s activities. That view,
however, like Nelson at the Battle of Copenhagen,
turns a blind eye to the broader picture. The record
shows that after al Qaeda started its businesses,
Sudan fostered their growth through tax exceptions
and customs privileges. This allowed al Qaeda nearly
to monopolize the export of several agricultural
commodities, plowing its profits back into its broader
organization. Again, after al Qaeda opened its
training camps, Sudanese intelligence shielded their
operations from the local police despite complaints
from nearby residents. This preferential treatment
certainly qualifies as material support, even if Sudan

109a
played no role in creating the underlying businesses
and training camps.
Sudan also disputes the district court’s finding
that it provided financial support to al Qaeda. To the
contrary, Sudan argues, al Qaeda financially
supported Sudan by investing in Sudanese
infrastructure. Sudan is correct – bin Laden did
provide financial assistance to Sudan – but it ignores
record evidence of Sudan’s reciprocal aid. For
example, as the district court noted, bin Laden’s $50
million investment in the partially state-owned al
Sharmal Islamic Bank gave al Qaeda “access to the
formal banking system,” which proved useful for
“laundering money” and “financing terrorist
operations.” Id. at 144. Al Qaeda operatives,
including bin Laden himself, held accounts in their
real names in al Sharmal bank, demonstrating the
impunity with which the group operated in Sudan.
Thus, although Sudan did not directly fund al Qaeda
or its business, the court reasonably concluded its inkind assistance had the same practical effect.
Finally, Sudan invokes the testimony of Simon,
the former NSC staffer overseeing counterterrorism
activities, that Sudan provided no “useful information
on bin Laden’s” activities that “might have helped the
U.S. unravel the plots to attack the two East African
U.S. embassies.” Id. at 145. The district court’s
finding of material support, Sudan argues, is
unsustainable “without a showing that Sudan had
useful intelligence and nonetheless elected not to
share it.” Although the district court did not say what
Sudan knew about al Qaeda or when it knew it,
Sudan’s claims of ignorance regarding al Qaeda’s
aims defies both reason and the record. After all,

110a
Sudan invited “literally every single jihadist style
group,” including al Qaeda, to relocate to Sudan in
the early 1990s. At the time, bin Laden was known as
a wealthy Islamist financier and a leader in the
Afghani mujahedeen. As soon as al Qaeda took up
residence in Sudan, bin Laden began issuing fatwas
denouncing the United States and calling for attacks
upon U.S. interests. And after the Battle of
Mogadishu in 1993, al Qaeda operatives publically
boasted about killing U.S. soldiers in Somalia.
According to Kohlmann, bin Laden himself took to
the Arab press and U.S. cable television to claim
responsibility for this attack. Sudanese intelligence
officers would have been privy to all this information
because they frequented al Qaeda’s guesthouses, and
al Turabi’s NIF shared offices with al Qaeda for a
time.
Sudan’s own actions also gave it knowledge of al
Qaeda’s capabilities and aims. For example,
Sudanese intelligence must have known that al
Qaeda operated training camps where explosives
were used because it shielded those camps from
interference by the local police. Sudan also knew al
Qaeda was transporting large, undeclared sums of
money to Kenya because Sudanese agents
shepherded operatives with this money past airport
inspections. Likewise, Sudan knew something of al
Qaeda’s arsenal because its own planes transported
al Qaeda’s weapons from Afghanistan to Sudan.
Indeed, on one occasion, a Sudanese official even
assisted al Qaeda in an ultimately unsuccessful bid to
obtain nuclear weapons from a smuggler in South
Africa. Contrary to Sudan’s contention, all this
information would have aided the United States in

111a
appreciating the threat of al Qaeda and attempting to
disrupt its operations. Sudan’s refusal to divulge any
of this information – even after a specific request
from the United States in 1996 – certainly qualifies
as material support. Cf. Estate of Parsons v.
Palestinian Auth., 651 F.3d 118, 125-26 (D.C. Cir.
2011) (security officers who, with knowledge, failed to
intervene in ongoing bomb plot provided material
support).
Sudan’s second argument that its actions were not
a “substantial factor” causing the plaintiffs’ injuries
focuses upon the temporal distance between Sudan’s
support for al Qaeda and the embassy bombings.
Principally, Sudan argues that by expelling bin
Laden in 1996 it broke the chain of causation leading
to the 1998 embassy bombings. We confronted and
rejected the same objection in our 2008 opinion
affirming the district court’s denial of Sudan’s motion
to dismiss. Owens III, 531 F.3d at 895. Although we
there recognized the “[p]laintiffs’ allegations are
somewhat imprecise as to the temporal proximity of
Sudan’s actions to and their causal connection with
the terrorist act,” we held “this imprecision [was] not
fatal for purposes of jurisdictional causation.” Id.
(quoting Rux v. Republic of Sudan, 461 F.3d 461, 474
(4th Cir. 2006)) (internal quotation marks omitted).
In order to bridge the gap, we noted the plaintiffs’
“allegations, and the reasonable inferences drawn
therefrom” need only “demonstrate a reasonable
connection between the foreign state’s actions and the
terrorist act.” Id. In other words, provided the
plaintiffs demonstrated proximate cause, the
temporal remoteness between Sudan’s material
support and the embassy bombings was irrelevant.

112a

See Grubart, 513 U.S. at 536 (proximate cause

“normally eliminates the bizarre” without “the need
for further temporal or spatial limitations”). And at
that stage in the litigation, we concluded, the
plaintiffs had more than met their burden of pleading
facts sufficient to establish proximate causation.
Owens III, 531 F.3d at 895.
Fast-forwarding to the present day, the plaintiffs
have substantiated their allegations of material
support and jurisdictional causation with admissible
evidence, which Sudan did not challenge at the
evidentiary hearing. Once again, the district court
found the evidence established a “reasonable
connection” between Sudan’s actions and the embassy
bombings. As in our 2008 decision, we see nothing
erroneous with this conclusion for two reasons.
First, we do not believe Sudan broke the chain of
proximate causation by completely disassociating
itself from al Qaeda in or after 1996. A declassified
CIA President’s Daily Brief in December 1998 –
months after the embassy bombings – reports a “Bin
Laden associate in Sudan” sending materials to al
Qaeda in Afghanistan. The State Department’s 1998
Patterns of Global Terrorism further reports that
“Sudan continued to serve as a meeting place,
safehaven, and training hub for a number of
international terrorist groups, particularly Usama
Bin Ladin’s al-Qaida organization” even after the
embassy bombings. Although counterterrorism
cooperation between the United States and Sudan
improved after the bombings, the 2000 Patterns of
Global Terrorism report reiterates “Sudan continued
to serve as a safehaven for members of al-Qaida, the
Lebanese
Hizballah,
al-Gama’a
al-Islamiyya,

113a
Egyptian Islamic Jihad, the PIJ, and HAMAS.” In
addition, both Kohlmann and Simon testified that al
Qaeda operatives remained in Sudan after 1996.
Sudan insists that a gap remained between its
expulsion of bin Laden and the government reports
detailing al Qaeda’s presence in Sudan in late 1998,
but it strains credulity that Sudan would
immediately resume relations with al Qaeda
following bombings for which the group claimed
credit after completely cutting ties two years earlier.
Rather, as the district court inferred, it is far more
likely that Sudan, despite having expelled bin Laden
in 1996, continued to harbor al Qaeda terrorists until
and after the bombings.
Second, even if Sudan were correct on this factual
point, severing ties with al Qaeda would not preclude
a finding that its material support remained a
substantial factor in the embassy bombings. See
Boim, 549 F.3d at 699-700 (holding a “two year[]”
interval between the defendant’s material support
and the plaintiff’s injury was far from the point at
which “considerations of temporal remoteness might .
. . cut off liability”).
Sudan counters by selectively quoting the 9/11
Commission Report, stating “Bin Ladin left Sudan . . .
significantly weakened.” Perhaps so if viewed in
isolation, but bin Laden’s expulsion did not undo the
support Sudan provided in the previous years.
Sudan’s invitation, after all, allowed al Qaeda to
extricate itself from a war-torn Afghanistan and
organize its terrorist enterprise in a stable safe
haven. During al Qaeda’s stay, Sudan sheltered the
group from foreign intelligence and facilitated its
movement throughout the region. It also put al

114a
Qaeda in contact with other, more experienced
terrorist groups residing in Sudan. These actions
allowed al Qaeda to grow its membership, to develop
its capabilities, and to establish the cells in Kenya
and Tanzania, which ultimately launched the 1998
bombings. Indeed, “the vast majority of the planning
and preparation [for the embassy attacks] took place
between the years of 1991 and 1997” when Bin
Laden, for the most part, remained in the Sudan.
According to one expert, Sudan’s expulsion of bin
Laden may have even “accelerated the bomb plot” by
allowing al Qaeda to militarize its African cells
without fear of reprisal against him by the United
States, which had known of his presence in Sudan.
Id. at 310-11. As Sudan notes, al Qaeda had not
committed “any terrorist attacks predating” its
arrival in the country, and indeed “the idea that alQaeda was capable of anything significant” in the
early 1990s “was laughable.” Yet in a few short years,
al Qaeda progressed from mounting small-scale,
often-unsuccessful attacks to orchestrating the nearsimultaneous bombings of American embassies in two
different countries. Although the expulsion of bin
Laden may have marked a temporary setback for Al
Qaeda, on balance, the organization benefited greatly
from Sudan’s aid during the 1990s. Therefore, the
district court’s conclusion that Sudan’s support was a
“substantial factor” in the chain of causation leading
to the embassy bombings was far from clearly
erroneous.
b. Reasonable foreseeability
Sudan contends even if its support was a
“significant factor” in the embassy bombings, the
attacks were not “reasonably foreseeable or

115a
anticipated as a natural consequence” of that
support. Principally, Sudan argues it was not
foreseeable in 1991 – when Sudan invited bin Laden
to relocate – that al Qaeda would engage in terrorist
activities. As evidence, Sudan points out that bin
Laden was not yet infamous for acts of terrorism and
the United States had not yet designated al Qaeda a
terrorist organization or bin Laden a terrorist and did
not do so until after the embassy bombings.
Designation of Foreign Terrorist Organizations, 64
Fed. Reg. 55,112, 55,112/1 (Oct. 8, 1999); Exec. Order
No. 13099, 63 Fed. Reg. 45,167, 45,167 (Aug. 20,
1998). That bin Laden and al Qaeda “may have
abused their opportunities” in the country, Sudan
urges, does not mean it should be held accountable
when “its residents later turn out to be terrorists.”
Once again Sudan ignores the broader context of
its actions. In the early 1990s the Sudanese
government reached out to numerous terrorist
groups,
including the
“Palestinian HAMAS
movement, the Palestinian Islamic Jihad, Hezbollah,
. . . al Qaeda, the Egyptian Islamic Jihad, the Libyan
Islamic Fighting Group, dissident groups from
Algeria, Morocco, the Eritrean Islamic Jihad
movement.” Owens IV, 826 F. Supp. 2d at 141
(quoting Kohlmann). “[L]iterally every single jihadist
style group, regardless of what sectarian perspective
they had, was invited to take a base in Khartoum”
during this period. Id. That al Qaeda was included in
this list of renowned terrorist organizations supports
an inference that its terrorist aims were foreseeable –
indeed, foreseen – at the time of Sudan’s invitation.
Sudan’s own briefs implicitly concede the
foreseeability of al Qaeda’s aims in the early 1990s.

116a
To wit, Sudan reiterates the district court’s finding
that “Bin Laden ‘was a famous mujahedeen fighter
who had successfully fought the Soviet Union’ and
‘was thought to be fabulously wealthy.’” See Owens
IV, 826 F. Supp. 2d at 140-41. Yet it argues “the idea
that al-Qaeda was capable of anything significant
was laughable.” True, al Qaeda was then a fledgling
terrorist organization, but one led by a “famous . . .
fighter” and a “fabulously wealthy” fundamentalist
jihadi who had “successfully fought” a world
superpower. Any impartial observer could see the
group’s future potential for mayhem far outstripped
its then already substantial capabilities. Sudan
cannot bury its head in the sand and contend
otherwise.
Furthermore, as its relationship with al Qaeda
deepened, Sudan undoubtedly became aware of al
Qaeda’s hostility to the United States and its
intention to launch attacks against American
interests. Starting in 1991, bin Laden issued a series
of fatwas against the United States from Khartoum,
and al Qaeda operatives publically boasted about
attacking American soldiers in Somalia in 1993.
Despite this, Sudan continued to assist the group in
moving people and resources throughout the region.
Sudan’s claimed ignorance of al Qaeda’s specific aim
to bomb American embassies focuses too narrowly
upon those events; Sudan could not help but foresee
that al Qaeda would attack American interests
wherever it could find them.
In sum, Sudan’s actions in the 1990s were
undoubtedly a “substantial factor in the sequence of
responsible causation” that led to the embassy
bombings. Rothstein, 708 F.3d at 91. Moreover, the

117a
bombings were a “reasonably foreseeable or
anticipated as a natural consequence” of its material
support. Id. Therefore, the district court correctly
held that the plaintiffs had demonstrated proximate
cause, establishing jurisdiction under the FSIA.
2. Sudan’s specific intent
Sudan resists this conclusion by attempting to
graft an additional requirement onto the proximate
cause analysis. The FSIA terrorism exception, Sudan
argues, requires something more than proximate
causation: “The foreseeability aspect of proximate
causation” it says, “is reinforced by § 1605A(a)(1)’s
requirement that material support be provided ‘for’
the predicate act.” Sudan’s point is that the use of
“for” with reference to “the provision of material
support” indicates that the FSIA “requires a showing
of intent” on the part of the foreign sovereign to
achieve the predicate act, for which it refers us to

Village of Hoffman Estates v. Flipside, Hoffman
Estates, Inc., 455 U.S. 489, 502 (1982) (prohibition on

selling merchandise “marketed for use” with illegal
drugs requires a showing of intent on the defendant’s
behalf). But see Posters ’N’ Things, Ltd. v. United
States, 511 U.S. 513, 519 (1994) (prohibition in the
same statute on selling a product “intended or
designed for use” with illegal drugs looks only to the
objective features of the product, not to a defendant’s
intent). Under this reading, Sudan’s material support
could not give rise to jurisdiction unless Sudan
specifically intended its support to cause the embassy
bombings.
Although the record contains much evidence of
Sudan’s support for al Qaeda and its general

118a
awareness of the group’s terrorist aims, nothing
suggests that Sudan specifically knew of or intended
its support to cause the embassy bombings. Nothing
in the FSIA, however, requires a greater showing of
intent than proximate cause. Indeed, we dispatched a
similar argument in Kilburn, along with a
hypothetical raised by the sovereign defendant:
A terrorist organization is supported by two foreign
states. One specifically instructs the organization to
carry out an attack against a U.S. citizen. Can the
state which only provides general support, but was
not involved with the act giving rise to the suit, also
be stripped of its immunity?
376 F.3d at 1128. Yes, we said. Because material
support “is difficult to trace,” requiring more than
proximate cause “could absolve” a state from liability
when its actions significantly and foreseeably
contributed to the predicate act. Id.
Further, we rejected the related argument that
the “provision of material support or resources . . . for
such an act” required that “a state’s material support
must go directly for the specific act.” Id. at 1130. That
limitation, we explained, “would likely render §
1605(a)(7)’s material support provision ineffectual”
because material support “is fungible” and “terrorist
organizations can hardly be counted on to keep
careful bookkeeping records.” Id. Indeed, in other
situations, courts have required neither specific
intent nor direct traceability to establish the liability
of material supporters of terrorism. See Boim, 549
F.3d at 698 (approving liability for donors to terrorist
organizations whose donations were made for nonterrorism purposes). As Judge Posner has aptly said,

119a
“[t]o require proof that [a defendant] intended that
his contribution be used for terrorism . . . would as a
practical matter eliminate . . . liability except in cases
in which the [defendant] was foolish enough to admit
his true intent.” Id. at 698-99. The same holds true
for a state sponsor of terrorism under the FSIA; it
may not avoid liability for supporting known terrorist
groups by professing ignorance of their specific plans
for attacks. In sum, that the evidence failed to show
Sudan either specifically intended or directly
advanced the 1998 embassy bombings is irrelevant to
proximate cause and jurisdictional causation.
*****
In short, the plaintiffs have offered sufficient
admissible evidence that establishes that Sudan’s
material support of al Qaeda proximately caused the
1998 embassy bombings. The district court, therefore,
correctly held the plaintiffs met their burden of
production under the FSIA terrorism exception.
Because Sudan failed to participate in the litigation,
it did not rebut that its material support caused these
extrajudicial killings. Therefore, this court has
jurisdiction to hear claims against Sudan arising
from the 1998 embassy bombings.
IV. Timeliness o f Certain Claims
The
remainder of Sudan’s jurisdictional
arguments apply only to certain groups of plaintiffs.
Even if we rule for Sudan on all these matters, many
of the judgments – and the district court’s 2011
holding on liability – will therefore remain intact.
One such argument is that the claims of certain
plaintiffs are barred by the statute of limitation in

120a
the FSIA, which Sudan views as a jurisdictional limit
on the court’s power to hear a case. Like its
predecessor, the current version of the FSIA
terrorism exception contains a limitation period on
personal injury claims against a state sponsor of
terrorism. Application of the limitation period
requires analysis of three components of the 2008
NDAA.
The first is the limitation period itself. Codified at
§ 1605A(b), the FSIA provides that:
An action may be brought or maintained
under this section if the action is
commenced, or a related action was
commenced under section 1605(a)(7) . . .
or [the Flatow Amendment] not later
than the latter of (1) 10 years after April
24, 1996; or (2) 10 years after the date
on which the cause of action arose.
The second component is § 1083(c)(3) of the 2008
NDAA, which defines the contours of a “related
action” and imposes an additional time limitation on
the filing of related actions:
(3) RELATED ACTIONS. – If an action
arising out of an act or incident has been
timely commenced under section
1605(a)(7) . . . or [the Flatow
Amendment], any other action arising
out of the same act or incident may be
brought under section 1605A . . . if the
action is commenced not later than the
latter of 60 days after – (A) the date of
the entry of judgment in the original

121a
action; or (B) the date of the enactment
of this Act.
Finally, in addition to filing a new action or a
“related action,” the NDAA offers a second way to
avoid the limitation period if the plaintiff had
previously brought a claim under § 1605(a)(7).
Section 1083(c)(2) of the NDAA provides, in part:
(2) PRIOR ACTIONS. – (A) IN
GENERAL. – With respect to any action
that – (i) was brought under section
1605(a)(7) of title 28, United States
Code, or [the Flatow Amendment] before
the date of enactment of this act . . . and
. . . is before the courts in any form . . .
that action, and any judgment in the
action shall, on motion made by
plaintiffs . . . be given effect as if the
action had originally been filed under
section 1605A(c).
For these “prior actions” the NDAA removes the
“defenses of res judicada, collateral estoppel, and
[the] limitations period” if the plaintiff moved to
convert his prior action or refiled a new action under
§ 1605A(c). NDAA § 1083(c)(2)(B). A new claim using
§ 1083(c)(2) is timely if it complies with the limitation
period in § 1605A(b) or was filed within 60 days of
enactment of the NDAA. Id. § 1083(c)(2)(C).
Each provision comes into play in Sudan’s
challenge to the timeliness of the plaintiffs’ actions.
In this case, the plaintiffs’ causes of action arose on
August 7, 1998, the date of the embassy bombings.
See Vine v. Republic of Iraq, 459 F. Supp. 2d 10, 21
(D.D.C. 2006) (holding a claim under the FSIA “arises

122a
on the date that the action in question occurred”),

rev’d in part on another ground sub nom. Simon v.
Republic of Iraq, 529 F.3d 1187, 1194-95 (D.C. Cir.
2008) (describing an argument to the contrary as
“rather strained”), rev’d on another ground sub nom.
Republic of Iraq v. Beaty, 556 U.S. 848 (2009).
Therefore, unless the plaintiffs can identify a “related
action . . . commenced under section 1605(a)(7)” or
had brought a “prior action” that remained “before
the courts in any form,” the last day to file a new
action under § 1605A was August 7, 2008, ten years
after the bombings.

Sudan does not dispute that several of the
plaintiffs have filed timely actions under § 1605A.
The Owens plaintiffs filed their original action under
§ 1605(a)(7) in October 2001 and after passage of the
NDAA timely moved to convert their prior action
pursuant to § 1083(c)(2). Days before the statutory
deadline, the Amduso and Wamai plaintiffs filed new
actions under § 1605A, and the Osongo and Mwila
plaintiffs filed suit on the last possible day. Sudan
does not challenge the timeliness of these plaintiffs.
The Khaliq, Opati, and Aliganga plaintiffs are
another story. The Khaliq plaintiffs filed a complaint
in November 2004 but missed the statutory deadline
to convert that prior action under § 1083(c)(2) into a
new action under § 1605A. See Khaliq v. Republic of
Sudan, No. 1:04-cv-01536, at *3 (D.D.C. Sept. 9, 2009)
(denying motion to convert under § 1083(c)(2)). Six
months later, they filed a new case under § 1605A,
asserting it was “related” both to their earlier suit
and to the Owens, Mwila, and Amduso actions. The
district court ordered briefing on whether the new

123a
suit was a “related action” within the scope of §
1083(c)(3) and ultimately allowed the case to proceed.
After the court held the evidentiary hearing and
made its findings on liability and well past August
2008, the Aliganga plaintiffs moved to intervene in
the Owens action, which the district court allowed,
holding their claims were “related” to the Owens
action per § 1083(c)(3). The Opati plaintiffs joined
last, filing a suit “related” to the Owens action under
§ 1083(c)(3) on July 24, 2012. The court allowed both
the Aliganga and Opati plaintiffs the benefit of its
earlier findings on liability and jurisdiction.
Sudan challenges the timeliness of the Khaliq,
Opati, and Aliganga plaintiffs, which raises two
issues, only one of which we need to address on
appeal. First, Sudan asserts that the limitation
period in § 1605A(b) is jurisdictional and therefore
bars a court from hearing any untimely action.
Unless the limitation period in § 1605A(b) is
jurisdictional, Sudan forfeited this affirmative
defense by defaulting in the district court. See
Practical Concepts, 811 F.2d at 1547. The plaintiffs
argue that the time bar, like most statutes of
limitation, is not jurisdictional and hence is forfeit.
See Day v. McDonough, 547 U.S. 198, 202 (2006)
(“Ordinarily in civil litigation, a statutory time
limitation is forfeited if not raised in a defendant’s
answer or in an amendment thereto”).
Assuming the limitation period is jurisdictional,
Sudan contends the Khaliq, Opati, and Aliganga
claims are barred because they are not “related
actions” under § 1605A(b). A “related action,” Sudan
urges, must be filed by the same plaintiff who had

124a
filed an earlier action under § 1605(a)(7), which the
Opati and Aliganga plaintiffs did not do. We need
not, however, decide what qualifies as a “related
action” because we hold the limitation period in §
1605A(b) is not jurisdictional. As a consequence
Sudan forfeited its limitation defense by defaulting in
the district court. See Harris v. Sec’y, U.S. Dep’t of
Veterans Affairs, 126 F.3d 339, 343 (D.C. Cir. 1997).
A line of recent Supreme Court cases has defined
the circumstances in which a statute of limitation is
jurisdictional. These cases uniformly recognize that a
limitation period is not jurisdictional “unless it
governs a court’s adjudicatory capacity, that is, its
subject-matter or personal jurisdiction.” Henderson
ex rel. Henderson v. Shinseki, 562 U.S. 428, 435
(2011). To have a jurisdictional effect, a statute of
limitation must “speak in jurisdictional terms,” that
is, restrict “a court’s power” to hear a claim. United
States v. Kwai Fun Wong, 135 S. Ct. 1625, 1633
(2015) (quoting Arbaugh v. Y & H Corp., 546 U.S.
500, 515 (2006)). Unless the Congress has “clearly
stated” that it “imbued a procedural bar with
jurisdictional consequences,” the bar does not have
them. Id. at 1632 (quoting Sebelius v. Auburn Reg’l
Med. Ctr., 568 U.S. 145, 153 (2013)) (internal
quotation marks and alterations omitted). Thus has
the Court “made plain that most time bars are
nonjurisdictional.” Id.
Of course, the Congress need not incant “magic
words” in order clearly to demonstrate its intent.
Henderson, 562 U.S. at 436. We look for the
Congress’s intent in “the text, context, and relevant
historical treatment of the provision at issue.”
Musacchio v. United States, 136 S. Ct. 709, 717

125a
(2016) (quoting Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 166 (2010) (internal quotation marks
omitted)). Doing so shows that § 1605A(b) is not a
limit on the court’s jurisdiction to hear an untimely
FSIA claim.
We begin, as we must, with the text of § 1605A(b),
which we note does not appear to “speak in
jurisdictional terms”:
An action may be brought or maintained
under this section . . . if commenced . . .
[within] 10 years after April 24, 1996; or
10 years after the date on which the
cause of action arose.
Nothing in the section refers to the “court’s power” to
hear a case. Nothing in § 1605A(a) “conditions its
jurisdictional grant on compliance with [the] statute
of limitations” in § 1605A(b). Musacchio , 136 S. Ct. at
717 (quoting Reed Elsevier, 559 U.S. at 165). Indeed,
§ 1605A(b) “is less ‘jurisdictional’ in tone” than
limitation periods held nonjurisdictional in prior
cases. See Auburn Reg’l Med. Ctr., 568 U.S. at 154
(comparing the permissive term “may” in one statute
with the mandatory term “shall” in another but
holding both were nonjurisdictional). The plain text
alone is enough to render the limitation period in §
1605A(b) nonjurisdictional.
Sudan nonetheless contends that the reference to
“actions” rather than “claims” imbues the provision
with jurisdictional import. For this proposition Sudan
cites Spannaus v. U.S. Department of Justice , 824
F.2d 52 (D.C. Cir. 1987), in which we held a statute
that similarly barred untimely “actions” was
jurisdictional. See 28 U.S.C. § 2401(a). Sudan argues

126a
that by using the term “action” in § 1605A(b) the
Congress made a clear statement replicating the
jurisdictional reach of the similarly phrased statute
at issue in Spannaus.
This analogy has several problems. First, as the
plaintiffs point out, Spannaus was decided nearly a
decade before the Supreme Court erected the
presumption against jurisdictional effect, see Carlisle
v. United States, 517 U.S. 416, 434 (1996) (Ginsburg,
J. concurring) (making the first reference to a
presumption against jurisdictional effect), and the
Congress enacted § 1605A after that presumption
had been fully articulated, see Kontrick v. Ryan, 540
U.S. 443, 455 (2004) (criticizing the “less than
meticulous” use of the term “jurisdictional” in earlier
decisions). Therefore, Spannaus is unpersuasive on
the matter. Second, the plaintiffs correctly note we
did not rely upon the phrase “every civil action” in
Spannaus to hold the limitation period in § 2401(a)
jurisdictional. Rather, we relied upon longstanding
precedent establishing that “§ 2401(a) is a
jurisdictional condition attached to the government's
waiver of sovereign immunity, and as such must be
strictly construed.” 824 F.2d at 55 (citing United
States v. Mottaz, 476 U.S. 834 (1986) and Soriano v.
United States, 352 U.S. 270, 276 (1957)); cf. John R.
Sand & Gravel Co. v. United States, 552 U.S. 130,
139 (2008) (holding a statute of limitation as
jurisdictional when “[b]asic principles of stare decisis”
required that outcome). In this case, precedent does
not help Sudan because no court has given § 1605A(b)
“a definitive earlier interpretation” that could
displace the presumption against jurisdictional reach.
Id. at 137-38.

127a
Further, Sudan’s invocation of the nostrum that
identical words in similar statutes demand an
identical construction finds little support in the most
relevant precedents. See Wong, 135 S. Ct. at 1629
(rejecting the argument that use of the phrase “shall
forever be barred” rendered a limitation period
jurisdictional despite the inclusion of the identical
phrase in a jurisdictional statute of limitation).
Therefore, the use of the term “action” in a provision
held jurisdictional in Spannaus says little about
whether a similarly phrased statute also has
jurisdictional reach. Nor have courts attached
jurisdictional significance to the word “action” in
other statutes. See, e.g., Reed Elsevier, 559 U.S. at
166 (holding nonjurisdictional 17 U.S.C. § 411(a),
which bars any “civil action” for infringement without
prior registration of the copyright); Hardin v. City
Title & Escrow Co ., 797 F.2d 1037, 1040 (D.C. Cir.
1986) (stating that 15 U.S.C. § 15b, which bars “[a]ny
[untimely] action to enforce any cause of action,” is “a
good example of a non-jurisdictional time limitation”).
Sudan presents no reason we should embrace
Spannaus yet ignore these other precedents as well
as the Supreme Court’s most recent guidance on
statutory interpretation. Hence, we find no support
for Sudan’s textual argument that § 1605A(b) is
jurisdictional.
Sudan next argues from the structure of the
statute in which § 1605A(b) appears: Because the
limitation period follows immediately after the grant
of jurisdiction in § 1605A(a), it takes on the
jurisdictional nature of the prior provision. Again,
precedent suggests otherwise. As the plaintiffs note,
the Supreme Court has held the “separation” of a

128a
time bar “from jurisdictional provisions” implies the
limitation period is not jurisdictional. Gonzalez v.
Thaler, 132 S. Ct. 641, 651 (2012); cf. Blueport Co.,
LLC v. United States, 533 F.3d 1374, 1380 (Fed. Cir.
2008) (holding limits on patent infringement suits
against the Government are jurisdictional because
they appear in the same sentence as a general waiver
of sovereign immunity). The limitation period in §
1605A(b) and the grant of jurisdiction in § 1605A(a)
appear in two different subsections of the terrorism
exception, only one of which speaks in jurisdictional
terms. The remaining subsections of § 1605A are
plainly nonjurisdictional. See, e.g., 28 U.S.C. §§
1605A(c) (private right of action), 1605A(d)
(additional damages), 1605A(e) (use of special
masters), 1605A(g) (property disposition). That the
limitation period follows immediately after the
jurisdictional provisions of § 1605A(a) is of little
import. See Gonzalez, 565 U.S. at 147 (“Mere
proximity will not turn a rule that speaks in
nonjurisdictional terms into a jurisdictional hurdle”).
If proximity alone were enough, then every
subsection in a section containing a jurisdictional
provision would, by the transitive property, also abut
a jurisdictional subsection and therefore be
jurisdictional as well, an absurd proposition. Auburn
Reg’l Med. Ctr., 568 U.S. at 155 (“A requirement we
would otherwise classify as nonjurisdictional . . . does
not become jurisdictional simply because it is placed
in a section of a statute that also contains
jurisdictional provisions”).
Sudan also argues the history of § 1605A supports
reading the time bar in § 1605A(b) as jurisdictional.
Prior to the enactment of the 2008 NDAA, the FSIA

129a
terrorism exception under § 1605(a)(7) contained a
similar time bar of ten years. See 28 U.S.C. § 1605(f)
(2006). Sudan now contends that § 1605 was
“undisputedly a purely jurisdictional statute,”
rendering both the current and the former limitation
periods jurisdictional as well.
This argument mischaracterizes both old § 1605(f)
and new § 1605A. The time bar in the former
terrorism exception was in a separate subsection of
the FSIA, § 1605(f), from the grant of jurisdiction
over claims against a state sponsor of terrorism in §
1605(a)(7). Section § 1605 did have several
jurisdictional provisions, see §§ 1605(a)(1)-(7), (b), (d),
but each one expressly proclaimed its jurisdictional
reach. See, e.g., 28 U.S.C. §§ 1605(a) (“A foreign state
shall not be immune from the jurisdiction of courts of
the United States or of the States in any case” falling
within one of the seven enumerated exceptions). The
other four subsections of § 1605 made no mention of
jurisdiction. The difference is telling, but
understandable as these provisions – much like those
in § 1605A – defined terms (§ 1605(e)), limited
discovery (§ 1605(g)), and governed the choice of law
and the calculation of damages (§ 1605(c)), among
other things, none of which could have jurisdictional
effect. As in § 1605A, § 1605 demonstrates that when
the Congress intends to make a provision
jurisdictional, it normally does so expressly. When
words of jurisdictional import are absent, so too, we
presume, is jurisdictional effect.
Sudan lastly argues that waivers of sovereign
immunity must be strictly construed. See Spannaus,
824 F.2d at 55. But see Scarborough v. Principi, 541
U.S. 401, 421 (2004) (“[L]imitations principles should

130a
generally apply to the Government ‘in the same way
that’ they apply to private parties”) (quoting
Franconia Assocs. v. United States, 536 U.S. 129, 145
(2002)). The Supreme Court has twice addressed this
very point and rejected it for time bars that
conditioned waivers of the U.S. Government’s
sovereign immunity. Irwin v. Dep’t of Veterans
Affairs, 498 U.S. 89, 94-96 (1990); Wong, 135 S. Ct. at
1636. Treating a time bar as nonjurisdictional, the
Court has said, “is likely to be a realistic assessment
of legislative intent” and “amounts to little, if any,
broadening of the congressional waiver” of sovereign
immunity. Irwin, 498 U.S. at 95. Therefore, Sudan’s
argument that sovereignty gives jurisdictional import
to the limitation period in the FSIA terrorism
exception is unpersuasive.
In any event, Sudan misses the distinction
between a waiver of sovereign immunity and an
exception to the statutory grant of foreign sovereign
immunity. The Congress “did not waive [a foreign
state’s] sovereign immunity in enacting [the FSIA
terrorism exception]” because “only the sovereign can
forswear the sovereign’s legal rights.” Simon, 529
F.3d at 1196. Rather, “[i]n the terrorism exception
the Congress qualified the statutory grant of
immunity to [foreign sovereigns],” which is “itself ‘a
matter of grace and comity.’” Id. (quoting Verlinden,
461 U.S. at 486). Because the FSIA exceptions are not
waivers of sovereign immunity, the rule of strict
construction does not apply.
Having reviewed the text, structure, or history of
the FSIA terrorism exception, we see “no authority
suggesting the Congress intended courts to read
[§ 1605A(b)] any more narrowly than its terms

131a
suggest.” Id. Sudan’s arguments to the contrary fail.
We therefore hold that the limitation period in §
1605A(b) is not jurisdictional. It follows that Sudan
has forfeited its affirmative defense to the Khaliq,
Opati, and Aliganga actions by failing to raise it in
the district court. See Musacchio , 136 S. Ct. at 717;
Harris, 126 F.3d at 343. As a consequence, we have
no need to consider Sudan’s interpretation of a
“related action” under NDAA § 1083(c)(3).
V. Jurisdiction and Causes of A ction f or Claim s of
Third Parties
Sudan next takes aim at claims brought under
state and federal law by the family members of those
killed or injured in the embassy bombings. First,
Sudan contends § 1605A(a) does not grant the court
jurisdiction to hear a claim from a plaintiff (or the
legal representative of a plaintiff) who was not
physically injured by a terrorist attack. Second, even
if jurisdiction is proper, Sudan argues the federal
cause of action in § 1605A(c) supplies the exclusive
remedy for a FSIA claimant, precluding claims under
state law. Finally, Sudan insists a family member
who was not present at the scene of the embassy
bombings cannot state a claim for intentional
infliction of emotional distress (IIED) under District
of Columbia law.
A. Jurisdiction
We turn first to Sudan’s jurisdictional argument,
which we are obliged to address notwithstanding
Sudan’s default. The plaintiffs in this case have
brought two different types of claims under various
sources of law. First are the claims of those physically
injured by the embassy bombings or by the legal

132a
representatives of those now deceased or
incapacitated. Second are the claims of family
members of those physically injured or killed by the
bombings who seek damages for their emotional
distress. Sudan contends the FSIA extends
jurisdiction only to members of the first group and
their legal representatives. The claims of family
members for emotional distress, it argues, are outside
the jurisdiction conferred upon the court.
Sudan’s argument turns upon the meaning of the
phrase
“the
claimant or the
victim” in
§ 1605A(a)(2)(A)(ii). Section 1605A(a) gives the court
jurisdiction and withdraws immunity only when “the
claimant or the victim” falls within one of four
categories: U.S. nationals, members of the armed
forces, and employees or contractors of the United
States acting within the scope of their employment. A
separate subsection of the terrorism exception
provides a federal cause of action to the same groups
of plaintiffs and their legal representatives. 28 U.S.C.
§ 1605A(c).
Sudan contends that “the claimant” in
§ 1605A(a)(2)(A)(ii) refers only to the legal
representative of a victim of a terrorist attack. This
would effectively align the grant of jurisdiction with
the federal cause of action under § 1605A(c). That is,
under Sudan’s proffered interpretation, a court would
have jurisdiction only over claims brought by persons
who could invoke the federal cause of action in §
1605A(c). Applied to the case at hand, this might
preclude jurisdiction over a claim for emotional
distress brought by a relative of someone killed or
injured by the embassy bombings because a family

133a
member is arguably neither a victim of the attack nor
the legal representative of a victim.
Sudan’s argument has several problems. First and
foremost, Sudan’s interpretation is inconsistent with
the plain meaning and the structure of the statute, as
is clear from the differences between the grant of
jurisdiction in § 1605A(a) and the cause of action in
§ 1605A(c). Section 1605A(a)(2) grants jurisdiction
when “the claimant or the victim” is a member of one
of the four enumerated groups. In contrast, §
1605A(c) authorizes a cause of action not only for
those four groups but also for the legal representative
of a member of those groups. If the Congress had
intended § 1605A(a)(2) to mirror the scope of §
1605A(c), then it would have used the same term –
“legal representative” – in both subsections (i.e., “the
legal representative or the victim”), as it did with the
verbatim enumeration of the four qualifying groups.
That it did not signals its intent to give the term
“claimant” in § 1605A(a)(2) a meaning different from
and broader than “the legal representative” in §
1605A(c). See Russello v. United States, 464 U.S. 16,
23 (1983).
What, then, does the FSIA mean by the terms
“claimant” and “legal representative”? The plain
meaning of claimant, the plaintiffs correctly note, is
simply someone who brings a claim for relief. Who
can be a claimant is typically defined by the
substantive law under which a plaintiff states a
claim. By contrast, the term “legal representative”
contemplates a far narrower universe of persons
based upon principles of agency or a special
relationship, such as marriage. See, e.g., Fed.
Treasury Enter. Sojuzplodoimport v. SPI Spirits Ltd. ,

134a
726 F.3d 62, 80 (2d Cir. 2013) (“In its broadest usage,
the phrase ‘legal representative’ may refer simply to
‘[o]ne who stands for or acts on behalf of another’”).
Federal and state procedural law, not the substantive
law under which a plaintiff states a claim, typically
defines who may serve as a legal representative in a
given suit. See FED. R. CIV . P. 17(b)(3); Gurley v.
Lindsley, 459 F.2d 268, 279 (5th Cir. 1972) (applying
Texas law in accord with Rule 17(b)). Thus, a legal
representative is a special type of claimant who
proceeds on behalf of an absent party with a
substantive legal right.
Sudan nonetheless offers three reasons we should
narrowly interpret “claimant” to mean no more than
“legal representative.” First, Sudan argues that
interpreting
“claimant”
to
mean
“legal
representative” is necessary to “harmonize[]” the
scope of jurisdiction under § 1605A(a) with the cause
of action under § 1605A(c). If the terms had different
meanings, Sudan warns, then “certain plaintiffs
[could] establish jurisdiction under § 1605A(a)” but
anomalously could not “avail[] themselves of the
private right of action in § 1605A(c).” Here Sudan is
assuming a grant of jurisdiction must be no broader
than the causes of action that may be brought under
it. But that does not follow. Cf. FDIC v. Meyer, 510
U.S. 471, 484 (1994) (noting that “whether there has
been a waiver of sovereign immunity” and “whether
the source of substantive law” “provides an avenue
for relief” are “two ‘analytically distinct’ inquiries”).
The other exceptions to sovereign immunity in the
FSIA exemplify this distinction because they grant
the courts jurisdiction over claims against foreign
sovereigns but neither create nor withdraw

135a
substantive causes of action for FSIA plaintiffs. See
Helmerich & Payne , 137 S. Ct. at 1324 (“Indeed,
cases in which the jurisdictional inquiry does not
overlap with the elements of a plaintiff’s claims have
been the norm in cases arising under other exceptions
to the FSIA”).
Furthermore, even under the prior terrorism
exception, the Congress authorized a cause of action –
in the Flatow Amendment – with a narrower reach
than the grant of jurisdiction in § 1605(a)(7). See
Leibovitch v. Islamic Republic of Iran, 697 F.3d 561,
570-71 (7th Cir. 2012). That the Flatow Amendment
applied only to state officials, not foreign states, took
“nothing away from” the grant of jurisdiction under §
1605(a)(7) because the broader jurisdictional
provision operated independently of the narrower
cause of action. See Cicippio-Puleo , 353 F.3d at 103536. Accordingly, we declined to “harmonize” the broad
grant of jurisdiction in the old terrorism exception
with the narrower cause of action provided by the
Flatow Amendment because doing so would have
conflicted with the text of both provisions. Id. at
1032-33. So too here. Again the Congress has
authorized a narrower cause of action, § 1605A(c),
correlative to a broader jurisdictional grant, §
1605A(a), and as before, we see no reason to distort
the plain meaning of either provision in order to
make them coextensive.
Second, Sudan contends a broad interpretation of
“claimant” would “render[] the term ‘victim’
superfluous.” Not so; as the plaintiffs note, the use of
both terms affords jurisdiction when “either the
claimant or the victim is a national of the United
States” or is within one of the other three groups

136a
identified in the statute. La Reunion Aerienne v.
Socialist People’s Libyan Arab Jamahiriya, 533 F.3d
837, 844 (D.C. Cir. 2008).
Third, Sudan argues that reading “claimant” to
mean “one who brings a claim” would “greatly
expand[] the universe of possible plaintiffs, contrary
to Congressional intent.” The term “claimant,” unlike
the term “victim,” is indeed less bounded by the
underlying acts that give the courts jurisdiction: Only
a limited set of individuals could properly be
considered victims of the 1998 embassy bombings,
whereas the term “claimant” may appear to
encompass a larger universe of possible plaintiffs.
That universe is actually quite limited, however. The
FSIA itself limits claimants to those seeking “money
damages” “for personal injury or death,” 28 U.S.C. §
1605A(a)(1). See La Reunion Aerienne , 533 F.3d at
845 (allowing an insurer to recover payments made to
survivors and to estates of those killed in an airline
bombing because the insureds’ claims were “personal
injury claim[s] under traditional common-law
principles”) (internal quotation marks, emphasis, and
citation removed).
Substantive law also limits who is a proper
claimant under the FSIA. This is clearly the case
with the federal cause of action in the FSIA, which
limits claimants to the four enumerated groups and
their legal representatives. So too with substantive
law outside the FSIA: We have held the common-law
tort of IIED limits recovery to the immediate family
of a victim who is physically injured or killed. See
Bettis v. Islamic Republic of Iran, 315 F.3d 325, 338
(D.C. Cir. 2003) (rejecting claims for IIED brought by
nieces and nephews of a U.S. national taken hostage);

137a
RESTATEMENT (SECOND) OF TORTS § 46 (1965).
Therefore, not every person who experiences
emotional distress from a major terrorist attack – a
universe that could be large indeed – can state a
claim for IIED absent some close relationship to a
victim who was injured or killed. Therefore, due to
the limitations imposed upon potential claimants
both by the FSIA and by substantive law, we are not
persuaded by Sudan’s argument that the plain
meaning of “claimant” produces “absurd results” or is
“contrary to Congressional intent.”
In sum, by its plain text, the FSIA terrorism
exception grants a court jurisdiction to hear a claim
brought by a third-party claimant who is not the legal
representative of a victim physically injured by a
terrorist attack. Who in particular may bring a claim
against a foreign sovereign is a question of
substantive law, wholly separate from the question of
our jurisdiction.
B. Causes of Action
Sudan next contends the foreign family members
cannot state a claim under any source of substantive
law. Starting from first principles, we reiterate that
the question whether a statute withdraws sovereign
immunity is “analytically distinct” from whether a
plaintiff has a cause of action. See Meyer, 510 U.S. at
484; United States v. Mitchell, 463 U.S. 206, 218
(1983). As the district court correctly recognized, we
have never required the Congress, in order to
effectuate a grant of jurisdiction, expressly to “define
the substantive law that applies.” Owens V, 174 F.
Supp. 3d at 286. Indeed, before enactment of the
FSIA, the courts – absent objection by the State

138a
Department – had jurisdiction to hear suits against a
foreign government under state and federal law even
though no statute provided rules of decision for such
cases. See, e.g., Victory Transp. Inc. v. Comisaria
Gen. de Abastecimientos y Transportes, 336 F.2d 354
(2d Cir. 1964) (enforcing a state-law arbitration
agreement against a foreign sovereign via the
Federal Arbitration Act). Hence, unless the
enactment of the FSIA or of § 1605A somehow
changed this situation, a plaintiff proceeding under
the FSIA may rely upon alternative sources of
substantive law, including state law.
Sudan would have us find an abrogation of a
plaintiff’s access to state law in § 1606 of the FSIA,
which provides in relevant part:
As to any claim for relief with respect to
which a foreign state is not entitled to
immunity under section 1605 or 1607 of
this chapter, the foreign state shall be
liable in the same manner and to the
same extent as a private individual
under like circumstances; but a foreign
state except for an agency or
instrumentality thereof shall not be
liable for punitive damages.
When the original FSIA terrorism exception was
in force, § 1606 governed what a claimant could
recover from a foreign sovereign. This was because
the original exception was codified as a subsection of
§ 1605, to which § 1606 expressly applied. After we
declined in Cicippio-Puleo to infer a federal cause of
action against a foreign sovereign arising from §
1605(a)(7) or from the Flatow Amendment, a plaintiff

139a
using the old terrorism exception could press a claim
under state law, as qualified by § 1606, in the same
manner as any other FSIA plaintiff. When the
Congress passed the 2008 NDAA, it repealed old §
1605(a)(7) and codified the current terrorism
exception in new § 1605A. As a result, § 1606, which
references only § 1605 and § 1607, does not apply to
the current FSIA terrorism exception. This, Sudan
contends, demonstrates the Congress’s intent to
foreclose a plaintiff from relying upon state law when
suing under § 1605A. Essentially, Sudan suggests the
Congress struck a deal when it recodified the new
terrorism exception in § 1605A: A plaintiff could sue
under the new federal cause of action but could no
longer press a state-law claim against a foreign
sovereign via the pass-through process endorsed by
Cicippio-Puleo . Therefore, according to Sudan,
plaintiffs who are ineligible for the purportedly
exclusive remedy of the federal cause of action –
including the foreign family members in this case –
were left without a “gateway” to any substantive law
under which to state a claim. Contra Leibovitch, 697
F.3d at 572 (“Although § 1605A created a new cause
of action, it did not displace a claimant's ability to
pursue claims under applicable state or foreign law
upon the waiver of sovereign immunity” (quoting
Estate of Doe v. Islamic Republic of Iran, 808 F.
Supp. 2d 1, 20 (D.D.C. 2011)).
One might wonder, as the plaintiffs do, why we
need to reach this nonjurisdictional argument, which
Sudan forfeited by failing to appear in the district
court. See Practical Concepts, 811 F.2d at 1547. We
do so because we have discretion to reach the
question, see Acree , 370 F.3d at 58, and this case

140a
presents sound reasons for doing so. The question
presented is “purely one of law important in the
administration of federal justice” because most cases
invoking the terrorism exception are filed in this
circuit, see 28 U.S.C. § 1391(f)(4), and “resolution of
the issue does not depend on any additional facts not
considered by the district court.” Acree , 370 F.3d at
58 (quoting Roosevelt v. E.I. Du Pont de Nemours &
Co., 958 F.2d 416, 419 n.5 (D.C. Cir. 1992)). Review is
particularly appropriate here because the foreign
family member plaintiffs have secured billions in
damages against a foreign sovereign. See id. (finding
extraordinary circumstances from a “nearly-billion
dollar default judgment against a foreign
government”). We therefore exercise our discretion to
consider Sudan’s nonjurisdictional argument that the
pass-through approach recognized in Cicippio-Puleo
did not survive enactment of § 1605A.
In our view, Sudan assigns undue significance to
§ 1606. On its face, that section does not authorize a
plaintiff to resort to state (or federal or foreign) law in
a suit against a foreign sovereign. Nor does it create a
substantive body of law for such an action. See First
Nat’l City Bank, 462 U.S. at 620-21. Rather, as the
plaintiffs argue and the district court recognized, §
1606 simply limits the liability of a foreign state to
“the same manner and to the same extent as a
private individual under like circumstances”
regardless of what substantive law is being applied.
The exclusion of punitive damages from the passthrough approach reinforces our confidence that §
1606 operates only to limit, not to create, the liability
of a foreign state. As the Supreme Court has said, the
Congress made clear that the FSIA, including § 1606,

141a
was not “intended to affect the substantive law of
liability” applicable to a foreign sovereign. Id. at 620
(quoting H.R. REP. NO. 94-1487, at 12 (1976)). In
keeping with this straightforward reading, we have
recognized that § 1606 does not authorize a court to
craft federal common law, but rather requires it to
apply state law to suits under the FSIA. See Bettis,
315 F.3d at 333 (noting that § 1606 “instructs federal
judges to find the relevant law, not to make it”).
One might wonder, then, why the Congress moved
the FSIA terrorism exception from § 1605, where it
was covered by § 1606, to § 1605A, where it is not.
Contrary to Sudan’s convoluted argument about an
implied withdrawal of remedies under state law, the
new exception itself provides a ready answer. If the
Congress had reenacted the new terrorism exception
in the same section as the old one, then it would have
created an irreconcilable conflict between the new
federal cause of action, which allows the award of
punitive damages, and § 1606, which prohibits them.
In order to avoid this conflict, a court would have
either to disregard a central element of the federal
cause of action or to hold the new exception implicitly
repealed § 1606 as applied to state sponsors of terror.
See Morton v. Mancari, 417 U.S. 535, 549 (1974)
(noting the “cardinal rule . . . that repeals by
implication are not favored”) (internal quotation
marks removed). Avoiding a conflict between § 1605
and § 1606, rather than Sudan’s strained “gateway”
argument, more likely explains the Congress’s
purpose in moving the terrorism exception out of §
1605.
Of course, in most cases brought under the new
terrorism exception, the plaintiff need not rely upon

142a
state tort law. This does not, however, imply that the
Congress intended to foreclose access to state law by
those who need it, as do foreign family members. U.S.
nationals will continue to sue under § 1605A(c) and
benefit from its consistent application. But the passthrough approach remains viable to effectuate the
intent of the Congress to secure recoveries for other
plaintiffs harmed by a terrorist attack.
C. Intentional Infliction of Emotional Distress
We turn now to Sudan’s third and final argument
respecting family members who have brought statelaw claims for IIED. The district court held that
District of Columbia law controls these actions,
Owens IV, 826 F. Supp. 2d at 157, which Sudan does
not contest. Judgments under D.C. law in favor of the
foreign family member plaintiffs total more than $7
billion. Sudan contends these awards are invalid
because D.C. tort law requires a plaintiff to be
present at the scene of a defendant’s outrageous and
extreme conduct in order to recover for IIED. In
particular, Sudan points to Pitt v. District of
Columbia, in which this court applied the “presence”
requirement to bar a claim for IIED under D.C. law.
491 F.3d 494, 507 (D.C. Cir. 2007).
That case does not extend as far as Sudan
contends. In Pitt, we noted “[t]he District of Columbia
has adopted the standard for intentional infliction of
emotional distress from the Restatement (Second) of
Torts.” Id. (citing Sere v. Grp. Hospitalization, Inc.,
443 A.2d 33, 37 (D.C. 1982). As Sudan points out, the
Second
Restatement
contains
a
presence
requirement:

143a
Where such [extreme and outrageous]
conduct is directed at a third person, the
actor is subject to liability if he
intentionally or recklessly causes severe
emotional distress (a) to a member of
such person's immediate family who is
present at the time, whether or not such
distress results in bodily harm, or (b) to
any other person who is present at the
time, if such distress results in bodily
harm.”
The Restatement, however, also provides that
“there may . . . be other circumstances under which
the actor may be subject to liability for the
intentional or reckless infliction of emotional
distress.” RESTATEMENT (SECOND) OF TORTS § 46
(1965) (caveat). A comment to the Restatement
expressly applies this caveat to the presence
requirement, “leav[ing] open the possibility of
situations in which presence at the time may not be
required.” Id. cmt. l. 6
Although we did apply the presence requirement
in Pitt, the factual situation there was quite different
than in the present case. The plaintiff in Pitt alleged
Several district courts have applied this exception to claims
for emotional distress under the federal cause of action in the
new FSIA terrorism exception. See, e.g., Estate of Heiser v.
Islamic Republic of Iran, 659 F. Supp. 2d 20, 26-27 (D.D.C.
2009) (“All acts of terrorism are by their very definition extrem e
and outrageous and intended to cause the highest degree of
emotional distress, literally, terror, in their targeted audience”)
(quoting Stethem v. Islamic Republic of Iran, 201 F. Supp. 2d
78, 89 (D.D.C. 2002)).
6

144a
emotional distress from the “filing of a false and
misleading
affidavit
and
possible
evidence
tampering.” 491 F.3d at 507. Allowing a claim for
IIED stemming from a procedural irregularity in law
enforcement, we reasoned, would “substantially
expand[] the scope of the third-party IIED tort unde r
District of Columbia law,” id., without any principled
limitation on future actions. In contrast, a massive
terrorist attack resulting in widespread casualties
and worldwide attention would appear so exceptional
that recognizing an appropriate plaintiff’s claim for
IIED would not broaden the scope of liability to
innumerable similar incidents. Therefore, nothing in
Pitt suggests D.C. law would apply the presence
requirement to an act of international terrorism.
At the same time, we proceed with caution when
applying D.C. tort law to this novel situation. The
District of Columbia has yet to decide whether it
would apply the presence requirement or the
exception in the Restatement to an act of
international terrorism. Neither has Maryland, the
common law of which is authoritative when D.C. law
is silent. Clark v. Route , 951 A.2d 757, 763 n.5 (D.C.
2008). Although there are convincing reasons to do
so, there are also good reasons to draw back. Some of
the first cases applying the caveat in the Restatement
dealt with hostage taking. See, e.g., Stethem, 201 F.
Supp. 2d at 89-91; Sutherland v. Islamic Republic of
Iran, 151 F. Supp. 2d 27, 50 (D.D.C. 2001). Hostage
takers often target the family members of the victim,
demanding they pay a ransom for the release of the
hostage. The emotional distress of the family member
is intended to advance the hostage taker’s aims.
Therefore, hostage taking seems to be the type of case

145a
in which the defendant’s extreme and outrageous
conduct is “directed at a third person” but is intended
also to cause severe emotional distress to the absent
plaintiff. See DAN B. DOBBS, THE LAW OF TORTS § 307,
at 384 (2000) (“If the defendants’ conduct is
sufficiently outrageous and intended to inflict severe
emotional harm upon a person which [sic] is not
present, no essential reason of logic or policy prevents
liability”). If so, the plaintiff’s contemporaneous
physical presence is not required because the plaintiff
is the direct target of the tortious conduct, rather
than a mere bystander, as the latest version of the
Restatement recognizes. See RESTATEMENT (THIRD)
OF TORTS : PHYS . & EMOT. H ARM § 46 (2012) (cmt. m)
(“If an actor harms someone for the purpose of
inflicting mental distress on another person, the
[presence] limitations . . . do not apply”).
In contrast, a terrorist bombing is not so precisely
targeted at certain absent individuals. Rather than
leveraging distress inflicted upon specific third
parties to achieve their aims, terrorist bombings
typically target the public at large in order to create a
general environment of fear and insecurity.
Widespread distress, rather than distress “directed
at” or confined to particular persons, provides a
considerably weaker basis for IIED liability. Indeed,
the Second Restatement would preclude an
individual’s recovery for an event causing widespread
emotional distress, absent some unique, foreseeable,
and intended harm to the plaintiff. RESTATEMENT
(SECOND) OF TORTS § 46 cmt. l. For this reason too,
the drafters of the Third Restatement of Torts have
criticized several district court decisions for
abandoning the presence requirement in FSIA

146a
terrorism cases. See RESTATEMENT (THIRD) OF TORTS:
PHYS. & EMOT. H ARM § 46 (2012) reporter’s note cmt.
m (criticizing the “questionable determination that
the terrorists acts were directed not only to the
victims of the attack but also at their family
members”). Although we have not decided the matter,
we too have expressed skepticism that the
sensational nature of a terrorist attack warrants an
exception to the limitations of IIED in the
Restatement. See Bettis, 315 F.3d at 334 (“If any
person that Iran hoped to distress . . . could recover
under section 46(1) as a direct victim of Iran's
conduct, virtually anyone claiming he or she was
affected could recover”).
We believe a court may reasonably characterize a
terrorist bombing as falling either within the caveat
in the Second Restatement or beyond the scope of a
sovereign’s liability to third parties. The plaintiffs
once again urge us not to reach this nonjurisdictional
question forfeited by Sudan’s default, but as with the
availability of state law claims, we see sound reasons
for exercising our discretion to consider the matter.
See Acree , 370 F.3d at 58. Billions of dollars have
been awarded to foreign family members as damages
for IIED. Furthermore, how to apply the Restatement
to terrorist bombings is a question, unfortunately,
almost certain to recur in this Circuit. Finally, this is
a pure question of law that “does not depend on any
additional facts not considered by the district court,”
Roosevelt, 958 F.2d at 419 & n.5, and potentially may
bear upon sensitive matters of international
relations. Cf. Acree , 370 F.3d at 58. The situation
therefore presents “exceptional circumstances”
sufficient to overcome our ordinary reluctance to hear

147a
nonjurisdictional arguments not raised before the
district court. Id.
That said, the choice is not ours to make. District
of Columbia law controls the scope of IIED liability,
and the D.C. Court of Appeals has yet to render a
decision on the matter. Therefore, we shall certify the
question to that court pursuant to D.C. Code Ann. §
11-723. Whether to certify a question “rests in the
sound discretion of the federal court.” Lehman Bros.
v. Schein, 416 U.S. 386, 390-91 (1974). “The most
important consideration guiding the exercise of this
discretion . . . is whether the reviewing court finds
itself genuinely uncertain about a question of state
law that is vital to a correct disposition of the case
before it.” Tidler v. Eli Lilly & Co., 851 F.2d 418, 426
(D.C. Cir. 1988).
This case presents such a question. We are
genuinely uncertain whether the D.C. Court of
Appeals would apply the presence requirement in the
Second Restatement of Torts to preclude recovery for
IIED by family members absent from the scene of a
terrorist bombing. Other states have reached
different conclusions on this question. See Peterson,
515 F. Supp. 2d at 43-44 & n.19 (identifying Florida,
California, and Vermont as states that apply the
presence
requirement
and
Louisiana,
and
Pennsylvania as states that do not).
Furthermore, the question is one of significant
public interest in the District of Columbia. See Eli
Lilly & Co. v. Home Ins. Co., 764 F.2d 876, 884 (D.C.
Cir. 1985). Because the great majority of claims
under the FSIA terrorist exception are brought in the
federal district court in D.C. pursuant to the FSIA

148a
venue provision in 28 U.S.C. 1391(f)(4), this question
of D.C. tort law will likely arise in future cases before
our district court. And the District, as the home of
thousands of government employees, military service
members, and contractors, and as itself a potential
target of terrorist attacks, has a substantial interest
in determining who may recover for the emotional
distress caused by a terrorist attack.
We therefore certify the following question to the
D.C. Court of Appeals:
Must a claimant alleging emotional
distress arising from a terrorist attack
that killed or injured a family member
have been present at the scene of the
attack in order to state a claim for
intentional infliction of emotional
distress?
VI. Punitive Damages
Having affirmed that the district court properly
asserted jurisdiction over the plaintiffs’ claims and
held Sudan liable for their injuries, we now review
the amount in damages it awarded to the plaintiffs.
The court awarded $10.2 billion in damages,
including more than $4.3 billion in punitive damages
under both state and federal law. See, e.g., Opati, 60
F. Supp. 3d at 81-82. In post-judgment motions under
Rule 60(b)(6), Sudan asked the district court to
vacate the awards of punitive damages. The court
declined, reasoning that any nonjurisdictional legal
error in assessing punitive damages against Sudan
did not present an “extraordinary circumstance” that
would justify vacatur. Owens V, 174 F. Supp. 3d at
288; see Gonzalez v. Crosby, 545 U.S. 524, 536 (2005)

149a
(“[R]elief under Rule 60(b)(6) . . . requires a showing
of ‘extraordinary circumstances’”).
Sudan’s renewed request to vacate these awards is
now before us both on appeal from the denial of
Sudan’s Rule 60(b) motions and on direct appeal from
the final judgments. Sudan principally contends the
FSIA terrorism exception does not retroactively
authorize the imposition of punitive damages against
a sovereign for conduct occurring before the passage
of § 1605A. As explained below, we agree. But before
reaching the merits, we first explain why we are
addressing the matter despite Sudan’s default in the
district court.
A. Whether to Review the Awards of P u nitive
Damages
The plaintiffs contend, and the district court
agreed, we need not consider Sudan’s argument
against the awards of punitive damages because it
forfeited this nonjurisdictional challenge by failing to
appear in the district court. While this is true, see
Practical Concepts, 811 F.2d at 1547, there are sound
reasons to exercise our discretion to hear Sudan’s
argument, whether under Rule 60(b) or on direct
appeal.
First, Supreme Court precedent generally favors
more searching appellate review of punitive damages
than of other nonjurisdictional matters. See Pac.
Mut. Life Ins. v. Haslip, 499 U.S. 1, 18 (1991)
(warning against “unlimited judicial discretion” in
fixing punitive damages). Heightened scrutiny is
appropriate because punitive damages are in the
nature of criminal punishment. Id. at 19. Accordingly,
the Court has closely reviewed the size of punitive

150a
damage awards relative to compensatory damages,
State Farm Mut. Auto. Ins. v. Campbell, 538 U.S.
408, 426 (2003), the availability of punitive damages
for conduct occurring outside a court’s territorial
jurisdiction, BMW of N. Am., Inc. v. Gore , 517 U.S.
559, 572 (1996), and the factors a court may consider
in imposing punitive damages, Haslip, 499 U.S. at 2122. In particular, the Court has emphasized the
importance of judicial review to ensure awards of
punitive damages comport with the Constitution.
Honda Motor Co. v. Oberg, 512 U.S. 415, 432 (1994).
Consistent with these concerns, the scope of appellate
review for a timely challenge to an award of punitive
damages is broad. See Cooper Indus., Inc. v.
Leatherman Tool Grp., Inc., 532 U.S. 424, 436 (2001)
(reviewing de novo constitutional challenges to
punitive damages). We think the same concerns call
for a similarly exacting standard for review of an
untimely challenge to an award of punitive damages.
Our view is reinforced by the Court’s warning that
the “[r]etroactive imposition of punitive damages
would raise a serious constitutional question.”
Landgraf v. USI Film Prods., 511 U.S. 244, 281
(1994). 7
In order to avoid possible constitutional
infirmities, other Circuits too have reviewed denials
These circumstances distinguish the review of retroactive
punitive damages from the review of Sudan’s forfeited
limitations defense. See Musacchio, 136 S. Ct. at 717 (“[A]
limitations bar . . . is a defense that becomes part of a case only
if the defendant presses it in the district court”); Day, 547 U .S.
at 202 (“Ordinarily in civil litigation, a statutory time limitation
is forfeited if not raised in a defendant’s answer or in an
amendment thereto”).
7

151a
of Rule 60(b)(6) motions to vacate punitive damages
awarded in default judgments. See Watkins v.
Lundell, 169 F.3d 540, 545 (8th Cir. 1999); Merrill
Lynch Mortg. Corp. v. Narayan, 908 F.2d 246, 253
(7th Cir. 1990). Although review of punitive damages
entered upon default is not always warranted, we
think the circumstances of this case merit appellate
review. Of particular note are the size of the awards
(totaling $4.3 billion), the presentation of a novel
question of constitutional law (retroactivity), and the
potential effect on U.S. diplomacy and foreign
relations. We believe these factors present the
“extraordinary circumstances” needed for review
under Rule 60(b)(6). 8
This issue also comes before the court on direct
appeal from the default judgments. As previously
mentioned, we may consider nonjurisdictional
questions not raised by the parties on direct appeal in
“exceptional circumstances.” Acree , 370 F.3d at 58.
Our discretion is properly exercised over pure
8

The circumstances of this case also distinguish it from

Bankers Life & Casualty Co. v. Crenshaw, 486 U.S. 71 (1988) in

which the Supreme Court declined to hear a challenge to a state
court’s award of punitive damages that the appellant had not
raised in the state court. Here, although Sudan did not object to
punitive damages before the entry of final judgment, it raised
the matter in its post-trial motions for vacatur. Unlike in
Crenshaw, the district court considered these untimely
objections and considered their merits before denying vacatur.
For this reason, we have a “properly developed record on appeal”
and “a reasoned opinion on the merits” with which to evaluate
this pure question of law. Id. at 79-80. Also unlike Crenshaw,
this case does not involve considerations of “comity to the
States” as it arises under federal law, id. at 79, and any concern
about relations between nations cuts in favor of, rather than
against, exercising discretionary review.

152a
questions of law – such as the retroactivity of
punitive damages – that need no further factual
development. Roosevelt, 958 F.2d at 419 & n. 5.
Direct review of forfeited arguments is also
warranted for questions that bear upon sensitive
matters of international relations. Acree , 370 F.3d at
58 (finding exceptional circumstances from a “nearlybillion dollar default judgment against a foreign
government”). Furthermore, because most cases
invoking the FSIA exception for terrorism are
brought in this district, our decision on retroactivity
will provide useful guidance to the district court.
Compare Owens V, 174 F. Supp. 3d at 291 (doubting
whether punitive damages apply retroactively but
declining to vacate award) with Flanagan v. Islamic
Republic of Iran, 190 F. Supp. 3d 138, 182 (D.D.C.
2016) (vacating punitive damages despite the
defendant’s default) and Kumar v. Republic of Sudan ,
No. 2:10-cv-171, at 39 n.17 (E.D. Va. Oct. 25, 2016)
(approving retroactive assessment of punitive
damages); see also Leatherman, 532 U.S. at 436
(noting that “[i]ndependent review [of punitive
damages] is . . . necessary if appellate courts are to
maintain control of, and to clarify, the legal
principles”). Given the size of the awards, the
strength of Sudan’s contentions, and the likelihood of
this question recurring, we believe reviewing the
award of punitive damages both promotes “the
interests of justice” and “advance[s] efficient judicial
administration.” City of Newport, 453 U.S. at 257. We
therefore exercise our discretion to consider Sudan’s
belated objections.

153a
B. Retroactivity of Punitive Damages U n der §
1605A(c)
In challenging the punitive damage awards,
Sudan raises the “presumption against retroactive
legislation” explicated in Landgraf v. USI Film
Products, 511 U.S. 244, 265 (1994). Courts “have
declined to give retroactive effect to statutes
burdening private rights unless Congress had made
clear its intent.” Id. at 270. This presumption avoids
“the unfairness of imposing new burdens on persons
after the fact,” absent a clear signal of congressional
intent to do so. Id. The Court in Landgraf noted the
retroactive authorization of punitive damages, in
particular, “would raise a serious constitutional
question.” Id. at 281.
An analysis of retroactivity entails two steps.
First, the court must determine “whether Congress
has expressly prescribed the statute’s proper reach.”
Id. at 280. If the Congress has clearly spoken, then
“there is no need to resort to judicial default rules,”
and the court must apply the statute as written. Id.
When “the statute contains no such express
command,” the court must then evaluate whether the
legislation “operate[s] retroactively,” as it does if it
“would impair rights a party possessed when he
acted, increase a party’s liability for past conduct, or
impose new duties with respect to transactions
already completed.” Id. If the statute operates
retroactively but lacks a clear statement of
congressional intent to give it retroactive effect, then
the Landgraf presumption controls and the court will
not apply the statute to pre-enactment conduct.
Sudan argues both that the new FSIA terrorism

154a
exception does not contain a clear statement of
retroactive effect and that it operates retroactively.
1. Se ction 1605A operates retroactively
As for the latter point, it is obvious that the
imposition of punitive damages under the new federal
cause of action in § 1605A(c) operates retroactively
because it increases Sudan’s liability for past conduct.
Under § 1605(a)(7), the predecessor to the current
terrorism exception, and the pass-through approach
recognized in Cicippio-Puleo, § 1606 expressly barred
courts from awarding punitive damages against a
foreign sovereign. The 2008 NDAA plainly applies the
new cause of action in § 1605A(c) to the preenactment conduct of a foreign sovereign. Further,
recall that, pursuant to NDAA § 1083(c), a plaintiff
may convert a pending, prior action under §
1605(a)(7) into a new action under § 1605A(c) or file a
new suit arising from the same act or incident as an
action “related” to an original suit timely filed under
§ 1605(a)(7). In both cases, the new actions under §
1605A(c) necessarily are based upon the sovereign
defendant’s conduct before enactment of § 1605A.
The plaintiffs dispute this, relying upon Republic
of Austria v. Altmann, 541 U.S. 677 (2004), in which

the Supreme Court held the jurisdictional provisions
of the FSIA apply to conduct occurring prior to its
enactment notwithstanding the absence of a clear
statement to that effect in the statute. Id. at 692-96,
700. That jurisdiction under the FSIA applies
retroactively, however, has no bearing upon the
question whether the authorization of punitive
damages does as well.

155a
Unlike the grant of jurisdiction held retroactive in
Altmann, the authorization of punitive damages
“adheres to the cause of action” under § 1605A(c),
making it “essentially substantive” and thereby
triggering retroactive operation. Id. at 695 n.15; cf.
Landgraf, 511 U.S. at 274 (“Application of a new
jurisdictional rule usually takes away no substantive
right,” causing it not to operate retroactively)
(internal quotation marks omitted). Furthermore,
while the original FSIA codified only the preexisting
“restrictive theory” of foreign sovereign immunity,
leaving the scope of a sovereign’s potential liability
unchanged, see Altmann, 541 U.S. at 694, the new
terrorism exception authorizes a quantum of liability
– punitive damages – to which foreign sovereigns
were previously immune.
Having failed to distinguish the FSIA terrorism
exception from the Supreme Court’s core concerns in
Landgraf, the plaintiffs advance a policy argument
transplanted from Altmann. There the Court
explained the “aim of the presumption [against
retroactivity] is to avoid unnecessary post hoc
changes to legal rules on which parties relied in
shaping their primary conduct.” 541 U.S. at 696. In
contrast, the plaintiffs urge “the principal purpose of
foreign sovereign immunity . . . reflects current
political realities and relationships, and aims to give
foreign states and their instrumentalities some
present ‘protection from the inconvenience of suit as a
gesture of comity.’” Id. (quoting Dole Food Co. v.
Patrickson, 538 U.S. 468, 479 (2003)). Because the
Congress was motivated by these “sui generis”
concerns of comity in initially passing the FSIA, id.,
the plaintiffs contend the presumption in Landgraf

156a
should not apply to a subsequent FSIA amendment,
even if it appears to operate retroactively.
That argument misses the central point of
authorizing punitive damages against a state sponsor
of terrorism, viz., to deter terrorism. By its nature,
deterrence attempts to influence foreign sovereigns in
“shaping their primary conduct.” Id. And when the
law affects a defendant’s past actions, “[e]lementary
considerations of fairness dictate that individuals
should have an opportunity to know what the law is
and to conform their conduct accordingly.” Landgraf,
511 U.S. at 265.
This principle applies equally to state sponsors of
terrorism. As the Supreme Court has said, “[e]ven
when the conduct in question is morally
reprehensible or illegal, a degree of unfairness is
inherent whenever the law imposes additional
burdens based on conduct that occurred in the past.”
Id. at 282 n.35. Therefore, without a clear statement
of retroactivity, courts have properly declined to
apply statutes authorizing an award of punitive
damages, even for outrageous conduct. See, e.g.,
Ditullio v. Boehm, 662 F.3d 1091, 1100 (9th Cir.
2011) (holding that punitive damages under the
Trafficking Victims Protection Act are unavailable to
punish child sex trafficking that occurred before
enactment); Gross v. Weber, 186 F.3d 1089, 1091 (8th
Cir. 1999) (holding the same for the Violence Against
Women Act as applied to pre-enactment sexual
abuse). Hence, unlike the grant of jurisdiction in
Altmann, the authorization of punitive damages in §
1605A(c) cannot be dismissed as a reflection of
“current political realities and relationships” but

157a
rather goes to the heart of the concern in Landgraf
about retroactively penalizing past conduct.
2. Clear statement of retroactive effect
Having concluded that § 1605A(c) operates
retroactively, the next question is whether the
Congress has made a clear statement authorizing
punitive damages for past conduct. We will find that
authorization only if the statute is “so clear that it
could sustain only one interpretation.” See Lindh v.
Murphy, 521 U.S. 320, 328 n.4 (1997). With this in
mind, we agree with the district court that the FSIA
contains no such statement. Owens V, 174 F. Supp.
3d at 289.
As a starting point, we look for a clear statement
in § 1605A(c), which provides that a designated state
sponsor of terrorism:
shall be liable . . . for personal injury or death caused
by acts described in subsection (a) (1) of that foreign
state, or of an official, employee, or agent of that
foreign state, for which the courts of the United
States may maintain jurisdiction under this section
for money damages. In any such action, damages may
include economic damages, solatium, pain and
suffering, and punitive damages. In any such action,
a foreign state shall be vicariously liable for the acts
of its officials, employees, or agents.
On its face, nothing in the text of § 1605A(c)
speaks to whether punitive damages are available
under the federal cause of action for pre-enactment
conduct. Nor does precedent provide support for
retroactivity. Although Altmann held the grant of
jurisdiction in § 1605(a) applies retroactively (despite

158a
lack of a clear statement to that effect), the
authorization of punitive damages under the current
terrorism exception lies in the cause of action under §
1605A(c), not in the grant of jurisdiction under §
1605A(a).
The plaintiffs contend that § 1083(c) of the 2008
NDAA, when combined with the authorization of
punitive damages in § 1605A(c), provides a clear
statement of retroactive effect. As we have seen,
supra part IV, both a converted prior action under §
1083(c)(2) and a related action under § 1083(c)(3)
necessarily arise out of conduct that occurred before
the enactment of the 2008 NDAA, and both
provisions allow a plaintiff to proceed under the
federal cause of action in § 1605A(c), which
authorizes punitive damages. Accordingly, the
plaintiffs contend, both § 1083(c)(2) and (c)(3), when
read in conjunction with § 1605A(c), clearly allow a
court to award punitive damages under the federal
cause of action for pre-enactment conduct.
This argument takes one too many a logical leap.
Yes, by allowing a plaintiff to convert an action
brought under § 1605(a)(7), § 1083(c)(2) clearly
authorizes the federal cause of action to apply
retroactively. This, however, does not mean that §
1083(c) authorizes the punitive damages in §
1605A(c) to apply retroactively as well. Cf. Roeder v.
Islamic Republic of Iran, 646 F.3d 56, 61-62 (D.C. Cir.
2011) (finding no clear statement that § 1083(c)(3)
abrogated the Algiers Accords simply by allowing
plaintiffs to bring actions under § 1605A related to
those formerly dismissed by reason of the Accords).
Instead, § 1083(c) operates as a conduit for a plaintiff
to access the cause of action under § 1605A(c). If

159a
punitive damages under § 1605A(c) were not
available retroactively to any plaintiff (including
those who did not make use of § 1083(c)), then
nothing in § 1083(c) would change that. Inversely, if §
1083(c) did not exist, then one plaintiff’s inability to
convert his pending case or to bring a related action
under § 1083(c) would not detract from the
retroactive availability of punitive damages for
another plaintiff if such relief were clearly authorized
by the Congress. At most, Sudan has identified §
1083(c) as a plausible mechanism through which the
Congress could have authorized punitive damages for
past conduct. But Landgraf demands more, and no
clear statement emerges from the union of § 1083(c)
and § 1605A(c).
There being no clear textual command, the
plaintiffs urge that the purpose of § 1083(c) supplies
the necessary clear statement of congressional intent.
An argument based solely upon the purpose of a
statute can hardly supply a “clear statement” of any
sort. See Bowen v. Georgetown Univ. Hosp., 488 U.S.
204, 208 (1988) (“congressional enactments and
administrative rules will not be construed to have
retroactive effect unless their language requires this
result”). Because an expansion of punitive damages
would operate retroactively by “increas[ing] [Sudan’s]
liability for past conduct,” the presumption in
Landgraf applies and bars an award of punitive
damages for the embassy bombings, which occurred
before the enactment of the 2008 NDAA. Therefore,
we vacate the award of punitive damages to plaintiffs
proceeding under the federal cause of action.

160a
C. Retroactivity of Punitive D ama ges U n der
State Law
The same principle applies to the awards of
punitive damages to plaintiffs proceeding under state
law. Sudan makes two arguments against the
availability of punitive damages for them. Sudan first
contends that § 1605A(c) provides the sole source for
seeking punitive damages against a foreign
sovereign. Sudan rests this view upon § 1606 of the
FSIA, which precludes punitive damages against a
sovereign defendant. As we have recognized, supra p.
95, § 1606, by its terms, applies only to claims
brought under § 1605 and § 1607 of the FSIA. Owens
V, 174 F.3d at 290. Section 1606 therefore has no
bearing upon state law claims brought under the
jurisdictional grant in § 1605A.
If this were the end of the analysis, however, a
puzzling outcome would arise from our holding that
punitive damages are not available retroactively to
plaintiffs proceeding under the federal cause of action
in § 1605A(c). As we have said, in creating a federal
cause of action, the Congress sought to end the
inconsistencies in the “patchwork” pass-through
approach of Cicippio-Puleo . See Leibovitch, 697 F.3d
at 567. Allowing punitive damages for pre-enactment
conduct under state but not federal law would
frustrate this intent: Plaintiffs otherwise eligible for
the federal cause of action, for which punitive
damages are unavailable, would instead press state
law claims for punitive damages, which would
effectively perpetuate the inconsistent outcomes
based upon differences in state law that the Congress
sought to end by passing § 1605A.

161a
As it happens, the retroactive authorization of
punitive damages under state law fails for the same
reason it does under the federal cause of action: The
authorization of § 1605A, read together with § 1606,
lacks a clear statement of retroactive effect. Without
the Landgraf presumption, the enactment of § 1605A
would have lifted the restriction on punitive damages
in § 1606 from state law claims. If the express
authorization of punitive damages under § 1605A(c)
lacks a clear statement of retroactive effect, then the
implicit, backdoor lifting of the prohibition against
punitive damages in § 1606 for state law claims fares
no better. Cf. Landgraf, 511 U.S. at 259-60 (finding
that cross-references between several sections of the
Civil Rights Act did not impliedly make a clear
statement of retroactive effect). As a result, a plaintiff
proceeding under either state or federal law cannot
recover punitive damages for conduct occurring prior
to the enactment of § 1605A. Accordingly we vacate
all the awards of punitive damages.
VII. Vacatur Under Rule 60(b)
Finally, Sudan argues the district court abused its
discretion in denying its motions to vacate the default
judgments, invoking three sections of the Rule 60(b):
the judgments are void for lack of subject matter
jurisdiction per § (b)(4); default was due to “excusable
neglect” per § (b)(1); and relief may be justified for
“any other reason” per § (b)(6). The first jurisdictional
ground is nondiscretionary, Bell Helicopter, 734 F.3d
at 1179, and has been rejected already in the sections
on extrajudicial killing, jurisdictional causation, and
the ability of family members of a victim physically
injured by the bombings to press a claim under §
1605A.

162a
We review the district court’s decision to deny
vacatur on the other two grounds for abuse of
discretion. Gonzalez, 545 U.S. at 535 (“Rule 60(b)
proceedings are subject to only limited and
deferential appellate review”). In doing so, we
recognize “the district judge, who is in the best
position to discern and assess all the facts, is vested
with a large measure of discretion in deciding
whether to grant a Rule 60(b) motion.” Twelve John
Does v. District of Columbia, 841 F.2d 1133, 1138
(D.C. Cir. 1988). Deferential review preserves the
“delicate balance between the sanctity of final
judgments . . . and the incessant command of a
court’s conscience that justice be done in light of all
the facts.” Good Luck Nursing Home, Inc. v. Harris,
636 F.2d 572, 577 (D.C. Cir. 1980) (emphasis and
internal quotation marks removed). With respect to
Rule 60(b)(1), relief for excusable neglect “is rare” as
“such motions allow district courts to correct only
limited types of substantive errors,” Hall v. CIA, 437
F.3d 94, 99 (D.C. Cir. 2006), and relief for “any other
reason” under Rule 60(b)(6) is even more rare, being
available only in “extraordinary circumstances,”
Ackermann v. United States, 340 U.S. 193, 199
(1950). Factual determinations supporting the
district court’s decision are, of course, reviewed only
for clear error. Gates v. Syrian Arab Republic, 646
F.3d 1, 4 (D.C. Cir. 2011).
Sudan, as “the party seeking to invoke Rule
60(b),” bears “the burden of establishing that its
prerequisites are satisfied.” Id. at 5 (internal
alterations and quotation marks removed). As we
have said before, “no principle of sovereign immunity
law upsets the parties’ respective burdens under Rule

163a
60(b); nor do oft cited ephemeral principles of
fairness” demand a different result for a foreign
sovereign than for a private litigant. Id. In order to
secure vacatur, therefore, Sudan must show the
district court, in denying its motion for relief, relied
upon an incorrect understanding of the law or a
clearly erroneous fact. Sudan has not met this
burden.
A. Excusable Neglect Under Rule 60(b)(1)
We begin with Sudan’s claim of excusable neglect,
which the district court addressed in detail. In
evaluating a claim of excusable neglect, a court
makes an equitable determination based upon “the
danger of prejudice to the [non-moving party], the
length of the delay and its potential impact on
judicial proceedings, the reason for the delay,
including whether it was within the reasonable
control of the movant, and whether the movant acted
in good faith.” Pioneer Inv. Servs. Co. v. Brunswick
Assocs., 507 U.S. 380, 395 (1993). Additionally, a
party seeking vacatur must “assert a potentially
meritorious defense.” FG Hemisphere Assocs., LLC v.
Democratic Republic of Congo , 447 F.3d 835, 842
(D.C. Cir. 2006).
In its motion, Sudan submitted a three-page
declaration from Maowia Khalid, the Ambassador of
Sudan to the United States, explaining its failure to
participate in much of the litigation. First, the
Ambassador asserted Sudan’s ongoing domestic
problems, including natural disasters and civil war,
rendered it unable to appear. Khalid Decl. ¶ 4.
Second, the Ambassador said a “fundamental lack of
understanding in Sudan about the litigation process

164a
in the United States” accounted its prolonged absence
from the litigation. Id. ¶ 5. The district court soundly
rejected both reasons. On Sudan’s domestic troubles,
the district court noted that “[s]ome of that turmoil . .
. has been of the Sudanese government's own
making,” but, regardless of blame, Sudan could not
excuse at least six years of nonparticipation without
sending a single communication to the court. Owens
V, 174 F. Supp. 3d at 255. The court further doubted
the credibility of Sudan’s alleged ignorance of U.S.
legal procedure. After all, Sudan had used this excuse
to escape an earlier default in the same litigation,
and the “fundamental-ignorance card cannot
convincingly be played a second time.” Id. at 256.
Although the district court, in denying Sudan’s
Rule 60(b) motion, addressed all the elements of
“excusable neglect” mentioned in Pioneer, on appeal
Sudan challenges only the “reason for the delay” and
the “length of the delay.” The district court’s
unchallenged finding that “vacatur would pose a real
risk of prejudice to the plaintiffs,” Owens V, 174 F.
Supp. 3d at 257, makes it difficult to imagine Sudan
could prevail even if it were to succeed on the two
elements it does raise, Pioneer, 507 U.S. at 397
(affirming a holding of excusable neglect when the
“petitioner does not challenge the findings made
below concerning . . . the absence of any danger of
prejudice” to him), but we consider its arguments
nonetheless.
Preliminarily, Sudan also contends the district
court “ignored” the “policy favoring vacatur under
Rule 60(b)” as it applies to a foreign sovereign. Sudan
then claims error in the district court purportedly
blaming Sudan for the circumstances that prompted

165a
its default. Finally, Sudan faults the district court’s
comparison of the instant case to FG Hemisphere , in
which this court vacated a default judgment against
the Democratic Republic of Congo (DRC).
On the first point, Sudan correctly notes that
precedent in this Circuit supports a liberal
application of Rule 60(b)(1) to default judgments. See
Jackson v. Beech, 636 F.2d 831, 836 (D.C. Cir. 1980).
This stems from the general policy favoring
adjudication on the merits. Id.; Foman v. Davis, 371
U.S. 178, 181-82 (1962). The policy has particular
force with respect to a defaulting sovereign because
“[i]ntolerant adherence to default judgments against
foreign states could adversely affect this nation’s
relations with other nations and undermine the State
Department’s continuing efforts to encourage foreign
sovereigns generally to resolve disputes within the
United States’ legal framework.” FG Hemisphere , 447
F.3d at 838-39 (quoting Practical Concepts, 811 F.2d
at 1551 n.19). Further, we have noted, “[w]hen a
defendant foreign state has appeared and asserts
legal defenses, albeit after a default judgment has
been entered, it is important . . . , if possible, that the
dispute be resolved on the basis of [] all relevant legal
arguments.” Practical Concepts, 811 F.2d at 1552.
For these reasons, the U.S. Government on many
occasions has submitted an amicus brief urging
vacatur of a default judgment against a foreign
sovereign. See, e.g., id.; FG Hemisphere , 447 F.3d at
838; Gregorian v. Izvestia, 871 F.2d 1515, 1518 (9th
Cir. 1989); Jackson v. People’s Republic of China, 794
F.2d 1490, 1495 (11th Cir. 1986). In this case,
however, we think it significant that the Government
has not taken a position on Sudan’s motion to vacate.

166a
Indeed, with only two factually unique exceptions, see
Beaty, 556 U.S. at 855 and Roeder, 646 F.3d at 56,
the Government has not weighed in on behalf of a
defendant state sponsor of terrorism. Cf. Doe v.
Exxon Mobil Corp., 473 F.3d 345, 360 (D.C. Cir. 2007)
(noting that “courts give deference . . . when the
Executive reasonably explains that adjudication of a
particular civil lawsuit would adversely affect the
foreign policy interests of the United States”).
Absent an expressed governmental concern with
the liability of a foreign sovereign, the general policy
favoring vacatur, by itself, cannot control the
resolution of Sudan’s Rule 60(b) motion. After all, the
FSIA expressly authorizes default judgments against
absent sovereigns. See 28 U.S.C. § 1608(e). If policy
considerations alone made vacatur of judgments
against foreign sovereigns under Rule 60(b) nearautomatic, then the general policy favoring vacatur
would render the specific authorization of default
judgments in the FSIA a nullity. A district court
would abuse its discretion if it were simply to apply
the general policy, as Sudan asks us to do now,
without considering the specific facts at hand. See FG
Hemisphere , 447 F.3d at 838-42 (noting the general
policy opposing vacatur but considering the Pioneer
factors). Considering those facts, we see why the
district court said that “shouldering [Sudan’s] burden
is a Herculean task.” Owens V, 174 F. Supp. 3d at
254. Indeed, if we were to vacate the default
judgment in this case, then we could not expect any
sovereign to participate in litigation rather than wait
for a default judgment, move to vacate it under Rule
60(b), appeal if necessary, and then reenter the
litigation to contest the merits, having long delayed

167a
its day of reckoning. Cf. H. F. Livermore Corp. v.
Aktiengesellschaft Gebruder Loepfe , 432 F.2d 689,
691 (D.C. Cir. 1970) (approving of default judgments
“when the adversary process has been halted because
of an essentially unresponsive party” in which case
“the diligent party must be protected lest he be faced
with interminable delay and continued uncertainty
as to his rights”).
Sudan’s own actions place it well outside the
general policy favoring vacatur. In the cases it cites,
relief was justified because the defendant had no
notice of the default and promptly responded once
made aware of the judgment. See Bridoux v. E. Air
Lines, 214 F.2d 207, 209 (D.C. Cir. 1954); FG
Hemisphere , 447 F.3d at 839. In contrast, Sudan
knew of the Owens action, twice obtained
sophisticated legal counsel in 2004, and fully
participated in the litigation before absenting itself in
2005. In another case involving a foreign sovereign,
there was no abuse of discretion in denying vacatur
because the defendant had “received actual or
constructive notice of the filing of the action and
failed to answer” or to provide a good-faith reason fo r
its unresponsiveness. See Meadows v. Dominican
Republic, 817 F.2d 517, 521 (9th Cir. 1987).
Moreover, unlike the foreign sovereigns in some cases
vacating default judgments, see, e.g., Gregorian, 871
F.2d at 1525; Jackson, 794 F.2d at 1495-96, Sudan
cannot claim to have defaulted in the reasonable
belief that it enjoyed sovereign immunity. Several
decisions of the district court and this court served on
Sudan suggested the evidence proffered by the Owens
plaintiffs could meet or met their burden of

168a
production to establish the jurisdiction of the court. 9
Even when served with the district court’s 2011
opinion on liability, which definitively established
Sudan’s lack of immunity, Sudan let three years pass
before filing its motion to vacate. For these reasons,
Sudan’s lack of diligence in pursuing its Rule 60(b)
motion weighs heavily against vacatur. Cf.

Reinsurance Co. of Am. v. Administratia Asigurarilor
de Stat, 902 F.2d 1275, 1276, 1278 (7th Cir. 1990)

(affirming denial of Rule 60(b) motion made by a
state-owned insurance company for failure to
“demonstrate the diligence necessary” to vacate a
default judgment).
Furthermore, this is not the first time Sudan has
sought to vacate its default or default judgment. In
May 2003 the district court entered a default against
Sudan for failure to appear. Ten months later, Sudan
secured counsel and moved for vacatur under Rule
55(c), which the court granted based upon the very
“presumption against an entry of default judgment
against a foreign state” that Sudan claims the court
ignored in 2016. Owens I, 374 F. Supp. 2d at 9, 10
n.5. But the presumption against a default judgment
is just that – a presumption. The rationale for
leniency is necessarily weaker when a defendant
See Owens IV, 826 F. Supp. 2d at 150 (“Plaintiffs have
satisfied their burden under 28 U.S.C. § 1608(e) to show . . .
Sudan . . . provided material support and resources . . . for acts
of terrorism”); Owens I, 374 F. Supp. 2d at 17-18 (noting the
plaintiffs “will have no trouble in making [the] allegation[s]”
necessary to “survive a motion to dismiss”) (quoting Price, 294
F.3d at 93); Owens II, 412 F. Supp. 2d at 108-09, 115 (holding
the plaintiffs’ claims, accepted as true, satisfied the pleading
standards of the FSIA).
9

169a
seeks to excuse its second default. See Flanagan, 190
F. Supp. 3d at 158 (noting, as well, Sudan’s prior
default in Rux v. Republic of Sudan, No. 2:04-cv-0428,
2005 WL 2086202, at *2-3, *12-13 (E.D. Va. Aug. 26,
2005)). A double-defaulting sovereign also loses the
ability to assert certain “reasons for the delay,”
including ignorance of the law and a reasonable belief
in its own immunity. It is still more difficult to show
“good faith” by a defendant that has walked away a
second time without so much as a fare thee well.
Hence, the general policy favoring relief from default
judgments is not enough to overcome Sudan’s double
default in this case. 10
Finally, it bears mentioning that the district court
and now this court have afforded Sudan, as a foreign
sovereign, substantial protection against the harsh
consequences of a default judgment. Notwithstanding
Sudan’s failure to participate, the district court
assessed whether the plaintiffs’ evidence was
satisfactory, once to prevail on the merits and twice
In a supplemental filing, Sudan points to our recent decision
in Gilmore, in which we held the district court did not abuse its
discretion by vacating two defaults entered against the
Palestinian Authority in light of the defendant’s willingness to
participate in subsequent discovery and litigation. 843 F.3d at
995-96. In doing so, Sudan notes, we referenced “the federal
policy favoring trial over default judgment.” Id. at 995 (quoting
Whelan v. Abell, 48 F.3d 1247, 1258 (D.C. Cir. 1995)). But
Gilmore dealt with vacatur of a default under Rule 55(c); the
less-demanding “good cause” standard for vacating a default
under that rule “frees a court from the restraints of Rule 60(b)”
and “entrusts the determination to the discretion of the court.”
Id. at 996 (quoting 10A CHARLES A. WRIGHT, ARTHUR R. M IL L ER
& MARY K. KANE, FEDERAL PRACTICE AND PROCEDURE § 2694 (3d
ed. 2016)).
10

170a
to establish jurisdiction. See Owens IV, 826 F. Supp.
2d at 139-46 (applying 28 U.S.C. § 1608(e)); Owens V,
174 F. Supp. 3d at 275-80. Furthermore, the district
court (and now this court de novo) reviewed Sudan’s
jurisdictional arguments pursuant to its Rule 60(b)(4)
motion. We have also exercised our discretion to
consider several of Sudan’s nonjurisdictional
objections, even though Sudan forfeited these
arguments by defaulting. We even granted Sudan
relief from punitive damages despite its failure timely
to object to these awards in the district court.
Therefore, Sudan cannot complain “the dispute [has
not been] resolved on the basis of . . . all relevant
legal arguments.” See Practical Concepts, 811 F.2d at
1552.
Beyond relying upon the general policy in favor of
vacatur, Sudan challenges the reasoning behind the
district court’s decision. In particular, Sudan faults
the district court for holding it responsible for its
domestic troubles, contending a court may not
consider “the question of blame” in analyzing
excusable neglect. Sudan is twice wrong. Not only
have courts consistently recognized that a
defendant’s “culpable conduct” may justify denying it
relief under Rule 60(b)(1), see Mfrs.’ Indus. Relations
Ass’n v. E. Akron Casting Co., 58 F.3d 204, 206 (6th
Cir. 1995) (inquiring “[w]hether culpable conduct of
the defendant led to the default”); Gregorian, 871
F.2d at 1523; Info. Sys. & Networks Corp. v. United
States, 994 F.2d 792, 795 (Fed. Cir. 1993), but the
district court expressly based its decision upon
Sudan’s unresponsiveness, not its blameworthiness;
“setting aside the question of blame,” it said:

171a
Domestic turmoil would surely have
justified requests by Sudan for
extensions of time in which to respond to
the plaintiffs’ filings. It would have also
probably led the Court to forgive late
filings. And perhaps it would have even
justified a blanket stay of these cases.
But Sudan was not merely a haphazard,
inconsistent, or sluggish litigant during
the years in question – it was a complete
and utter nonlitigant. Sudan never
sought additional time or to pause any of
these cases in light of troubles at home.
Sudan never even advised the Court of
those troubles at the time they were
allegedly
preventing
Sudan's
participation – not through formal
filings, and not through any letters or
other mode of communication with the
Court. The idea that the relevant
Sudanese officials could not find the
opportunity over a period of years to
send so much as a single letter or email
communicating Sudan's desire but
inability to participate in these cases is,
quite literally, incredible.

Owens V, 174 F. Supp. 3d at 256. Therefore, we find

no abuse of discretion in the district court’s brief
reference to the Sudan’s possible responsibility for its
domestic turmoil.
Sudan also objects to the district court’s discussion
of its unresponsiveness, arguing the court
demonstrated “a lack of appreciation of the
operational realities of a least developed nation in

172a
turmoil.” But the one conclusory paragraph in the
three-page declaration of its Ambassador to the
United States that Sudan cites as evidence for this
proposition does not show it was incapable of
maintaining any communication with the district
court. Indeed, Sudan participated in the litigation
during its civil war and while negotiating a peace
treaty bringing that war to a close. See UNMIS
Background, UNITED NATIONS MISSION IN THE SUDAN,
http://www.un.org/en/peacekeeping/missions/past/un
mis/background.shtml (last visited July 19, 2017).
This shows Sudan could participate in legal
proceedings despite difficult domestic circumstances.
Without record evidence supporting Sudan’s complete
inability to participate, the district court did not
abuse its discretion in holding Sudan failed to carry
its burden of proving excusable neglect.
As a final argument under Rule 60(b)(1), Sudan
faults the district court’s comparison of this case to
FG Hemisphere . In FG Hemisphere we vacated a
default judgment against the Democratic Republic of
Congo (DRC) rendered under the FSIA exception for
commercial activity, § 1605(a)(2). 447 F.3d at 843.
Sudan’s reliance
upon FG Hemisphere is
unsurprising as there we noted the DRC “was plainly
hampered by its devastating civil war” which
justified, in part, its delayed response. Id. at 141. But
the outcome in FG Hemisphere did not turn solely, or
even primarily, upon the domestic turmoil in the
DRC. Problems with notice and service, not internal
strife, principally excused the DRC’s default. In that
case, the defendant sovereign was first notified that
its diplomatic properties were in jeopardy when it
was served with a motion to execute a default

173a
judgment a mere six days before a response was due.
Id. at 839-40. The plaintiffs’ failure to translate the
motion from English into French, the official
language of the DRC, “virtually guaranteed the
DRC’s inability to file a timely response.” Id. That the
DRC was then engaged in a “devastating civil war”
merely diminished its “capacity . . . for [the] swift and
efficient handling of . . . English-language materials”;
it did not ultimately prevent the DRC from
responding to the motion, which it did shortly after
receipt. Id. at 840-41.
Unlike the DRC in FG Hemisphere , Sudan had
notice of the litigation from the time it was first sued.
The district court’s 2011 opinion on liability was
translated into Arabic, Sudan’s national language,
and delivered through diplomatic channels. Sudan
cannot, and does not, complain about defects in notice
or service of process. See Owens V, 174 F. Supp. 3d at
255 (noting that “Sudan’s council conceded, ‘there’s
no dispute about service being proper’”).
Nor can Sudan claim to be surprised by the suits,
as was the defendant in FG Hemisphere . Sudan
actively participated in the litigation from February
2004 until January 2005. Even after disengaging
from the case, Sudan contacted its counsel for a
status update in September 2008. If Sudan indeed
needed to divert “all [its] meager legal and diplomatic
personnel” to the “cession of south Sudan,” as its
Ambassador now suggests, then it could have
communicated this affirmative decision to the court,
along with a request to stay the proceedings. In light
of this history, it was not unreasonable for the
district court to demand something more than a
conclusory assertion without virtually any record

174a
evidence of Sudan’s inability to participate in the
litigation.
Also, as the district court noted, the length of
delay in FG Hemisphere pales in comparison to
Sudan’s absence in this case. The DRC initiated
efforts to secure counsel within one day of receiving
notice of the motion to execute. 447 F.3d at 838.
Within two months, its counsel filed motions to
vacate the default judgment and to stay its execution.
Id. In contrast, Sudan filed its motions to vacate the
judgments 17 months after service of the complaint in
Opati, the last of the consolidated cases, 40 months
after the district court’s 2011 opinion on liability, and
53 months after the evidentiary hearing that Sudan
did not attend. Indeed, Sudan ceased regular
communication with counsel in the Owens action
nearly eight years before filing its present motions.
Cf. Smith v. District of Columbia, 430 F.3d 450, 456
n.5 (D.C. Cir. 2005) (noting that delay of “well over a
year” militated against excusable neglect). By
defaulting, then appearing, then defaulting again,
Sudan delayed this case for years beyond its likely
end had it simply failed to appear at all. These
affirmative actions extended the delay and make
Sudan’s second default even less excusable than its
first. We therefore find no error in the district court’s
unfavorable comparison of Sudan’s default to that of
the DRC in FG Hemisphere . In sum, none of Sudan’s
arguments shows the district court abused its
discretion in failing to vacate the default judgments
for “excusable neglect.”

175a
B. Extraordinary Circumstances U nder R ule
60(b)(6)
Sudan also challenges the district court’s denial of
its motion under Rule 60(b)(6), claiming its failure to
appear
was
justified
by
“extraordinary
11
circumstances.” Because Rule 60(b)(1) contains a
one-year filing deadline for claims of “excusable
In addition, Sudan moves to vacate the judgments in favor
of foreign family members and the awards of punitive dam ages
under Rule 60(b)(6), claiming the district court’s errors of law on
these questions also provide “extraordinary circumstances”
supporting vacatur. We have addressed these nonjurisdictional
matters separately in the preceding sections. Although a
“dispute over the proper interpretation of a statute,” by itself,
does not likely justify relief under Rule 60(b)(6), Carter v.
Watkins, 995 F.2d 305 (D.C. Cir. 1993) (per curiam) (table); cf.
11

Ctr. for Nuclear Responsibility, Inc. v. U.S. Nuclear Regulatory
Comm’n, 781 F.2d 935, 939-40 (D.C. Cir. 1986) (discussing a

Circuit split on the matter and expressing doubt on whether
Rule 60(b) should be used to correct legal errors), we have
reviewed and rejected each of Sudan’s contentions on direct
appeal from the default judgments due to the size of the awards
in question, underlying constitutional concerns about retroactive
liability for punitive damages, and the likelihood of the purely
legal issues here recurring in our district court. Hence, there is
no need to evaluate whether these claims present “extraordinary
circumstances” under Rule 60(b)(6). In contrast to these purely
legal arguments, which require no further factual development,
see Roosevelt, 958 F.2d at 419 & n.5, we see far less reason to
give Sudan an opportunity to relitigate the factual record by
vacating the default judgments, especially considering its failure
to participate in the district court and our independent review of
the evidence showing material support and jurisdictional
causation. See Practical Concepts, 811 F.2d at 1552 (“When a
defendant foreign state has appeared and asserts legal defenses,
albeit after a default judgment has been entered, it is important
. . . that the dispute be resolved on the basis of . . . all relevant
legal arguments”) (emphases added).

176a
neglect,” which Sudan missed with respect to the
Mwila and Khaliq judgments, Sudan’s Rule 60(b)(6)
motions are the only way it may obtain vacatur of
those default judgments.
Perhaps recognizing this, Sudan rephrased its
earlier arguments asserting “excusable neglect” as
requests for relief from those default judgments
under Rule 60(b)(6). As with the other cases, the
declaration
of
Ambassador
Khalid
figures
prominently in Sudan’s Mwila and Khaliq motions.
This gets Sudan nowhere. In order to receive relief
under Rule 60(b)(6), a party must show
“extraordinary circumstances” justifying vacatur.
Gonzalez, 545 U.S. at 534. As the Supreme Court has
explained, the grounds for vacatur under Rule
60(b)(1) and(b)(6) are “mutually exclusive.” Pioneer,
507 U.S. at 393. Therefore, “a party who failed to
take timely action due to ‘excusable neglect’ may not
seek relief more than a year after the judgment by
resorting to subsection (6).” Id.
The district court acknowledged this distinction
and denied Sudan’s motion under Rule 60(b)(6) as
merely a “rehash of Sudan's Rule 60(b)(1) argument
for excusable neglect.” Owens V, 174 F. Supp. 3d at
258. Instead of grappling with the district court’s
actual decision, Sudan takes issue with the court’s
reference to Ungar v. Palestine Liberation
Organization, 599 F.3d 79 (1st Cir. 2010), in which
the First Circuit held that a sovereign’s willful
default did not per se preclude vacatur. Id. at 86-87.
The district court was understandably puzzled by
Sudan’s fleeting reference to Ungar in light of its
assertions that its default was involuntary. If Sudan’s
default was intentional, as in Ungar, the court noted,

177a
then relief under Rule 60(b)(1) would be unavailable.
Owens V, 174 F. Supp. 3d at 258. But these musings
were not the basis of the district court’s decision and
therefore cannot be an abuse of discretion.
Undeterred, Sudan now argues Ungar demands
vacatur when there would be “political ramifications[]
and [a] potential effect on international relations”
from a default judgment, as Sudan claims there
would be in this case. Ungar, 599 F.3d at 86-87. In its
view, these political considerations supply the
“extraordinary circumstances” needed to vacate a
default judgment under Rule 60(b)(6). Sudan failed to
raise this argument before the district court, and it is
therefore forfeit on appeal. Accordingly, we affirm the
district court’s denial of vacatur under Rule 60(b).
*****
To conclude, we (1) affirm the district court’s
findings of jurisdiction with respect to all plaintiffs
and all claims; (2) affirm the district court’s denial of
vacatur; (3) vacate all awards of punitive damages;
and (4) certify a question of state law – whether a
plaintiff must be present at the scene of a terrorist
bombing in order to recover for IIED – to the District
of Columbia Court of Appeals.

So ordered.

178a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: 07/28/2017]
September Term 2016
Docket No: 14-5105

JAMES OWENS, et al.,

Appellees,
v.
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS
AND MINISTRY OF THE INTERIOR OF THE REPUBLIC OF
THE SUDAN,

Appellants
Consolidated with 14-5106, 14-5107, 14-7124,
14-7125, 14-7127, 14-7128, 14-7207, 16-7044, 167045, 16-7046, 16-7048,16-7049, 16-7050, 16-7052

179a
APPEALS FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(No. 1:01-cv-02244)
(1:08-CV -01377)
(1:10-CV -00356)
(1:12-CV -01224)
(1:08-CV -01349)
(1:08-CV -01361)
(1:08-CV -01380)
Before:
H ENDERSON and ROGERS, Circuit Judges,
and GINSBURG, Senior Circuit Judge.
JUDGMENT
These causes came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and were argued by counsel. On
consideration thereof, it is
ORDERED and ADJUDGED that (1) the District
Court’s findings of jurisdiction with respect to all
plaintiffs and all claims be affirmed; (2) that the
District Court’s denial of vacatur be affirmed; (3) all
awards of punitive damages be vacated; and (4) the
question of state law - whether a plaintiff must be
present at the scene of a terrorist bombing in order to
recover IIED - be certified to the District of Columbia
Court of Appeals, in accordance with the opinion of
the court and the order filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk

180a
BY:

/s/

Ken R. Meadows
Deputy Clerk
Date: July 28, 2017
Opinion for the court filed by Senior Circuit Judge
Ginsburg.

181a
APPENDIX D
DISTRICT OF COLUMBIA COURT OF APPEALS
[Filed: 12/12/2018]
No. 17-SP-837
Docket No: 14-5105

REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS
AND MINISTRY OF THE INTERIOR OF THE REPUBLIC OF
THE SUDAN,

Appellants,
v.
JAMES OWENS, et al.,

Appellees.
ORDER
On consideration of appellants’ petition for
rehearing en banc, appellees’ response thereto; and it
appearing that no judge of this court has called for a
vote on the petition for rehearing en banc, it is
ORDERED that appellants’ petition for rehearing
en banc is denied.

182a
PER CURIAM
Copy to:
Clerk, United States Court of Appeals
for the District of Columbia
Copies e-served to:
Christopher M. Curran, Esquire
701 13th Street, NW
Washington, DC 20005
Matthew D. McGill, Esquire
Lochlan F. Shelfer, Esquire
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
Loren L. AliKhan, Esquire
Solicitor General for DC
George Anhang, Esquire
1299 Pennsylvania Ave, NW
Suite 700
Washington, DC 20004

183a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: 06/18/2019]
September Term 2018
Docket No: 14-5105

JAMES OWENS, et al.,

Appellees,
v.
REPUBLIC OF SUDAN, MINISTRY OF EXTERNAL AFFAIRS
AND MINISTRY OF THE INTERIOR OF THE REPUBLIC OF
THE SUDAN,

Appellants,
ISLAMIC REPUBLIC OF IRAN, MINISTRY OF FOREIGN
AFFAIR, et al.,

Appellees.
Consolidated with 14-5106, 14-5107, 14-7124,
14-7125, 14-7127, 14-7128, 14-7207, 16-7044, 167045, 16-7046, 16-7048,16-7049, 16-7050, 16-7052

184a
APPEALS FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
(No. 1:01-cv-02244-JDB)
(1:08-CV -01349-JDB)
(1:08-CV -01361-JDB)
(1:08-CV -01377-JDB)
(1:08-CV -01380-JDB)
(1:10-CV -00356-JDB)
(1:12-CV -01224-JDB)

Before:
GARLAND, CHIEF JUDGE
H ENDERSON, ROGERS, TATEL, GRIFFITH, SRINIV ASAN,
MILLETT, PILLARD, WILKINS, KATSAS, and RAO, Circuit

Judges,
and GINSBURG, Senior Circuit Judge.

ORDER
Upon consideration of appellants’ petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.

185a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:
/s/
Ken R. Meadows
Deputy Clerk

186a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 11/28/2011]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
Civil Action No. 08-1349 (JDB)

WINFRED WAIRIMU WAMAI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

187a

Civil Action No. 08-1361 (JDB)

MILLY MIKALI AMDUSO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
Civil Action No. 08-1377 (JDB)

JUDITH ABASI MWILA, et al.,

Plaintiffs,
v.
THE ISLAMIC REPUBLIC OF IRAN, et al.,

Defendants.
Civil Action No. 08-1380 (JDB)

MARY ONSONGO, et al.,

Plaintiffs,

188a
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
Civil Action No. 10-0356 (JDB)

RIZWAN KHALIQ, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

MEMORANDUM OPINION
Over thirteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es
Salaam,
Tanzania were
devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. Now, in this
civil action under the Foreign Sovereign Immunities
Act (“FSIA”), plaintiffs — victims of the bombings
and their families — seek to assign liability for their
injuries to the Republic of Sudan (“Sudan”), the
Ministry of the Interior of the Republic of Sudan, the
Islamic Republic of Iran (“Iran”), the Iranian
Revolutionary Guards Corps (“IRGC”) and the

189a
Iranian Ministry of Information
(“MOIS”) (collectively “defendants”).

and

Security

The Court will proceed in two steps. First, it will
present findings as to the causes of the bombings —
specifically, findings that defendants were indeed
responsible for supporting, funding, and otherwise
carrying out this unconscionable attack. Second, the
Court will set forth legal and remedial conclusions to
bring this litigation to a close. 1 Most recently, and
relevant here, the National Defense Authorization
Act for Fiscal Year 2008 (“2008 NDAA” or “Act”)
amended the FSIA to permit foreign national
employees of the United States government killed or
injured while acting within the scope of their
employment and their family members to sue a state
sponsor of terrorism for injuries and damages
resulting from an act of terrorism. Here, the majority
of plaintiffs are foreign national employees of the
U.S. Government and their immediate family
members who, as the Court will explain below, lack a
claim under the 2008 NDAA amendments to FSIA
but may proceed under applicable state law.
Background
Plaintiffs bring this case pursuant to section 1083 of
the National Defense Authorization Act for Fiscal
Year 2008, Pub. L. No. 110-181, § 1083, 122 Stat. 341
(2008) (codified at 28 U.S.C. §1605A (2009)). Several
cases were consolidated for purposes of the Court’s
1 The Court enters the findings and conclusions below
pursuant to 28 U.S.C. § 1608(e). That provision requires
plaintiffs under the FSIA to “establish [their] claim or right to
relief by evidence satisfactory to the court” even where, as here,
defendants have failed to appear after proper service.

190a
October 25-28, 2010 evidentiary hearing on liability.
In each case, as described below, defendants were
properly served according to the FSIA. Defendants
failed to respond, and the Clerk of Court entered
defaults against defendants in each case. In Owens v.
Republic of Sudan, No. 1:01-cv-02244 (JDB), service
of process was completed upon each defendant: the
Republic of Sudan on February 25, 2003 [Docket
Entry 9]; the Ministry of the Interior of the Republic
of Sudan on February 25, 2003 [Docket Entry 9]; the
Islamic Republic of Iran on March 5, 2003 [Docket
Entry 10]; and the Iranian Ministry of Information
and Security on October 14, 2002 [Docket Entry 6].
Defaults were entered against the Iranian defendants
on May 8, 2003, [Docket Entry 11], and defaults were
entered against the Republic of Sudan and the
Ministry of the Interior of the Republic of Sudan on
March 25, 2010 [Docket Entry 173].
In Wamai v. Republic of Sudan, No. 1:08-cv-01349
(JDB), service of process was completed on each of
the named defendants: the Ministry of the Interior of
the Republic of Sudan was served with process on
February 12, 2009, pursuant to 28 U.S.C. 1608(a)(3)
[Docket Entry 15]; the Republic of Sudan was served
with process on April 22, 2009 through the U.S.
Department of State pursuant to 28 U.S.C.1608(a)(4)
[Docket Entry 23], which was delivered under
diplomatic note on November 12, 2009 [Docket Entry
28]; the Iranian Ministry of Information and Security
was served with process on February 14, 2009
pursuant to 28 U.S.C. 1608(a)(3) [Docket Entry 15];
and the Islamic Republic of Iran and the Iranian
Revolutionary Guards were served with process on
April 22, 2009 through the U.S. Department of State

191a
pursuant to 28 U.S.C.1608(a)(4) [Docket Entry 23],
which was delivered under diplomatic notes on
November 18, 2009 [Docket Entry 29]. An entry of
default was filed against each of these defendants on
June 4, 2010 [Docket Entries 34, 35].
In Amduso v. Republic of Sudan, No. 1:08-cv-01361
(JDB), the Sudanese defendants were served with
process on February 1, 2009 under 28 U.S.C.
§ 1608(a)(3) [Docket Entry 27], and the Iranian
defendants were served on June 26, 2009 under 28
U.S.C. § 1608(a)(4) [Docket Entry 33]. Defaults were
entered against the Republic of Sudan and the
Ministry of the Interior of the Republic of Sudan on
April 22, 2010 [Docket Entry 29] and against the
Islamic Republic of Iran and the Iranian Ministry of
Information and Security on October 6, 2009 [Docket
Entry 40].
In Mwila v. Islamic Republic of Iran, No. 1:08-cv01377 (JDB), service of process was completed on
each of the named defendants: the Ministry of the
Interior of the Republic of Sudan was served with
process on March 17, 2009 pursuant to 28 U.S.C.
1608(a)(3) [Docket Entry 3]; the Islamic Republic of
Iran and the Iranian Ministry of Information and
Security were served with process on September 8,
2009 through the U.S. Department of State pursuant
to 28 U.S.C.1608(a)(4) [Docket Entry 16]; and the
Republic of Sudan was served with process on
November 12, 2009 through the U.S. Department of
State pursuant to 28 U.S.C.1608(a)(4) [Docket Entry
19]. Defaults were entered against the Islamic
Republic of Iran, the Republic of Sudan, and the
Ministry of the Interior of the Republic of Sudan on
February 18, 2010 [Docket Entries 20, 21 and 22] and

192a
against the Iranian Ministry of Information and
Security on April 21, 2010 [Docket Entry 23].
In Khaliq v. Republic of Sudan, No. 1:10-cv-00356
(JDB), the Sudanese defendants were served with
process on October 13, 2010 pursuant to 28 U.S.C.
1608(a)(4) [Docket Entry 16]. The Islamic Republic of
Iran was served with process on October 11, 2010
pursuant to 28 U.S.C. 1608(a)(4) [Docket Entry 20].
Defaults were entered against the Republic of Sudan
on December 15, 2010 [Docket Entry 18] and against
the Islamic Republic of Iran on December 22, 2010
[Docket Entry 21].
Finally, in Onsongo v. Republic of Sudan, No. 1:08cv-01380 (JDB), the Sudanese defendants were
served with process on December 17, 2009 pursuant
to 28 U.S.C. 1608(a)(4) [Docket Entry 16]. The
Iranian Ministry of Information and Security was
served with process on February 14, 2009 pursuant to
28 U.S.C. 1608(a)(3) [Docket Entry 8], and the
Islamic Republic of Iran and the Iranian
Revolutionary Guards were served with process on
November 18, 2009 pursuant to 28 U.S.C. 1608(a)(4)
[Docket Entry 17]. Defaults were entered against
each of the named defendants on June 2, 2010
[Docket Entries 21, 22, and 23].
Before plaintiffs can be awarded any relief, this
Court must determine whether they have established
their claims “by evidence satisfactory to the court.” 28
U.S.C. § 1608(e); see also Roeder v. Islamic Republic
of Iran, 333 F.3d 228, 232 (D.C. Cir. 2003). This
“satisfactory to the court” standard is identical to the
standard for entry of default judgments against the
United States in Federal Rule of Civil Procedure

193a
55(e). Hill v. Republic of Iraq, 328 F.3d 680, 684 (D.C.
Cir. 2003). In evaluating the plaintiffs’ proof, the
court may “accept as true the plaintiffs’
uncontroverted evidence.” Elahi v. Islamic Republic
of Iran, 124 F. Supp. 2d 97, 100 (D.D.C. 2000);
Campuzano v. Islamic Republic of Iran, 281 F. Supp.
2d 258, 268 (D.D.C. 2003). In FSIA default judgment
proceedings, the plaintiffs may establish proof by
affidavit. Weinstein v. Islamic Republic of Iran, 184
F. Supp. 2d 13, 19 (D.D.C. 2002). A three-day hearing
on liability and damages was held beginning on
October 25, 2010. At this hearing, the Court received
evidence in the form of live testimony, videotaped
testimony, affidavit, and original documentary and
videographic evidence. The Court applied the Federal
Rules of Evidence. Based on the record established
herein, the Court makes the following findings of fact
and conclusions of law.
I. FINDINGS OF FACT
A. Islamic Republic of Iran’s Support for Bin La den
and Al Qaeda
The government of the Islamic Republic of Iran
(“Iran”) has a long history of providing material aid
and support to terrorist organizations including al
Qaeda, which have claimed responsibility for the
August 7, 1998 embassy bombings. See, e.g., Tr. Vol.
II at 124-25. 2 Iran had been the preeminent state
2 “Tr. Vol.” refers to the transcript for each day of the bench
trial in this case, beginning on October 25, 2010. Accordingly
“Tr. Vol. I” refers to the transcript for the first day of testim ony
on October 25, 2010, “Tr. Vol. II” refers to the transcript of day
two of the bench trial, and so on. “Ex.” Refers to those exhibits
admitted into evidence during the trial.

194a
sponsor of terrorism against United States interests
for decades. See id. at 123. Throughout the 1990s —
at least — Iran regarded al Qaeda as a useful tool to
destabilize U.S. interests. As discussed in detail
below, the government of Iran aided, abetted and
conspired with Hezbollah, Osama Bin Laden, and al
Qaeda to launch large-scale bombing attacks against
the United States by utilizing the sophisticated
delivery mechanism of powerful suicide truck bombs.
Hezbollah, a terrorist organization based principally
in Lebanon, had utilized this type of bomb in the
devastating 1983 attacks on the U.S. embassy and
Marine barracks in Beirut, Lebanon. Prior to their
meetings with Iranian officials and agents, Bin Laden
and al Qaeda did not possess the technical expertise
required to carry out the embassy bombings in
Nairobi and Dar es Salaam. The Iranian defendants,
through Hezbollah, provided explosives training to
Bin Laden and al Qaeda and rendered direct
assistance to al Qaeda operatives. Hence, for the
reasons discussed below, the Iranian defendants
provided material aid and support to al Qaeda for the
1998 embassy bombings and are liable for damages
suffered by the plaintiffs.
1. The Iranian Government’s Relationship with
Hezbollah
Iranian support of Hezbollah began in the 1980s. Id.
at 123. Iran “actively encouraged, if not directed, the
formation of Hezbollah,” and the relationship was
“quite close” during the 1990s. Id. Iran was formally
declared a “state sponsor of terrorism” on January 19,
1984, by U.S. Secretary of State George P. Schultz in
accordance with section 6(j) of the Export
Administration Act of 1979, 50 App. U.S.C. § 2405(j),

195a
see 49 Fed. Reg. 2836-02 (statement of Secretary of
State George P. Schultz, Jan. 23, 1984), and remains
designated as a state sponsor of terrorism today. The
Iranian government and the Iranian intelligence
service “provided substantial financial support and
lots of other services” to Hezbollah. Tr. Vol. II at 122.
At all times relevant to this case, Iran was a state
sponsor of terrorism that supported terrorist groups
that U.S. intelligence agencies believed were capable
of attacking U.S. interests. The declassified 1991
National Intelligence Estimate produced by the CIA
stated that: “Iranian support for terrorism will
remain a significant issue dividing Tehran and
Washington. Tehran is unlikely to conduct terrorism
directly against U.S. or Western interests during the
next two years, but it is supporting radical groups
that might do so.” Ex. DD at 20.
Hezbollah possessed “extraordinary knowledge of
explosives” in the mid-to-late 1990s. Tr. Vol. II at
126. Iran trained Hezbollah “in counterintelligence
and in explosive capability” such that Hezbollah “is
often described as the A-team of terrorists.” Id. at
169. Hezbollah operatives were trained in Iran, and
Iranian Revolutionary Guard Corp (“IRGC”) trainers
were present in Lebanese Hezbollah training camps.
Id. Indeed, as terrorism expert Evan Kohlmann
testified, “Hezbollah is a proxy force of Iran. Its
primary foreign sponsor is Iran, both financially and
otherwise. Almost all of Hezbollah’s activities are
well known to the Iranian government. In some cases
they’re planned by the Iranian government.” Tr. Vol.
III at 240.

196a
2. Iranian Support for Al Qaeda
In the 1990s, Iranian support for terrorist groups
extended beyond Hezbollah to al Qaeda. Dr. Matthew
Levitt, an expert witness on the state sponsorship of
terrorism, and specifically Iran, Hezbollah and al
Qaeda, explained how al Qaeda came into contact
with the Iranian government: “Hassan al-Turabi, the
head of the National Islamic Front, which ruled
Sudan at the time, was keen not only on instituting
Islamic sharia law in Sudan at home, but in making
the Sudan a place from which worldwide Islamic
revolution could flow.” Tr. Vol. II at 165. To that end,
“Hassan al-Turabi hosted numerous meetings, some
large summits with radical extremist groups,
including one, for example, in April 1991. Groups like
HAMAS and Palestinian Islamic Jihad, Egyptian
Islamic Jihad, al Qaeda, Sudanese radicals, Iranians,
Lebanese Hezbollah were all invited and attended.”
Id. at 165-66. Such a conglomeration of different
terrorist groups and governments such as Iran had
been very unusual prior to al-Turabi’s conferences.
Id. at 166. And “it was at these meetings where
Iranian officials, Hezbollah officials, al Qaeda officials
and others first began to have some serious
meetings.” Id. Several meetings took place between
representatives of Hezbollah, al Qaeda and the
governments of Sudan and Iran. Tr. Vol. III at 240.
The purpose of these meetings, “in the words of a
ranking al Qaeda shura council member Abu Hajer
al-Iraqi, . . . was to focus on a common enemy, that
being the West, the United States.” Id.
Al-Turabi’s policies therefore resulted in the
exchange of ideas and sharing of resources by groups
that would not necessarily have communicated

197a
otherwise, including Hezbollah and al Qaeda. Ex. W2 at 3, 6. Bin Laden and al Qaeda relocated to Sudan
in 1991. Tr. Vol. II at 165. The Iranian government
played a “very active” role in Sudan during the time
that Bin Laden operated from Khartoum. Id. at 124.
This included playing a “prominent role” in a
conference of those resisting the Israeli-Arab peace
process, which had been organized by the Sudanese
government. Id. Hezbollah also had a base of
operations in Khartoum, Sudan. Tr. Vol. III at 233.
Iran’s role in Sudan grew at the same time that the
Sudanese
government
invited Bin Ladento
Khartoum. Al-Turabi invited the President of Iran,
Hojatoleslam Rafsanjani, to visit Sudan in 1991 to
support Al-Turabi’s goal of mending the Shia and
Sunni divide in Islam in order to present a united
front against the West. Ex. V at 5. Iran also
maintained a delegation office in Khartoum that was
run by Sheik Nomani to facilitate relations between
the governments and convert Sunni Arab Muslims to
the Shia sectarian view. Tr. Vol. III at 234. The two
governments shared information and intelligence
between their militaries and intelligence services. Id.
In addition, the IRGC, an Iranian state
organization that funneled assistance to terrorist
organizations abroad — such as Hezbollah in
Khartoum — also maintained connections with the
Sudanese intelligence service. Id. at 234-35. The
IRGC was founded shortly after the 1979 Iranian
revolution and, along with MOIS, is one of the two
major organizations through which Iran carries out
its support of terrorism. Tr. Vol. II at 130-31. Indeed,
“Hezbollah’s presence in Khartoum was made
possible by the relationship between the government

198a
of Sudan and the government of Iran.” Tr. Vol. III at
240. The Sudanese intelligence service also facilitated
the linkage between al Qaeda and Hezbollah and
representatives of Iran, which was strengthened by al
Qaeda’s move to Sudan. Id. at 270. The State
Department’s annual report on “Patterns of Global
Terrorism” for 1993 states:
Sudan’s ties to Iran, the leading state
sponsor of terrorism, continued to cause
concern during the past year. Sudan
served as a convenient transit point,
meeting site and safe haven for Iranianbacked extremist groups. Iranian
ambassador in Khartoum Majid Kamal
was involved in the 1979 takeover of the
U.S. embassy in Tehran and guided
Iranian efforts in developing the
Lebanese Hizballah group while he
served as Iran’s top diplomat in Lebanon
during the early 1980s. His presence
illustrated the importance Iran places
on Sudan.
Ex. GG; Tr. Vol. III at 258-59.
Iran provided substantial training and assistance to
al Qaeda leading up to the embassy attacks in 1998.
For example, Ali Mohammed provided security for
one prominent meeting between Hezbollah’s chief
external operations officer, Imad Mughniyah, and Bin
Laden in Sudan. Tr. Vol. II at 170; Ex. A at 28. At Ali
Mohammed’s plea hearing in the United States
District Court for the Southern District of New York
on October 20, 2000, he was asked to describe, in his
own words, why he believed that he was guilty of the

199a
crimes charged arising out of the embassy attack. Ali
Mohammed responded:
I was aware of certain contacts between
al Qaeda and al Jihad organization, on
one side, and Iran and Hezbollah on the
other side. I arranged security for a
meeting in the
Sudan between
Mughaniya, Hezbollah’s chief, and Bin
Laden. Hezbollah provided explosives
training for al Qaeda and al Jihad. Iran
supplied Egyptian Jihad with weapons.
Iran also used Hezbollah to supply
explosives that were disguised to look
like rocks.
Ex. A at 28; Tr. Vol. II at 115-19.
Iran was “helping train al Qaeda operatives and al
Qaeda personnel” in Sudan in the early 1990s. Tr.
Vol. II at 124-25. Dr. Matthew Levitt explained that
known al Qaeda operatives had significant
relationships with Iran. For example, “Mustafa
Hamid, throughout the period we’re talking about
here, throughout the 1990s, was one of al Qaeda’s
primary points of contact specifically to Iran’s Islamic
Revolutionary Guard Corps.” Id. at 170. In 2009, the
Department of Treasury designated Hamid as a
specially designated global terrorist, “noting
specifically that he was one of al Qaeda’s senior
leadership living in Iran and working closely with the
IRGC, the Islamic Revolutionary Guards Corps.” Id.;
Ex. CC. “In the mid-1990s, Mustafa Hamid
reportedly negotiated a secret relationship between
Usama Bin Laden and Iran, allowing many al Qaida

200a
members safe transit through Iran to Afghanistan.”
Ex. CC.
Following the meetings that took place between
representatives of Hezbollah and al Qaeda in Sudan
in the early to mid-1990s, Hezbollah and Iran agreed
to provide advanced training to a number of al Qaeda
members, including shura council members, at
Hezbollah training camps in South Lebanon. Tr. Vol.
III at 241. Saif al-Adel, the head of al Qaeda security,
trained in Hezbollah camps. Id. During this time
period, several other senior al Qaeda operatives
trained in Iran and in Hezbollah training camps in
Lebanon. Tr. Vol. II at 169. After one of the training
sessions at a Lebanese Hezbollah camp, al Qaeda
operatives connected to the Nairobi bombing,
including a financier and a bomb-maker, returned to
Sudan with videotapes and manuals “specifically
about how to blow up large buildings.” Id.
Al Qaeda desired to replicate Hezbollah’s 1983
Beirut Marine barracks suicide bombing, and Bin
Laden sought Iranian expertise to teach al Qaeda
operatives about how to blow up buildings. Id. at 176.
Prior to al Qaeda members’ training in Iran and
Lebanon, al Qaeda had not carried out any successful
large scale bombings. Id. at 177. However, in a short
time, al Qaeda acquired the capabilities to carry out
the 1998 Embassy bombings, which killed hundreds
and injured thousands by detonation of very large
and sophisticated bombs. See id. Dr. Levitt concluded
that “it would not have been possible for al Qaeda to
a reasonable degree of certainty to have executed this
type of a bombing attack, which it had never
previously executed, without this type of training it
received from Iran and Hezbollah.” Id. at 181.

201a
Hezbollah engages in international terrorist
operations in close tactical and strategic cooperation
with the Iranian government. Id. at 179. The
Supreme Leader of Iran, Ayatollah Khameni, controls
oversight of the media, the military, the Ministry of
Intelligence, the IRGC, the Basji militia, and the
IRGC’s Qods force; all the entities that oversee the
training and support of and cooperation with terrorist
groups and that grant approval of terrorist attacks
conducted with other groups answer to Khameni. Id.
Hezbollah’s assistance to al Qaeda would not have
been possible without the authorization of the
Iranian government. Id.; Ex. W-2 at 3.
Dr. Levitt testified that Iranian government
authorization of Hezbollah’s assistance would be
required for several reasons:
The first is again the getting in bed with
al Qaeda. After al Qaeda had issued not
one but two fatwas, religious edicts, in
‘92 and ‘96, announcing its intent to
target the West, it was a dangerous
proposition. As I mentioned earlier,
Iranian leaders have their own version
of rationality, but they are rational
actors. And that is something that I
believe had to be approved, again, so
there would be reasonable or plausible
deniability. Overcoming this deep
mistrust between the most radical Salafi
jihadi Sunnis, who, as we saw in the
context of the aftermath of the war in
Iraq, are sometimes all too eager to kill
Shia in particular, and for the Shia on
the other side to overcome their

202a
historical animosity towards these
radical Sunnis, is no small feat. And I
think it is only because of their shared
interest at that point, in the 1990s and
the immediate — to target U.S.
interests, that they were able to decide
to overcome this animosity and mistrust.
And I think it’s quite clear, because it
was for the express purpose of targeting
the United States, it shouldn’t surprise
then that the type of training they
received was specifically of the type used
in the East Africa embassy bombings.
They expressed interest in, we know
they received at least videos and
manuals about, blowing up large
buildings.
Tr. Vol. II. at 179-80; Ex. L-2 at 14-19. The
declassified 1990 National Intelligence Estimate
produced by the CIA stated the following regarding
President Rasfanjani’s role in the government’s
sponsorship of terrorism:
The terrorist attacks carried out by Iran
during the past year were probably
approved in advance by President
Rafsanjani and other senior leaders. The
planning and implementation of these
operations are, however, probably
managed by other senior officials, most
of whom are Rafsanjani’s appointees or
allies.
Nonetheless,
we
believe
Rafsanjani and Khomeini would closely
monitor and approve the planning for an
attack against U.S. or Western interests.

203a
Ex. EE at 7; Tr. Vol. III at 238-40.
Support from Iran and Hezbollah was critical to al
Qaeda’s execution of the 1998 embassy bombings. See
Tr. Vol. II at 181. Prior to its meetings with Iranian
officials and agents, al Qaeda did not possess the
technical expertise required to carry out the embassy
bombings. In the 1990s, al Qaeda received training in
Iran and Lebanon on how to destroy large buildings
with sophisticated and powerful explosives. Id. at
188; Tr. Vol. III at 314-15. The government of Iran
was aware of and authorized this training and
assistance. Hence, for the reasons described above,
the Court finds that the Iranian defendants provided
material aid and support to al Qaeda for the 1990
embassy bombings and are liable for plaintiffs’
damages.
B. The Republic of Sudan’s Support f or Bin L aden
and al Qaeda
Sudanese government support for Bin Laden and al
Qaeda was also important to the execution of the two
1998 embassy bombings. Critically, Sudan provided
safe haven in a country near the two U.S. embassies.
The Sudanese defendants (“Sudan”) gave material
aid and support to Bin Laden and al Qaeda in several
ways. Sudan harbored and provided sanctuary to
terrorists and their operational and logistical supply
network. Bin Laden and al Qaeda received the
support and protection of the Sudanese intelligence
and military from foreign intelligence services and
rival militants. Sudan provided Bin Laden and al
Qaeda hundreds of Sudanese passports. The
Sudanese intelligence service allowed al Qaeda to
travel over the Sudan-Kenya border without

204a
restriction, permitting the passage of weapons and
money to supply the Nairobi terrorist cell. Finally,
Sudan’s support of al Qaeda was official Sudanese
government policy.
1. Safe Harbor
Osama Bin Laden and a small group of supporters
founded al Qaeda in Afghanistan in September 1988.
Tr. Vol. III at 225. Al Qaeda is Arabic for “the solid
foundation” or “base.” Id. at 224. Bin Laden was “the
primary financier” and the “primary creative genius
behind al Qaeda,” a group that sought to “create a
worldwide network of individuals who would defend
the Muslim community by waging . . . a low-intensity
war against any of its enemies, including . . . the
United States and other Western countries.” Id. at
225. When al Qaeda was formed, it was a very small,
compartmentalized group with centralized leadership
composed of a shura council, and each member was
head of a subcommittee. Id. at 226. Around 1990, as
the war in Afghanistan neared its end, al Qaeda
faced dangers arising from the eruption of a civil war
among the Afghan mujahedeen that had previously
fought and defeated the Soviet Union. Id. at 228-29.
The multi-dimensional civil war involved several
factions and was extremely violent, with shifting
front lines, which made it a difficult place for al
Qaeda to maintain a secure base. Id. at 332-33. The
Pakistani government also began to pressure the
foreign mujahedeen fighters to leave Pakistan. Id. at
229. Hence, al Qaeda needed to find a new base of
operations, and Sudan was an eager host.
In 1989, the Sudanese government was overthrown
by a military coup led by General Omar al-Bashir and

205a
Hassan al Turabi, the head of the National Islamic
Front (“NIF”). See Ex.W-2 at 1. Al-Turabi, as the
head of the NIF, and al-Bashir, as the head of the
military who became the President, joined forces to
rule Sudan. Ex. W-2 at 2. Under their leadership, the
Sudanese government courted Bin Laden and al
Qaeda to convince them to relocate to Sudan. Tr. Vol.
III at 242-43. Al-Bashir even sent a letter of
invitation to Bin Laden. Id. at 243, 333-34; Ex. V at 7.
Al-Turabi and the NIF sought to implement Sharia
law throughout Sudan, and then in Muslim majority
countries. Id. at 334-35. The NIF felt the Muslim
world was endangered, primarily by Western
encroachment, which had to be resisted. Id. at 335.
This resulted in the Sudanese government’s
welcoming of a number of terrorist organizations into
Sudan. Id. at 335; Ex. V at 5. The NIF also believed
in ending the split between the Sunni and Shi’ite
branches of Islam. Tr. Vol. III at 335; Ex. V at 5.
Al Qaeda accepted Sudan’s invitation and in late
1991 began to move to Sudan. Tr. Vol. III at 242-44.
Al Qaeda respected and supported the ideological
program of the new government of Sudan. Tr. Vol. III
at 333; Ex. V at 5-6. The leadership of Sudan
guaranteed al Qaeda a base from which it could
operate with impunity, with a minimum risk of
foreign interference. In turn, al Qaeda agreed to
support the war in south Sudan against the
Christians and animists, and to invest in the
Sudanese economy. Tr. Vol. III at 333; Ex. V at 5-15.
One of the members of al Qaeda who played an
important role in the move was Jamal al-Fadl, who
later worked directly with the Sudanese intelligence

206a
service under the approval of Bin Laden. Tr. Vol. III
at 244. Al-Fadl was Sudanese, and he served as an
intermediary between al Qaeda and the Sudanese
intelligence service. Id. at 244-45. Al-Fadl later
defected to the United States and became an official
source for the Federal Bureau of Investigation and
the U.S. Justice Department. Id. at 244.
Al-Fadl provided testimony for the United States
government during the criminal trial of Bin Laden.
He recalled that when al Qaeda considered moving
from Afghanistan to Sudan initially, questions were
raised among the al Qaeda leadership over whether
Hassan al-Turabi’s ruling National Islamic Front
party in Sudan would make a suitable and
appropriate ally. According to al-Fadl: “The people,
they say we have to be careful with that and we have
to know more about Islamic Front . . . I remember
Abu Abdallah [Usama Bin Laden]…he decide to send
some people to Sudan at that time, to discover, to see
what going on over there, and they bring good answer
or clean answer.” United States v. Usama Bin Laden,
No. 98-1023, Tr. Trans. at 216-17 (S.D.N.Y. Feb. 6,
2001). Al-Fadl indicated that Bin Laden had
dispatched several senior al Qaeda members on this
mission, including “Abu Hammam al Saudi, Abu
Hajer al Iraqi, and Abu Hassan Al Sudani. And Abu
Rida al Suri.” Id. at 217. Afterwards, “we got lecture
by Abu Hajer al Iraqi, and he ask about what in the
Sudan and what this relationship . . . He said he
went over there and I met some of the Islamic
National Front in Sudan and they are very good
people and they very happy to make this relationship
with al Qaeda, and they very happy to have al Qaeda
if al Qaeda come over there.” Id. at 217-18.

207a
Al-Fadl personally interviewed and vetted those
who sought to travel with al Qaeda to Sudan. Tr. Vol.
III at 244. During testimony on February 6, 2001, alFadl described his role in facilitating al Qaeda’s
subsequent move to Sudan at the end of 1990: “I went
with some members and we start rent houses and
farms over there . . . . In Khartoum, because they
going to bring the members in Sudan, so I went with
other members to rent guesthouses and we
established to rent houses for the single people and
some houses for the people married that got family.
And also we bought farms for the training and
refresh training.” Usama Bin Laden, Tr. Trans. at
219-20. Al-Fadl further testified that he spent
approximately $250,000 of al Qaeda’s own finances
on acquiring various properties in the Sudan. On the
direct orders of Bin Laden and other al Qaeda
commanders, al-Fadl purchased large farms in
Damazine, Port Sudan, and Soba. Id. at 221. Later,
al-Fadl testified that he personally witnessed senior
al Qaeda commanders — including Salem al-Masri,
Saif al-Islam al-Masri, Saif al-Adel, and Abu Talha
al-Sudani — supervising
training
courses
in
explosives being offered at the farm in Damazine. Id.
at 243-45.
Terrorism expert Evan Kohlmann explained that
the government of Sudan had encouraged al Qaeda to
move for several reasons. The government envisioned
that Sudan “would become the new haven for Islamic
revolutionary thought and would serve as a base not
just for al Qaeda but for Islamic revolutionaries of
every stripe and size.” Tr. Vol. III at 231. Also, al
Qaeda’s presence allowed Sudan to gain leverage
against its antagonistic neighbor Egypt through the

208a
use of these groups that were opposed to the
Egyptian government and to gain resources from its
partnership with the groups, especially Bin Laden
who was rumored to be very wealthy. Id. Sudan
invited “Palestinian HAMAS movement, the
Palestinian Islamic Jihad, Hezbollah from south
Lebanon, which is an Iranian sponsored Shi’ite
movement, al Qaeda, the Egyptian Islamic Jihad, the
Libyan Islamic Fighting Group, dissident groups
from Algeria, Morocco, the Eritrean Islamic Jihad
movement, literally every single jihadist style group,
regardless of what sectarian perspective they had,
was invited to take a base in Khartoum” to further
the goal of organizing and launching a worldwide
Islamic revolution. Id. at 232.
Sudan’s open door policy for militant Islamic
revolutionary groups and goal of fostering worldwide
Islamic revolution resulted in an unprecedented
meeting held in Khartoum known as the Popular
Arab and Islamic Congress (“PAIC”). Ex. V at 5. As
Dr. Lorenzo Vidino testified, “[t]he creation of the
PAIC was ‘the culmination of a quarter-century of
study, political activity, and international travel by
Turabi,’ and was described by Turabi himself in
grandiose terms as ‘the most significant event since
the collapse of the Caliphate.’” Id. (quoting J. Millard
Burr and Robert O. Collins, Revolutionary Sudan:
Hasan al-Turabi and the Islamist State, 1989-2000,
at 56-7 (2003)). Indeed, “[t]he list of participants to
the PAIC’s first assembly, which was held in
Khartoum in April of 1991, reads like a who’s who of
modern terrorism’ . . . encompass[ing] groups such as
the Philippines’ Abu Sayaf, the Algerian FIS, the
Egyptian Islamic Jihad, and the Palestinian Hamas

209a
[who] voted a resolution pledging to work together to
‘challenge and defy the tyrannical West.’” Id.
Al Qaeda thrived “[f]rom 1991 to 1996 [when] bin
Laden operated without any limitation inside Sudan,
while under the protection of the Sudanese security
forces. This freedom of action gave bin Laden and the
members of his organization a useful extra-legal
status in the Sudan.” Ex. W-2 at 2. Al Qaeda has
released official audio and video recordings and books
through its media wing, As-Sahab, which explain the
organization’s tactical decision to move to Sudan. See
Tr. Vol. III at 246-47. In one official As-Sahab video,
an al Qaeda member explains that “[t]he migration to
the Sudan isn’t just to build that impoverished
country, but also for the Sudan to be a launching
ground for the management of the Jihad against the
forces of tyranny in a number of corners of the world,
especially after the House of Saud colludes with the
Americans in their entrance to the land of the Two
Sanctuaries, in a blatant contradiction of the
command of the Prophet (peace be upon him).” Ex.
FF. The al Qaeda narrator continues, “[t]he Shaykh
was keen to build the Sudan, which is a sound
objective, but [also], the Sudan was a factory and
production cell for a generation of Mujahideen who
would spread to other countries.” Id. (second
alteration in original); see also Tr. Vol. III at 249-51.
Bin Laden’s presence in Sudan and partnership
with Sudan was openly touted by the Sudanese
government, including television broadcasts of Bin
Laden in the company of both al-Turabi and
President al-Bashir. Tr. Vol. III at 255. The United
States monitored this alliance throughout the 1990s.
The State Department’s 1991 Patterns of Global

210a
Terrorism report detailed Sudan’s growing connection
with terrorist organizations:
In the past year Sudan has enhanced its
relations with international terrorist
groups, including the Abu Nidal
Organization,
ANO.
Sudan
has
maintained ties with state sponsors of
terrorism such as Libya and Iraq and
has improved its relations with Iran.
The National Islamic Front (NIF), under
the leadership of Hassan al-Turabi, has
intensified its domination of the
government of Sudanese president
General Bashir and has been the main
advocate of closer relations with radical
groups and their sponsors.
Ex. KK-1; Tr. Vol. III at 307-08. The 1993 Report
explained that Sudan had been placed on the list of
state sponsors of terrorism. Ex. GG. The report
continued:
Despite several warnings to cease
supporting radical extremists, the
Sudanese government continued to
harbor international terrorist groups in
Sudan. Through the National Islamic
Front (NIF), which dominates the
Sudanese
government,
Sudan
maintained a disturbing relationship
with a wide range of Islamic extremists.
The list includes the ANO, the
Palestinian HAMAS, the [Palestinian
Islamic Jihad], Lebanese Hizballah, and
Egypt’s al-Gama’at al-Islamiyya.

211a
Id.; see also Tr. Vol. III at 257-59.
Even after Sudan expelled Bin laden in 1996, al
Qaeda operatives remained in Sudan. Ex. AA; see
also Tr. Vol. II at 173-75; Tr. Vol. III at 305. A
declassified CIA report dated May 12, 1997 indicated
that Sudan’s support for terrorist groups such as al
Qaeda
continued,
despite
the considerable
international pressure prompting the expulsion of
Bin Laden: “[d]espite some positive steps over the
past year, Khartoum has sent mixed signals about
cutting its terrorist ties and has taken only tactical
steps.” Ex. BB; see also Tr. Vol. II 175-76.
The State Department’s 1997 Patterns of Global
Terrorism report detailed Sudan’s continued support
for terrorist organizations: “Sudan in 1997 continued
to serve as a haven, meeting place, and training hub
for a number of international terrorist organizations,
primarily of Middle East origin. The Sudanese
Government also condoned many of the objectionable
activities of Iran, such as funneling assistance to
terrorists and radical Islamic groups operating in and
transiting through Sudan.” Ex. KK-2; see also Ex.
KK-3 (stating that Sudan continued to serve as a
haven of international terrorist organizations in 1998
and noting “[in] particular[] Usama Bin Ladin’s alQaida organization”); Tr. Vol. III at 308-09. Hence,
the evidence strongly supports the conclusion that
Sudan harbored and provided sanctuary to terrorists
and their operational and logistical supply network
leading up to the 1998 terrorist attacks on U.S.
embassies in East Africa.

212a
2. Financial, Military and Intelligence Services
As explained in more detail below, Sudan also
provided critical financial, military, and intelligence
services that facilitated and enabled al Qaeda to
strengthen its terrorist network and infiltrate nearby
countries. Al Qaeda set up a number of businesses
and charities in Khartoum, Sudan to finance its
terrorist activities and provide employment and cover
for its operatives. The government of Sudan also
provided passports and Sudanese citizenship for al
Qaeda operatives. Additionally, the Sudanese
military and intelligence service coordinated with al
Qaeda operatives frequently, providing protection for
al Qaeda and sharing resources and information to
coordinate attacks on their mutual enemies.
i.

Financial Support

Al Qaeda set up several businesses and charities in
Sudan as its financial and operative base for terrorist
activities. Tr. Vol. III at 253-55. Once al Qaeda
settled in Khartoum, it opened business offices and
bought a guesthouse designed to house al Qaeda
operatives in transit. Id. at 252. Al Qaeda’s
businesses included companies that imported and
exported containers, farm products, and construction
materials. See Ex. HH; Tr. Vol. III at 278-80; Ex. V at
8-9. Al Qaeda’s farms provided income and offered
space for terrorist training camps. Tr. Vol. III at 25253. The expansive space allowed for testing
explosives, producing mock-ups and planning attacks
and assassinations. Id.; Ex. V at 15-16.
These businesses produced some commercial profit
but, more critically, provided employment for al
Qaeda operatives and cover for terrorist activities. Tr.

213a
Vol. III at 253-55. The commercial operations also
provided an avenue for exchanging currency and
purchasing imported goods without raising
international suspicion. Usama bin Laden, Tr. Trans.
at 239-46 (testimony of al-Fadl). As Mr. Kohlmann
explained:
Al Qaeda was looking for a way of selfsustaining, providing a means of income
for its membership, its leadership, and
also to provide an excuse for why al
Qaeda operatives would be traveling to
different countries. It makes a good
excuse if you show up at a foreign
country at an immigration desk and
someone asks you, why are you here, I’m
here to help sell peanuts. I’m here to
provide humanitarian relief. It sounded
a lot better than saying I’m here to
foment Islamic revolution.
Tr. Vol. III at 255.
Al Qaeda also opened and operated a number of
purported charities to provide income for jihad,
launder such funds and otherwise operate as a front
for terrorist operations. Ex. II; Tr. Vol. III at 285-86.
Most of the charities had offices in Khartoum and
were active across West and Central Africa, including
in Somalia and Kenya. Tr. Vol. III at 286. As fronts
for al Qaeda activity, these charities served as depots
for al Qaeda communications and records and as safe
meeting houses for operatives. Id. For example, al
Qaeda used the office of Mercy International in
Nairobi, Kenya to hide documents, plan operations,
and house members of al Qaeda. Id. at 287. Al Qaeda

214a
members used Mercy International ID cards to pose
as relief workers. Id. Another charity in Nairobi, Help
Africa People, did not engage in any relief work and
was utilized similarly as a cover organization for al
Qaeda members. Id. at 288-89.
Bin Laden and al Qaeda also invested in Sudanese
banks. Id. at 337. This access to the formal banking
system was useful for “laundering money and
facilitating other financial transactions that
stabilized and ultimately enlarged bin Laden’s
presence in the Sudan.” Id. For example, Bin Laden
invested $50 million in the Sudan’s Al Shamal
Islamic Bank, and these funds were used to finance al
Qaeda operations. Ex. V at 11-14. Al Shamal Islamic
Bank was known for financing terrorist operations,
and bin Laden remained a leading investor of the
bank long after he was expelled from the Sudan. Id.
The commercial enterprises served al Qaeda’s
ultimate goal of organizing jihad against the United
States and the West. As Dr. Vidino testified:
During its time in Sudan, al Qaeda grew
into a sophisticated organization.
Several key figures in the organization
portrayed al Qaeda at the time as a
multinational corporation complete with
a finance committee, investments,
worldwide
operations,
and
wellorganized, concealed accounts. These
activities were clearly facilitated by the
Sudanese
government. Complacent
banks,
customs
exemptions,
tax
privileges, and, more generally, full
support by the Sudanese government,

215a
allowed
Bin
Laden’s
commercial
activities to flourish. But money has
never been Bin Laden’s highest
aspiration. He used his newfound
advantageous position to solidify his
nascent organization, al Qaeda. . . . . Al
Qaeda’s commercial activities were to be
used simply as a tool for the more
important goal of building a stronger al
Qaeda, not to generate profits. If profits
were made, they were reinvested in the
organization.
Ex. V at 15.
ii.

Governmental/Military Support

The Sudanese government, through al-Turabi and
al-Bashir, invited al Qaeda members to leave
Afghanistan and come to Sudan in the early 1990s.
Tr. Vol. III at 242-43. President al-Bashir followed up
on this general invitation with a letter specifically
inviting several al Qaeda members to come to Sudan.
Id. at 243. Al Qaeda members used the letter to
“avoid having to go through normal immigration and
customs controls” and resolve any “problems with the
local police or authorities.” Id. This letter served as a
“free pass” throughout the Sudan: “Upon viewing this
letter, whether it was customs or immigration or
Sudanese police officers, they backed off. They
understood that these individuals were here in an
official quote-unquote diplomatic role.” Id.
During the 2001 trial of Bin Laden, Jamal al-Fadl,
the former high-ranking al Qaeda member from
Sudan, testified that the letter served to publicly
verify al Qaeda’s extra-judicial status in the Sudan:

216a
“Like when we go to Port of Sudan and we bring some
stuff that comes — when we have some guys from
outside Sudan to go inside Sudan, that letter, we
don’t have to pay tax or custom, or sometime the
Customs, you don’t have to open our containers.”
Usama Bin Laden, Tr. Trans. at 238. The letter and
governmental support provided al Qaeda unchecked
access throughout Sudan. Tr. Vol. III at 243. Al-Fadl
also testified that the Sudanese government provided
al Qaeda members — including those who were not
Sudanese — with “a couple hundred . . . real
passports . . . and Sudanese citizenships” to facilitate
travel outside of the Sudan. Usama bin Laden, Tr.
Trans. at 441-42.
Al Qaeda and the Sudanese government jointly
attempted to acquire nuclear materials and develop
chemical weapons. Tr. Vol. III at 284-85. The
Sudanese military “was directly engaged in trying to
develop regular conventional weapons into
nonconventional chemical weapons with al Qaeda’s
assistance.” Id. at 285. Al Qaeda also had the support
of Sudanese soldiers to facilitate the transport of
weapons. Essam al-Ridi, an al Qaeda member and
pilot, testified as to his knowledge of the use of
Sudanese soldiers to protect Bin Laden and al Qaeda
members. Ex. H at 25; see also Usama bin Laden, Tr.
Trans. at 569-70. Al-Ridi explained that members of
the Sudanese military acted as personal guards for
Bin Laden at his guest house in Khartoum. Ex. H at
25-27.
Although Sudan eventually expelled Bin Laden in
1996, the government strongly resisted foreign
pressure to turn him over to the United States or
grant access to the al Qaeda training camps. Ex. W-2

217a
at 4-5. Steven Simon, an expert on the state
sponsorship of terrorism, concluded that the
Sudanese government’s negotiation with the United
States regarding Bin Laden as a terrorist threat “was
a charade,” with Sudan not providing “useful
information on bin Laden’s finances or the terrorist
training camps.” Id. at 5. Furthermore, “[t]he
Sudanese government never offered intelligence
regarding al Qaeda cells that might have helped the
U.S. unravel the plots to attack the two East African
U.S. embassies.” Id.
iii.

Support from Sudan’s Intelligence Services

The Sudanese intelligence service had a delegation
office that provided services to Bin Laden and al
Qaeda. Tr. Vol. III at 271; Ex. V at 19. As described
by Mr. Simon:
The Sudanese intelligence service
coordinated with al Qaeda operatives to
vet the large numbers of Islamic
militants entering the country to ensure
that they were not seeking to infiltrate
bin Laden’s organization on behalf of a
foreign intelligence service.
Ex. W-2 at 4. Bin Laden himself was closely involved
with the Sudanese intelligence service and aware of
its operations. Tr. Vol. III at 271. When al Qaeda
members or operatives arrived at the Khartoum
airport, Sudanese intelligence would greet them and
escort them around customs and immigration to
prevent their bags from being searched and their
passports from being stamped. Id. Al Qaeda
operatives tried to avoid passport stamps from
Sudanese customs, because of Khartoum’s reputation

218a
for terrorist activity and the concern that a member
with a stamped passport could come under suspicion
of being involved in international terrorism. Id. at
271-73.
The Sudanese intelligence service facilitated the
transport of al Qaeda operatives and funds from
Sudan to the Nairobi cell. Id. at 294. For example, in
violation of Kenyan customs regulations, the
Sudanese intelligence service enabled al Qaeda
operative L’Houssaine Kherchtou to smuggle $10,000
from Sudan to Kenya. Id. The intelligence service also
provided security for al Qaeda, which included
protecting Bin Laden from an assassination attempt
in Khartoum in 1994. Id. at 274. Additionally, the
Sudanese intelligence service provided al Qaeda with
weapons and explosives. Id. at 270.
The relationship between al Qaeda and the
Sudanese intelligence was close and mutually
beneficial. See id. at 268-270. Indeed, “[t]he Sudanese
intelligence service viewed al Qaeda as a proxy, much
the way that Iran views Hezbollah as a proxy.” Id. at
268-69. As a means of increasing their influence, the
Sudanese intelligence service considered that “by
sharing resources, information, [and] by assisting al
Qaeda, the Sudanese could use al Qaeda to attack
their mutual enemies.” Id. at 269.
3. Sudan’s Support Essential to 1998 Embassy
Bombings
Sudanese government support was critical to the
success of the 1998 embassy bombings: “The
presence, the safe haven that Al Qaeda had in the
Sudan was absolutely integral for its capability of
launching operations not just in Kenya, but in

219a
Somalia, in Eritrea, in Libya. Without this base of
operations, none of this would have happened.” Id. at
317. The support of Sudanese intelligence, the safe
haven provided by the Sudanese government to house
al Qaeda’s leadership and train its operatives, and
the provision of passports allowing al Qaeda to open
businesses and charities enabled al Qaeda to build its
terrorist cells in Kenya, Somalia and Tanzania. Id. at
316-19. Indeed, Mr. Simon asserted:
The Republic of Sudan supplied al
Qaeda with important resources and
support during the 1990s knowing that
al Qaeda intended to attack the citizens,
or interests of the United States. This
support encompassed the safe haven of
the entire country for bin Laden and the
top al Qaeda leadership. This enabled
bin Laden and his followers to plot
against the U.S. and build their
organization free from U.S. interference.
Sudanese shelter enabled Bin Laden to
create training camps, invest in – and
use – banking facilities, create business
firms to provide cover for operatives,
generate funds for an array of terrorist
groups, provide official documents to
facilitate clandestine travel, and enjoy
the protection of Sudan’s security service
against infiltration, surveillance and
sabotage.
Ex. W-2 at 5-6. Sudan’s support thus facilitated and
enabled the 1998 terrorist bombings on the two U.S.
embassies in East Africa.

220a
With the support of Sudan and Iran, al Qaeda killed
and attempted to kill thousands of individuals on site
in the 1998 U.S. embassy attacks in Nairobi, Kenya
and Dar es Salaam, Tanzania. The evidence
overwhelmingly supports the conclusion that al
Qaeda carried out the two bombing attacks, and Bin
Laden himself claimed responsibility for them during
an al Qaeda documentary history released by the al
Qaeda media wing. See Exs. LL, MM, NN, OO; Tr.
Vol. III at 313-16.
II. CONCLUSIONS OF LAW
The “terrorism exception” to the FSIA was first
enacted as part of the Mandatory Victim’s Restitution
Act of 1996, which was itself part of the larger
Antiterrorism and Effective Death Penalty Act of
1996. See Pub. L. No. 104-132, § 221(a)(1)(C), 110
Stat. 1241, 1241 (formerly codified at 28 U.S.C.
§1605(a)(7)). The exception permitted claims against
foreign state sponsors of terrorism that resulted in
personal injury or death, where either the claimant
or the victim was a United States citizen at the time
of the terrorist act. See 28 U.S.C. § 1605(a)(7) (2007).
Shortly thereafter, Congress passed the so-called
“Flatlow Amendment” in the Omnibus Consolidated
Appropriations Act of 1996. See Pub. L. No. 104-208,
§ 589, 110 Stat. 3009-1, 3009-172 (codified at 28
U.S.C. §1605 note). Initially, some courts construed
§ 1605(a)(7) and the Flatlow Amendment, read in
tandem, as creating a federal cause of action against
the foreign state sponsor of terrorism. See, e.g.,
Flatlow v. Islamic Republic of Iran, 999 F. Supp. 1, 27
(D.D.C. 1998).

221a
In Cicippio-Puleo v. Islamic Republic of Iran, the
D.C. Circuit concluded that neither § 1605(a)(7) nor
the Flatlow Amendment itself created a cause of
action against the foreign state. 353 F.3d 1024, 1027
(D.C. Cir 2004). Instead of a federal cause of action,
the D.C. Circuit directed plaintiffs to assert causes of
action using “some other source of law, including
state law.” Id. at 1036; see, e.g., Dammarell v. Islamic
Republic of Iran, 2005 WL 756090, at *33 (D.D.C.
Mar. 25, 2005) (requiring plaintiffs post-CicippioPuleo to amend their complaint to state causes of
action under the law of the state in which they were
domiciled at the time of their injuries). Hence,
following Cicippio-Puleo, the FSIA “terrorism
exception” began to serve as “a ‘pass-through’ to
substantive causes of action against private
individuals that may exist in federal, state or
international law.” Bodoff v. Islamic Republic of Iran,
424 F. Supp. 2d 74, 83 (D.D.C. 2006).
In some cases, applying relevant state law created
practical problems for litigants and the courts. Under
applicable choice of law principles, district courts
applied the state tort law of each individual plaintiff's
domicile, which in many cases involved several
different states for the same terrorism incident. See,
e.g., Dammarell v. Islamic Republic of Iran, 404 F.
Supp. 2d 261, 275-324 (D.D.C. 2005) (applying the
law of six states and the District of Columbia). This
analysis resulted in different awards for similarlysituated plaintiffs, based on the substantive tort law
distinctions among states for intentional infliction of
emotional distress claims. See, e.g., Peterson v.
Islamic Republic of Iran, 515 F. Supp. 2d 25, 44-45
(D.D.C. 2007) (dismissing intentional infliction of

222a
emotional distress claims of those family members
domiciled in Pennsylvania and Louisiana, whose laws
required the claimant to be present at the site of the
event causing emotional distress).
To address these issues, Congress enacted section
1083 of the 2008 NDAA, which amended the
“terrorism exception” and other related FSIA
provisions. The Act repealed §1605(a)(7) of Title 28
and replaced it with a separate section, §1605A,
which, among other things: (1) broadened the
jurisdiction of federal courts to include claims by
members of the U.S. armed forces and employees or
contractors of the U.S. government injured while
performing their duties on behalf of the U.S.
Government; and (2) created a federal statutory
cause of action for those victims and their legal
representatives against state sponsors of terrorism
for terrorist acts committed by the State, its agents,
or employees, thereby abrogating Cicippio-Puleo. See
Simon v. Republic of Iraq, 529 F.3d 1187, 1190 (D.C.
Cir. 2008), rev’d on other grounds, 129 S. Ct. 2183
(2009).
This case is the second to apply §1605A to non-U.S.
national plaintiffs who worked for the U.S.
government (and their non-U.S. national family
members), who are now entitled to compensation for
personal injury and wrongful death suffered as a
result of the terrorist attacks on the U.S. Embassies
in Nairobi, Kenya and Dar es Salaam, Tanzania. The
first was this Court’s recent decision in Estate of Doe
v. Islamic Republic of Iran, 2011 WL 3585963 (D.D.C.
Aug. 16, 2011), dealing with claims arising out of the
1983 and 1984 bombings of the U.S. embassy in
Lebanon.

223a
A. Jurisdiction Under The FSIA
The Foreign Sovereign Immunities Act, 28 U.S.C.
§§ 1602-1611, is the sole basis for obtaining
jurisdiction over a foreign state in the United States.
Argentine Republic v. Amerada Hess Shipping Corp.,
488 U.S. 428, 434 (1989); Brewer v. Islamic Republic
of Iran, 664 F. Supp. 2d 43, 50 (D.D.C. 2009).
Although the FSIA provides that foreign states are
generally immune from jurisdiction in U.S. courts,
see 28 U.S.C. § 1604, a federal district court can
obtain personal and subject matter jurisdiction over a
foreign entity in certain circumstances. A court can
obtain personal jurisdiction over a defendant if the
plaintiff properly serves the defendant in accordance
with 28 U.S.C. § 1608. See 28 U.S.C. § 1330(b).
Moreover, subject matter jurisdiction exists if the
defendant’s conduct falls within one of the specific
statutory exceptions to immunity. See 28 U.S.C.
§§ 1330(a) & 1604. Here, this Court has jurisdiction
because service was proper and defendants’ conduct
falls within the “state sponsor of terrorism” exception
set forth in 28 U.S.C. § 1605A.
1. Service of Process
Courts may exercise personal jurisdiction over a
foreign state where the defendant is properly served
in accordance with 28 U.S.C. § 1608. See 28 U.S.C.
§ 1330(b); TMR Energy Ltd. v. State Prop. Fund of
Ukr., 411 F.3d 196, 199 (D.C. Cir. 2005). “A foreign
state or its political subdivision, agency or
instrumentality must be served in accordance with 28
U.S.C. § 1608.” Fed. R. Civ. P. 4(j)(1). “The FSIA
prescribes four methods of service, in descending
order of preference. Plaintiffs must attempt service

224a
by the first method (or determine that it is
unavailable) before proceeding to the second method,
and so on.” Ben-Rafael v. Islamic Republic of Iran,
540 F. Supp. 2d 39, 52 (D.D.C. 2008); see also 28
U.S.C. § 1608. As described above, plaintiffs in each
case here properly effected service on all defendants.
See supra at 2-4. And in each case, defendants did
not respond or make an appearance within 60 days,
and thus, pursuant to § 1608(d), the Clerk entered
default against defendants. Hence, as defendants
were properly served in accordance with § 1608, this
Court has personal jurisdiction over them.
2. Subject Matter Jurisdiction
The provisions relating to the waiver of immunity
for claims alleging state-sponsored terrorism, as
amended, are set forth at 28 U.S.C. § 1605A(a).
Section 1605A(a)(1) provides that a foreign state shall
not be immune from the jurisdiction of U.S. courts in
a case where
money damages are sought against [it]
for personal injury or death that was
caused by an act of torture, extrajudicial
killing, aircraft sabotage, hostage
taking, or the provision of material
support or resources for such an act if
such act or provision of material support
or resources is engaged in by an official,
employee, or agent of such foreign state
while acting within the scope of his or
her office, employment, or agency.
§ 1605A(a)(1). For a claim to be heard in such a case,
the foreign state defendant must have been
designated by the U.S. Department of State as a

225a
“state sponsor of terrorism” at the time the act
complained of occurred. Id. Finally, subsection
(a)(2)(A)(ii) requires that the “claimant or the
victim was, at the time the act . . . occurred
(I) a national of the United States;
(II) a member of the armed forces; or
(III) otherwise an employee of the
Government of the United States . . . acting
within the scope of the employee’s
employment . . . .
28 U.S.C. § 1605A(a)(2)(A)(ii)(I-III)(emphasis
added).
As explained in more detail below, plaintiffs satisfy
each of the requirements for subject matter
jurisdiction. First, Iran and Sudan were designated
as state sponsors of terrorism at the time all of the
related actions in this case were filed. Second,
plaintiffs’ injuries were caused by the defendants’
acts of “extrajudicial killing” and provision of
“material support” for such acts to their agents.
Third, plaintiffs presented evidence that they were
either themselves nationals of the United States or
U.S. Government employees at the time of the
attacks, or their claims are derived from claims
where the victims were either U.S. nationals or U.S.
Government employees at the time of the attacks, as
required by section 1605A(a)(2)(A)(ii). As the case
progresses to the damages phase, individual plaintiffs
will be required to produce evidence of their
employment or familial relationship to establish their
standing under the statute.

226a
i.

Iran and Sudan De signate d As State
Spo nsors of Terrorism

A foreign state defendant must have been
designated as a state sponsor of terrorism at the time
the act complained of occurred. 28 U.S.C.
§ 1605A(a)(2)(A)(I). The statute defines “state sponsor
of terrorism” as “a country the government of which
the Secretary of State has determined, for purposes of
section 6(j) of the Export Administration Act of 1979
(50 U.S.C. App. 2405(j)), section 620A of the Foreign
Assistance Act of 1961 (22 U.S.C. 2371), section 40 of
the Arms Export Control Act (22 U.S.C. 2780), or any
other provision of law, is a government that has
repeatedly provided support for acts of international
terrorism . . . .” 28 U.S.C. § 1605A(h)(6).
Iran and Sudan were designated by the U.S.
Department of State as state sponsors of terrorism on
January 19, 1984 and August 12, 1993, respectively.
Iran was formally declared a state sponsor of
terrorism by Secretary of State Schultz, see 49 Fed.
Reg. 2836 (Jan. 23, 1984), and today remains
designated as a state sponsor of terrorism. Sudan was
originally designated a state sponsor of terrorism in
1993. See 58 Fed. Reg. 52,523 (Oct. 8, 1993). Once a
country has been designated as a state sponsor of
terrorism, the designation cannot be rescinded unless
the President submits to Congress a proper report, as
described in the Export Administration Act. See 50
U.S.C. app. § 2405(j)(4). Iran and Sudan have never
been removed from this list of state sponsors of
terrorism. Hence, the requirements set forth in
section 1605A(a)(2)(A)(i) are satisfied.

227a
ii.

Extrajudicial Killing and Provision of
Material Support

The FSIA, as amended, strips immunity “in any
case . . . in which money damages are sought against
a foreign state for personal injury or death that was
caused by an act of . . . extrajudicial killing . . . or the
provision of material support or resources for such an
act if such an act or provision of material support or
resources is engaged in by an official, employee, or
agent or such foreign state while acting within the
scope of his or her office, employment, or agency.” 28
U.S.C. § 1605A(a)(1). The FSIA refers to the Torture
Victim Protection Act of 1991 (“TVPA”) for the
definition of “extrajudicial killing.” See 28 U.S.C.
§ 1605A(h)(7). The TVPA provides that
the term “extrajudicial killing” means a
deliberated killing not authorized by a
previous judgment pronounced by a
regularly constituted court affording all
of the judicial guarantees which are
recognized as indispensable by civilized
peoples. Such term, however, does not
include any such killing that, under
international law, is lawfully carried out
under the authority of a foreign nation.
28 U.S.C. § 1350 note; see also Valore v. Islamic
Republic of Iran, 700 F. Supp. 2d 52, 74 (D.D.C. 2010)
(adopting the TVPA definition of “extrajudicial
killing” in bombing of U.S. Marine barracks in Beirut,
Lebanon).
Plaintiffs have satisfied their burden under 28
U.S.C. § 1608(e) to show that the governments of
Sudan and Iran provided material support and

228a
resources to Bin Laden and al Qaeda for acts of
terrorism, including extrajudicial killings. Targeted,
large-scale bombings of U.S. embassies or official U.S.
government buildings constitute acts of extrajudicial
killings. Estate of Doe, 2011 WL 3585963, at *10
(“[T]he 1983 and 1984 Embassy bombings both
qualify as an ‘extrajudicial killing.’”); Dammarell v.
Islamic Republic of Iran, 281 F. Supp. 2d 105, 192
(D.D.C. 2003)(“[T]he evidence is conclusive that [the
victims of the 1983 embassy bombing in Lebanon]
were deliberately targeted for death and injury
without authorization by a previous court judgment .
. . and [the 1983 bombing] constitutes an act of
‘extrajudicial killing.’”); Wagner v. Islamic Republic of
Iran, 172 F. Supp. 2d 128, 134 (D.D.C. 2001) (finding
the September 1984 bombing of the U.S. embassy
annex in Lebanon was a “deliberate and
premeditated act” that killed 14 people and “[t]here is
no evidence that it was judicially sanctioned by any
lawfully constituted tribunal”); Brewer, 664 F. Supp.
2d at 52-53 (same); Welch v. Islamic Republic of Iran,
2007 U.S. Dist. LEXIS 99191, at *26 (D.D.C. Sept. 20,
2007) (finding that an embassy attack “clearly
qualifies as an extrajudicial killing”).
With the support of Sudan and Iran, al Qaeda killed
hundreds of individuals — and attempted to kill
thousands more—on site in the 1998 U.S. embassy
attacks in Nairobi and Dar es Salaam. No one
questions that al Qaeda carried out the two bombing
attacks, and Bin Laden himself claimed responsibility
for them during an al Qaeda documentary history
released by the al Qaeda media wing. See Exs. LL,
MM, NN, OO; Tr. Vol. III at 313-16. Such acts of
terrorism are contrary to the guarantees “recognized

229a
as indispensable by civilized persons.” Hence, the
1998 embassy attacks in Kenya and Tanzania, and
the resulting deaths and injuries, qualify as an
“extrajudicial killing.”
The statute defines “material support or resources”
to include “any property, tangible or intangible, or
service, including currency or monetary instruments
or financial securities, financial services, lodging,
training, expert advice or assistance, safehouses,
false
documentation
or
identification,
communications equipment, facilities, weapons,
lethal substances, explosives, [and] personnel.” 18
U.S.C. § 2339A(b). As described in detail above,
defendants provided several kinds of material
support to al Qaeda without which it could not have
carried out the 1998 bombings. Sudan provided — at
least — safe haven for Bin Laden and al Qaeda, and
functioned as its training, organizational and
logistical hub, from 1991 to 1996. When a foreign
sovereign allows a terrorist organization to operate
from its territory, this meets the statutory definition
of “safehouse” under 18 U.S.C. § 2339A(b):
Insofar as the government of the
Republic of Sudan affirmatively allowed
and/or encouraged al Qaeda and
Hizbollah to operate their terrorist
enterprises within its borders, and thus
provided a base of operations for the
planning and execution of terrorist
attacks
—
as
the
complaint
unambiguously
alleges
—
Sudan
provided a “safehouse” within the
meaning of 18 U.S.C. § 2339A, as
incorporated in 28 U.S.C. § 1605(a)(7).

230a
Owens v. Republic of Sudan, 412 F. Supp. 2d 99, 108
(D.D.C. 2006). The Sudanese government also
provided inauthentic passports, which qualify as
“false documentation or identification” under 18
U.S.C. § 2339A(b). Plaintiffs also established that the
Iranian government both trained al Qaeda members
and authorized the provision of training by Hezbollah
in explosives, and specifically in how to destroy large
buildings. This support qualifies as “training, expert
advice or assistance” under 18 U.S.C. § 2339A(b). See
id. § 2339A(b)(2) and (3) (defining “training” as
“instruction or teaching designed to impart a specific
skill, as opposed to general knowledge” and “expert
advice or assistance” as “advice or assistance derived
from scientific, technical or other specialized
knowledge”).
The statute also requires that the extrajudicial
killings be “caused by” the provision of material
support. The causation requirement under the FSIA
is satisfied by a showing of proximate cause. See 28
U.S.C. § 1605A(a)(1); Estate of Doe, 2011 WL
3585963, at *11; Valore, 700 F. Supp. at 66; Kilburn
v. Socialist People’s Libyan Arab Jamahiriya, 376
F.3d 1123, 1128 (D.C. Cir. 2004) (weighing the import
of the phrase “caused by” from 28 U.S.C. § 1605(a)(7),
the predecessor statute to 28 U.S.C. § 1605A).
Proximate causation may be established by a showing
of a “reasonable connection” between the material
support provided and the ultimate act of terrorism.
Valore, 700 F. Supp. 2d at 66. “Proximate cause
exists so long as there is ‘some reasonable connection
between the act or omission of the defendant and the
damages which the plaintiff has suffered.’” Id.
(quoting Brewer, 664 F. Supp. 2d at 54 (construing

231a
causation element in 28 U.S.C. § 1605A by reference
to cases decided under 28 U.S.C. § 1605(a)(7)).
Plaintiffs have demonstrated several reasonable
connections between the material support provided
by defendants and the two embassy bombings. Sudan
provided the safe harbor necessary to allow al Qaeda
to train and organize its members for acts of largescale terrorism from 1992 to 1996. Sudan facilitated
its safe harbor through constant vigilance by its
security services and the provision of documentation
required to shelter al Qaeda from foreign intelligence
services and competing terrorist groups. Iran’s
training and technical support was specifically
required for the successful execution of al Qaeda’s
plot to bomb the two embassies. Hence, plaintiffs
have established that the 1998 embassy bombings
were caused by Iran and Sudan’s provision of
material support.
B. Federal Cause of Action
Once jurisdiction has been established over
plaintiffs’ claims against all defendants, liability on
those claims in a default judgment case is established
by the same evidence if “satisfactory to the Court.” 28
U.S.C. § 1608(e). Plaintiffs’ claims are brought under
section 1605A(c), the newly created federal cause of
action, or, in the alternative, under applicable state
or foreign law. Section 1605A(c) authorizes claims
against state sponsors of terrorism to recover
compensatory and punitive damages for personal
injury or death caused by acts described as follows.
(c) Private right of action.—A foreign state
that is or was a state sponsor of terrorism as
described in subsection (a)(2)(A)(i), and any

232a
official, employee, or agent of that foreign
state while acting within the scope of his or
her office, employment, or agency, shall be
liable to—
(1) a national of the United States,
(2) a member of the armed forces,
(3) an employee of the Government of the
United States, or of an individual performing
a contract awarded by the United States
Government, acting within the scope of the
employee’s employment, or
(4) the legal representative of a person
described in paragraph (1), (2), or (3), for
personal injury or death caused by acts
described in subsection (a) (1) of that foreign
state, or of an official, employee, or agent of
that foreign state, for which the courts of the
United States may maintain jurisdiction
under this section for money damages. In any
such action, damages may include economic
damages, solatium, pain and suffering, and
punitive damages. In any such action, a
foreign state shall be vicariously liable for the
acts of its officials, employees, or agents.
The plain meaning approach to statutory
construction governs the Court’s interpretation of §
1605A(c). See Estate of Doe, 2011 WL 3585963, at
*13-*14. A straightforward reading of § 1605A(c) is
that it creates a federal cause of action for four
categories of individuals: a national of the United
States, a member of the U.S. armed forces, a U.S.
Government employee or contractor, or a legal

233a
representative of such a person. Absent from these
four categories are non-U.S. national family members
of the victims of terrorist attacks. The statutory
language that follows the listing of the four categories
of individuals in § 1605A(c) does not expand the
private right of action beyond those four categories.
The cause of action is further described as “for
personal injury or death caused by acts described in
subsection (a)(1) of that foreign state, or of an official
employee or agent of that foreign state, for which the
courts of the United States may maintain jurisdiction
under this section for money damages.” Id.
Plaintiffs argue that the statutory language creates
a cause of action for any individual victim or claimant
“for which the courts of the United States may
maintain jurisdiction.” But the plain language of the
statute does not support this construction. Indeed,
the text refers back to the waiver of sovereign
immunity as to a foreign state for terrorist acts as
provided in section (a)(1). Nonetheless, the family
member plaintiffs contend that, even if they do not fit
expressly within the four categories listed in
§ 1605A(c)(1)-(4), once the immunity of the
defendants has been waived as to their claims, the
intent of Congress indicates that the immediate
family members of U.S. government employees,
despite their status as foreign nationals, are entitled
to bring claims through a federal statutory cause of
action and seek damages for their losses, including
for solatium and pain and suffering.
Plaintiffs explain that the legislative history reveals
that a purpose of the 2008 amendments to the FSIA
was to “fix[] the inequality” of rights between U.S.
citizens and non-U.S. citizens to seek relief from the

234a
perpetrators of terrorist acts. See 154 Cong. Rec. S54
(daily ed. Jan. 22, 2008) (statement by Sen.
Lautenberg). And, plaintiffs continue, Congress was
prompted to create a federal statutory cause of action
that would resolve the disparity among the various
state laws regarding the recovery of emotional
distress by immediate family members that existed
prior to the statutory amendments. See 154 Cong.
Rec. S54 (daily ed. Jan. 22, 2008) (statement by Sen.
Lautenberg) (noting that the amendments would fix
the problem of “judges hav[ing] been prevented from
applying a uniform damages standard to all victims
in a single case because a victim’s right to pursue an
action against a foreign government depends upon
State law”). Indeed, if foreign national immediate
family members of victims do not have a cause of
action under § 1605A(c), then Senator Lautenberg did
not completely “fix” the problem of disparate damages
standards for this particular category of claimants.
But it is not the court’s role to fix a problem that
Congress failed to address. See Estate of Doe, 2011
WL 3585963, at *14. As Cicippio-Puleo instructed,
“the Supreme Court has declined to construe statutes
to imply a cause of action where Congress has not
expressly provided one.” 353 F.3d at 1033.
Some courts have found jurisdiction and a cause of
action under §1605A and, in so doing, have noted that
because § 1605A(c) incorporates the elements
required to waive the foreign state’s immunity and
vest the court with subject matter jurisdiction under
section 1605A, “liability under section 1605A(c) will
exist whenever the jurisdictional requirements of
section 1605A are met.” Calderon-Cardona v.
Democratic People’s Republic of Korea, 723 F. Supp.

235a
2d 441, 460 (D.P.R. 2010); see also Kilburn v. Islamic
Republic of Iran, 699 F. Supp. 2d 136, 155 (D.D.C.
2010) (explaining that the elements of immunity and
liability are “essentially the same [under the new
amendments] in that § 1605A(a)(1) must be fulfilled
to demonstrate that a plaintiff has a cause of action”
under § 1605A(c)); Murphy v. Islamic Republic of
Iran, 740 F. Supp. 2d 51, 72 (D.D.C. 2010) (analyzing
liability and jurisdiction together); Brewer, 664 F.
Supp. 2d at 52 (“[I]f immunity is waived, the Act
provides for economic damages, solatium, pain and
suffering, and punitive damages.”); Gates v. Syrian
Arab Republic, 580 F. Supp. 2d 53, 64-69 (D.D.C.
2008) (analyzing liability under the same elements
required for jurisdiction and finding liability where
extrajudicial killing and material support elements
satisfied). But that is not true here. In each of those
cases, the claimants fit within the four categories of
individuals who are explicitly provided a cause of
action under § 1605A(c) of the statute. The elements
for a waiver of immunity and for liability, then, may
indeed be the same. But not for individuals who do
not fit within the four categories listed in § 1605A(c).
See Estate of Doe, 2011 WL 3585963, at *15.
Hence, those plaintiffs who are foreign national
family members of victims of the terrorist attacks in
Nairobi and Dar es Salaam lack a federal cause of
action. Nonetheless, they may continue to pursue
claims under applicable state and/or foreign law.
Although § 1605A created a new federal cause of
action, it did not displace a claimant’s ability to
pursue claims under applicable state or foreign law
upon the waiver of sovereign immunity. See Estate of
Doe, 2011 WL 3585963, at *15 (citing Simon, 529

236a
F.3d at 1192). Indeed, plaintiffs injured or killed as a
result of state-sponsored terrorist attacks have
pursued claims under both the federal cause of action
and applicable state law, and are precluded only from
seeking a double recovery. See id.
C. Choice of Law
In circumstances where the federal cause of action
is not available, courts must determine whether a
cause of action is available under state or foreign law
and engage in a choice of law analysis. Federal courts
addressing FSIA claims in the District of Columbia
apply the choice of law rules of the forum state.
Oveissi v. Islamic Republic of Iran, 573 F.3d 835, 840
(D.C. Cir. 2009); Dammarell, 2005 WL 756090, at
*18. This Court will therefore look to the choice of law
rules of the District of Columbia in this case.
Under District of Columbia choice of law rules, the
court must first determine whether a conflict exists
between the law of the forum and the law of the
alternative jurisdiction. If there is no true conflict,
the court should apply the law of the forum. See USA
Waste of Md, Inc. v. Love, 954 A.2d 1027, 1032 (D.C.
2008) (“A conflict of laws does not exist when the laws
of the different jurisdictions are identical or would
produce the identical result on the facts presented.”).
If a conflict is present, the District of Columbia
employs a “constructive blending’ of the ‘government
interests’ analysis and the ‘most significant
relationship’ test” to determine which law to apply.
Oveissi, 573 F.3d at 842; Dammarell, 2005 WL
756090, at *18 (citation omitted).
In Dammarell, an FSIA case that involved the 1983
bombing of the U.S. embassy in Beirut, Lebanon, this

237a
Court explained that “under the governmental
interests analysis as so refined, we must evaluate the
governmental policies underlying the applicable laws
and determine which jurisdiction’s policy would be
most advanced by having its law applied to the facts
of the case under review.” 2005 WL 756090, at *18.
For the “most significant relationship’ component of
the analysis, the D.C. Court of Appeals directs courts
to section 145 of the Restatement of the Conflict of
Laws, which identifies four relevant factors: (i) ‘the
place where the injury occurred’; (ii) ‘the place where
the conduct causing the injury occurred’; (iii) ‘the
domicile, residence, nationality, place of incorporation
and place of business of the parties’; and (iv) ‘the
place where the relationship, if any, between the
parties is centered.’” Id. (citing Restatement (Second)
of Conflict of Laws § 145 (1971)). The Restatement
also references the “needs of the interstate and the
international systems, the relevant policies of the
forum, the relevant policies of other interested states,
certainty, predictability and uniformity of result, and
ease in the determination and application of the law
to be applied.” Id.; see also Oveissi, 573 F.3d at 842;
Estate of Heiser v. Islamic Republic of Iran, 466 F.
Supp. 2d 229, 266 (D.D.C. 2006). As a general rule,
the law of the forum governs, “unless the foreign
state has a greater interest in the controversy.”
Kaiser-Georgetown Cmty. Health Plan v. Stutsman,
491 A.2d 502, 509 (D.C. 1985).
Three conceivable choices of law are presented in
this case: the law of the forum state (the District of
Columbia), the laws of the place of the tort (Kenya
and Tanzania), or the law of the domicile state or
country of each plaintiff (including domestic and

238a
foreign locations). See Dammarell, 2005 WL 756090,
at *18. In previous FSIA terrorism cases involving
U.S. citizen plaintiffs, this Court ruled that the law of
the domicile state of each plaintiff should provide the
rule of decision, noting each state’s interest in the
welfare and compensation of the surviving family
members of individuals killed in the terrorist attacks.
See id. at *21 (citing cases). Here, as in Estate of Doe,
the choice of law analysis pertains only to non-U.S.
national family members of victims of the terrorist
attacks (who lack a federal cause of action), and the
balance of interests suggests a different outcome from
the FSIA cases involving U.S. citizen plaintiffs.
Consistent with Dammarell and other FSIA cases,
United States domestic law remains more
appropriate in state-sponsored terrorism cases than
foreign law. Furthermore, in light of the 2008
amendments to FSIA that seek to promote uniformity
and extend access to U.S. federal courts to foreign
national immediate family members of victims of
terrorism, the law of the forum state, the District of
Columbia, should provide the rule of decision.
1. Domestic Law
As in Dammarell, the choice of law analysis here
points away from the place of the injury, and toward
applying the laws of a United States forum. First, no
clear conflict of law is present between the laws of the
forum (District of Columbia) and the laws of Kenya
and Tanzania. Like District of Columbia law, Kenyan
law allows immediate family members to recover for
their emotional distress. See Pl.’s Att. B, Kenyan
Legal Opinion. Tanzanian law also permits
immediate family members to recover for some

239a
emotional
injuries.
Tanzanian
Probate
and
Administration of Estates Act, ¶ 33 (Lexis 2010).
When “the laws of the different jurisdictions . . .
would produce the identical result on the facts
presented,” USA Waste, 954 A.2d at 1032, it tilts the
balance of this Court’s choice of law analysis towards
domestic law.
Second, to the extent that United States law and
the law of Kenya and Tanzania (or another foreign
jurisdiction) conflict, the District of Columbia’s
“governmental interests” choice of law test in statesponsored terrorism cases strongly favors the
application of United States law over foreign law.
Although “[t]he law of a foreign country has provided
the cause of action in some cases arising out of mass
disasters that occurred on foreign soil,” Dammarell,
2005 WL 756090, at *19 (citing Harris v. Polskie
Linie Lotnicze, 820 F.2d 1000, 1004 (9th Cir. 1987)
(applying Polish law to airplane crash occurring in
Poland), and Barkanic v. Gen. Admin. of Civil
Aviation of the People’s Republic of China, 923 F.2d
957, 962-64 (2d Cir. 1991) (applying Chinese law to
airplane crash occurring in China)), such a result is
less appropriate in state-sponsored terrorism-related
cases. In terrorism cases, “[t]he United States has a
unique interest in having its domestic law — rather
than the law of a foreign nation — used in the
determination of damages in a suit involving such an
attack.” Holland v. Islamic Republic of Iran, 496 F.
Supp. 2d 1, 22 (D.D.C. 2005) (citing Restatement
(Third) of Foreign Relations Law § 402(3) (1987)).
Here, just as in Dammarell, “the particular
characteristics of this case heighten the interests o f a
domestic forum and diminish the interest of the

240a
foreign state. The injuries in this case are the result
of a state-sponsored terrorist attack on a United
States embassy and diplomatic personnel. The United
States has a unique interest in its domestic law,
rather than the law of a foreign nation, determining
damages in a suit involving such an attack.”
Dammarell, 2005 WL 756090, at *20; see also
Restatement (Third) of Foreign Relations Law
§ 402(3) (1987) (recognizing that the United States
has an interest in projecting its laws overseas for
“certain conduct outside its territory by persons not
its nationals that is directed against the security of
the state or against a limited class of other state
interests”). These considerations “elevate the
interests of the United States to nearly its highest
point.” Dammarell, 2005 WL 756090, at *20; see also
Kaiser-Georgetown Cmty. Health Plan, 491 A.2d at
509 n.10 (suggesting that unless a foreign state has a
greater interest in the application of its law than the
forum state, the interests of efficiency only serve to
further “tilt the balance in favor of applying the law
of the forum state”). Hence, the “governmental
interest” prong of the District of Columbia choice of
law analysis counsels against applying the law of
Kenya and Tanzania, or other foreign laws, and
suggests that domestic law should control. Cf. Estate
of Doe, 2011 WL 3585963, at *17.
2. District of Columbia Law
In addition to the strong governmental interest in
applying United States law in this case, the interests
of uniformity of decision among the foreign national
family members points to the application of the law of
the forum. Most of these plaintiffs are domiciled in
Kenya and Tanzania, although some are domiciled in

241a
other countries. In previous FSIA decisions, this
Court has applied the laws of the several domiciliary
states. See, e.g., Dammarell, 2005 WL 756090, at *21.
Here, however, the interests of uniformity provided
by the law of the forum state, which also has a
significant interest in the underlying events, provides
the most appropriate choice of law for all foreign
national family members who lack a federal cause of
action. See Kaiser-Georgetown Cmty. Health Plan,
491 A.2d at 509 n.10 (“‘The forum State’s interest in
the fair and efficient administration of justice’
together with the ‘substantial savings [that] can
accrue to the State's judicial system’ when its judges
are ‘able to apply law with which [t]he[y are]
thoroughly familiar or can easily discover,’ tilt the
balance in favor of applying the law of the forum.”
(quoting Allstate Ins. Co. v. Hague, 449 U.S. 302, 326
& n.14 (1981)).
In the recent amendments to the FSIA, Congress
has sought to strengthen enforcement of United
States terrorism laws and to extend their protections
to foreign nationals who are employees of United
States embassies targeted by terrorists and their
immediate family members, as well as to correct the
problem of disparity among the various state laws
regarding recovery of emotional distress by family
members. See Estate of Doe, 2011 WL 3585963, at
*18. As discussed above, Congressional desire to
promote uniformity does not, by itself, create a
federal cause of action for non-United States national
family members where the statutory text fails to do
so. But efficiency and uniformity are appropriate and
meaningful factors in a choice of law analysis.
Without doubt, applying District of Columbia law will

242a
provide greater uniformity of result, as individual
plaintiffs domiciled in different states and foreign
nations will all be subject to the same substantive
law. Although “the D.C. Court of Appeals has
emphasized that concerns of uniformity and
familiarity cannot prevail when another location
otherwise has ‘a significantly greater interest than
does the District’ in the cause of action,” Dammarell,
2005 WL 756090, at *20 (citing Mims v. Mims, 635
A.2d 320, 324-25 (D.C. 1993)), the recent
amendments — and the stated goal of those
amendments to promote uniformity — serve to
increase the interest in applying District of Columbia
substantive law to this case.
The District of Columbia’s connection to the
terrorist attacks in this case further supports this
choice of law conclusion. To be sure, the 1998
embassy bombings took place in Kenya and
Tanzania, the nationalities and domiciles of the
various victims and plaintiffs are disparate and
varied, and the defendants have no connection to the
United States. But a unifying factor in this case is
that all of plaintiffs’ claims derive from employment
with a federal agency headquartered in the District of
Columbia, the seat of the federal government. The
application of District of Columbia substantive law
best promotes the United States' interest in applying
domestic law rather than the law of a foreign nation,
Congress’s intent to promote uniformity of result, and
the District of Columbia’s real connection to the
attacks in this case. See Estate of Doe, 2011 WL
3585963, at *19. Hence, this Court will apply the law
of the District of Columbia to plaintiffs’ claims that

243a
do not arise under the federal cause of action at §
1605A(c).
III. CONCLUSION
For the foregoing reasons, final judgment on
liability will be entered in favor of plaintiffs and
against defendants. Plaintiff's claims, under federal 3
or state law, will be referred to a special master, who
will receive evidence and prepare proposed findings
and recommendations for the disposition of each
individual claim in a manner consistent with this
opinion. A separate order will be issued on this date.
/s/
JOHN D. BATES
United States District Judge
Dated: November 28, 2011
For plaintiffs’ federal claims under § 1605A(c), “[t]he Court is
presented with the difficulty of evaluating these claims under
the FSIA-created cause of action, which does not spell out the
elements of these claims that the Court should apply.” Valore,
700 F. Supp. 2d at 75. Hence, the Court “is forced . . . to apply
general principles of tort law — an approach that in effect looks
no different from one that explicitly applies federal common
law”; but “because these actions arise solely from statutory
rights, they are not in theory matters of federal common law.”
Heiser, 659 F. Supp. 2d at 24; see also Bettis v. Islamic Republic
of Iran, 315 F.3d 325, 333 (D.C. Cir. 2003) (discussing that the
term “federal common law” under the FSIA “seems to us to be a
misnomer” because “these actions are based on statutory
rights”). District courts thus look to Restatements, legal
treatises, and state decisional law “to find and apply what are
generally considered to be the well-established standards of
state common law, a method of evaluation which mirrors—but is
distinct from — the ‘federal common law’ approach.” Heiser, 659
F. Supp. 2d at 24.
3

244a
APPENDIX E
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 11/28/2011]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
Civil Action No. 08-1349 (JDB)

WINFRED WAIRIMU WAMAI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

245a

Civil Action No. 08-1361 (JDB)

MILLY MIKALI AMDUSO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
Civil Action No. 08-1377 (JDB)

JUDITH ABASI MWILA, et al.,

Plaintiffs,
v.
THE ISLAMIC REPUBLIC OF IRAN, et al.,

Defendants.
Civil Action No. 08-1380 (JDB)

MARY ONSONGO, et al.,

Plaintiffs,

246a
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
Civil Action No. 10-0356 (JDB)

RIZWAN KHALIQ, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of the October 25-28, 2010 trial
on liability, and the entire record in these cases, and
for the reasons set out in the accompanying
Memorandum Opinion issued on this date, it is
hereby
ORDERED that final judgment on liability is
entered in favor of plaintiffs and against defendants;
it is further
ORDERED that the parties shall appear for a
status conference to discuss the appointment of a
special master and any other remaining issues on

247a
December 19, 2011 at 9:15 a.m. in Courtroom 14; and
it is further
ORDERED that the Clerk of Court shall arrange for
this Order and the accompanying Memorandum
Opinion to be translated into Farsi and cause a copy
of the translated Order and Memorandum Opinion to
be transmitted to the United States Department of
State for service.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: November 28, 2011

248a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/28/2014]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
MEMORANDUM OPINION 1
Over fifteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es
Salaam,
Tanzania were devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. This Court
has entered final judgment on liability under the
Foreign Sovereign Immunities Act (“FSIA”) in this
1 The Court has redacted plaintiffs’ names in both this
Opinion and the Judgment filed this date—but the Court has
only redacted in this case precisely as requested by plaintiffs’
counsel—and unredacted versions will be filed under seal. See
Mot. for Order to Redact [ECF No. 298].

249a
civil action and several related cases—brought by
victims of the bombings and their families—against
the Republic of Sudan, the Ministry of the Interior of
the Republic of Sudan, the Islamic Republic of Iran,
and the Iranian Ministry of Information and
Security (collectively “defendants”) for their roles in
supporting, funding, and otherwise carrying out
these unconscionable acts. 2 The next step in the case
is to assess and award damages to each individual
plaintiff, and in this task the Court has been aided
by a special master.
Plaintiffs are twelve U.S. citizens injured in
either the Nairobi or Dar es Salaam bombings, as
well as forty-nine 3 immediate family members of the
victims, of whom forty-two are U.S. citizens. Service
of process was completed upon each defendant, but
defendants failed to respond, and a default was
entered against each defendant. This Court then held
that it has jurisdiction over the defendants and that
the U.S. nationals have a federal cause of action
under 28 U.S.C. § 1605A(c). See Owens v. Republic
of Sudan, 826 F. Supp. 2d 128, 148-51 (D.D.C.
2011). The Court also held that although those
plaintiffs who
are
foreign national family
members of victims lack a federal cause of action,
Plaintiffs in some of the related actions have also sued—and
the Court has entered judgment against—the Iranian
Revolutionary Guards Corps.
3 This tally does not include one injured plaintiff’s two
grandchildren (Jane Grandchild1 Cdoe and Jane Grandchild2
Cdoe), named in the complaint: the Court will dismiss their
claims because they do not have a viable cause of action. See
infra Part III.a.3.
2

250a
they may nonetheless pursue claims under the law of
the District of Columbia. 4 Id. at 153-57. A final
judgment on liability was then entered in favor of
plaintiffs. Nov. 28, 2011 Order [ECF No. 214] 2.
The deposition testimony and other evidence
presented established that the defendants were
responsible for supporting, funding, and otherwise
carrying out the bombings in Nairobi and Dar es
Salaam. See Owens, 826 F. Supp. 2d at 135-47.
The Court then referred plaintiffs’ claims to a
special master, Paul G. Griffin, to prepare proposed
findings and recommendations for a determination of
damages. Feb. 27, 2012 Order Appointing Special
Masters [ECF No. 221] 2. The special master has
now filed completed reports on each plaintiff, and
plaintiffs have filed proposed findings of fact and
conclusions of law based on those reports. See
Reports of Special Master Paul Griffin [ECF Nos.
271-77, 279, 286, 288]; Proposed Findings of Fact &
Conclusions of Law [ECF No. 287]. In completing
those reports and in finding the facts, the special
master relied on sworn testimony, expert reports,
medical records, and other evidence. The reports
extensively describe the key facts relevant to each of
the plaintiffs and carefully analyze their claims
under the framework established in mass tort
terrorism cases. The Court commends Paul Griffin for
his excellent work and thoughtful analysis.

4 The non-citizen plaintiffs are Jane Sibling3 Bdoe, Jane
Sibling2 Bdoe, Jane Sibling3 Bdoe, Jane Parent1 Gdoe, John
Parent2 Gdoe, Jane Sibling3 Gdoe, and Jane Sibling4 Gdoe.

251a
The Court hereby adopts all facts found by the
special master relating to all plaintiffs in this case.
Where the special master has received evidence
sufficient to find that a plaintiff is a U.S. national
and is thus entitled to maintain a federal cause of
action, the Court adopts that finding. In addition, the
Court adopts the special master’s findings that each
plaintiff 5 has established the familial relationship
necessary to support standing under section
1605A(a)(2)(A)(ii). See Owens, 826 F. Supp. 2d at
149. The
Court also adopts all damages
recommendations in the reports, with the few
adjustments
described
below.
“Where
recommendations deviate from the Court’s damages
framework, ‘those amounts shall be altered so as to
conform with the respective award amounts set forth’
in the framework, unless otherwise noted.” Valore v.
Islamic Republic of Iran, 700 F. Supp. 2d 52, 82-83
(D.D.C. 2010) (quoting Peterson v. Islamic Republic
of Iran, 515 F. Supp. 2d 25, 53 (D.D.C. 2007)
(“Peterson II”), abrogation on other grounds
recognized in Mohammadi v. Islamic Republic of
Iran, 947 F. Supp. 2d 48, 65 (D.D.C. 2013)). As a
result, the Court will award plaintiffs a total
judgment of over $487 million.
CONCLUSIONS OF LAW
I.

Plaintiffs Are Entitled T o D ama ges O n T heir
Federal Law Claims Under 28 U.S.C. § 1605A

“To obtain damages in a Foreign Sovereign
Immunities Act (FSIA) action, the plaintiff must
With the exception of the two grandchildren, who are not
immediate family members. See supra note 1.
5

252a
prove that the consequences of the defendants’
conduct were reasonably certain (i.e., more likely
than not) to occur, and must prove the amount of the
damages by a reasonable estimate consistent with
application of the American rule on damages.” Valore,
700 F. Supp. 2d at 83. Plaintiffs here have proven
that the consequences of the defendants’ conduct
were reasonably certain to—and indeed intended to—
cause injury to plaintiffs. See Owens, 826 F. Supp. 2d
at 135-46. As discussed in this Court’s previous
opinion, because the FSIA-created cause of action
“does not spell out the elements of these claims that
the Court should apply,” the Court “is forced . . . to
apply general principles of tort law” to determine
plaintiffs’ entitlement to damages on their federal
claims. Id. at 157 n.3.
Survivors here are entitled to recover for the pain
and suffering caused by the bombings: acts of
terrorism “by their very definition” amount to
extreme and outrageous conduct and are thus
compensable by analogy under the tort of “intentional
infliction of emotional distress.” Valore, 700 F. Supp.
2d at 77 (citing Restatement (Second) of Torts § 46(1)
(1965)); see Baker v. Socialist People’s Libyan Arab
Jamahriya, 775 F. Supp. 2d 48, 74 (D.D.C. 2011)
(permitting plaintiffs injured in state-sponsored
terrorist bombings to recover for personal injuries,
including pain and suffering, under tort of
“intentional infliction of emotional distress”); Estate
of Bland v. Islamic Republic of Iran, 831 F. Supp. 2d
150, 153 (D.D.C. 2011) (same). Hence, “those who
survived the attack may recover damages for their
pain and suffering . . . [for] economic losses caused by
their injuries; . . . [and] family members can recover

253a
solatium for their emotional injury . . . .” Oveissi v.
Islamic Republic of Iran, 879 F. Supp. 2d 44, 55
(D.D.C. 2012) (“Oveissi II”) (citing Valore, 700 F.
Supp. 2d at 82-83); 28 U.S.C. § 1605A(c). Accordingly,
all plaintiffs who were injured in the 1998 bombings
can recover for their pain and suffering as well as
their economic damages, and their immediate family
members—if U.S. nationals—can recover for
solatium. Bland, 831 F. Supp. 2d at 153.
II.

Plaintiffs Who Lack A Federal Cause O f Action
Are Entitled To Damages Under D.C. Law

This Court previously held that it will apply District
of Columbia law to the claims of any plaintiffs for
whom jurisdiction is proper, but who lack a federal
cause of action under the FSIA. Owens, 826 F. Supp.
2d at 153-57. This category includes only the foreign
national family members of the injured victims from
the 1998 bombings. Individuals in this category seek
to recover solatium damages under D.C. law based on
claims of intentional infliction of emotional distress.
To establish a prima facie case of intentional
infliction of emotional distress under D.C. law, a
plaintiff must show: (1) extreme and outrageous
conduct on the part of the defendant which, (2) either
intentionally or recklessly, (3) causes the plaintiff
severe emotional distress. Larijani v. Georgetown
Univ., 791 A.2d 41, 44 (D.C. 2002). Acts of terrorism
“by their very definition” amount to extreme and
outrageous conduct, Valore, 700 F. Supp. 2d at 77;
the defendants in this case acted intentionally and
recklessly; and their actions caused each plaintiff
severe emotional distress. See Owens, 826 F. Supp.
2d at 136-45; Murphy v. Islamic Republic of Iran, 740
F. Supp. 2d 51, 74-75 (D.D.C. 2010). Likewise, D.C.

254a
law allows spouses and next of kin to recover
solatium damages. D.C. Code § 16-2701. Based on the
evidence submitted to the special master, the Court
concludes that the foreign national family members
of the victims of the 1998 bombings have each made
out their claims for intentional infliction of emotional
distress and are entitled to solatium damages.
III. Damages
Having established that plaintiffs are entitled to
damages, the Court now turns to the question of the
amount of damages, which involves resolving
common questions related to plaintiffs with similar
injuries. The damages awarded to each plaintiff are
laid out in the tables in the separate Order and
Judgment issued on this date.
a. Compensatory Damages
1. Economic damages
Under the FSIA, plaintiffs may recover economic
damages, which typically include lost wages, benefits
and retirement pay, and other out-of-pocket expenses.
28 U.S.C. § 1605A(c). To determine each surviving
plaintiff’s economic losses resulting from the
bombings, the special master relied on economic
reports submitted by Dr. Jerome Paige and
Associates, which estimated lost earnings, fringe
benefits, retirement income, and the value of
household services lost as a result of the injuries
sustained from the bombing. Those reports were
attached to each special master report where a
plaintiff suffered economic damages. In turn, Dr.
Paige and Associates relied on information from the
survivors as well as other documentation, including

255a
social security benefit reports and employment
records. See Proposed Findings of Fact & Conclusions
of Law Ex. 2 [ECF No. 287-3] (further explaining
methodology employed in creating the economic loss
reports). The Court adopts the findings and
recommendations of the special master as to
economic losses.
The special master also recommends awarding
economic damages to account for certain out-of-pocket
expenses incurred as a direct result of the bombings,
consisting of both past and future medical expenses.
The
Court
adopts
the
special
master’s
recommendations as to out-of-pocket medical
expenses already incurred. In determining future
medical costs of certain plaintiffs, the special master
relied on reports created by Mona Yudkoff, R.N, a life
care planner, who determined that several plaintiffs
will require constant medical care and treatment for
the rest of their lives because of the injuries they
sustained in the bombing. See Proposed Findings of
Fact & Conclusions of Law Ex. 3 [ECF No. 287-4]
(further explaining methodology employed in creating
future medical expense reports). The Court adopts
the special master’s recommendations as to these
future medical costs as well.
2. Awards for pain and suffering due to injury
Courts determine pain-and-suffering awards for
survivors based on factors including “the severity of
the pain immediately following the injury, the length
of hospitalization, and the extent of the impairment
that will remain with the victim for the rest of his or
her life.” See O’Brien v. Islamic Republic of Iran, 853
F. Supp. 2d 44, 46 (D.D.C. 2012) (internal quotation

256a
marks omitted). When calculating damages amounts,
“the Court must take pains to ensure that individuals
with similar injuries receive similar awards.”
Peterson II, 515 F. Supp. 2d at 54. Recognizing this
need for uniformity, courts in this district have
developed a general framework for assessing painand-suffering damages for victims of terrorist
attacks, awarding a baseline of $5 million to
individuals who suffer severe physical injuries, such
as compound fractures, serious flesh wounds, and
scars from shrapnel, as well as lasting and severe
psychological pain. See Valore, 700 F. Supp. 2d at 84.
Where physical and psychological pain is more
severe—such as where victims suffered relatively
more numerous and severe injuries, were rendered
quadriplegic, partially lost vision and hearing, or
were mistaken for dead—courts have departed
upward from this baseline to $7 million and above.
See O’Brien, 853 F. Supp. 2d at 47. Similarly,
downward departures to a range of $1.5 to $3 million
are warranted where the victim suffers severe
emotional injury accompanied by relatively minor
physical injuries. See Valore, 700 F. Supp. 2d at 8485.
The special master recommends an award of $5
million in pain and suffering for three plaintiffs,
downward departures from the baseline for five
plaintiffs, and upward departures from the baseline
for four plaintiffs. The Court will adopt these
recommendations with four adjustments to ensure
consistency with prior cases and between plaintiffs in
this case.
The special master’s report on John Victim1 Bdoe
suggests an award of $12 million in pain and

257a
suffering, based on his extensive injuries. Report of
Special Master Paul Griffin Concerning John Victim1
Bdoe [ECF No. 271] 83. Although an upward
departure from the baseline is appropriate, the Court
finds that a departure of $3 million is more
appropriate, bringing the total pain-and-suffering
award to $8 million. John Victim1 Bdoe was a
supervisor in information technology in the
diplomatic services corps at the U.S. Embassy in
Nairobi at the time of the bombing. Id. at 2. A steel
beam fell on him during the explosion, crushing his
left arm and shoulder. Id. at 12. The hospital in
Nairobi recommended amputation because the bones
were shattered and soft tissues were torn away from
the shoulder socket, destroying his rotator cuff, but
his doctors did not ultimately amputate. Id. at 10.
Efforts to repair John Victim1 Bdoe’s shoulder—
including eight lengthy reconstructive operations—
have failed because of alignment problems, postoperative infections, and other complications. Id. at
12. He has permanently lost the use of his left
shoulder, and has only limited use of his left arm
below the elbow. Id. at 15. He also suffers from
repeated infections due to his injuries, requiring him
to take antibiotics for the rest of his life. Id. at 13.
John Victim1 Bdoe also suffered massive injuries to
his head. Id. at 17. During the bombing, a significant
portion of his lower jaw was blown off. Id. He also
suffered injuries to many of his teeth and to his
mouth and face. Id. Because of the distortion to his
face, oral surgeons have trouble locating nerves to
numb when performing dental surgeries, and so he
has felt the full pain of such surgeries for hours at a
time. Id. at 18. John Victim1 Bdoe also suffers from

258a
numerous shrapnel wounds: fragments of glass,
drywall, metal, and other debris are embedded in his
body; that shrapnel periodically migrates through his
body and erupts through his skin. Id. at 22. These
physical injuries have destroyed John Victim1 Bdoe’s
ability to engage in sports with his children. Id. at 29.
He also suffers from very serious emotional injuries,
including post-traumatic stress disorder (“PTSD”),
nightmares, flashbacks, a sense of loss of control over
his life, isolation, loneliness, frustration of not being a
good husband and father due to his injuries, and
financial concerns of how he can support his wife and
family after the injuries he sustained. Id. at 31-32.
These injuries have substantially interfered with his
ability to enjoy a normal family relationship with his
wife and children. Id. at 32-33.
In Peterson II, the court departed upwards from the
baseline to award $12 million to a bombing survivor
who suffered severe injuries that included a broken
neck, which resulted in permanent quadriplegia. 515
F. Supp. 2d at 55. Although John Victim1 Bdoe’s
injuries are horrific, the Court finds that they are
more in line with those suffered by plaintiffs awarded
$8 million by the Peterson II court. See, e.g., id. at 54
(awarding $8 million to plaintiff Burnette, who was
buried alive for four days, and suffered injuries
including closed head injury, basilar skull fracture,
facial nerve palsy, rib injuries, tympanic membrane
ruptures, foot injuries, and severe psychological
problems); id. at 55 (awarding $8 million to plaintiff
Hunt, who suffered injuries including skull fractures,
brain bruising, various broken bones in his leg, an
exposed Achilles tendon, and severe psychological
problems). Because these injuries and their lasting

259a
effects are significantly more serious than those of
most plaintiffs receiving the baseline award of $5
million, the Court will award $8 million to John
Victim1 Bdoe.
The special master’s report on Jane Victim Cdoe
suggests an award of $20 million in pain and
suffering, based on her extensive injuries. Report of
Special Master Paul Griffin Concerning Jane Victim
Cdoe [ECF No. 275] 43. Although an upward
departure from the baseline is certainly appropriate,
the Court finds that a departure of $7 million is more
appropriate, bringing the total pain-and-suffering
award to $12 million. Jane Victim Cdoe worked for
the U.S. Department of State at the U.S. Embassy in
Nairobi at the time of the bombing, and she was at
work when the bomb went off. Id. at 2. She was
knocked unconscious by the blast, and when she
regained consciousness she was pinned to the floor by
various objects. Id. at 7. She was taken to the
hospital, and when she awoke she was on a plane to
Germany. Id. at 8. She was later taken to Walter
Reed Medical Center, where she spent over a month.
Id. As a direct result of the bombing, Jane Victim
Cdoe suffered the following injuries: deep lacerations
on both feet, severe burns on her left arm, shrapnel
and glass embedded in her left arm and chest, firstand second-degree burns to her head and face, two
perforated eardrums (one requiring surgery),
extremely serious eye injuries resulting in bilateral
blindness, a hole in the top of her skull, facial
lacerations and embedded glass, serious blast
tattooing on her face and permanent scarring, a
dislocated elbow, a large piece of shrapnel embedded
in her upper thigh, a lost tooth, nerve damage, and

260a
PTSD. Id. at 8-9. She was also infected with HIV due
to blood contamination at the Nairobi hospital,
resulting in AIDS. Id. at 9. Her skin still erupts
shrapnel from her face and head twice a month on
average, and her hearing is still poor. Id. at 23. Jane
Victim Cdoe has had over forty surgeries to repair
her eyes, and many other surgeries to repair her
other injuries. Id. at 10-11. She is, however, still
almost completely blind. Id. at 15. HIV destroyed the
physical relationship between Jane Victim Cdoe and
her former husband John Spouse Cdoe, and she
recently filed for a divorce. Id. at 18.
The Court finds that Jane Victim Cdoe’s injuries
are most comparable to those of the plaintiff rendered
quadriplegic in Peterson II, who was awarded $12
million. 515 F. Supp. 2d at 55. In addition to her
horrific physical injuries and many surgeries, as a
direct result of the bombing she is irreparably blind
and partly deaf, and she contracted HIV. In light of
her suffering, the Court finds that a significant
upward departure is merited, and it will award $12
million to Jane Victim Cdoe.
The special master’s report on John Victim Ddoe
suggests an award of $10 million in pain and
suffering, based on his extensive injuries. Report of
Special Master Paul Griffin Concerning John Victim
Ddoe [ECF No. 276] 26. Although an upward
departure from the baseline is appropriate, the Court
finds that a departure of $2 million is more
appropriate, bringing the total pain-and-suffering
award to $7 million. John Victim Ddoe was employed
by the U.S. Department of State and was stationed at
the embassy in Nairobi. Id. at 2. He has since passed
away from an unrelated cause. Id. at 3. John Victim

261a
Ddoe was knocked unconscious by the explosion and
was buried underneath rubble. Id. at 4. After
rescuers dug him out of the rubble, he was taken
immediately to the hospital in Nairobi. Id. at 5. He
was covered in bruises and lacerations from the
bombing. Id. at 8. He experienced severe issues as a
result of the extreme head trauma he suffered,
including issues thinking and talking clearly, being
reduced to wearing a diaper, having to relearn
remedial tasks such as walking, talking, and using
the bathroom, and having trouble remembering
things. Id. at 5. As a direct result of the bombing,
John Victim Ddoe suffered the following injuries: a
fractured scapula, a fractured rib, severed nerves in
his leg, burns on his back, missing teeth, brain
damage—including impairment of memory function,
problems with overall executive function and apathy,
disinhibition, problems processing information, and a
hematoma—and PTSD. Id. at 7-9.
As with John Victim1 Bdoe and Jane Victim Cdoe,
John Victim Ddoe’s injuries were significantly more
serious than those of most plaintiffs receiving the
baseline award. His injuries are comparable to those
suffered by one of the plaintiffs in Estate of Doe v.
Islamic Republic of Iran, 943 F. Supp. 2d 180, 187
(D.D.C. 2013). There, the court awarded $7 million to
a plaintiff who was mistaken for dead; rescue
workers threw her body from the building to an
ambulance waiting below.
She remained in the hospital for eight
months and underwent several surgeries
for severe head injuries. The crown of
her head had been split open, the roof of
her mouth was cracked, her vision and

262a
hearing were damaged, all of her teeth
were broken, and her hair was burnt off
. . . Due to glass pieces stuck in her lips
and cheeks, [she] required surgery to
reconstruct her face. She continues to be
profoundly affected by her injuries: she
is unable to eat certain foods because
the roof of her mouth didn’t heal
correctly, has eye pain, and relies on
other people to take care of her in
certain ways. She experiences constant
dizziness and cannot tolerate loud
noises.
Id.; see also Peterson II, 515 F. Supp. 2d at 55
(awarding $7 million to plaintiff Matthews, who
suffered injuries including shrapnel wound to
forehead destroying nose, lacerations, a perforated
eardrum, and severe psychological problems); id. at
56 (awarding $7 million to plaintiff Rivers, who
suffered injuries including two broken eardrums,
lacerations, burns, knee damage, and severe
psychological problems). John Victim Ddoe’s injuries
are similarly severe. He suffered severe head trauma,
burns and lacerations, broken bones, and he suffered
from PTSD. Because his injuries are comparable to
those of other plaintiffs receiving a $7 million award,
the Court will award $7 million to John Victim Ddoe’s
estate.
The special master’s report on John Victim1 Edoe
suggests an award of $7.5 million in pain and
suffering, based on his extensive injuries. Report of
Special Master Paul Griffin Concerning John Victim1
Edoe [ECF No. 277] 40. The Court believes that a
downward adjustment from both the special master’s

263a
recommendation and the baseline amount is
appropriate for John Victim1 Edoe. Where physical
injuries are comparatively minor and the primary
injury is emotional, courts adjust the award
downward. See, e.g., Valore, 700 F. Supp. 2d at 84-85.
At the time of the bombing, John Victim1 Edoe was a
special agent in the diplomatic services corps
assigned to the embassy in Nairobi. Id. at 4. He was
at an offsite embassy warehouse a few miles away
from the embassy at the time of the bombing. Id. at 5.
Knowing that his wife was in the embassy, he
immediately drove back there while extremely upset.
Id. He found his wife at the embassy, covered in dust,
abrasions, and cuts, and he was overjoyed to find her
alive. Id. at 6. Despite the grave emotional impact of
the bombing on him—he personally knew many of the
victims—he organized a search team and began to
move through the building, searching for survivors in
the rubble. Id. at 6. While searching the building, he
witnessed many dead bodies, some with limbs and
heads severed from torsos. Id. at 7-8. Even as
someone with combat experience, he was
overwhelmed by the number of people with severe
wounds. Id. at 8. While participating in the cleanup,
John Victim1 Edoe’s mouth began to bleed from the
amount of smoke and particles in the air. Id. at 24.
Lifting survivors from the rubble caused him to suffer
injuries to his back and shoulders. Id. at 10. As a
direct result of his search and rescue efforts after the
bombing, John Victim1 Edoe suffered the following
injuries: damage to his rotator cuffs, severe bilateral
muscle and tendon tears in his shoulders, back
injury, lost lung function, Reactive Airways
Dysfunction Syndrome, PTSD, anger, nightmares,

264a
insomnia, difficulty concentrating, distraction, major
depression, and suicidal tendencies. Id. at 10-11, 1617.
The record reflects lasting and severe psychological
pain for John Victim1 Edoe. But in light of his
relatively less severe physical injuries when
compared to plaintiffs who were injured by the bomb
blast itself, a downward departure from the baseline
is appropriate. For instance, in Valore, another judge
in this district awarded $1.5 million where a plaintiff
was knocked to the ground by a bomb blast, and
suffered severe emotional turmoil from helping
survivors. See Valore, 700 F. Supp. 2d at 84-85; see
also Peterson II, 515 F. Supp. 2d at 55 (departing
downward to $2 million where plaintiff experienced
“nerve pain and foot numbness” as well as “lasting
and severe psychological problems” from the attack).
John Victim1 Edoe suffered physical injuries during
his admirable search and rescue efforts, which are
more severe than those of the plaintiff in Valore.
Accordingly, the Court will award $3.5 million to
John Victim1 Edoe for pain and suffering.
3. Solatium
“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for pain and suffering,
and to those awarding damages for solatium.” Acosta
v. Islamic Republic of Iran, 574 F. Supp. 2d 15, 29
(D.D.C. 2008). Only immediate family members—
parents, siblings, spouses, and children—are entitled
to solatium awards. See Valore, 700 F. Supp. 2d at
79. The commonly accepted framework for solatium
damages in this district is that used in Peterson II,

265a
515 F. Supp. 2d at 52. See Valore, 700 F. Supp. 2d at
85; Belkin, 667 F. Supp. 2d at 23. According to
Peterson II, the appropriate amount of damages for
family members of injured victims is as follows: $4
million to spouses of injured victims, $2.5 million to
parents of injured victims, and $1.25 million to
siblings of injured victims. Peterson II, 515 F. Supp.
2d at 52. Courts in this district have differed
somewhat on the proper amount awarded to children
of injured victims. Compare Peterson II, 515 F. Supp.
2d at 51 ($2.5 million), with Davis v. Islamic Republic
of Iran, 882 F. Supp. 2d 7, 14 (D.D.C. 2012) ($1.5
million). The Court finds the Peterson II approach to
be more appropriate: to the extent such suffering can
be quantified, children who lose parents are likely to
suffer as much as parents who lose children.
Although these amounts are guidelines, not rules,
see Valore, 700 F. Supp. 2d at 86, the Court finds the
distinctions made by the Valore court to be
responsible and reasonable, and hence it will adopt
the same guidelines for determining solatium
damages here. In the interests of fairness and to
account for the difficulty in assessing the relative
severity of each family member’s suffering, in this
case and in related cases, the Court will not depart
from those guidelines for any individual plaintiff. 6
6 Two plaintiffs are actually former—or soon to be former—
spouses of injured victims. Case law is unclear on how m uch to
award former spouses. See Baker, 775 F. Supp. 2d at 84 (noting
lack of clarity and lowering solatium award because of divorce
soon after injury). Here, the special master has not
recommended a downward departure for the plaintiffs involved
(John Victim2 Fdoe, divorced from Jane Victim1 Fdoe, and John
Spouse Cdoe, divorced or soon-to-be divorced from Jane Victim

266a
Some plaintiffs in this case, sadly, had not one but
two parents injured in the bombings. Solatium
awards are meant to compensate for “the mental
anguish . . . that those with a close personal
relationship to [an injured victim] experience as the
result of the [survivor’s injuries], as well as the harm
caused by the loss of the [survivor’s] society and
comfort.” Id. at 85 (internal quotation marks
omitted). Accordingly, those plaintiffs who suffered
the misfortune of experiencing the disruption of not
one but two close personal relationships because of
the bombings are entitled to doubled solatium
awards, and the special master so recommended. See
id. at 86 (awarding solatium damages for each lost
relationship).
The Court finds that the special master has
appropriately applied the solatium damages
framework to most of the plaintiffs in this case, and
will adopt his recommendations with a few
exceptions. Other courts in this district have held
that it is inappropriate for the solatium awards of
family members to exceed the pain-and-suffering
awards of surviving victims. See Davis, 882 F. Supp.
2d at 15; O’Brien, 853 F. Supp. 2d at 47; Bland, 831
F. Supp. 2d at 157. The Court will follow that
approach here. The special master recommended
solatium awards exceeding the pain-and-suffering
awards to the related victim in several cases. Hence,
Cdoe). Because of the lengthy post-injury period of marriage in
both cases, and because the special master found that both
marriages suffered greatly as a result of the bombings, the
Court will award the full amount of solatium damages to both
plaintiffs.

267a
the Court will reduce those solatium awards to match
corresponding pain-and-suffering awards where
appropriate. 7 The Court will also increase the
solatium awards for two plaintiffs—John Child1 Fdoe
and Jane Child2 Fdoe—for whom the special master
apparently calculated solatium awards without
accounting for their suffering associated with their
brother John Victim3 Fdoe’s injuries. 8
b. Punitive Damages
Plaintiffs in this case have waived their claims for
punitive damages. See Waivers of Punitive Damages
[ECF No. 298-2]. Hence, the Court will dismiss Count
XXV of the Fifth Amended Complaint.
7 Accordingly, the Court reduces the following awards: John
Victim1 Bdoe’s solatium award, reduced from $4 million to $3
million; John Victim1 Edoe’s solatium award, reduced from $4
million to $2.5 million; Jane Victim2 Edoe’s solatium award,
reduced from $4 million to $3.5 million; Jane Victim1 Fdoe’s
solatium award, reduced from a combined $6.5 million to a
combined $4.5 million ($3 million for solatium associated with
John Victim2 Fdoe’s injuries and $1.5 million for solatium
associated with John Victim3 Fdoe’s injuries); John Victim2
Fdoe’s solatium award, reduced from a combined $6.5 million to
a combined $5.5 million ($4 million for solatium associated with
Jane Victim1 Fdoe’s injuries and $1.5 million for solatium
associated with John Victim3 Fdoe’s injuries); John Victim1
Gdoe’s solatium award, reduced from $4 million to $1.5 million;
and Jane Child1 Gdoe’s solatium award, reduced from a
combined $5 million to a combined $4 million ($2.5 million for
solatium associated with John Victim1 Gdoe’s injuries and $1. 5
million for solatium associated with Jane Victim2 Gdoe’s
injuries).

Those awards will each amount to $6.25 million: $2.5 million
for solatium associated with each of their parents’ injuries and
$1.25 million for solatium associated with their brother’s
injuries.
8

268a
c. Prejudgment Interest
An award of prejudgment interest at the prime rate
is appropriate in this case. See Oldham v. Korean Air
Lines Co., Ltd., 127 F.3d 43, 54 (D.C. Cir. 1997);
Forman v. Korean Air Lines Co., Ltd., 84 F.3d 446,
450-51 (D.C. Cir. 1996). Prejudgment interest is
appropriate on the whole award, including pain and
suffering and solatium, with one exception. See Reed
v. Islamic Republic of Iran, 845 F. Supp. 2d 204, 21415 (D.D.C. 2012) (awarding prejudgment interest on
the full award). But see Oveissi v. Islamic Republic of
Iran, 768 F. Supp. 2d 16, 30 n.12 (D.D.C. 2011)
(declining to award prejudgment interest on solatium
damages). Because the economic loss figures
recommended by the special master have already
been adjusted to reflect present discounted value, see
District of Columbia v. Barritaeu, 399 A.2d 563, 56869 (D.C. 1979), the Court will not apply the
prejudgment interest multiplier to the economic loss
amounts. See Doe, 943 F. Supp. 2d at 186 (citing
Oldham, 127 F.3d at 54). Awards for pain and
suffering and solatium are calculated without
reference to the time elapsed since the attacks.
Because plaintiffs were unable to bring their claims
immediately after the attacks, they have lost use of
the money to which they were entitled upon incurring
their injuries. Denying prejudgment interest on these
damages would allow defendants to profit from the
use of the money over the last fifteen years. Awarding
prejudgment interest, on the other hand, reimburses
plaintiffs for the time value of money, treating the
awards as if they were awarded promptly and
invested by plaintiffs.

269a
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge
for short-term unsecured loans to
creditworthy customers—is the most appropriate
measure of prejudgment interest, one “more
appropriate” than more conservative measures such
as the Treasury Bill rate, which represents the return
on a risk-free loan. See Forman, 84 F.3d at 450.
Although the prime rate, applied over a period of
several years, can be measured in different ways, the
D.C. Circuit has approved an award of prejudgment
interest “at the prime rate for each year between the
accident and the entry of judgment.” See id. at 450.
Using the prime rate for each year is more precise
than, for example, using the average rate over the
entire period. See Doe, 943 F. Supp. 2d at 185 (noting
that this method is a “substantially more accurate
‘market-based estimate’” of the time value of money
(citing Forman, 84 F. 3d at 451)). Moreover,
calculating interest based on the prime rate for each
year is a simple matter. 9 Using the prime rate for
each year results in a multiplier of 2.26185
for damages incurred in 1998. 10 Accordingly, the
To calculate the multiplier, the Court multiplied $1. 00 by the
prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields a multiplier of 2.26185.

9

10 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year
between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federal

270a
Court will use this multiplier to calculate the total
award. 11
CONCLUSION
The 1998 embassy bombings shattered the lives of
all plaintiffs in this case. Reviewing their personal
stories reveals that, even more than fifteen years
later, they each still feel the horrific effects of that
awful day. Damages awards cannot fully compensate
people whose lives have been torn apart; instead,
they offer only a helping hand. But that is the very
least that these plaintiffs are owed. Hence, it is what
Court will facilitate.
A separate Order consistent with these findings has
issued on this date.
/s/
JOHN D. BATES
United States District Judge
Dated: March 28, 2014

reserve.gov/releases/h15/data.htm (last visited March 28, 2014).
As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous six years.
11 The product of the multiplier and the base damages amount
includes both the prejudgment interest and the base damages
amount; in other words, applying the multiplier calculates not
the prejudgment interest but the base damages amount plus the
prejudgment interest, or the total damages award.

271a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/28/2014]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants,
ORDER
Upon consideration of [271-77, 279, 286, 287, 288]
Special Master Paul Griffin’s Reports and plaintiffs’
Proposed Findings of Fact and Conclusions of Law,
and the entire record herein, it is hereby
ORDERED that [271-77, 279, 286, 288] the Special
Master Reports are adopted in part and modified in
part as described in the accompanying Memorandum
Opinion issued on this date; it is further
ORDERED that Count XXV of [270] plaintiffs’ Fifth
Amended Complaint is DISMISSED; it is further

272a
ORDERED that judgment is entered in favor of
plaintiffs and against defendants in the total amount
of $487,687,665.78; and it is further
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: March 28, 2014

273a

274a

275a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/28/2014]

Civil Action No. 08-1377 (JDB)

JUDITH ABASI MWILA, et al.,

Plaintiffs,
v.
THE ISLAMIC REPUBLIC OF IRAN, et al.,

Defendants.

MEMORANDUM OPINION 1
Over fifteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es
Salaam,
Tanzania
were
devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. This Court has
entered final judgment on liability under the Foreign
Sovereign Immunities Act (“FSIA”) in this civil action
The Court has redacted plaintiffs’ names in both this Opinion
and the Judgment filed this date—but the Court has only
redacted in this case precisely as requested by plaintiffs’ counsel
in a related case—and unredacted versions will be filed under
seal. See Owens v. Repub. of Sudan, No. 01-2244, (D.D.C. Feb. 3,
2014) Mot. for Order to Redact [ECF No. 298].
1

276a
and several related cases—brought by victims of the
bombings and their families—against the Republic of
Sudan, the Ministry of the Interior of the Republic of
Sudan, the Islamic Republic of Iran, and the Iranian
Ministry of Information and Security (collectively
“defendants”) for their roles in supporting, funding,
and otherwise carrying out these unconscionable
acts. 2 The next step in the case is to assess and award
damages to each individual plaintiff, and in this task
the Court has been aided by a special master.
Plaintiffs are four Tanzanian citizens injured and
five estates of Tanzanian citizens killed in the Dar es
Salaam bombings, as well as forty-nine immediate
family members of the victims. Those injured and
deceased were employees of entities that had
contracts with the U.S. government, and were
performing under those contracts within the scope of
their employment at the U.S. Embassy in Dar es
Salaam when the bombing occurred. Service of
process was completed upon each defendant, but
defendants failed to respond, and a default was
entered against each defendant. The Court has held
that it has jurisdiction over defendants and that the
foreign national plaintiffs who worked for the U.S.
government are entitled to compensation for personal
injury and wrongful death under 28 U.S.C.
§ 1605A(c)(3). See Owens v. Republic of Sudan, 826 F.
Supp. 2d 128, 148-51 (D.D.C. 2011). The Court has
also held that, although those plaintiffs who are
foreign national family members of victims lack a
federal cause of action, they may nonetheless pursue
2 Plaintiffs in some of the related actions have also sued—and
the Court has entered judgment against—the Iranian
Revolutionary Guard Corps.

277a
claims under the laws of the District of Columbia. Id.
at 153-57. A final judgment on liability was entered
in favor of plaintiffs. Nov. 28, 2011 Order [ECF No.
214] 2. The deposition testimony and other evidence
presented established that the defendants were
responsible for supporting, funding, and otherwise
carrying out the bombings in Nairobi and Dar es
Salaam. See Owens, 826 F. Supp. 2d at 135-47.
The Court then referred plaintiffs’ claims to a
special master, John Swanson, to prepare proposed
findings and recommendations for a determination of
damages. Feb. 27, 2012 Order Appointing Special
Masters [ECF No. 33] 2. The special master has now
filed completed reports on each plaintiff, and
plaintiffs have filed proposed findings of fact and
conclusions of law based on those reports. See
Reports of Special Master John Swanson [ECF Nos.
36-44]; Proposed Findings of Fact & Conclusions of
Law [ECF No. 53]. In completing those reports, the
special master relied on sworn testimony, expert
reports, medical records, and other evidence. The
reports extensively describe the key facts relevant to
each plaintiff and carefully analyze their claims
under the framework established in mass tort
terrorism cases. The Court commends John Swanson
for his fine work and thorough analysis.
The Court hereby adopts all facts found by the
special master relating to each plaintiff in this case.
In addition, the Court adopts the special master’s
findings that all plaintiffs have established their
employment status or their familial relationship
necessary to support standing under section
1605A(a)(2)(A)(ii). See Owens, 826 F. Supp. 2d at 149.
The Court also adopts all damages recommendations

278a
in the reports, with a few adjustments as described
below. “Where recommendations deviate from the
Court’s damages framework, ‘those amounts shall be
altered so as to conform with the respective award
amounts set forth’ in the framework, unless
otherwise noted.” Valore v. Islamic Republic of Iran,
700 F. Supp. 2d 52, 82-83 (D.D.C. 2010) (quoting
Peterson v. Islamic Republic of Iran, 515 F. Supp. 2d
25, 53 (D.D.C. 2007) (“Peterson II”), abrogation on
other grounds recognized in Mohammadi v. Islamic
Republic of Iran, 947 F. Supp. 2d 48, 65 (D.D.C.
2013)). As a result, the Court will award plaintiffs a
total judgment of over $419 million.
CONCLUSIONS OF LAW
On November 28, 2011, the Court granted summary
judgment on liability against defendants in this case.
Nov. 28, 2011 Order [ECF No. 214] 2. The foreign
national U.S.-government-employee victims have a
federal cause of action, while their foreign-national
family members have a cause of action under D.C.
law.
I.

T h e Government-Employee P laintiffs A re
Entitled To Damages O n T he ir Fe deral L aw
Claims Under 28 U.S.C. § 1605A

“To obtain damages in a Foreign Sovereign
Immunities Act (FSIA) action, the plaintiff must
prove that the consequences of the defendants’
conduct were reasonably certain (i.e., more likely
than not) to occur, and must prove the amount of the
damages by a reasonable estimate consistent with
application of the American rule on damages.” Valore,
700 F. Supp. 2d at 83. Plaintiffs here have proven
that the consequences of defendants’ conduct were
reasonably certain to—and indeed intended to—cause

279a
injury to plaintiffs. See Owens, 826 F. Supp. 2d at
135-46. As discussed in this Court’s previous opinion,
because the FSIA-created cause of action “does not
spell out the elements of these claims that the Court
should apply,” the Court “is forced . . . to apply
general principles of tort law” to determine plaintiffs’
entitlement to damages on their federal claims. Id. at
157 n.3.
Survivors are entitled to recover for the pain and
suffering caused by the bombings: acts of terrorism
“by their very definition” amount to extreme and
outrageous conduct and are thus compensable by
analogy under the tort of “intentional infliction of
emotional distress.” Valore, 700 F. Supp. 2d at 77
(citing Restatement (Second) of Torts § 46(1) (1965));
see also Baker v. Socialist People’s Libyan Arab
Jamahriya, 775 F. Supp. 2d 48, 74 (D.D.C. 2011)
(permitting plaintiffs injured in state-sponsored
terrorist bombings to recover for personal injuries,
including pain and suffering, under tort of
“intentional infliction of emotional distress”); Estate
of Bland v. Islamic Republic of Iran, 831 F. Supp. 2d
150, 153 (D.D.C. 2011) (same). Hence, “those who
survived the attack may recover damages for their
pain and suffering, . . . [and for] economic losses
caused by their injuries. . . .” Oveissi v. Islamic
Republic of Iran, 879 F. Supp. 2d 44, 55 (D.D.C. 2012)
(“Oveissi II”) (citing Valore, 700 F. Supp. 2d at 82-83);
see 28 U.S.C. § 1605A(c). Accordingly, all plaintiffs
who were injured in the 1998 bombings can recover
for their pain and suffering as well as their economic
damages. Bland, 831 F. Supp. 2d at 153. In addition,
the estates of those who were killed in the attack are
entitled to recover compensatory damages for
wrongful death. See, e.g., Valore, 700 F. Supp. at 82

280a
(permitting estates to recover economic damages
caused to deceased victims’ estates).
II.

Family Members Who Lack A Federal C a use
Of Action Are E ntitled T o D am ages U n der
D.C. Law

This Court has previously held that it will apply
District of Columbia law to the claims of any
plaintiffs for whom jurisdiction is proper, but who
lack a federal cause of action under the FSIA. Owens,
826 F. Supp. 2d at 153-57. This category includes
only the foreign-national family members of the
injured victims from the 1998 bombings. Individuals
in this category seek to recover solatium damages
under D.C. law based on claims of intentional
infliction of emotional distress. To establish a prima
facie case of intentional infliction of emotional
distress under D.C. law, a plaintiff must show: (1)
extreme and outrageous conduct on the part of the
defendant which, (2) either intentionally or
recklessly, (3) causes the plaintiff severe emotional
distress. Larijani v. Georgetown Univ., 791 A.2d 41,
44 (D.C. 2002). Acts of terrorism “by their very
definition” amount to extreme and outrageous
conduct, Valore, 700 F. Supp. 2d at 77; the
defendants in this case acted intentionally and
recklessly; and their actions caused each plaintiff
severe emotional distress. See Owens, 826 F. Supp.
2d at 136-45; Murphy v. Islamic Republic of Iran, 740
F. Supp. 2d 51, 74-75 (D.D.C. 2010). Likewise, D.C.
law allows spouses and next of kin to recover
solatium damages. D.C. Code § 16-2701. Based on the
evidence submitted to the special master, the Court
concludes that the foreign national family members of
the victims of the 1998 bombings have each made out

281a
their claims for intentional infliction of emotional
distress and are entitled to solatium damages (with
the few exceptions detailed below).
III.

Damages

Having established that plaintiffs are entitled to
damages, the Court now turns to the question of the
amount of damages, which involves resolving
common questions related to plaintiffs with similar
injuries. The damages awarded to each plaintiff are
laid out in the tables in the separate Order and
Judgment issued on this date.
a. Co mpensatory Damages
1. Economic damages
Under the FSIA, injured victims and the estates of
deceased victims may recover economic damages,
which typically include lost wages, benefits and
retirement pay, and other out-of-pocket expenses. 28
U.S.C. § 1605A(c). To determine each surviving
plaintiff’s economic losses resulting from the
bombings, the special master relied on economic
reports submitted by Associate Professor James M.
Warner, who estimated lost earnings, fringe benefits,
retirement income, and the value of household
services lost as a result of the injuries sustained from
the bombing. Those reports were attached to each
special master report where a plaintiff suffered
economic damages. In turn, Associate Professor
Warner relied on information from the survivors as
well as other documentation, including countryspecific economic data and employment records. See,
e.g., Report of Special Master, Ex. 1 [ECF No. 36-1] 28 (further explaining methodology employed in
creating the economic loss reports). The Court adopts

282a
the findings and recommendations of the special
master as to economic losses to be awarded injured
victims and the estates of deceased victims.
The special master also recommended that some
victims’ children be awarded economic damages to
compensate them for their parent’s lost earning
potential. Those damages, however, are not included
in the category of damages recoverable by family
members of victims under either the FSIA or D.C.
law, as explained above, and the special master cites
nothing to the contrary. Hence, the Court will adjust
the
special
master’s
recommended
awards
accordingly.
2. Awards for pain and suffering due to injury
Courts determine pain-and-suffering awards for
survivors based on factors including “the severity of
the pain immediately following the injury, the length
of hospitalization, and the extent of the impairment
that will remain with the victim for the rest of his or
her life.” See O’Brien v. Islamic Republic of Iran, 853
F. Supp. 2d 44, 46 (D.D.C. 2012) (internal quotation
marks omitted). When calculating damages amounts,
“the Court must take pains to ensure that individuals
with similar injuries receive similar awards.”
Peterson II, 515 F. Supp. 2d at 54. Recognizing this
need for uniformity, courts in this district have
developed a general framework for assessing painand-suffering damages for victims of terrorist attacks,
awarding a baseline of $5 million to individuals who
suffer severe physical injuries, such as compound
fractures, serious flesh wounds, and scars from
shrapnel, as well as lasting and severe psychological
pain. See Valore, 700 F. Supp. 2d at 84. Where
physical and psychological pain is more severe—such

283a
as where victims suffered relatively more numerous
and severe injuries, were rendered quadriplegic,
partially lost vision and hearing, or were mistaken for
dead—courts have departed upward from this
baseline to $7 million and above. See O’Brien, 853 F.
Supp. 2d at 47. Similarly, downward departures to a
range of $1.5 to $3 million are warranted where the
victim suffers severe emotional injury accompanied
by relatively minor physical injuries. See Valore, 700
F. Supp. 2d at 84-85.
Damages for extreme pain and suffering are
warranted for those individuals who initially survive
the attack but then succumb to their injuries. “When
the victim endured extreme pain and suffering for a
period of several hours or less, courts in these
[terrorism] cases have rather uniformly awarded $1
million.” Haim v. Islamic Republic of Iran, 425 F.
Supp. 2d 56, 71 (D.D.C. 2006). When the period of the
victim’s pain is longer, the award increases. Id. at 72.
And when the period is particularly brief, courts
award less. For instance, where an individual
“survived a terrorist attack for 15 minutes, and was
in conscious pain for 10 minutes,” a court in this
district awarded $500,000. See Peterson, 515 F. Supp.
2d at 53.
The special master recommended pain and suffering
awards to eight of the nine victims or their estates.
The Court will adjust the special master’s
recommendations as described below to ensure
consistency with prior cases and between plaintiffs in
this case. 3 The special master recommended pain and
The Court finds the recommended award of $5 million for pain
and suffering to John Victim Csmith to be appropriate and in line
with awards to similarly situated plaintiffs in this case and others.
3

284a
suffering awards for four of the five victims killed in
the bombings. 4 But the record does not support the
award of pain and suffering damages to the estates of
these deceased victims because it contains no
evidence indicating that they suffered before
succumbing to their injuries. See Oldham v. Korean
Air Lines Co., Ltd., 127 F.3d 43, 56 (D.C. Cir. 1997)
(in pre-death suffering cases, “the key factual dispute
turns on whether the [victims] were immediately
rendered unconscious” (internal quotation marks
omitted)); cf. Peterson, 515 F. Supp. 2d at 53
(awarding pain and suffering damages to estates of
deceased victims who initially survived terrorist
attack but later died of their injuries). No one
testified that any of the deceased victims survived the
blast itself for any period of time, and the evidence
indicates that they likely did not: John Victim Asmith
was decapitated, and his head was never found; John
Victim Fsmith was found “not in one piece”; John
Victim Hsmith was identifiable only by DNA
evidence; John Victim Ismith was “struck in the head
by an iron”; and no evidence indicates the exact
manner of Jane Victim Gsmith’s death. See Report of
Special Master John Swanson Concerning John
Victim Asmith [ECF No. 36] 4; Report of Special
Master John Swanson Concerning John Victim
Fsmith [ECF No. 42] 5; Report of Special Master
John Swanson Concerning John Victim Hsmith [ECF
No. 37] 4; Report of Special Master John Swanson
Concerning John Victim Ismith [ECF No. 43] (“Ismith
4 The special master does not explain why he did not
recommend awarding pain-and-suffering damages to Jane
Victim Gsmith, but as with the other deceased victims, an
award of pain-and-suffering damages to Jane Victim Gsmith is
appropriate

285a
Report”) 5; Report of Special Master John Swanson
Concerning Jane Victim Gsmith [ECF No. 40]
(“Gsmith Report”) 3-4. The Court is thus unable to
conclude on this record that these victims were ever
conscious after the blast or that they suffered in
between the blast and their deaths. Hence, the Court
will not award any damages for pain and suffering to
the estates of the deceased victims.
The special master’s report on John Victim Bsmith
suggests an award of $4 million in pain and suffering,
based on his extensive injuries. Report of Special
Master John Swanson Concerning John Victim
Bsmith [ECF No. 41] (“Bsmith Report”). The Court
believes that an upward adjustment from the special
master’s recommendation to the baseline amount is
appropriate for John Victim Bsmith. Where plaintiffs
suffer severe physical injuries, such as compound
fractures, serious flesh wounds, and scars from
shrapnel, as well as lasting and severe psychological
pain, courts generally award $5 million in pain and
suffering. See Valore, 700 F. Supp. 2d at 84. John
Victim Bsmith worked as a security guard at the U.S.
Embassy in Dar es Salaam. Bsmith Report at 3. He
only remembers experiencing the blast and then
waking up in a hospital bed later that afternoon. Id.
at 3-4. He suffered loss of hearing, cuts from
shrapnel, spinal cord injuries, and impaired vision.
Id. at 4, 10. Because of his injuries, he is no longer
able to work. Id. at 5. Because his injuries are
comparable to those of other plaintiffs receiving a $5
million award—in this and other cases—the Court
will award $5 million to John Victim Bsmith.
The special master’s report on John Victim Esmith
suggests an award of $6 million in pain and suffering,

286a
based on his extensive injuries. Report of Special
Master John Swanson Concerning John Victim
Esmith [ECF No. 39] (“Esmith Report”). The Court
believes that a downward adjustment from the
special master’s recommendation to the baseline
amount is appropriate for John Victim Esmith. John
Victim Esmith was employed as a gardener at the
U.S. Embassy in Dar es Salaam at the time of the
bombing. Id. at 3. He recalls being taken to the
hospital, but he does not recall the blast itself. Id. He
sustained shrapnel wounds to his leg and face, a
severe chest injury, and burns all over his body. Id. at
5. John Victim Esmith ultimately died of a chest
infection eleven years after the bombing, but the
record is insufficient to establish that the injuries
sustained during the bombing caused his death. See
id. at 5. As with John Victim Bsmith, the blast caused
John Victim Esmith to suffer serious flesh wounds,
scars from shrapnel, and lasting and severe
psychological pain. Nothing, though, indicates that
his injuries were so severe as to warrant an upward
departure. Because his injuries are comparable to
those of other plaintiffs receiving a $5 million award,
the Court will award $5 million to the estate of John
Victim Esmith.
The special master’s report on John Victim Dsmith
suggests an award of $5 million in pain and suffering,
based on his injuries. Report of Special Master John
Swanson Concerning John Victim Dsmith [ECF No.
44]. The Court believes that a downward adjustment
from the special master’s recommendation is also
appropriate for John Victim Dsmith. John Victim
Dsmith was a security guard at the U.S. Embassy in
Dar es Salaam at the time of the bombing. Id. at 2.
When the bombing occurred, he was far enough away

287a
that he was not affected by the blast itself, but he
heard the blast and saw people running away from
the blast site. Id. at 3. When trying to get a better
vantage point to see what had happened, he climbed
up to the first floor of the building, but a stampede of
people forced him to jump into a nearby tree. Id. at 3.
The branch on which he was standing broke, and he
suffered injuries from the fall. Id. at 4. Nevertheless,
he proceeded to the bomb site and aided the rescue
efforts. Id. As a result of the bombing and its
aftermath, he suffered back and leg injuries, loss of
hearing, and vision and respiratory problems. Id. at
4-5. The record reflects lasting and severe
psychological pain for John Victim Dsmith. But in
light of his relatively less severe physical injuries
when compared to plaintiffs who were injured by the
bomb blast itself, a downward departure from the
baseline is appropriate. For instance, in Valore,
another judge in this district awarded $1.5 million
where a plaintiff was knocked to the ground by a
bomb blast, and suffered severe emotional turmoil
from helping survivors. See Valore, 700 F. Supp. 2d
at 84-85; see also Peterson II, 515 F. Supp. 2d at 55
(departing downward to $2 million where plaintiff
experienced “nerve pain and foot numbness” as well
as “lasting and severe psychological problems” from
the attack). John Victim Dsmith suffered physical
injuries during the bombing’s aftermath and during
his admirable rescue efforts, and his injuries are
more severe than those of the plaintiff in Valore.
Accordingly, the Court will award $2.5 million to
John Victim Dsmith for pain and suffering.

288a
3. Solatium
“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for pain and suffering,
and to those awarding damages for solatium.” Acosta
v. Islamic Republic of Iran, 574 F. Supp. 2d 15, 29
(D.D.C. 2008). Only immediate family members—
parents, siblings, spouses, and children—are entitled
to solatium awards. See Valore, 700 F. Supp. 2d at
79. The commonly accepted framework for solatium
damages in this district is that used in Peterson II,
515 F. Supp. 2d at 52. See Valore, 700 F. Supp. 2d at
85; Belkin, 667 F. Supp. 2d at 23. According to
Peterson II, the appropriate amount of damages for
family members of deceased victims is as follows: $8
million to spouses of deceased victims, $5 million to
parents of deceased victims, and $2.5 million to
siblings of deceased victims. 515 F. Supp. 2d at 52.
The appropriate amount of damages for family
members of injured victims is as follows: $4 million to
spouses of injured victims, $2.5 million to parents of
injured victims, and $1.25 million to siblings of
injured victims. Id. Courts in this district have
differed somewhat on the proper amount awarded to
children of victims. Compare Peterson II, 515 F.
Supp. 2d at 51 ($2.5 million to child of injured
victim), with Davis v. Islamic Republic of Iran, 882 F.
Supp. 2d 7, 14 (D.D.C. 2012) ($1.5 million to child of
injured victim). The Court finds the Peterson II
approach to be more appropriate: to the extent such
suffering can be quantified, children who lose parents
are likely to suffer as much as parents who lose
children.

289a
Although these amounts are guidelines, not rules,
see Valore, 700 F. Supp. 2d at 86, the Court finds the
distinctions made by the Valore court to be
responsible and reasonable, and hence it will adopt
the same guidelines for determining solatium
damages here. In the interests of fairness and to
account for the difficulty in assessing the relative
severity of each family member’s suffering, in this
case and in related cases, the Court will not depart
from those guidelines for any individual plaintiff
except one: the Court agrees with the special master
that awarding $4 million to John Sibling1 Ismith—
rather than the $2.5 million typically awarded to
siblings of deceased victims—is appropriate because
of the closer-than-normal sibling relationship he
shared with his twin brother, deceased victim John
Victim Ismith. See Ismith Report at 2-4.
The Court finds that the special master has
appropriately applied the solatium damages
framework to many of the plaintiffs in this case, and
will adopt his recommendations with the exceptions
described below. Other courts in this district have
held that it is inappropriate for the solatium awards
of family members to exceed the pain-and-suffering
awards of surviving victims. See Davis, 882 F. Supp.
2d at 15; O’Brien, 853 F. Supp. 2d at 47; Bland, 831
F. Supp. 2d at 157. This Court agrees and will follow
that approach here. The special master recommended
a solatium award to Jane Spouse Dsmith that
exceeds the pain-and-suffering award to her husband.
Consequently, the Court will reduce her award from
$5 million to $2.5 million to match her husband’s
pain-and-suffering award.

290a
For the most part, the special master recommended
that the family members of those killed in the
bombings receive awards consistent with family
members of injured victims. The Court will therefore
adjust those awards to accord with the guidelines in
Peterson. 5 See 515 F. Supp. 2d at 52. The special
master also recommended that Jane Sibling1 Esmith,
the sister of the injured victim John Victim Esmith,
receive $2.5 million, but as an injured victim’s sister
she is entitled to a solatium award of $1.25 million.
The Court will adjust her award accordingly.
The special master also recommended the award of
solatium damages to some injured victims’ children
who were born after the bombings occurred. While
the Court acknowledges that the bombings’ terrible
impact on the victims and their families continues to
this day, in similar cases courts have found that
5 Accordingly, the Court will increase the awards to the
following plaintiffs: Jane Spouse Asmith, from $4 million to $8
million; John Child1 Asmith, from $2.5 million to $5 million;
Jane Child2 Asmith, from $2.5 million to $5 million; Jane
Child3 Asmith, from $2.5 million to $5 million; Jane Spouse
Fsmith, from $4 million to $8 million; Jane Child1 Fsmith, from
$2.5 million to $5 million; Jane Child2 Fsmith, from $2.5 million
to $5 million; John Child3 Fsmith, from $2.5 million to $5
million; Jane Child4 Fsmith, from $2.5 million to $5 million;
John Child5 Fsmith, from $2.5 million to $5 million; John
Child6 Fsmith, from $2.5 million to $5 million; John Child2
Gsmith, from $2.5 million to $5 million; Jane Child1 Gsmith,
from $2.5 million to $5 million; John Spouse Gsmith, from $4
million to $8 million; Jane Spouse Hsmith, from $4 million to $8
million; John Child1 Hsmith, from $2.5 million to $5 million;
John Child2 Hsmith, from $2.5 million to $5 million; Jane
Child3 Hsmith, from $2.5 million to $5 million; John Child4
Hsmith, from $2.5 million to $5 million; Jane Parent1 Hsm ith,
from $2.5 million to $5 million; and John Child1 Ismith, from
$2.5 million to $5 million.

291a
children born following terrorist attacks are not
entitled to damages under the FSIA. See Davis v.
Islamic Republic of Iran, 882 F. Supp. 2d 7, 15
(D.D.C. 2012); Wultz v. Islamic Republic of Iran, 864
F. Supp. 2d 24, 36 (D.D.C. 2012). In holding that a
plaintiff must have been alive at the time of an attack
to recover solatium damages, the Davis court
recognized the need to draw lines in order to avoid
creating “an expansive and indefinite scope of
liability” under the FSIA—for example, liability to
children born fifteen years after an attack (a real
possibility in this drawn-out litigation). 882 F. Supp.
2d at 15. The Court agrees with the Davis court’s
interpretation of the FSIA and holds that those
plaintiffs not alive at the time of the bombings cannot
recover solatium damages. 6 Hence, the Court
dismisses the claims of the following plaintiffs: Jane
Child3 Bsmith (born in 1999), Jane Child5 Bsmith
(born in 2001), John Child6 Bsmith (born in 2001),
Jane Child5 Csmith (died in 1983), John Child4
Dsmith (born in 2001), and John Child5 Dsmith (born
in 2003). See Bsmith Report at 6, 14; Report of
Special Master John Swanson Concerning John
Victim Csmith [ECF No. 38] 3; Report of Special
Master John Swanson Concerning John Victim
Dsmith [ECF No. 44] 6.
The special master also recommends, based on the
evidence, that no damages be awarded to Jane
Spouse Esmith, John Ismith, or Jane Ismith, and the
Court adopts those recommendations because the
record does not contain sufficient evidence to support

6 This makes sense because such a plaintiff has not actually
lost a parent in the bombing.

292a
the award of any damages to those plaintiffs. Esmith
Report at 11; Ismith Report at 11.
b.

Prejudgment Interest

An award of prejudgment interest at the prime rate
is appropriate in this case. See Oldham, 127 F.3d at
54; Forman v. Korean Air Lines Co., Ltd., 84 F.3d
446, 450-51 (D.C. Cir. 1996). Prejudgment interest is
appropriate on the whole award, including pain and
suffering and solatium, with one exception. See Reed
v. Islamic Republic of Iran, 845 F. Supp. 2d 204, 21415 (D.D.C. 2012) (awarding prejudgment interest on
the full award). But see Oveissi v. Islamic Republic of
Iran, 768 F. Supp. 2d 16, 30 n.12 (D.D.C. 2011)
(declining to award prejudgment interest on solatium
damages). Because the economic loss figures
recommended by the special master have already
been adjusted to reflect present discounted value, see
District of Columbia v. Barritaeu, 399 A.2d 563, 56869 (D.C. 1979), the Court will not apply the
prejudgment interest multiplier to the economic loss
amounts. See Doe, 943 F. Supp. 2d at 186 (citing
Oldham, 127 F.3d at 54); see, e.g., Special Master
Report Ex. 1 [ECF No. 36-1] 8. Awards for pain and
suffering and solatium are calculated without
reference to the time elapsed since the attacks.
Because plaintiffs were unable to bring their claims
immediately after the attacks, they have lost use of
the money to which they were entitled upon incurring
their injuries. Denying prejudgment interest on these
damages would allow defendants to profit from the
use of the money over the last fifteen years. Awarding
prejudgment interest, on the other hand, reimburses
plaintiffs for the time value of money, treating the

293a
awards as if they were awarded promptly and
invested by plaintiffs.
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge
for short-term unsecured loans to
creditworthy customers—is the most appropriate
measure of prejudgment interest, one “more
appropriate” than more conservative measures such
as the Treasury Bill rate, which represents the return
on a risk-free loan. See Forman, 84 F.3d at 450.
Although the prime rate, applied over a period of
several years, can be measured in different ways, the
D.C. Circuit has approved an award of prejudgment
interest “at the prime rate for each year between the
accident and the entry of judgment.” See id. at 450.
Using the prime rate for each year is more precise
than, for example, using the average rate over the
entire period. See Doe, 943 F. Supp. 2d at 185 (noting
that this method is a “substantially more accurate
‘market-based estimate’” of the time value of money
(citing Forman, 84 F. 3d at 451)). Moreover,
calculating interest based on the prime rate for each
year is a simple matter. 7 Using the prime rate for
each year results in a multiplier of 2.26185 for
damages incurred in 1998. 8 Accordingly, the Court
will use this multiplier to calculate the total award. 9
7 To calculate the multiplier, the Court multiplied $1.00 by the
prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields multiplier of 2.26185.
8 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year

294a
CONCLUSION
The 1998 embassy bombings shattered the lives of
all plaintiffs in this case. Reviewing their personal
stories reveals that, even more than fifteen years
later, they each still feel the horrific effects of that
awful day. Damages awards cannot fully compensate
people whose lives have been torn apart; instead,
they offer only a helping hand. But that is the very
least that these plaintiffs are owed. Hence, it is what
Court will facilitate.
A separate Order consistent with these findings has
issued on this date.
/s/
JOHN D. BATES
United States District Judge
Dated: March 28, 2014

between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federal
reserve.gov/releases/h15/data.htm (last visited March 28, 2014).
As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous six years.
9
The product of the multiplier and the base damages am ount
includes both the prejudgment interest and the base damages
amount; in other words, applying the multiplier calculates not
the prejudgment interest but the base damages amount plus the
prejudgment interest, or the total damages award.

295a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/28/2014]

Civil Action No. 08-1377 (JDB)

JUDITH ABASI MWILA, et al.,

Plaintiffs,
v.
THE ISLAMIC REPUBLIC OF IRAN, et al.,

Defendants.

ORDER
Upon consideration of [36-44] Special Master John
Swanson’s Reports and [53] plaintiffs’ Proposed
Findings of Fact and Conclusions of Law, and the
entire record herein, it is hereby
ORDERED that [36-44] the Special Master Reports
are adopted in part and modified in part as described
in the accompanying Memorandum Opinion issued on
this date; it is further
ORDERED that judgment is entered in favor of
plaintiffs and against defendants in the total amount
of $419,752,640.49; and it is further

296a
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: March 28, 2014

297a

298a

299a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]
Civil Action No. 08-1361 (JDB)

MILLY MIKALI AMDUSO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
MEMORANDUM OPINION
Over fifteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es
Salaam,
Tanzania were devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. This Court
has entered final judgment on liability under the
Foreign Sovereign Immunities Act (“FSIA”) in this
civil action and several related cases—brought by
victims of the bombings and their families—against
the Republic of Sudan, the Ministry of the Interior of
the Republic of Sudan, the Islamic Republic of Iran,
the Iranian Revo lutionary Guards Co rps, and

300a
the Iranian Ministry of Information and Security
(collectively “defendants”) for their roles in
supporting, funding, and otherwise carrying out
these unconscionable acts. The next step in the case
is to assess and award damages to each individual
plaintiff, and in this task the Court has been aided
by several special masters.
Plaintiffs are 113 Kenyan, Tanzanian, and United
States citizens injured and killed in the bombings,
and their immediate 1 family members. 2 Service of
1 One plaintiff, Stacy Waithere, is the granddaughter of
deceased victim Joel Gitumbu Kamau. Because she is thus not
an immediate family member, the Court will dismiss her claim
because she does not have a viable cause of action. See Valore v.
Islamic Republic of Iran, 700 F. Supp. 2d 52, 79 (D.D. C. 2010).
Similarly, another plaintiff, Yvonne Bochart, a deceased victim’s
widow, did not marry the victim until well after the bom bings,
and the Court will dismiss her claim as well. See id.
2 A large number of plaintiffs are listed as plaintiffs both in
this case and in the related case before this Court, Wamai v.
Republic of Sudan, No. 08-1349 (D.D.C. July 25, 2014). Initially,
plaintiffs in these two cases were represented by two different
sets of attorneys. Some plaintiffs signed retainer agreements
with both sets of attorneys, and so appeared as plaintiffs in both
cases. Following mediation with Magistrate Judge Facciola, the
attorneys settled the issue of which plaintiffs were represented
by whom by signing a cooperation agreement and entering into
joint representation of plaintiffs in both cases. See [ECF Nos.
54-57]. Of course, plaintiffs are entitled to only one award. As
Wamai is the earlier-filed case, and because the joint
representation vitiates any conflict between counsel, the Court
will award damages to plaintiffs appearing in both cases only in
Wamai, and will deny those same plaintiffs awards in this case.
Similarly, one plaintiff is listed in this case and in the Opati
case (No. 12-1224), also currently pending before this Court.
That plaintiff will be awarded damages in this case but not in
the Opati case.

301a
process was completed upon each defendant, but
defendants failed to respond, and a default was
entered against each defendant. The Court has held
that it has jurisdiction over defendants and that the
foreign national plaintiffs who worked for the U.S.
government are entitled to compensation for personal
injury and wrongful death under 28 U.S.C. §
1605A(c)(3). See Owens v. Republic of Sudan, 826 F.
Supp. 2d 128, 148-51 (D.D.C. 2011). The Court has
also held that, although those plaintiffs who are
foreign national family members of victims lack a
federal cause of action, they may nonetheless pursue
claims under the laws of the District of Columbia. Id.
at 153-57. A final judgment on liability was entered
in favor of plaintiffs. Nov. 28, 2011 Order [ECF No.
62] at 2. The deposition testimony and other evidence
presented established that the defendants were
responsible for supporting, funding, and otherwise
carrying out the bombings in Nairobi and Dar es
Salaam. See Owens, 826 F. Supp. 2d at 135-47.
The Court then referred plaintiffs’ claims to several
special masters 3 to prepare proposed findings and
recommendations for a determination of damages.
Feb. 27, 2012 Order Appointing Special Masters
[ECF No. 67] at 2. The special masters have now filed
completed reports on each plaintiff. See Special
Master Reports [ECF Nos. 73-250]. In completing
those reports and in finding facts, the special masters
relied on sworn testimony, expert reports, medical
3 Those special masters (collectively, “the special masters”) are
Kenneth L. Adams, John D. Aldock, Oliver Diaz, Jr., Deborah E.
Greenspan, Brad Pigott, Stephen A. Saltzburg, and C. Jackson
Williams.

302a
records, and other evidence. The reports extensively
describe the key facts relevant to each of the
plaintiffs and carefully analyze their claims under
the framework established in mass tort terrorism
cases. The Court commends each of the special
masters for their excellent work and thoughtful
analysis.
The Court hereby adopts all facts found by the
special masters relating to all plaintiffs in this case,
including
findings
regarding
the
plaintiffs’
employment status or their familial relationship
necessary to support standing under section
1605A(a)(2)(A)(ii). See Owens, 826 F. Supp. 2d at 149.
Where the special masters have received evidence
sufficient to find that a plaintiff is a U.S. national
and is thus entitled to maintain a federal cause of
action, the Court adopts that finding. The Court also
adopts all damages recommendations in the reports,
with the few adjustments described below. “Where
recommendations deviate from the Court’s damages
framework, ‘those amounts shall be altered so as to
conform with the respective award amounts set forth’
in the framework, unless otherwise noted.” Valore v.
Islamic Republic of Iran, 700 F. Supp. 2d 52, 82-83
(D.D.C. 2010) (quoting Peterson v. Islamic Republic of
Iran, 515 F. Supp. 2d 25, 53 (D.D.C. 2007) (“Peterson
II”), abrogation on other grounds recognized in
Mohammadi v. Islamic Republic of Iran, 947 F. Supp.
2d 48, 65 (D.D.C. 2013)). As a result, the Court will
award plaintiffs a total judgment of over $1.7 billion.

303a
I.

CONCLUSIONS OF LAW

On November 28, 2011, the Court granted summary
judgment on liability against defendants in this case.
Nov. 28, 2011 Order [ECF No. 62] at 2. The U.S.
citizens and foreign national U.S.-governmentemployee victims have a federal cause of action, while
their foreign-national family members have a cause
of action under D.C. law.
a. The Government-Employee Plaintiffs Are
Entitled T o D am ages O n T he ir Fe deral L aw
Claims Under 28 U.S.C. § 1605A
“To obtain damages in a Foreign Sovereign
Immunities Act (FSIA) action, the plaintiff must
prove that the consequences of the defendants’
conduct were reasonably certain (i.e., more likely
than not) to occur, and must prove the amount of the
damages by a reasonable estimate consistent with
application of the American rule on damages.” Valore,
700 F. Supp. 2d at 83. Plaintiffs here have proven
that the consequences of defendants’ conduct were
reasonably certain to—and indeed intended to—cause
injury to plaintiffs. See Owens, 826 F. Supp. 2d at
135-46. As discussed by this Court previously,
because the FSIA-created cause of action “does not
spell out the elements of these claims that the Court
should apply,” the Court “is forced . . . to apply
general principles of tort law” to determine plaintiffs’
entitlement to damages on their federal claims. Id. at
157 n.3.
Survivors are entitled to recover for the pain and
suffering caused by the bombings: acts of terrorism
“by their very definition” amount to extreme and

304a
outrageous conduct and are thus compensable by
analogy under the tort of “intentional infliction of
emotional distress.” Valore, 700 F. Supp. 2d at 77
(citing Restatement (Second) of Torts § 46(1) (1965));
see also Baker v. Socialist People’s Libyan Arab
Jamahriya, 775 F. Supp. 2d 48, 74 (D.D.C. 2011)
(permitting plaintiffs injured in state-sponsored
terrorist bombings to recover for personal injuries,
including pain and suffering, under tort of
“intentional infliction of emotional distress”); Estate
of Bland v. Islamic Republic of Iran, 831 F. Supp. 2d
150, 153 (D.D.C. 2011) (same). Hence, “those who
survived the attack may recover damages for their
pain and suffering, . . . [and for] economic losses
caused by their injuries. . . .” Oveissi v. Islamic
Republic of Iran, 879 F. Supp. 2d 44, 55 (D.D.C. 2012)
(“Oveissi II”) (citing Valore, 700 F. Supp. 2d at 82-83);
see 28 U.S.C. § 1605A(c). Accordingly, all plaintiffs
who were injured in the 1998 bombings can recover
for their pain and suffering as well as their economic
losses, and their immediate family members— if U.S.
nationals—can recover for solatium. Bland, 831 F.
Supp. 2d at 153. In addition, the estates of those who
were killed in the attack are entitled to recover
compensatory damages for wrongful death. See, e.g.,
Valore, 700 F. Supp. at 82 (permitting estates to
recover economic damages caused to deceased
victims’ estates).
b. Family Members Who Lack A Federal Cause O f
Action Are Entitled T o D am age s U nder D .C.
Law
This Court has previously held that it will apply
District of Columbia law to the claims of any

305a
plaintiffs for whom jurisdiction is proper, but who
lack a federal cause of action under the FSIA. Owens,
826 F. Supp. 2d at 153-57. This category includes
only the foreign-national family members of the
injured victims from the 1998 bombings. Individuals
in this category seek to recover solatium damages
under D.C. law based on claims of intentional
infliction of emotional distress. To establish a prima
facie case of intentional infliction of emotional
distress under D.C. law, a plaintiff must show: (1)
extreme and outrageous conduct on the part of the
defendant which, (2) either intentionally or
recklessly, (3) causes the plaintiff severe emotional
distress. Larijani v. Georgetown Univ., 791 A.2d 41,
44 (D.C. 2002). Acts of terrorism “by their very
definition” amount to extreme and outrageous
conduct, Valore, 700 F. Supp. 2d at 77; the
defendants in this case acted intentionally and
recklessly; and their actions caused each plaintiff
severe emotional distress, see Owens, 826 F. Supp. 2d
at 136-45; Murphy v. Islamic Republic of Iran, 740 F.
Supp. 2d 51, 74-75 (D.D.C. 2010). Likewise, D.C. law
allows spouses and next of kin to recover solatium
damages. D.C. Code § 16-2701. Based on the evidence
submitted to the special masters, the Court concludes
that the foreign-national family members of the
victims of the 1998 bombings have each made out
claims for intentional infliction of emotional distress
and are entitled to solatium damages (with the few
exceptions detailed below).
II.

DAMAGES

Having established that plaintiffs are entitled to
damages, the Court now turns to the question of the

306a
amount of damages, which involves resolving
common questions related to plaintiffs with similar
injuries. The damages awarded to each plaintiff are
laid out in the tables in the separate Order and
Judgment issued on this date.
a. Compensatory Damages
1. Economic damages
Under the FSIA, injured victims and the estates of
deceased victims may recover economic damages,
which typically include lost wages, benefits and
retirement pay, and other out-of-pocket expenses. 28
U.S.C. § 1605A(c). The special masters recommended
that four deceased plaintiffs be awarded economic
damages. To determine each plaintiff’s economic
losses resulting from the bombings, the special
masters relied on economic reports submitted by the
Center for Forensic Economic Studies (“CFES”),
which estimated lost earnings, fringe benefits,
retirement income, and the value of household
services lost as a result of the injuries sustained from
the bombing. In turn, CFES relied on information
from the survivors as well as other documentation,
including country-specific economic data and
employment records. See, e.g., Report of Special
Master Steven Saltzburg Concerning Francis Mbogo
Njung’e, Ex. 1 [ECF No. 67-1] at 1-4 (further
explaining methodology employed in creating the
economic loss reports). The Court adopts the findings
and recommendations of the special masters as to
economic losses to be awarded to injured victims and
the estates of deceased victims.

307a
2. Awards for pain and suffering due to injury
Courts determine pain-and-suffering awards for
survivors based on factors including “the severity of
the pain immediately following the injury, the length
of hospitalization, and the extent of the impairment
that will remain with the victim for the rest of his or
her life.” O’Brien v. Islamic Republic of Iran, 853 F.
Supp. 2d 44, 46 (D.D.C. 2012) (internal quotation
marks omitted). When calculating damages amounts,
“the Court must take pains to ensure that individuals
with similar injuries receive similar awards.”
Peterson II, 515 F. Supp. 2d at 54. Recognizing this
need for uniformity, courts in this district have
developed a general framework for assessing painand-suffering damages for victims of terrorist
attacks, awarding a baseline of $5 million to
individuals who suffer severe physical injuries, such
as compound fractures, serious flesh wounds, and
scars from shrapnel, as well as lasting and severe
psychological pain. See Valore, 700 F. Supp. 2d at 84.
Where physical and psychological pain is more
severe—such as where victims suffered relatively
more numerous and severe injuries, were rendered
quadriplegic, partially lost vision and hearing, or
were mistaken for dead—courts have departed
upward from this baseline to $7 million and above.
See O’Brien, 853 F. Supp. 2d at 47. Similarly,
downward departures to a range of $1.5 to $3 million
are warranted where the victim suffers severe
emotional injury accompanied by relatively minor
physical injuries. See Valore, 700 F. Supp. 2d at 8485.

308a
Damages for extreme pain and suffering are
warranted for those individuals who initially survive
the attack but then succumb to their injuries. “When
the victim endured extreme pain and suffering for a
period of several hours or less, courts in these
[terrorism] cases have rather uniformly awarded $1
million.” Haim v. Islamic Republic of Iran, 425 F.
Supp. 2d 56, 71 (D.D.C. 2006); see Peterson II, 515 F.
Supp. 2d at 53-55. When the period of the victim’s
pain is longer, the award increases. Haim, 425 F.
Supp. 2d at 72. And when the period is particularly
brief, courts award less. For instance, where an
individual “survived a terrorist attack for 15 minutes,
and was in conscious pain for 10 minutes,” a court in
this district awarded $500,000. See Peterson II, 515
F. Supp. 2d at 53. To the estates of those who are
killed instantly, courts award no pain-and-suffering
damages. The Court adopts the special masters’
recommendations to award no pain-and-suffering
damages to the estates of those plaintiffs who were
killed instantly.
The need to maintain uniformity with awards to
plaintiffs in prior cases and between plaintiffs in this
case is particularly evident. A great number of
plaintiffs were injured in the bombings. Those
injuries, and evidence of those injuries, span a broad
range. Although the special masters ostensibly
applied the same guidelines, their interpretations of
those guidelines understandably brought about
recommendations of different awards even for
plaintiffs who suffered very similar injuries—
particularly those plaintiffs who did not suffer severe
physical injuries. For those plaintiffs, the Valore

309a
court explained that downward departures to a range
of $1.5 million to $3 million are appropriate, and the
Court will apply that guideline as described at length
in this Court’s opinion in Wamai v. Republic of
Sudan, No. 08-1349 (D.D.C. July 25, 2014). Those
who suffered from injuries similar to plaintiffs who
are generally awarded the “baseline” award of $5
million (involving some mix of serious hearing or
vision impairment, many broken bones, severe
shrapnel wounds or burns, lengthy hospital stays,
serious spinal or head trauma, and permanent
injuries) will be awarded that baseline. See Valore,
700 F. Supp. 2d at 84. The Court adopts the
recommendations by special masters of awards
consistent with these adjusted guidelines, and will
adjust inconsistent awards accordingly.
3. Solatium
“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for pain and suffering,
and to those awarding damages for solatium.” Acosta
v. Islamic Republic of Iran, 574 F. Supp. 2d 15, 29
(D.D.C. 2008). Only immediate family members—
parents, siblings, spouses, and children—are entitled
to solatium awards. 4 See Valore, 700 F. Supp. 2d at
4 Many of the injured or deceased victims of the family
member plaintiffs in this case are plaintiffs not here but in a
related case before this Court. See 1st Am. Compl., Wamai, N o.
08-1349 (D.D.C. Sept. 5, 2008) [ECF No. 5] at 1-12. The special
masters found that each plaintiff in this case claiming solatium
damages is related to an injured or deceased victim entitled to
pain-and-suffering damages; whether the Court found that
victim to be entitled to damages in this case or in Wamai is not

310a
79. The commonly accepted framework for solatium
damages in this district is that used in Peterson II,
515 F. Supp. 2d at 52. See Valore, 700 F. Supp. 2d at
85; Belkin, 667 F. Supp. 2d at 23. According to
Peterson II, the appropriate amount of damages for
family members of deceased victims is as follows: $8
million to spouses of deceased victims, $5 million to
parents of deceased victims, and $2.5 million to
siblings of deceased victims. 515 F. Supp. 2d at 52.
The appropriate amount of damages for family
members of injured victims is as follows: $4 million to
spouses of injured victims, $2.5 million to parents of
injured victims, and $1.25 million to siblings of
injured victims. Id. Courts in this district have
differed somewhat on the proper amount awarded to
children of victims. Compare Peterson II, 515 F.
Supp. 2d at 51 ($2.5 million to child of injured
victim), with Davis v. Islamic Republic of Iran, 882 F.
Supp. 2d 7, 14 (D.D.C. 2012) ($1.5 million to child of
injured victim). The Court finds the Peterson II
approach to be more appropriate: to the extent such
suffering can be quantified, children who lose parents
are likely to suffer as much as parents who lose
children. Children of injured victims will thus be
awarded $2.5 million and, consistent with the
Peterson II approach of doubling solatium awards for
relatives of deceased victims, children of deceased
victims will be awarded $5 million.
Although these amounts are guidelines, not rules,
see Valore, 700 F. Supp. 2d at 86, the Court finds the
important. The awards of those injured or deceased victims
support the family-member solatium awards in this case.

311a
distinctions made by the Valore court to be
responsible and reasonable, and hence it will adopt
the same guidelines for determining solatium
damages here. In the interests of fairness and to
account for the difficulty in assessing the relative
severity of each family member’s suffering, in this
case and in related cases, the Court will depart from
those guidelines only for one plaintiff who clearly
suffered much less than other plaintiffs. 5
In some instances, special masters recommended
that spouses of deceased victims receive $10 million.
See, e.g., Report of Special Master Deborah
Greenspan Concerning Edwin Omori [ECF No. 220]
at 5. Because the Court adopts the Peterson II
guidelines, each of these recommendations will be
adjusted and those plaintiffs will be awarded $8
million. 515 F. Supp. 2d at 52.
One plaintiff, Hannah Ngenda Kamau, is one of two
widows of deceased victim Vincent Kamau Nyoike.
Report of Special Master Jackson Williams
Concerning Vincent Kamau Nyoike [ECF No. 239] at
3. Courts in Kenya generally recognize that more
than one wife of a decedent may be entitled to an
inheritance, and so this Court will consider Hannah
Kamau to be an immediate family member entitled to
a solatium award. See Charity Gacheri Kaburu v.
5 The special master’s report on one plaintiff, Grace Godia,
shows clearly that a reduced award is appropriate based on her
testimony directly disclaiming emotional damage based on her
husband’s injury, except for a period of one month following the
bombing. See Report of Special Master Deborah Greenspan
Concerning Jotham Godia [ECF No. 123] at 4. Hence, the Court
will exercise its discretion and reduce her award by half.

312a
Mary Gacheri M’ritaa, Succession Cause No. 251 of
2000 (High Court of Kenya 2014) 6(appointing both of
two widows as joint administrators). Under the
circumstances, the Court will exercise its discretion,
adopt the special master’s recommendation, and
award her the normal solatium amount for a
deceased spouse. A different approach might involve
pro rata awards of the normal solatium amount—and
that may be appropriate in cases involving larger
numbers of spouses— but just as multiple children do
not receive pro rata shares, for similar reasons, the
Court will award the full amount to Hannah Kamau.
For some plaintiffs, the special masters recommend
that no solatium damages be awarded because the
record does not contain sufficient evidence to support
their claims. See Peterson II, 515 F. Supp. 2d at 46.
The Court adopts those recommendations, and so
Simon Ngugi, Charity Kiato, and Betty Orario will
not be awarded damages. See Report of Special
Master Kenneth Adams Concerning Vincent Kamau
Nyoike [ECF No. 131] at 8-9; Report of Special
Master Kenneth Adams Concerning Elizabeth Kiato
[ECF No. 133] at 4; Report of Special Master Kenneth
Adams Concerning Samuel Odhiambo Oriaro [ECF
No. 181] at 5.
The Court finds that the special masters have
appropriately applied the solatium damages
framework to most of the plaintiffs in this case, and
will adopt their recommendations with a few

6

Available at http://kenyalaw.org/caselaw/cases/view/99160.

313a
exceptions. 7 Other courts in this district have held
that it is inappropriate for the solatium awards of
family members to exceed the pain-and-suffering
awards of surviving victims. See Davis, 882 F. Supp.
2d at 15; O’Brien, 853 F. Supp. 2d at 47; Bland, 831
F. Supp. 2d at 157. The Court will follow that
approach here. The special masters recommended
solatium awards exceeding the pain-and-suffering
awards to the related victim in several cases, albeit
sometimes inadvertently, because of this Court’s
adjustment of pain-and-suffering awards. 8 Hence, the
Court will reduce those solatium awards to match
corresponding pain-and-suffering awards where
appropriate. 9
7 Some special master reports mistakenly refer to solatium
awards as pain-and-suffering awards. See, e.g., Report of Special
Master Kenneth Adams Concerning Boniface Chege [ECF No.
182] at 7. In those instances— where recommendations are
consistent with the guidelines discussed herein—the Court
adopts the amount of damages but rejects the special masters’
recommendation that the plaintiffs be awarded pain-andsuffering damages.
8 Because of an apparent clerical error, a special master
recommended awarding Nancy Mimba, wife of injured victim
George Magak Mimba, $750,000, while purporting to reduce her
award so as not to exceed the award to Mr. Mimba—who will be
awarded $2,500,000. The Court will adjust Nancy Mimba’s
award to be in line with the guidelines discussed.
9 Some special masters recommended proportionally reducing
solatium awards to reflect downward departures from the
“standard” $5 million pain-and-suffering amount. See, e.g.,
Report of Special Master Jackson Williams Concerning Doreen
Oport [ECF No. 230] at 8. For consistency, and because other
courts in this district usually reduce solatium awards only to
match injured victims’ pain-and-suffering awards, the Court will
not proportionally reduce solatium awards. Instead, the Court

314a
b. Punitive Damages
Plaintiffs request punitive damages under section
1605A(c). Punitive damages “serve to punish and
deter the actions for which they are awarded.” Valore,
700 F. Supp. 2d at 87. Courts calculate the proper
amount of punitive damages by considering four
factors: “(1) the character of the defendants’ act, (2)
the nature and extent of harm to the plaintiffs that
the defendants caused or intended to cause, (3) the
need for deterrence, and (4) the wealth of the
defendants.” Oveissi II, 879 F. Supp. 2d at 56
(quoting Acosta, 574 F. Supp. 2d at 30). In this case,
the first three factors weigh heavily in favor of an
award of punitive damages: the character of
defendants’ actions and the nature and extent of
harm to plaintiffs can accurately be described as
horrific. Scores were murdered, hundreds of families
were torn asunder, and thousands of lives were
irreparably damaged. The need for deterrence here is
tremendous. And although specific evidence in the
record on defendants’ wealth is scant, they are
foreign states with substantial wealth.
Previous courts in this district, confronted with
similar facts, have calculated punitive damages in
different ways. See, e.g., Baker, 775 F. Supp. at 85
(surveying cases). One attractive method often used
in FSIA cases is to multiply defendants’ annual
expenditures on terrorist activities by a factor of
three to five. See, e.g., Valore, 700 F. Supp. 2d at 8890. Unfortunately, there is not enough evidence in
will reduce solatium awards to match pain-and-suffering
awards.

315a
the record on defendants’ expenditures during the
relevant time period to adopt that approach here.
Other courts have simply awarded families of
terrorism victims $150 million in punitive damages.
See, e.g., Gates v. Syrian Arab Republic, 580 F. Supp.
2d 53, 75 (D.D.C. 2008), aff’d, 646 F.3d 1 (D.C. Cir.
2011). Using that approach here would result in a
colossal figure, given the number of families involved.
This case, when combined with the related cases
involving the same bombings where plaintiffs seek
punitive damages, 10 involves over 600 plaintiffs.
Valore was a similar case, involving another terrorist
bombing sponsored by Iran: the bombing of the
United States Marine barracks in Beirut, Lebanon.
Two hundred and forty-one military servicemen were
murdered in that bombing. A similar number of
people, 224, died here, and hundreds more were
injured. In Valore, then-Chief Judge Lamberth used
the expenditures-times multiplier method. All told,
Judge Lamberth awarded approximately $4 billion in
compensatory damages in cases involving the Beirut
bombing and about $5 billion in punitive damages.
Estate of Brown v. Islamic Republic of Iran, 872 F.
Supp. 2d 37, 45 n.1 (D.D.C. 2012) (tallying awards).
This case is quite similar in magnitude: all told,
including the judgments issued in Owens, Mwila, and
Khaliq, and the judgments to be issued in conjunction
with this opinion and in Wamai, Onsongo, and Opati,
10 Plaintiffs in Owens, Mwila, and Khaliq, cases (involving the
same bombings) in which this Court previously awarded
damages, did not seek punitive damages. See, e.g., Khaliq v.
Republic of Sudan, No. 10-356, 2014 WL 1284973, at *3 (D.D. C.
Mar. 28, 2014).

316a
the Court will have issued just over $5 billion in
compensatory damages. Given that similarity, the
inability of this Court to employ the expendituretimes-multiplier method, and in light of the “societal
interests in punishment and deterrence that warrant
imposition of punitive sanctions” in cases like this,
the Court finds it appropriate to award punitive
damages in an amount equal to the total
compensatory damages awarded in this case. Beer v.
Islamic Republic of Iran, 789 F. Supp. 2d 14, 17
(D.D.C. 2011) (citing Flatow v. Islamic Republic of
Iran, 999 F. Supp. 2d 1 (D.D.C. 1998)). Doing so will
result in a punitive damage award consistent with
the punitive damage awards in analogous cases,
particularly those involving the Beirut bombing, and
will hopefully deter defendants from continuing to
sponsor terrorist activities. The Court will apportion
punitive damages among plaintiffs according to their
compensatory damages. See Valore, 700 F. Supp. 2d
at 90.
c. Prejudgment Interest
An award of prejudgment interest at the prime rate
is appropriate in this case. See Oldham v. Korean Air
Lines Co., 127 F.3d 43, 54 (D.C. Cir. 1997); Forman v.
Korean Air Lines Co., 84 F.3d 446, 450-51 (D.C. Cir.
1996). Prejudgment interest is appropriate on the
whole award, including pain and suffering and
solatium—although not including the punitive
damage award, as that is calculated here by reference
to the entire compensatory award—with one
exception. See Reed v. Islamic Republic of Iran, 845
F. Supp. 2d 204, 214-15 (D.D.C. 2012) (awarding
prejudgment interest on the full award). But see

317a
Oveissi v. Islamic Republic of Iran, 768 F. Supp. 2d
16, 30 n.12 (D.D.C. 2011) (declining to award
prejudgment interest on solatium damages). Because
some of the economic loss figures recommended by
the special masters have already been adjusted to
reflect present discounted value, see District of
Columbia v. Barritaeu, 399 A.2d 563, 568-69 (D.C.
1979), the Court will not apply the prejudgment
interest multiplier to the economic loss amounts
except those calculated in 1998 dollars. See Doe, 943
F. Supp. 2d at 186 (citing Oldham, 127 F.3d at 54);
Report of Special Master Steven Saltzburg
Concerning Francis Mbogo Njung’e, Ex. 1 [ECF No.
67-1] at 1-4 (explaining how to properly apply
interest here without double-counting). See Doe, 943
F. Supp. 2d at 186 (citing Oldham, 127 F.3d at 54).
Awards for pain and suffering and solatium are
calculated without reference to the time elapsed since
the attacks. Because plaintiffs were unable to bring
their claims immediately after the attacks, they lost
use of the money to which they were entitled upon
incurring their injuries. Denying prejudgment
interest on these damages would allow defendants to
profit from the use of the money over the last fifteen
years. Awarding prejudgment interest, on the other
hand, reimburses plaintiffs for the time value of
money, treating the awards as if they were awarded
promptly and invested by plaintiffs.
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge
for short-term unsecured loans to
creditworthy customers—is the most appropriate

318a
measure of prejudgment interest, one “more
appropriate” than more conservative measures such
as the Treasury Bill rate, which represents the return
on a risk-free loan. See Forman, 84 F.3d at 450.
Although the prime rate, applied over a period of
several years, can be measured in different ways, the
D.C. Circuit has approved an award of prejudgment
interest “at the prime rate for each year between the
accident and the entry of judgment.” See id. Using
the prime rate for each year is more precise than, for
example, using the average rate over the entire
period. See Doe, 943 F. Supp. 2d at 185 (noting that
this method is a “substantially more accurate
‘market-based estimate’” of the time value of money
(citing Forman, 84 F. 3d at 451)). Moreover,
calculating interest based on the prime rate for each
year is a simple matter. 11 Using the prime rate for
each year results in a multiplier of 2.26185 for

11 To calculate the multiplier, the Court multiplied $1.00 by
the prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields a multiplier of 2.26185.

319a
damages incurred in 1998. 12 Accordingly, the Court
will use this multiplier to calculate the total award. 13
CONCLUSION
The 1998 embassy bombings shattered the lives of
all plaintiffs in this case. Reviewing their personal
stories reveals that, even more than fifteen years
later, they each still feel the horrific effects of that
awful day. Damages awards cannot fully compensate
people whose lives have been torn apart; instead,
they offer only a helping hand. But that is the very
least that these plaintiffs are owed. Hence, it is what
this Court will facilitate.
A separate Order consistent with these findings has
issued on this date.
/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014
12 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year
between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federal
reserve.gov/releases/h15/data.htm (last visited July 25, 2014).
As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous six years.
13 The product of the multiplier and the base damages amount
includes both the prejudgment interest and the base damages
amount; in other words, applying the multiplier calculates not
the prejudgment interest but the base damages amount plus the
prejudgment interest, or the total compensatory damages
award.

320a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]
Civil Action No. 08-1361 (JDB)

MILLY MIKALI AMDUSO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
ORDER
Upon consideration of [73-253] the special masters’
reports, and the entire record herein, it is hereby
ORDERED that [73-253] the special master reports
are adopted in part and modified in part as described
in the accompanying Memorandum Opinion issued on
this date; it is further
ORDERED that judgment is entered in favor of
plaintiffs and against defendants in the total amount
of $1,755,878,431.22; and it is further

321a
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014

322a

323a

324a

325a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]
Civil Action No. 08-1349 (JDB)

WINFRED WAIRIMU WAMAI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

MEMORANDUM OPINION
Over fifteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es
Salaam,
Tanzania were
devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. This Court has
entered final judgment on liability under the Foreign
Sovereign Immunities Act (“FSIA”) in this civil action
and several related cases—brought by victims of the
bombings and their families—against the Republic of
Sudan, the Ministry of the Interior of the Republic of
Sudan, the Islamic Republic of Iran, the Iranian
Revolutionary Guards Corps, and the Iranian
Ministry of Information and Security (collectively

326a
“defendants”) for their roles in supporting, funding,
and otherwise carrying out these unconscionable acts.
The next step in the case is to assess and award
damages to each individual plaintiff, and in this task
the Court has been aided by several special masters.
The 196 plaintiffs in this case are Kenyan and
Tanzanian citizens injured and killed in the
bombings and their immediate 1 family members. 2
Service of process was completed upon each
defendant, but defendants failed to respond, and a
default was entered against each of them. The
Court has held that it has jurisdiction over
defendants and that the foreign national plaintiffs
1 A few plaintiffs are not immediate family members, but as
explained below, the Court will not award damages to those
plaintiffs.
2 A large number of plaintiffs are listed as plaintiffs both in
this case and in the related case before this Court, Amduso v.
Republic of Sudan, No. 08-1361 (D.D.C. July 25, 2014). Initially,
plaintiffs in these two cases were represented by two different
sets of attorneys. Some plaintiffs signed retainer agreements
with both sets of attorneys, and so appeared as plaintiffs in both
cases. Following mediation with Magistrate Judge Facciola, the
attorneys settled the issue of which plaintiffs were represented
by whom by signing a cooperation agreement and entering into
joint representation of plaintiffs in both cases. See Amduso, N o.
08-1361 [ECF Nos. 54-57]. Of course, plaintiffs are entitled to
only one award. As this case is the earlier-filed case, and
because the joint representation vitiates any conflict between
counsel, the Court will award damages in this case to plaintiffs
appearing in both cases, and will deny those same plaintiffs
awards in Amduso.
Similarly, a small number of plaintiffs are listed in this case
and in two other cases pending before this Court: the Onsongo
case (No. 08-1380), and the Opati case (No. 12-1224). Those
plaintiffs will be awarded damages in this case, but will not be
awarded damages in those cases.

327a
who worked for the U.S. government are entitled to
compensation for personal injury and wrongful death
under 28 U.S.C. § 1605A(c)(3). See Owens v. Republic
of Sudan, 826 F. Supp. 2d 128, 148-51 (D.D.C. 2011).
The Court has also held that, although those
plaintiffs who are foreign national family members of
victims lack a federal cause of action, they may
nonetheless pursue claims under the laws of the
District of Columbia. Id. at 153-57. A final judgment
on liability was entered in favor of plaintiffs. Nov. 28,
2011 Order [ECF No. 54] at 2. The deposition
testimony and other evidence presented established
that defendants were responsible for supporting,
funding, and otherwise carrying out the bombings in
Nairobi and Dar es Salaam. See Owens, 826 F. Supp.
2d at 135-47.
The Court then referred plaintiffs’ claims to several
special masters 3 to prepare proposed findings and
recommendations for a determination of damages.
Feb. 27, 2012 Order Appointing Special Masters
[ECF No. 57] at 2. The special masters have now filed
completed reports on each plaintiff. See Special
Master Reports [ECF Nos. 63-241]. In completing
those reports and in finding facts, the special masters
relied on sworn testimony, expert reports, medical
records, and other evidence. The reports extensively
describe the key facts relevant to each of the
plaintiffs and carefully analyze their claims under
the framework established in mass tort terrorism
cases. The Court commends each of the special
3 Those special masters (collectively, “the special masters”) are
Kenneth L. Adams, John D. Aldock, Oliver Diaz, Jr., Deborah E.
Greenspan, Brad Pigott, Stephen A. Saltzburg, and C. Jackson
Williams.

328a
masters for their excellent work and thorough
analysis.
The Court hereby adopts all facts found by the
special masters relating to all plaintiffs in this case,
including
findings
regarding
the
plaintiffs’
employment status or their familial relationship
necessary to support standing under section
1605A(a)(2)(A)(ii). See Owens, 826 F. Supp. 2d at 149.
The Court also adopts all damages recommendations
in the reports, with the few adjustments described
below. “Where recommendations deviate from the
Court’s damages framework, ‘those amounts shall be
altered so as to conform with the respective award
amounts set forth’ in the framework, unless
otherwise noted.” Valore v. Islamic Republic of Iran,
700 F. Supp. 2d 52, 82-83 (D.D.C. 2010) (quoting
Peterson v. Islamic Republic of Iran, 515 F. Supp. 2d
25, 53 (D.D.C. 2007) (“Peterson II”), abrogation on
other grounds recognized in Mohammadi v. Islamic
Republic of Iran, 947 F. Supp. 2d 48, 65 (D.D.C.
2013)). As a result, the Court will award plaintiffs a
total judgment of over $3.5 billion.
I.

CONCLUSIONS OF LAW

On November 28, 2011, the Court granted summary
judgment on liability against defendants in this case.
Nov. 28, 2011 Order [ECF No. 54] at 2. The foreignnational U.S.- government-employee victims have a
federal cause of action, while their foreign-national
family members have a cause of action under D.C.
law.

329a
a. The Government-Employee Plaintiffs Are
Entitled T o D am ages O n T he ir Fe de ral L aw
Claims Under 28 U.S.C. § 1605A
“To obtain damages in a Foreign Sovereign
Immunities Act (FSIA) action, the plaintiff must
prove that the consequences of the defendants’
conduct were reasonably certain (i.e., more likely
than not) to occur, and must prove the amount of the
damages by a reasonable estimate consistent with
application of the American rule on damages.” Valore,
700 F. Supp. 2d at 83. Plaintiffs here have proven
that the consequences of defendants’ conduct were
reasonably certain to—and indeed intended to—cause
injury to plaintiffs. See Owens, 826 F. Supp. 2d at
135-46. As discussed by this Court previously,
because the FSIA-created cause of action “does not
spell out the elements of these claims that the Court
should apply,” the Court “is forced . . . to apply
general principles of tort law” to determine plaintiffs’
entitlement to damages on their federal claims. Id. at
157 n.3.
Survivors are entitled to recover for the pain and
suffering caused by the bombings: acts of terrorism
“by their very definition” amount to extreme and
outrageous conduct and are thus compensable by
analogy under the tort of “intentional infliction of
emotional distress.” Valore, 700 F. Supp. 2d at 77
(citing Restatement (Second) of Torts § 46(1) (1965));
see also Baker v. Socialist People’s Libyan Arab
Jamahriya, 775 F. Supp. 2d 48, 74 (D.D.C. 2011)
(permitting plaintiffs injured in state-sponsored
terrorist bombings to recover for personal injuries,
including pain and suffering, under tort of
“intentional infliction of emotional distress”); Estate

330a
of Bland v. Islamic Republic of Iran, 831 F. Supp. 2d
150, 153 (D.D.C. 2011) (same). Hence, “those who
survived the attack may recover damages for their
pain and suffering, . . . [and for] economic losses
caused by their injuries. . . .” Oveissi v. Islamic
Republic of Iran, 879 F. Supp. 2d 44, 55 (D.D.C. 2012)
(“Oveissi II”) (citing Valore, 700 F. Supp. 2d at 82-83);
see 28 U.S.C. § 1605A(c). Accordingly, all plaintiffs
who were injured in the 1998 bombings can recover
for their pain and suffering as well as their economic
losses. Bland, 831 F. Supp. 2d at 153. In addition, the
estates of those who were killed in the attack are
entitled to recover compensatory damages for
wrongful death. See, e.g., Valore, 700 F. Supp. at 82
(permitting estates to recover economic damages
caused to deceased victims’ estates).
b. Family Members Who Lack A Federal Cause O f
Action Are Entitled T o D am ages U nder D .C.
Law
This Court has previously held that it will apply
District of Columbia law to the claims of any
plaintiffs for whom jurisdiction is proper, but who
lack a federal cause of action under the FSIA. Owens,
826 F. Supp. 2d at 153-57. This category includes
only the foreign-national family members of the
injured victims from the 1998 bombings. Individuals
in this category seek to recover solatium damages
under D.C. law based on claims of intentional
infliction of emotional distress. To establish a prima
facie case of intentional infliction of emotional
distress under D.C. law, a plaintiff must show: (1)
extreme and outrageous conduct on the part of the
defendant which, (2) either intentionally or
recklessly, (3) causes the plaintiff severe emotional

331a
distress. Larijani v. Georgetown Univ., 791 A.2d 41,
44 (D.C. 2002). Acts of terrorism “by their very
definition” amount to extreme and outrageous
conduct, Valore, 700 F. Supp. 2d at 77; the
defendants in this case acted intentionally and
recklessly; and their actions caused each plaintiff
severe emotional distress, see Owens, 826 F. Supp. 2d
at 136-45; Murphy v. Islamic Republic of Iran, 740 F.
Supp. 2d 51, 74-75 (D.D.C. 2010). Likewise, D.C. law
allows spouses and next of kin to recover solatium
damages. D.C. Code § 16-2701. Based on the evidence
submitted to the special masters, the Court concludes
that the foreign national family members of the
victims of the 1998 bombings have each made out
claims for intentional infliction of emotional distress
and are entitled to solatium damages (with the few
exceptions detailed below).
II.

DAMAGES

Having established that plaintiffs are entitled to
damages, the Court now turns to the question of the
amount of damages, which involves resolving
common questions related to plaintiffs with similar
injuries. The damages awarded to each plaintiff are
laid out in the tables in the separate Order and
Judgment issued on this date.
a. Compensatory Damages
1. Economic Damages
Under the FSIA, injured victims and the estates of
deceased victims may recover economic damages,
which typically include lost wages, benefits and
retirement pay, and other out-of-pocket expenses. 28
U.S.C. § 1605A(c). The special masters recommended
that twenty-four deceased plaintiffs and four injured

332a
victims be awarded economic damages. To determine
each plaintiff’s economic losses resulting from the
bombings, the special masters relied on economic
reports submitted by the Center for Forensic
Economic Studies (“CFES”), which estimated lost
earnings, fringe benefits, retirement income, and the
value of household services lost as a result of the
injuries sustained from the bombing. In turn, CFES
relied on information from the survivors as well as
other documentation, including country-specific
economic data and employment records. See, e.g.,
Report of Special Master Kenneth Adams Concerning
Maurice Okatch Ogolla, Ex. 5 [ECF No. 70] at 45-47
(further explaining methodology employed in creating
the economic loss reports). The Court adopts the
findings and recommendations of the special masters
as to economic losses to be awarded to injured victims
and the estates of deceased victims.
2. Awards for pain and suffering due to injury
Courts determine pain-and-suffering awards for
survivors based on factors including “the severity of
the pain immediately following the injury, the length
of hospitalization, and the extent of the impairment
that will remain with the victim for the rest of his or
her life.” O’Brien v. Islamic Republic of Iran, 853 F.
Supp. 2d 44, 46 (D.D.C. 2012) (internal quotation
marks omitted). When calculating damages amounts,
“the Court must take pains to ensure that individuals
with similar injuries receive similar awards.”
Peterson II, 515 F. Supp. 2d at 54. Recognizing this
need for uniformity, courts in this district have
developed a general framework for assessing painand-suffering damages for victims of terrorist
attacks, awarding a baseline of $5 million to

333a
individuals who suffer severe physical injuries, such
as compound fractures, serious flesh wounds, and
scars from shrapnel, as well as lasting and severe
psychological pain. See Valore, 700 F. Supp. 2d at 84.
Where physical and psychological pain is more
severe—such as where victims suffered relatively
more numerous and severe injuries, were rendered
quadriplegic, partially lost vision and hearing, or
were mistaken for dead—courts have departed
upward from this baseline to $7 million and above.
See O’Brien, 853 F. Supp. 2d at 47. Similarly,
downward departures to a range of $1.5 to $3 million
are warranted where the victim suffers severe
emotional injury accompanied by relatively minor
physical injuries. See Valore, 700 F. Supp. 2d at 8485.
Damages for extreme pain and suffering are
warranted for those individuals who initially survive
the attack but then succumb to their injuries. “When
the victim endured extreme pain and suffering for a
period of several hours or less, courts in these
[terrorism] cases have rather uniformly awarded $1
million.” Haim v. Islamic Republic of Iran, 425 F.
Supp. 2d 56, 71 (D.D.C. 2006); see Peterson II, 515 F.
Supp. 2d at 53-55. When the period of the victim’s
pain is longer, the award increases. Haim, 425 F.
Supp. 2d at 72. And when the period is particularly
brief, courts award less. For instance, where an
individual “survived a terrorist attack for 15 minutes,
and was in conscious pain for 10 minutes,” a court in
this district awarded $500,000. See Peterson II, 515
F. Supp. 2d at 53. To the estates of those who are
killed instantly, courts award no pain-and-suffering
damages.

334a
According to the special masters, the evidence
showed that four plaintiffs who died in the bombings
did not die instantly, and that they suffered before
they ultimately perished. The Court accepts the
special masters’ recommendations as to two of those
plaintiffs. The Court adjusts the recommended
award, consistent with Haim, to two plaintiffs whose
pre-death suffering lasted for several hours: the
Court will adjust Kimeu Nzioka Nganga’s award from
$2 million to $1 million and Bakari Nyumbu’s from
$3 million to $1 million. 425 F. Supp. 2d at 71 (noting
that courts uniformly award $1 million to victims
who suffered for several hours before dying in this
context). The Court adopts the special masters’
recommendations not to award pain-and suffering
damages to the estates of those plaintiffs who were
killed instantly. 4
The need to maintain uniformity with awards to
plaintiffs in prior cases and between plaintiffs in this
case is particularly evident. A great number of
plaintiffs were injured in the bombings. Those
injuries, and evidence of those injuries, span a broad
range. Although the special masters ostensibly
applied the same guidelines, their interpretations of
those guidelines understandably brought about
recommendations of different awards even for
plaintiffs who suffered very similar injuries—
particularly those plaintiffs who did not suffer severe
4 For similar reasons, the Court accepts the special masters’
recommendation that Teresia Wairimu Kamau, daughter of
deceased victim Joseph Kamau Kiongo, receive no solatium
award because she herself was killed in the same blast that
killed her father. See Report of Special Master John Aldock
Concerning Joseph Kamau Kiongo [ECF No. 79] at 9.

335a
physical injuries. For those plaintiffs, the Valore
court explained that downward departures to a range
of $1.5 million to $3 million are appropriate, and the
Court will apply that guideline as follows. 700 F.
Supp. 2d at 84-85.
Many plaintiffs suffered little physical injury—or
none at all—but have claims based on severe
emotional injuries because they were at the scene
during the bombings or because they were involved in
the extensive recovery efforts immediately thereafter.
Those plaintiffs will be awarded $1.5 million. See id.
Typical of this category is Edward Mwae Muthama,
who was working at the offsite warehouse for the
United States Embassy in Kenya when the bombings
occurred. Report of Special Master John Aldock
Concerning Edward Muthama [ECF No. 93] at 4.
Shortly after the attack, Muthama headed to the
blast site and spent days assisting with the gruesome
recovery efforts; to this day he suffers from emotional
distress resulting from his time administering aid to
survivors and handling the dead bodies (and body
parts) of his murdered colleagues. Id.
Other plaintiffs suffered minor 5 injuries (such as
lacerations and contusions caused by shrapnel),
accompanied by severe emotional injuries. They will
be awarded $2 million. Typical is Emily Minayo, who
was on the first floor of the United States Embassy in
Nairobi at the time of the bombing. Report of Special
Master Brad Pigott Concerning Emily Minayo [ECF
No. 162] at 4. She was thrown to the floor by the force
of the blast, but she was lucky enough to escape with
Their injuries were “minor” only relative to the injuries
suffered by others in this case.

5

336a
only lacerations that were later sewn up during a
brief hospital stay. Id. She continues, however, to
suffer from severe emotional damage resulting from
her experience. Id.
To those who suffered more serious physical
injuries, such as broken bones, head trauma, some
hearing or vision impairment, or impotence, the
Court will award $2.5 million. Typical is Francis
Maina Ndibui, who was in the United States
Embassy in Nairobi during the bombing. Report of
Special Master Brad Pigott Concerning Francis
Maina Ndibui [ECF No. 152] at 4. Ndibui became
temporarily trapped under debris that fell from the
ceiling, and he suffered minor lacerations similar to
Minayo’s. Id. Also as a result of the bombing, he
continues to suffer from partial vision impairment,
which has persisted even through reparative surgery.
Id. He also suffers from severe emotional damage
resulting from his experience. Id.
Plaintiffs with even more serious injuries—
including spinal injuries not resulting in paralysis,
more serious shrapnel injuries, head trauma, or
serious hearing impairment—will be awarded $3
million. Typical is Victor Mpoto, who was at the
United States Embassy in Dar es Salaam on the day
of the bombing. Report of Special Master Jackson
Williams Concerning Victor Mpoto [ECF No. 136] at
3. The blast knocked him to the ground and covered
him in debris, causing minor physical injuries. Id.
Because he was only about fifteen meters away from
the blast, he suffered severe hearing loss in both ears
that continues to this day and for which he continues
to receive treatment. Id. He also suffers from severe

337a
emotional damage resulting from his experience. Id.
at 4.
Those who suffered from injuries similar to those
plaintiffs who are generally awarded the “baseline”
award of $5 million (involving some mix of serious
hearing or vision impairment, many broken bones,
severe shrapnel wounds or burns, lengthy hospital
stays, serious spinal or head trauma, and permanent
injuries) will also be awarded that baseline. See
Valore, 700 F. Supp. 2d at 84. Typical is Pauline
Abdallah, who was injured in the bombing of the
United States Embassy in Nairobi. Report of Special
Master Stephen Saltzburg Concerning Pauline
Abdallah [ECF No. 117] at 3. She was knocked
unconscious by the blast, and later spent about a
month in the hospital. Id. She suffered severe
shrapnel wounds requiring skin grafts, third-degree
burns, and two of her fingers were amputated. Id.
Shrapnel still erupts from her skin. Id. She also
suffered severe hearing loss. Id. Like other plaintiffs
who were injured in the bombing, she suffers from
severe emotional damage. Id. at 3-4.
And for a few plaintiffs, who suffered even more
grievous wounds such as lost eyes, extreme burns,
severe skull fractures, brain damage, ruptured lungs,
or endured months of recovery in hospitals, upward
departures to $7.5 million are in order.
Livingstone Busera Madahana was injured in the
blast at the United States Embassy in Nairobi.
Report of Special Master Kenneth Adams Concerning
Livingstone Busera Madahana [ECF No. 175] at 4.
Shrapnel from the blast completely destroyed his
right eye and permanently damaged his left. Id. He

338a
suffered a skull fracture and spent months in a coma;
his head trauma caused problems with his memory
and cognition. Id. “He endured multiple surgeries,
skin
grafts,
physical
therapy,
vocational
rehabilitation, speech and cognitive therapy, and
psychotherapy for depression.” Id.
Gideon Maritim was injured in the blast at the
United States Embassy in Nairobi. Report of Special
Master Jackson Williams Concerning Gideon
Maritim [ECF No. 222] at 3. The second explosion
knocked him unconscious for several hours. Id. at 4
The blast ruptured his eardrums, knocked out several
teeth, and embedded metal fragments into his eyes.
Id. He also suffered deep shrapnel wounds to his legs
and stomach, and his lungs were ruptured. Id. His
hearing is permanently impaired, as is his lung
function. Id. at 5. And he suffers from chronic back
and shoulder pain. Id.
Charles Mwaka Mulwa was injured in the blast at
the United States Embassy in Nairobi. Report of
Special Master Jackson Williams Concerning Charles
Mwaka Mulwa [ECF No. 132] at 3. The bomb blast
permanently disfigured his skull, ruptured both his
eardrums, and embedded glass in his eyes. Id. He
continues to suffer from nearly total hearing loss, and
his eyesight is permanently diminished. Id. And he
suffered from other shrapnel injuries to his head,
arms, and legs. Id.
Tobias Oyanda Otieno was injured in the blast at
the United States Embassy in Nairobi. Report of
Special Master Brad Pigott Concerning Tobias
Oyanda Otieno [ECF No. 181] at 4. The blast caused
permanent blindness in his left eye, and substantial

339a
blindness in his right. Id. He suffered severe shrapnel
injuries all over his body, including a particularly
severe injury to his hand, which resulted in
permanent impairment. Id. His lower back was also
permanently damaged, causing continuous pain to
this day. Id. He spent nearly a year recovering in
hospitals. Id.
Moses Kinyua was injured in the blast at the
United States Embassy in Nairobi. Report of Special
Master Deborah Greenspan Concerning Moses
Kinyua [ECF No. 202] at 4. The blast knocked him
into a coma for three weeks. Id. His skull was
crushed, his jaw was fractured in four places, and he
lost his left eye. Id. The head trauma resulted in
brain damage. Id. In addition, he suffered from a
ruptured eardrum, a detached retina in his right eye,
a dislocated shoulder, broken fingers, and serious
shrapnel injuries. Id. He was ultimately hospitalized
for over six months. Id.
Joash Okindo was injured in the blast at the United
States Embassy in Nairobi. Report of Special Master
Brad Pigott Concerning Joash Okindo [ECF No. 163]
at 4. He spent about eight months in hospitals, and
was in a coma for the first month because he suffered
a skull fracture. Id. at 4-5. He suffered from severe
shrapnel injuries to his head, back, legs, and hands,
and the blast fractured bones in both of his legs. Id.
at 4.
Each of these plaintiffs also suffered severe
emotional injuries. The injuries suffered by these
plaintiffs are comparable to those suffered by
plaintiffs who were awarded $7–$8 million in
Peterson II. See 515 F. Supp. 2d at 55-57 (e.g.,

340a
Michael Toma, who suffered “various cuts from
shrapnel, internal bleeding in his urinary system, a
deflated left lung, and a permanently damaged right
ear drum”). Hence, the Court will award each of these
plaintiffs $7.5 million for pain and suffering. The
Court adopts the recommendations by special
masters of awards consistent with the adjusted
guidelines described above, and will adjust
inconsistent awards accordingly.
3. Solatium
“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for pain and suffering,
and to those awarding damages for solatium.” Acosta
v. Islamic Republic of Iran, 574 F. Supp. 2d 15, 29
(D.D.C. 2008). Only immediate family members—
parents, siblings, spouses, 6 and children—are
entitled to solatium awards. 7 See Valore, 700 F. Supp.
2d at 79. The commonly accepted framework for
The Court adopts Special Master Jackson Williams’s
recommendation that the common-law wife of Peter Macharia,
Grace Gicho, be awarded solatium damages, for the reasons
discussed in the thorough special master report. See Report of
Special Master Jackson Williams Concerning Peter Macharia
[ECF No. 242] at 5-8.
7 Many of the family members of injured or deceased victims
in this case are plaintiffs not here but in the related Amduso,
Onsongo, and Opati cases before this Court. See Compl.,
Amduso, No. 08-1361 [ECF No. 5] at 18-38; Compl., Onsongo v.
Republic of Sudan, No. 08-1380 [ECF No. 3] at 19-26; 2nd
Amend. Compl., Opati v. Republic of Sudan, No. 12-1224 (D.D.C.
Oct. 22, 2013) [ECF No. 24] at 26-83. As explained in this
Court’s July 25, 2014 opinion in Amduso, those family members’
solatium awards—granted in that case—are properly based on
the awards to injured or deceased victims in this case.
6

341a
solatium damages in this district is that used in
Peterson II, 515 F. Supp. 2d at 52. See Valore, 700 F.
Supp. 2d at 85; Belkin, 667 F. Supp. 2d at 23.
According to Peterson II, the appropriate amount of
damages for family members of deceased victims is as
follows: $8 million to spouses of deceased victims, $5
million to parents of deceased victims, and $2.5
million to siblings of deceased victims. 515 F. Supp.
2d at 52. The appropriate amount of damages for
family members of injured victims is as follows: $4
million to spouses of injured victims, $2.5 million to
parents of injured victims, and $1.25 million to
siblings of injured victims. Id. Courts in this district
have differed somewhat on the proper amount
awarded to children of victims. Compare Peterson II,
515 F. Supp. 2d at 51 ($2.5 million to child of injured
victim), with Davis v. Islamic Republic of Iran, 882 F.
Supp. 2d 7, 14 (D.D.C. 2012) ($1.5 million to child of
injured victim). The Court finds the Peterson II
approach to be more appropriate: to the extent such
suffering can be quantified, children who lose parents
are likely to suffer as much as parents who lose
children. Children of injured victims will thus be
awarded $2.5 million and, consistent with the
Peterson II approach of doubling solatium awards for
relatives of deceased victims, children of deceased
victims will be awarded $5 million.
Although these amounts are guidelines, not rules,
see Valore, 700 F. Supp. 2d at 86, the Court finds the
distinctions made by the Valore court to be
responsible and reasonable, and hence it will adopt
the same guidelines for determining solatium
damages here. In the interests of fairness and to
account for the difficulty in assessing the relative

342a
severity of each family member’s suffering, in this
case and in related cases, the Court will depart from
those guidelines only for a few plaintiffs for whom the
special master’s report is particularly convincing. 8
One deceased Kenyan victim, Joseph Kamau
Kiongo, had three wives at the time of his death.
Report of Special Master John Aldock Concerning
Joseph Kamau Kiongo [ECF No. 79] at 5. Four more,
Geoffrey Mulu Kalio, Dominic Musyoka Kithuva,
Frederick Maloba, and Vincent Kamau Nyoike, each
had two wives when they were killed. Report of
Special Master Deborah Greenspan Concerning
Geoffrey Mulu Kalio [ECF No. 211] at 3; Report of
Special Master Oliver Diaz Concerning Dominic
Musyoka Kithuva [ECF No. 217] at 3; Report of
Special Master Jackson Williams Concerning
Frederick Maloba [ECF No. 229] at 3; Report of
Special Master Jackson Williams Concerning Vincent
Kamau Nyoike [ECF No. 239] at 3. Courts in Kenya
generally recognize that more than one wife of a
decedent may be entitled to an inheritance, and so
this Court will consider each of these wives (Lucy
Kiongo, Alice Kiongo, Jane Kamau, Jane Kathuka,
Bernice Ndeti, Kamali Musyoka Kithuva, Beatrice
Martha Kithuva, Elizabeth Maloba, Margaret
Maloba, and Josinda Katumba Kamau) to be
8 The special master’s report on two of the plaintiffs, Titus
Wamai and Diana Williams, shows clearly that reduced awards
are appropriate based on extended periods of pre-bombing
separation and substantially attenuated relationships with their
father, who was killed in the Nairobi bombings. See Report of
Special Master Deborah Greenspan Concerning Adam Titus
Wamai [ECF No. 92] at 4-5. Hence, those plaintiffs will be
awarded half the normal amount awarded to children of
deceased victims, or $2.5 million.

343a
immediate family. members entitled to solatium
awards. See Charity Gacheri Kaburu v. Mary Gacheri
M’ritaa, Succession Cause No. 251 of 2000 (High
Court of Kenya 2014) 9 (appointing both widows as
joint administrators). Under the circumstances, the
Court will exercise its discretion, adopt the special
masters’ recommendations, and award the normal
solatium amount for a deceased spouse to each of the
deceased’s widows. A different approach might
involve pro rata awards of the normal solatium
amount—and that may be appropriate in cases
involving larger numbers of spouses—but just as
multiple children do not receive pro rata shares, for
similar reasons, the Court will award the full amount
to each spouse.
In some instances, special masters recommended
that spouses of deceased victims receive $10 million.
See, e.g., Report of Special Master Kenneth L. Adams
Concerning Lawrence Ambrose Gitau [ECF No. 69] at
5. Because the Court adopts the Peterson II
guidelines, each of these recommendations will be
adjusted and those plaintiffs will be awarded $8
million. 515 F. Supp. 2d at 52. Similarly, in some
instances, special masters recommended that parents
of deceased victims receive $3.5 million. See, e.g.,
Report of Special Master Brad Pigott Concerning Eric
Abur Onyango [ECF No. 127] at 9-11. The Court will
increase those awards to $5 million. Peterson II, 515
F. Supp. 2d at 52.
The special masters also recommended against
awarding solatium damages to some injured victims’
children who were born after the bombings occurred.
9

Available at http://kenyalaw.org/caselaw/cases/view/99160.

344a
Although the Court acknowledges that the bombings’
terrible impact on the victims and their families
continues to this day, in similar cases courts have
found that children born following terrorist attacks
are not entitled to damages under the FSIA. See
Davis, 882 F. Supp. 2d at 15; Wultz v. Islamic
Republic of Iran, 864 F. Supp. 2d 24, 36 (D.D.C.
2012). In holding that a plaintiff must have been
alive at the time of an attack to recover solatium
damages, the Davis court recognized the need to draw
lines in order to avoid creating “an expansive and
indefinite scope of liability” under the FSIA— for
example, liability to children born fifteen years after
an attack (a real possibility in this drawn-out
litigation). 882 F. Supp. 2d at 15. The Court agrees
with the special masters and with the Davis court’s
interpretation of the FSIA, and holds that those
plaintiffs not alive at the time of the bombings cannot
recover solatium damages. Hence, the Court
dismisses the claims of Rachel Wambui Watoro (born
one month after the bombings). See Report of Special
Master John Aldock Concerning Francis Watoro
Maina [ECF No. 119] at 6.
For one plaintiff, the special masters recommended
that no solatium damages be awarded because the
record does not contain sufficient evidence to support
her claims. See Peterson, 515 F. Supp. 2d at 46. The
Court adopts that recommendation, and so Fatuma
Omar will not be awarded damages. See Report of
Special Master Oliver Diaz Concerning Hindu Omari
Idi [ECF No. 197] at 6.
The Court finds that the special masters have
appropriately applied the solatium damages
framework to most of the plaintiffs in this case, and

345a
will adopt their recommendations with a few
exceptions. 10 Other courts in this district have held
that it is inappropriate for the solatium awards of
family members to exceed the pain-and-suffering
awards of surviving victims. See Davis, 882 F. Supp.
2d at 15; O’Brien, 853 F. Supp. 2d at 47; Bland, 831
F. Supp. 2d at 157. The Court will follow that
approach here. The special masters recommended
solatium awards exceeding the pain-and-suffering
awards to the related victim in several cases, albeit
sometimes inadvertently, because of this Court’s
adjustment of pain-and-suffering awards. Hence, the
Court will reduce those solatium awards to match
corresponding pain-and-suffering awards where
appropriate.
b. Punitive Damages
Plaintiffs request punitive damages under section
1605A(c). Punitive damages “serve to punish and
deter the actions for which they are awarded.” Valore,
700 F. Supp. 2d at 87. Courts calculate the proper
amount of punitive damages by considering four
factors: “(1) the character of the defendants’ act, (2)
the nature and extent of harm to the plaintiffs that
the defendants caused or intended to cause, (3) the
need for deterrence, and (4) the wealth of the
defendants.” Oveissi II, 879 F. Supp. 2d at 56
10 Some special master reports mistakenly refer to solatium
awards as pain-and-suffering awards. See, e.g., Report of Special
Master Jackson Williams Concerning Josiah Owuor [ECF No.
237] at 6-7. In those instances— where recommendations are
consistent with the guidelines discussed herein—the Court
adopts the amount of damages but rejects the special master’s
recommendation that the plaintiffs be awarded pain-andsuffering damages.

346a
(quoting Acosta, 574 F. Supp. 2d at 30). In this case,
the first three factors weigh heavily in favor of an
award of punitive damages: the character of
defendants’ actions and the nature and extent of
harm to plaintiffs can accurately be described as
horrific. Scores were murdered, hundreds of families
were torn asunder, and thousands of lives were
irreparably damaged. The need for deterrence here is
tremendous. And although specific evidence in the
record on defendants’ wealth is scant, they are
foreign states with substantial wealth.
Previous courts in this district, confronted with
similar facts, have calculated punitive damages in
different ways. See, e.g., Baker, 775 F. Supp. 2d at 85
(surveying cases). One attractive method often used
in FSIA cases is to multiply defendants’ annual
expenditures on terrorist activities by a factor of
three to five. See, e.g., Valore, 700 F. Supp. 2d at 8890. Unfortunately, there is not enough evidence in
the record on defendants’ expenditures during the
relevant time period to adopt that approach here.
Other courts have simply awarded families of
terrorism victims $150 million in punitive damages.
See, e.g., Gates v. Syrian Arab Republic, 580 F. Supp.
2d 53, 75 (D.D.C. 2008), aff’d, 646 F.3d 1 (D.C. Cir.
2011). Using that approach here would result in a
colossal figure, given the number of families involved.
This case, when combined with the related cases
involving the same bombings where plaintiffs seek
punitive damages, 11 involves over 600 plaintiffs.
11 Plaintiffs in Owens, Mwila, and Khaliq, cases (involving the
same bombings) in which this Court previously awarded
damages, did not seek punitive damages. See, e.g., Khaliq v.

347a
Valore was a similar case, involving another terrorist
bombing sponsored by Iran: the bombing of the
United States Marine barracks in Beirut, Lebanon.
Two hundred and forty-one military servicemen were
murdered in that bombing. A similar number of
people, 224, died here, and hundreds more were
injured. In Valore, then-Chief Judge Lamberth used
the expenditures-times-multiplier method. All told,
Judge Lamberth awarded approximately $4 billion in
compensatory damages in cases involving the Beirut
bombing and about $5 billion in punitive damages.
Estate of Brown v. Islamic Republic of Iran, 872 F.
Supp. 2d 37, 45 n.1 (D.D.C. 2012) (tallying awards).
This case is quite similar in magnitude to Valore: all
told, including the judgments issued in Owens,
Mwila, and Khaliq, and the judgments to be issued in
conjunction with this opinion and in Amduso,
Onsongo, and Opati, the Court will have issued just
over $5 billion in compensatory damages. Given that
similarity, the inability of this Court to employ the
expenditure-times-multiplier method, and in light of
the “societal interests in punishment and deterrence
that warrant imposition of punitive sanctions” in
cases like this, the Court finds it appropriate to
award punitive damages in an amount equal to the
total compensatory damages awarded in this case.
Beer v. Islamic Republic of Iran, 789 F. Supp. 2d 14,
17 (D.D.C. 2011) (citing Flatow v. Islamic Republic of
Iran, 999 F. Supp. 2d 1 (D.D.C. 1998)). Doing so will
result in a punitive damage award consistent with
the punitive damage awards in analogous cases,
Republic of Sudan, No. 10-356, 2014 WL 1284973, at *3 (D.D. C.
Mar. 28, 2014).

348a
particularly those involving the Beirut bombing, and
will hopefully deter defendants from continuing to
sponsor terrorist activities. The Court will apportion
punitive damages among plaintiffs according to their
compensatory damages. See Valore, 700 F. Supp. 2d
at 90.
c. Prejudgment Interest
An award of prejudgment interest at the prime rate
is appropriate in this case. See Oldham v. Korean Air
Lines Co., 127 F.3d 43, 54 (D.C. Cir. 1997); Forman v.
Korean Air Lines Co., 84 F.3d 446, 450-51 (D.C. Cir.
1996). Prejudgment interest is appropriate on the
whole award, including pain and suffering and
solatium—although not including the punitive
damage award, as that is calculated here by reference
to the entire compensatory award—with one
exception. See Reed v. Islamic Republic of Iran, 845
F. Supp. 2d 204, 214-15 (D.D.C. 2012) (awarding
prejudgment interest on the full award). But see
Oveissi v. Islamic Republic of Iran, 768 F. Supp. 2d
16, 30 n.12 (D.D.C. 2011) (declining to award
prejudgment interest on solatium damages). Because
some of the economic loss figures recommended by
the special masters have already been adjusted to
reflect present discounted value, see District of
Columbia v. Barritaeu, 399 A.2d 563, 568-69 (D.C.
1979), the Court will not apply the prejudgment
interest multiplier to the economic loss amounts
except those calculated in 1998 dollars. See Doe, 943
F. Supp. 2d at 186 (citing Oldham, 127 F.3d at 54);
Report of Special Master Kenneth Adams Concerning
Maurice Okatch Ogolla, Ex. 5 [ECF No. 70] at 45-47
(explaining how to properly apply interest here
without double-counting). Awards for pain and

349a
suffering and solatium are calculated without
reference to the time elapsed since the attacks.
Because plaintiffs were unable to bring their claims
immediately after the attacks, they lost use of the
money to which they were entitled upon incurring
their injuries. Denying prejudgment interest on these
damages would allow defendants to profit from the
use of the money over the last fifteen years. Awarding
prejudgment interest, on the other hand, reimburses
plaintiffs for the time value of money, treating the
awards as if they were awarded promptly and
invested by plaintiffs.
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge
for short-term unsecured loans to
creditworthy customers—is the most appropriate
measure of prejudgment interest, one “more
appropriate” than more conservative measures such
as the Treasury Bill rate, which represents the return
on a risk-free loan. See Forman, 84 F.3d at 450.
Although the prime rate, applied over a period of
several years, can be measured in different ways, the
D.C. Circuit has approved an award of prejudgment
interest “at the prime rate for each year between the
accident and the entry of judgment.” See id. Using
the prime rate for each year is more precise than, for
example, using the average rate over the entire
period. See Doe, 943 F. Supp. 2d at 185 (noting that
this method is a “substantially more accurate
‘market-based estimate’” of the time value of money
(citing Forman, 84 F. 3d at 451)). Moreover,
calculating interest based on the prime rate for each

350a
year is a simple matter. 12 Using the prime rate for
each year results in a multiplier of 2.26185 for
damages incurred in 1998. 13 Accordingly, the Court
will use this multiplier to calculate the total award. 14
CONCLUSION
The 1998 embassy bombings shattered the lives of
all plaintiffs in this case. Reviewing their personal
stories reveals that, even more than fifteen years
later, they each still feel the horrific effects of that
awful day. Damages awards cannot fully compensate
people whose lives have been torn apart; instead,
they offer only a helping hand. But that is the very
least that these plaintiffs are owed. Hence, it is what
this Court will facilitate.

12 To calculate the multiplier, the Court multiplied $1.00 by
the prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields a multiplier of 2.26185.
13 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year
between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federal
reserve.gov/releases/h15/data.htm (last visited July 25, 2014).
As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous six years.
14 The product of the multiplier and the base damages amount
includes both the prejudgment interest and the base damages
amount; in other words, applying the multiplier calculates not
the prejudgment interest but the base damages amount plus the
prejudgment interest, or the total compensatory damages
award.

351a
A separate Order consistent with these findings has
issued on this date.

/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014

352a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]
Civil Action No. 08-1349 (JDB)

WINFRED WAIRIMU WAMAI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of [63-244] the special masters’
reports, and the entire record herein, it is hereby
ORDERED that [63-244] the special master reports
are adopted in part and modified in part as described
in the accompanying Memorandum Opinion issued on
this date; it is further
ORDERED that judgment is entered in favor of
plaintiffs and against defendants in the total amount
of $3,566,104,489.58; and it is further

353a
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014

354a

355a

356a

357a

358a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]

Civil Action No. 08-1380 (JDB)

MARY ONSONGO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
MEMORANDUM OPINION
Over fifteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es
Salaam,
Tanzania were
devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. This Court has
entered final judgment on liability under the Foreign
Sovereign Immunities Act (“FSIA”) in this civil action
and several related cases—brought by victims of the
bombings and their families—against the Republic of
Sudan, the Ministry of the Interior of the Republic of
Sudan, the Islamic Republic of Iran, the Iranian
Revolutionary Guards Corps, and the Iranian
Ministry of Information and Security (collectively

359a
“defendants”) for their roles in supporting, funding,
and otherwise carrying out these unconscionable acts.
The next step in the case is to assess and award
damages to each individual plaintiff, and in this task
the Court has been aided by several special masters.
The fourteen plaintiffs in this case are Kenyan
citizens injured and killed in the Nairobi bombings
and their immediate family members. 1 Service of
process was completed upon each defendant, but
defendants failed to respond, and a default was
entered against each defendant. The Court has held
that it has jurisdiction over defendants and that the
foreign-national plaintiffs who worked for the U.S.
government are entitled to compensation for personal
injury and wrongful death under 28 U.S.C. §
1605A(c)(3). See Owens v. Republic of Sudan, 826 F.
Supp. 2d 128, 148-51 (D.D.C. 2011). The Court has
also held that, although those plaintiffs who are
foreign-national family members of victims lack a
federal cause of action, they may nonetheless pursue
claims under the laws of the District of Columbia. Id.
at 153-57. A final judgment on liability was entered
in favor of plaintiffs. Nov. 28, 2011 Order [ECF No.
41] at 2. The deposition testimony and other evidence
presented established that the defendants were
responsible for supporting, funding, and otherwise

1 Two plaintiffs are listed in this case and in two other cases
pending before this Court: the Wamai case (No. 08-1349), and
the Opati case (No. 12-1224). Of course, plaintiffs are entitled
only to one award. Those plaintiffs will thus be awarded
damages in the Wamai case, and will not be awarded damages
in this case or in the Opati case. Similarly, one plaintiff is listed
in this case and in the Opati case. That plaintiff will be awarded
damages in this case but not in the Opati case.

360a
carrying out the bombings in Nairobi and Dar es
Salaam. See Owens, 826 F. Supp. 2d at 135-47.
The Court then referred plaintiffs’ claims to two
special masters 2 to prepare proposed findings and
recommendations for a determination of damages.
Feb. 27, 2012 Order Appointing Special Masters
[ECF No. 44] at 2. The special masters have now filed
completed reports on each plaintiff. See Special
Master Reports [ECF Nos. 83, 114, 134]. In
completing those reports and in finding facts, the
special masters relied on sworn testimony, expert
reports, medical records, and other evidence. The
reports extensively describe the key facts relevant to
each of the plaintiffs and carefully analyze their
claims under the framework established in mass tort
terrorism cases. The Court commends both of the
special masters for their excellent work and thorough
analysis.
The Court hereby adopts all facts found by the
special masters relating to all plaintiffs in this case,
including
findings
regarding
the
plaintiffs’
employment status or their familial relationship
necessary to support standing under section
1605A(a)(2)(A)(ii). See Owens, 826 F. Supp. 2d at 149.
The Court also adopts all damages recommendations
in the reports, with the few adjustments described
below. “Where recommendations deviate from the
Court’s damages framework, ‘those amounts shall be
altered so as to conform with the respective award
amounts set forth’ in the framework, unless
otherwise noted.” Valore v. Islamic Republic of Iran,
700 F. Supp. 2d 52, 82-83 (D.D.C. 2010) (quoting
2 Those special masters (together, “the special masters”) are
Brad Pigott and C. Jackson Williams.

361a
Peterson v. Islamic Republic of Iran, 515 F. Supp. 2d
25, 53 (D.D.C. 2007) (“Peterson II”), abrogation on
other grounds recognized in Mohammadi v. Islamic
Republic of Iran, 947 F. Supp. 2d 48, 65 (D.D.C.
2013)). As a result, the Court will award plaintiffs a
total judgment of over $199 million.
I.

CONCLUSIONS OF LAW

On November 28, 2011, the Court granted summary
judgment on liability against defendants in this case.
Nov. 28, 2011 Order [ECF No. 41] at 2. The foreign
national U.S.-government-employee victims have a
federal cause of action, while their foreign-national
family members have a cause of action under D.C.
law.
a. The Government-Employee Plaintiffs Are
Entitled T o D am ages O n T he ir Fe de ral L aw
Claims Under 28 U.S.C. § 1605A
“To obtain damages in a Foreign Sovereign
Immunities Act (FSIA) action, the plaintiff must
prove that the consequences of the defendants’
conduct were reasonably certain (i.e., more likely
than not) to occur, and must prove the amount of the
damages by a reasonable estimate consistent with
application of the American rule on damages.” Valore,
700 F. Supp. 2d at 83. Plaintiffs here have proven
that the consequences of defendants’ conduct were
reasonably certain to—and indeed intended to—cause
injury to plaintiffs. See Owens, 826 F. Supp. 2d at
135-46. As discussed by this Court previously,
because the FSIA-created cause of action “does not
spell out the elements of these claims that the Court
should apply,” the Court “is forced . . . to apply
general principles of tort law” to determine plaintiffs’

362a
general principles of tort law” to determine plaintiffs’
entitlement to damages on their federal claims. Id. at
157 n.3.
Survivors are entitled to recover for the pain and
suffering caused by the bombings: acts of terrorism
“by their very definition” amount to extreme and
outrageous conduct and are thus compensable by
analogy under the tort of “intentional infliction of
emotional distress.” Valore, 700 F. Supp. 2d at 77
(citing Restatement (Second) of Torts § 46(1) (1965));
see also Baker v. Socialist People’s Libyan Arab
Jamahriya, 775 F. Supp. 2d 48, 74 (D.D.C. 2011)
(permitting plaintiffs injured in state-sponsored
terrorist bombings to recover for personal injuries,
including pain and suffering, under tort of
“intentional infliction of emotional distress”); Estate
of Bland v. Islamic Republic of Iran, 831 F. Supp. 2d
150, 153 (D.D.C. 2011) (same). Hence, “those who
survived the attack may recover damages for their
pain and suffering, . . . [and for] economic losses
caused by their injuries. . . .” Oveissi v. Islamic
Republic of Iran, 879 F. Supp. 2d 44, 55 (D.D.C. 2012)
(“Oveissi II”) (citing Valore, 700 F. Supp. 2d at 82-83);
see 28 U.S.C. § 1605A(c). Accordingly, all plaintiffs
who were injured in the 1998 bombings can recover
for their pain and suffering as well as their economic
losses. Bland, 831 F. Supp. 2d at 153. In addition, the
estates of those who were killed in the attack are
entitled to recover compensatory damages for
wrongful death. See, e.g., Valore, 700 F. Supp. at 82
(permitting estates to recover economic damages
caused to deceased victims’ estates).

363a
b. Family Members Who Lack A Federal Cause O f
Action Are Entitled T o D am ages U nder D .C.
Law
This Court has previously held that it will apply
District of Columbia law to the claims of any
plaintiffs for whom jurisdiction is proper, but who
lack a federal cause of action under the FSIA. Owens,
826 F. Supp. 2d at 153-57. This category includes
only the foreign-national family members of the
injured victims from the 1998 bombings. Individuals
in this category seek to recover solatium damages
under D.C. law based on claims of intentional
infliction of emotional distress. To establish a prima
facie case of intentional infliction of emotional
distress under D.C. law, a plaintiff must show: (1)
extreme and outrageous conduct on the part of the
defendant which, (2) either intentionally or
recklessly, (3) causes the plaintiff severe emotional
distress. Larijani v. Georgetown Univ., 791 A.2d 41,
44 (D.C. 2002). Acts of terrorism “by their very
definition” amount to extreme and outrageous
conduct, Valore, 700 F. Supp. 2d at 77; the
defendants in this case acted intentionally and
recklessly; and their actions caused each plaintiff
severe emotional distress, see Owens, 826 F. Supp. 2d
at 136-45; Murphy v. Islamic Republic of Iran, 740 F.
Supp. 2d 51, 74-75 (D.D.C. 2010). Likewise, D.C. law
allows spouses and next of kin to recover solatium
damages. D.C. Code § 16-2701. Based on the evidence
submitted to the special masters, the Court concludes
that the foreign-national family members of the
victims of the 1998 bombings have each made out
claims for intentional infliction of emotional distress
and are entitled to solatium damages (with the few
exceptions detailed below).

364a
II.

DAMAGES

Having established that plaintiffs are entitled to
damages, the Court now turns to the question of the
amount of damages, which involves resolving
common questions related to plaintiffs with similar
injuries. The damages awarded to each plaintiff are
laid out in the tables in the separate Order and
Judgment issued on this date.
a. Compensatory Damages
1. Economic Damages
Under the FSIA, injured victims and the estates of
deceased victims may recover economic damages,
which typically include lost wages, benefits and
retirement pay, and other out-of-pocket expenses. 28
U.S.C.
§
1605A(c).
Special
Master Pigott
recommended that the one deceased plaintiff in this
case, Evans Onsongo be awarded economic damages.
To determine the economic losses resulting from his
death, Pigott relied on economic reports submitted by
the Center for Forensic Economic Studies (“CFES”),
which estimated lost earnings, fringe benefits,
retirement income, and the value of household
services lost as a result of the injuries sustained from
the bombing. In turn, CFES relied on information
from the survivors as well as other documentation,
including country-specific economic data and
employment records. See Report of Special Master
Brad Pigott Concerning Evans Onsongo [ECF No. 83]
at 4-6 (further explaining methodology employed in
creating the economic loss reports). The Court adopts
the findings and recommendations of the special
master as to economic losses to be awarded to the
estate of the deceased victim.

365a
2. Awards for pain and suffering due to injury
Courts determine pain-and-suffering awards for
survivors based on factors including “the severity of
the pain immediately following the injury, the length
of hospitalization, and the extent of the impairment
that will remain with the victim for the rest of his or
her life.” O’Brien v. Islamic Republic of Iran, 853 F.
Supp. 2d 44, 46 (D.D.C. 2012) (internal quotation
marks omitted). When calculating damages amounts,
“the Court must take pains to ensure that individuals
with similar injuries receive similar awards.”
Peterson II, 515 F. Supp. 2d at 54. Recognizing this
need for uniformity, courts in this district have
developed a general framework for assessing painand-suffering damages for victims of terrorist
attacks, awarding a baseline of $5 million to
individuals who suffer severe physical injuries, such
as compound fractures, serious flesh wounds, and
scars from shrapnel, as well as lasting and severe
psychological pain. See Valore, 700 F. Supp. 2d at 84.
Where physical and psychological pain is more
severe—such as where victims suffered relatively
more numerous and severe injuries, were rendered
quadriplegic, partially lost vision and hearing, or
were mistaken for dead—courts have departed
upward from this baseline to $7 million and above.
See O’Brien, 853 F. Supp. 2d at 47. Similarly,
downward departures to a range of $1.5 to $3 million
are warranted where the victim suffers severe
emotional injury accompanied by relatively minor
physical injuries. See Valore 700 F. Supp. 2d at 8485.
Damages for extreme pain and suffering are
warranted for those individuals who initially survive

366a
the attack but then succumb to their injuries. “When
the victim endured extreme pain and suffering for a
period of several hours or less, courts in these
[terrorism] cases have rather uniformly awarded $1
million.” Haim v. Islamic Republic of Iran, 425 F.
Supp. 2d 56, 71 (D.D.C. 2006); see Peterson II, 515 F.
Supp. 2d at 53-55. When the period of the victim’s
pain is longer, the award increases. Haim, 425 F.
Supp. 2d at 72. And when the period is particularly
brief, courts award less. For instance, where an
individual “survived a terrorist attack for 15 minutes,
and was in conscious pain for 10 minutes,” a court in
this district awarded $500,000. See Peterson II, 515
F. Supp. 2d at 53. To the estates of those who are
killed instantly, courts award no pain-and-suffering
damages. The Court adopts the special masters’
recommendation to award no pain-and-suffering
damages to the estate of the victim who was killed
instantly.
The need to maintain uniformity with awards to
plaintiffs in prior cases and between plaintiffs in this
case is particularly evident. A great number of
plaintiffs were injured in the bombings. Those
injuries, and evidence of those injuries, span a broad
range. In this case, the special masters recommend
awarding pain-and-suffering damages only to one
plaintiff, Irene Kung’u; Special Master Williams
recommends an award of $3,000,000. Because this is
consistent with the guidelines discussed in this
Court’s opinion in Wamai v. Republic of Sudan, No.
08-1349 (D.D.C. July 25, 2014), the Court adopts that
recommendation.

367a
3. Solatium
“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for pain and suffering,
and to those awarding damages for solatium.” Acosta
v. Islamic Republic of Iran, 574 F. Supp. 2d 15, 29
(D.D.C. 2008). Only immediate family members—
parents, siblings, spouses, and children—are entitled
to solatium awards. 3 See Valore, 700 F. Supp. 2d at
79. The commonly accepted framework for solatium
damages in this district is that used in Peterson II,
515 F. Supp. 2d at 52. See Valore, 700 F. Supp. 2d at
85; Belkin, 667 F. Supp. 2d at 23. According to
Peterson II, the appropriate amount of damages for
family members of deceased victims is as follows: $8
million to spouses of deceased victims, $5 million to
parents of deceased victims, and $2.5 million to
siblings of deceased victims. 515 F. Supp. 2d at 52.
The appropriate amount of damages for family
members of injured victims is as follows: $4 million to
spouses of injured victims, $2.5 million to parents of
injured victims, and $1.25 million to siblings of
injured victims. Id. Courts in this district have
differed somewhat on the proper amount awarded to
children of victims. Compare Peterson II, 515 F.
3 A few of the injured or deceased victims of the familymember plaintiffs in this case are plaintiffs not here but in a
related case before this Court. See 1st Amend. Compl., Wam ai,
No. 08-1349 (D.D.C. Sept. 5, 2008) [ECF No. 5] at 1-12. The
special masters found that each plaintiff in this case claiming
solatium damages is related to an injured or deceased victim
entitled to pain-and-suffering damages; whether the Court
found that victim to be entitled to damages in this case or in
Wamai is not important. The awards of those injured or
deceased victims thus support the family-member solatium
awards in this case.

368a
Supp. 2d at 51 ($2.5 million to child of injured
victim), with Davis v. Islamic Republic of Iran, 882 F.
Supp. 2d 7, 14 (D.D.C. 2012) ($1.5 million to child of
injured victim). The Court finds the Peterson II
approach to be more appropriate: to the extent such
suffering can be quantified, children who lose parents
are likely to suffer as much as parents who lose
children. Children of injured victims will thus be
awarded $2.5 million and, consistent with the
Peterson II approach of doubling solatium awards for
relatives of deceased victims, children of deceased
victims will be awarded $5 million.
Although these amounts are guidelines, not rules,
see Valore, 700 F. Supp. 2d at 86, the Court finds the
distinctions made by the Valore court to be
responsible and reasonable, and hence it will adopt
the same guidelines for determining solatium
damages here. In the interests of fairness and to
account for the difficulty in assessing the relative
severity of each family member’s suffering, in this
case and in related cases, the Court will not depart
from those guidelines here.
In one instance, a special master recommended that
the spouse of a deceased victim receive $10 million.
See Report of Special Master Brad Pigott Concerning
Evans Onsongo [ECF No. 83] at 7. Because the Court
adopts
the
Peterson
II
guidelines,
that
recommendation will be adjusted and that plaintiff
will be awarded $8 million. 515 F. Supp. 2d at 52.
Similarly, in one instance, a special master
recommended that a parent of a deceased victim
receive $3.5 million. See Report Concerning Evans
Onsongo [ECF No. 83] at 10-11. The Court will

369a
increase that award to $5 million. 515 F. Supp. 2d at
52.
The special masters also recommended against
awarding solatium damages to a deceased victim’s
child who was born after the bombings occurred.
While the Court acknowledges that the bombings’
terrible impact on the victims and their families
continues to this day, in similar cases courts have
found that children born following terrorist attacks
are not entitled to damages under the FSIA. See
Davis, 882 F. Supp. 2d 7, 15 (D.D.C. 2012); Wultz v.
Islamic Republic of Iran, 864 F. Supp. 2d 24, 36
(D.D.C. 2012). In holding that a plaintiff must have
been alive at the time of an attack to recover solatium
damages, the Davis court recognized the need to draw
lines in order to avoid creating “an expansive and
indefinite scope of liability” under the FSIA—for
example, liability to children born fifteen years after
an attack (a real possibility in this drawn-out
litigation). 882 F. Supp. 2d at 15. The Court agrees
with the special masters and with the Davis court’s
interpretation of the FSIA, and holds that a plaintiff
not alive at the time of the bombings cannot recover
solatium damages. Hence, the Court dismisses the
claim of Venice Onsongo (born one month after the
bombings). See Report Concerning Evans Onsongo
[ECF No. 83] at 9-10.
The Court finds that the special masters have
appropriately applied the solatium damages
framework to most of the plaintiffs in this case, and
will adopt their recommendations with the few
exceptions noted above.

370a
b. Punitive Damages
Plaintiffs request punitive damages under section
1605A(c). Punitive damages “serve to punish and
deter the actions for which they are awarded.” Valore,
700 F. Supp. 2d at 87. Courts calculate the proper
amount of punitive damages by considering four
factors: “(1) the character of the defendants’ act, (2)
the nature and extent of harm to the plaintiffs that
the defendants caused or intended to cause, (3) the
need for deterrence, and (4) the wealth of the
defendants.” Oveissi II, 879 F. Supp. 2d at 56
(quoting Acosta, 574 F. Supp. 2d at 30). In this case,
the first three factors weigh heavily in favor of an
award of punitive damages: the character of
defendants’ actions and the nature and extent of
harm to plaintiffs can accurately be described as
horrific. Scores were murdered, hundreds of families
were torn asunder, and thousands of lives were
irreparably damaged. The need for deterrence here is
tremendous. And although specific evidence in the
record on defendants’ wealth is scant, they are
foreign states with substantial wealth.
Previous courts in this district, confronted with
similar facts, have calculated punitive damages in
different ways. See, e.g., Baker, 775 F. Supp. 2d at 85
(surveying cases). One attractive method often used
in FSIA cases is to multiply defendants’ annual
expenditures on terrorist activities by a factor of
three to five. See, e.g., Valore, 700 F. Supp. 2d at 8890. Unfortunately, there is not enough evidence in
the record on defendants’ expenditures during the
relevant time period to adopt that approach here.
Other courts have simply awarded families of
terrorism victims $150 million in punitive damages.

371a
See, e.g., Gates v. Syrian Arab Republic, 580 F. Supp.
2d 53, 75 (D.D.C. 2008), aff’d, 646 F.3d 1 (D.C. Cir.
2011). Using that approach here would result in a
colossal figure, given the number of families involved.
This case, when combined with the related cases
involving the same bombings where plaintiffs seek
punitive damages, 4 involves over 600 plaintiffs.
Valore was a similar case, involving another terrorist
bombing sponsored by Iran: the bombing of the
United States Marine barracks in Beirut, Lebanon.
Two hundred and forty-one military servicemen were
murdered in that bombing. A similar number of
people, 224, died here, and hundreds more were
injured. In Valore, then-Chief Judge Lamberth used
the expenditures-times-multiplier method. All told,
Judge Lamberth awarded approximately $4 billion in
compensatory damages in cases involving the Beirut
bombing and about $5 billion in punitive damages.
Estate of Brown v. Islamic Republic of Iran, 872 F.
Supp. 2d 37, 45 n.1 (D.D.C. 2012) (tallying awards).
This case is quite similar in magnitude: all told,
including the judgments issued in Owens, Mwila, and
Khaliq, and the judgments to be issued in conjunction
with this opinion and in Wamai, Amduso, and Opati,
the Court will have issued just over $5 billion in
compensatory damages. Given that similarity, the
inability of this Court to employ the expendituretimes-multiplier method, and in light of the “societal
interests in punishment and deterrence that warrant
imposition of punitive sanctions” in cases like this,
4 Plaintiffs in Owens, Mwila, and Khaliq, cases (involving the
same bombings) in which this Court previously awarded
damages, did not seek punitive damages. See, e.g., Khaliq v.
Republic of Sudan, No. 10-356, 2014 WL 1284973, at *3 (D.D. C.
Mar. 28, 2014).

372a
the Court finds it appropriate to award punitive
damages in an amount equal to the total
compensatory damages awarded in this case. Beer v.
Islamic Republic of Iran, 789 F. Supp. 2d 14, 17
(D.D.C. 2011) (citing Flatow v. Islamic Republic of
Iran, 999 F. Supp. 2d 1 (D.D.C. 1998)). Doing so will
result in a punitive damage award consistent with
the punitive damage awards in analogous cases,
particularly those involving the Beirut bombing, and
will hopefully deter defendants from continuing to
sponsor terrorist activities. The Court will apportion
punitive damages among plaintiffs according to their
compensatory damages. See Valore, 700 F. Supp. 2d
at 90.
c. Prejudgment Interest
An award of prejudgment interest at the prime rate
is appropriate in this case. See Oldham v. Korean Air
Lines Co., 127 F.3d 43, 54 (D.C. Cir. 1997); Forman v.
Korean Air Lines Co., 84 F.3d 446, 450-51 (D.C. Cir.
1996). Prejudgment interest is appropriate on the
whole award, including pain and suffering and
solatium—although not including the punitive
damage award, as that is calculated here by reference
to the entire compensatory award—with one
exception. See Reed v. Islamic Republic of Iran, 845
F. Supp. 2d 204, 214-15 (D.D.C. 2012) (awarding
prejudgment interest on the full award). But see
Oveissi v. Islamic Republic of Iran, 768 F. Supp. 2d
16, 30 n.12 (D.D.C. 2011) (declining to award
prejudgment interest on solatium damages). Because
some of the economic loss figures recommended by
the special master have already been adjusted to
reflect present discounted value, see District of
Columbia v. Barritaeu, 399 A.2d 563, 568-69 (D.C.

373a
1979), the Court will not apply the prejudgment
interest multiplier to the economic loss amounts
except those calculated in 1998 dollars. See Doe, 943
F. Supp. 2d at 186 (citing Oldham, 127 F.3d at 54);
Report of Special Master Brad Pigott Concerning
Evans Onsongo [ECF No. 83] at 4-6 (explaining how
to
properly
apply
interest
here
without
doublecounting). Awards for pain and suffering and
solatium are calculated without reference to the time
elapsed since the attacks. Because plaintiffs were
unable to bring their claims immediately after the
attacks, they lost use of the money to which they
were entitled upon incurring their injuries. Denying
prejudgment interest on these damages would allow
defendants to profit from the use of the money over
the last fifteen years. Awarding prejudgment
interest, on the other hand, reimburses plaintiffs for
the time value of money, treating the awards as if
they were awarded promptly and invested by
plaintiffs.
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge
for short-term unsecured loans to
creditworthy customers—is the most appropriate
measure of prejudgment interest, one “more
appropriate” than more conservative measures such
as the Treasury Bill rate, which represents the return
on a risk-free loan. See Forman, 84 F.3d at 450.
Although the prime rate, applied over a period of
several years, can be measured in different ways, the
D.C. Circuit has approved an award of prejudgment
interest “at the prime rate for each year between the
accident and the entry of judgment.” See id. Using
the prime rate for each year is more precise than, for

374a
example, using the average rate over the entire
period. See Doe, 943 F. Supp. 2d at 185 (noting that
this method is a “substantially more accurate
‘market-based estimate’” of the time value of money
(citing Forman, 84 F. 3d at 451)). Moreover,
calculating interest based on the prime rate for each
year is a simple matter. 5 Using the prime rate for
each year results in a multiplier of 2.26185 for
damages incurred in 1998. 6 Accordingly, the Court
will use this multiplier to calculate the total award. 7
CONCLUSION
The 1998 embassy bombings shattered the lives of
all plaintiffs in this case. Reviewing their personal
stories reveals that, even more than fifteen years
later, they each still feel the horrific effects of that
awful day. Damages awards cannot fully compensate
5 To calculate the multiplier, the Court multiplied $1.00 by the
prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields a multiplier of 2.26185.
6 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year
between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federalreserve.gov/releases/h15/data.htm (last visited July 25, 2014).
As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous six years.
7 The product of the multiplier and the base damages am ount
includes both the prejudgment interest and the base damages
amount; in other words, applying the multiplier calculates not
the prejudgment interest but the base damages amount plus the
prejudgment interest, or the total compensatory damages
award.

375a
people whose lives have been torn apart; instead,
they offer only a helping hand. But that is the very
least that these plaintiffs are owed. Hence, it is what
this Court will facilitate.
A separate Order consistent with these findings has
issued on this date.
/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014

376a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]

Civil Action No. 08-1380 (JDB)

MARY ONSONGO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
ORDER
Upon consideration of [50-230] the special masters’
reports, and the entire record herein, it is hereby
ORDERED that [50-230] the special master reports
are adopted in part and modified in part as described
in the accompanying Memorandum Opinion issued on
this date; it is further
ORDERED that judgment is entered in favor of
plaintiffs and against defendants in the total amount
of $199,106,578.19; and it is further

377a
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014

378a

379a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]

Civil Action No. 12-1224 (JDB)

MONICAH OKOBA OPATI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

MEMORANDUM OPINION
Over fifteen years ago, on August 7, 1998, the
United States embassies in Nairobi, Kenya and Dar
es Salaam, Tanzania
were devastated by
simultaneous suicide bombings that killed hundreds
of people and injured over a thousand. Plaintiffs,
victims of the bombings and their families brought
this civil action and several related cases under the
Foreign Sovereign Immunities Act (“FSIA”) against
the Republic of Sudan, the Ministry of the Interior of
the Republic of Sudan, the Islamic Republic of Iran,
the Iranian Revolutionary Guards Corps, and the
Iranian Ministry of Information and Security
(collectively “defendants”) for their roles in

380a
supporting, funding, and otherwise carrying out these
unconscionable acts. Now before the Court is
plaintiffs’ motion for default judgment on liability
and damages.
The 284 plaintiffs in this case are Kenyan,
Tanzanian, and United States citizens injured and
killed in the bombings and their immediate1 family
members.2 This case is one of many before this Court
involving the 1998 embassy bombings; this case
happens to be the latest-filed of the group. Before it
was even filed, this Court held in the earlier-filed and
consolidated cases that it has jurisdiction over
defendants and that the foreign-national plaintiffs
who worked for the U.S. government are entitled to
compensation for personal injury and wrongful death
under 28 U.S.C. § 1605A(c)(3). See Owens v. Republic
of Sudan, 826 F. Supp. 2d 128, 148-51 (D.D.C. 2011).
The Court also held that, although those plaintiffs
who are foreign-national family members of victims
lack a federal cause of action, they may nonetheless
pursue claims under the laws of the District of
Columbia. Id. at 153-57. A final judgment on liability
was entered in favor of plaintiffs. Owens, No. 012244, Nov. 28, 2011 Order [ECF No. 214] at 2. The
Court found that the deposition testimony and other
1 A few plaintiffs are not immediate family members, but as
explained below, the Court will not award damages to those
plaintiffs.
2 A small number of plaintiffs are listed both in this case and
the Wamai case (No. 08-1349); this case and the Amduso case
(No. 08-1361); or this case and the Onsongo case (No. 08-1380).
Those cases are also pending before this Court. To prevent
double recoveries, those plaintiffs will be awarded damages—
where appropriate—in those cases, and will not be awarded
damages in this case.

381a
evidence presented established that the defendants
were responsible for supporting, funding, and
otherwise carrying out the bombings in Nairobi and
Dar es Salaam. See Owens, 826 F. Supp. 2d at 13547.
Plaintiffs then filed this action. In their complaint,
plaintiffs re-allege the same basic set of facts that
had been found by the Court in Owens, and they seek
damages under the same causes of action. See
generally 2d Am. Compl. [ECF No. 24]. Service of
process was completed upon each defendant, but
defendants failed to respond, and a default was
entered against each defendant. See Entries of
Default [ECF Nos. 41, 42]. Next, plaintiffs [43]
requested that this Court take judicial notice of its
findings in Owens, and moved for default judgment.
Before plaintiffs can be awarded any relief, this
Court must determine whether they have established
their claims “by evidence satisfactory to the court.” 28
U.S.C. § 1608(e); see also Roeder v. Islamic Republic
of Iran, 333 F.3d 228, 232 (D.C. Cir. 2003). This
“satisfactory to the court” standard is identical to the
standard for entry of default judgments against the
United States in Federal Rule of Civil Procedure
55(e). Hill v. Republic of Iraq, 328 F.3d 680, 684 (D.C.
Cir. 2003). In evaluating the plaintiffs’ proof, the
Court may “accept as true the plaintiffs’
uncontroverted evidence.” Elahi v. Islamic Republic
of Iran, 124 F. Supp. 2d 97, 100 (D.D.C. 2000);
Campuzano v. Islamic Republic of Iran, 281 F. Supp.
2d 258, 268 (D.D.C. 2003). And a court may “take
judicial notice of related proceedings and records in
cases before the same court.” Valore v. Islamic
Republic of Iran, 700 F. Supp. 2d 52, 59 (D.D.C. 2010)

382a
(quoting Brewer v. Islamic Republic of Iran, 664 F.
Supp. 2d 43, 50-51 (D.D.C. 2009)). Here, plaintiffs
rely solely on this final form of evidence in support of
their default judgment motion.
A three-day hearing on liability and damages was
held in Owens beginning on October 25, 2010. At that
hearing, the Court received evidence in the form of
live testimony, videotaped testimony, affidavits, and
original documentary and videographic evidence. The
Court applied the Federal Rules of Evidence. Based
on that record, the Court made extensive findings of
fact and conclusions of law. See Owens, 826 F. Supp.
2d at 135-157.
Under Federal Rule of Evidence 201(b), courts may
take judicial notice of facts “not subject to reasonable
dispute” that are “capable of accurate and ready
determination by resort to sources whose accuracy
cannot reasonably be questioned.” Fed. R. Evid.
201(b). And “[a] court may take judicial notice of, and
give effect to, its own records in another but
interrelated proceeding . . . .” Booth v. Fletcher, 101
F.2d 676, 679 n.2 (D.C. Cir. 1938); see also 29 Am.
Jur. 2d Evidence § 151 (2010). Courts in this district
have done so frequently in the FSIA context. See, e.g.,
Rimkus v. Islamic Republic of Iran, 750 F. Supp. 2d
163, 171 (D.D.C. 2010) (collecting cases). Taking
judicial notice of the facts, though, does not mean
automatically “accepting the truth of the earlier
court’s findings and conclusions.” Id. at 172. Instead,
courts in this district rely on the evidence presented
in the earlier litigation and make their own
independent findings of fact based on that evidence—
the judicial records “establishing the type and
substance of evidence that was presented to earlier
courts” is “‘not subject to reasonable dispute.’” Id.

383a
(citing Fed. R. Evid. 201(b)). Keeping all that in mind,
then, the Court takes judicial notice of the evidence
presented in Owens and, based on that evidence,
makes the following findings of fact.
I.

FINDINGS OF FACT
a. Defendants

The government of the Islamic Republic of Iran
(“Iran”) has a long history of providing material aid
and support to terrorist organizations including al
Qaeda, which has claimed responsibility for the
August 7, 1998 embassy bombings. Owens, 826 F.
Supp. 2d at 1283 The government of Iran aided,
abetted, and conspired with Hezbollah, Osama Bin
Laden, and al Qaeda to launch large-scale bombing
attacks against the United States via powerful
suicide truck bombs. Id. During the relevant time
period, the Iranian defendants, through Hezbollah,
provided explosives training to Bin Laden and al
Qaeda and rendered direct assistance to al Qaeda
operatives. Id.
Support from Iran and Hezbollah was critical to al
Qaeda’s execution of the 1998 embassy bombings. Id.
at 139. Before its meetings with Iranian officials and
agents, al Qaeda did not possess the technical
expertise required to carry out the embassy
bombings. Id. In the 1990s, al Qaeda received
training in Iran and Lebanon on how to destroy large
buildings with sophisticated and powerful explosives.
3 The Court takes judicial notice only of the evidence itself,
and makes its own findings of fact in this case based on that
evidence. But for ease of reference, these citations are to the
findings of fact in Owens, which themselves cite the evidence
upon which those findings of fact are based.

384a
Id. The government of Iran was aware of and
authorized this training and assistance. Id. Hence,
for these reasons, and based on the extensive
evidence presented in Owens, the Court finds that
the Iranian defendants provided material aid and
support to al Qaeda for the 1998 embassy bombings
and are liable for plaintiffs’ damages.
The Sudanese defendants (“Sudan”) gave material
aid and support to Bin Laden and al Qaeda in several
ways. Id. Sudan harbored and provided sanctuary
and support to terrorists and their operational and
logistical supply network. Id. Bin Laden and al Qaeda
received the protection of the Sudanese intelligence
and military from foreign intelligence services and
rival militants. Id. Sudanese government support for
Bin Laden and al Qaeda was also important to the
execution of the 1998 embassy bombings. Id.
Critically, Sudan provided safe haven in a country
near the two U.S. embassies. Id. Sudan provided Bin
Laden and al Qaeda hundreds of Sudanese passports.
Id. The Sudanese intelligence service allowed al
Qaeda to travel over the Sudan–Kenya border
without restriction, permitting the passage of
weapons and money to supply the Nairobi terrorist
cell. Id. And Sudan’s support of al Qaeda was official
Sudanese government policy. Id. Hence, the Court
finds that the Sudanese defendants provided material
aid and support to al Qaeda for the 1998 embassy
bombings and are liable for plaintiffs’ damages.
With the support of Sudan and Iran, al Qaeda killed
hundreds and attempted to kill thousands of
individuals on site in the 1998 U.S. embassy attacks
in Nairobi, Kenya and Dar es Salaam, Tanzania. Id.
at 146. The evidence presented in Owens, and relied

385a
on here, overwhelmingly supports the conclusion that
al Qaeda carried out the two bombing attacks, and
Bin Laden himself claimed responsibility for them
during an al Qaeda documentary history released by
the al Qaeda media wing. Id.
b. Plaintiffs
The Court referred plaintiffs’ claims to several
special masters4 to prepare proposed findings and
recommendations for a determination of damages.
See Wamai, No. 08-1349, Feb. 27, 2012 Order
Appointing Special Masters [ECF No. 53] at 2. The
special masters have now filed completed reports on
each plaintiff; those reports were filed in the Wamai,
Amduso, and Onsongo cases, but the Court
incorporates them by reference here. See, e.g.,
Wamai, No. 08-1349, Special Master Reports [ECF
Nos. 63-241]. Each reference in this opinion to a
special master report cites the corresponding ECF
number in the Wamai case. In completing those
reports and in finding facts, the special masters
relied on sworn testimony, expert reports, medical
records, and other evidence. The reports extensively
describe the key facts relevant to each of the
plaintiffs and carefully analyze their claims under
the framework established in mass tort terrorism
cases. The Court commends each of the special
masters for their excellent work and thorough
analysis.

4 Those special masters (collectively, “the special masters”) are
Kenneth L. Adams, John D. Aldock, Oliver Diaz, Jr., Deborah E.
Greenspan, Brad Pigott, Stephen A. Saltzburg, and C. Jackson
Williams.

386a
The Court hereby adopts all facts found by the
special masters relating to all plaintiffs in this case,
including
findings
regarding
the
plaintiffs’
employment status or their familial relationships
necessary to support standing under section
1605A(a)(2)(A)(ii). See Owens, 826 F. Supp. 2d at 149.
The Court also adopts all damages recommendations
in the reports, with the few adjustments described
below. “Where recommendations deviate from the
Court’s damages framework, ‘those amounts shall be
altered so as to conform with the respective award
amounts set forth’ in the framework, unless
otherwise noted.” Valore, 700 F. Supp. 2d at 82-83
(quoting Peterson v. Islamic Republic of Iran, 515 F.
Supp. 2d 25, 53 (D.D.C. 2007) (“Peterson II”),
abrogation on other grounds recognized in
Mohammadi v. Islamic Republic of Iran, 947 F. Supp.
2d 48, 65 (D.D.C. 2013)).
II.

CONCLUSIONS OF LAW

The Court holds that it has jurisdiction over
defendants and that the foreign-national plaintiffs
who worked for the U.S. government are entitled to
compensation for personal injury and wrongful death
under 28 U.S.C. § 1605A(c)(3), for the reasons
discussed at length in Owens, 826 F. Supp. 2d 128,
148-51. The Court also holds that, although those
plaintiffs who are foreign-national family members of
victims lack a federal cause of action, they may
nonetheless pursue claims under the laws of the
District of Columbia. See id. at 153-57. The Court
thus will grant summary judgment on liability
against defendants in this case. The U.S. citizens and
foreign-national U.S.-government-employee victims
have a federal cause of action, while their foreign-

387a
national family members have a cause of action
under D.C. law.
a. The U.S. Citizens And U.S. GovernmentEmployee Plaintiffs Are Entitled To Damages
On Their Federal Law Claims Under 28 U.S.C.
§ 1605A
“To obtain damages in a Foreign Sovereign
Immunities Act (FSIA) action, the plaintiff must
prove that the consequences of the defendants’
conduct were reasonably certain (i.e., more likely
than not) to occur, and must prove the amount of the
damages by a reasonable estimate consistent with
application of the American rule on damages.” Valore,
700 F. Supp. 2d at 83. Plaintiffs here have proven
that the consequences of defendants’ conduct were
reasonably certain to—and indeed intended to—cause
injury to plaintiffs. See Owens, 826 F. Supp. 2d at
135-46. As discussed in Owens, because the FSIAcreated cause of action “does not spell out the
elements of these claims that the Court should
apply,” the Court “is forced . . . to apply general
principles of tort law” to determine plaintiffs’
entitlement to damages on their federal claims. Id. at
157 n.3.
Survivors are entitled to recover for the pain and
suffering caused by the bombings: acts of terrorism
“by their very definition” amount to extreme and
outrageous conduct and are thus compensable by
analogy under the tort of “intentional infliction of
emotional distress.” Valore, 700 F. Supp. 2d at 77
(citing Restatement (Second) of Torts § 46(1) (1965));
see also Baker v. Socialist People’s Libyan Arab

388a
Jamahriya, 775 F. Supp. 2d 48, 74 (D.D.C. 2011)
(permitting plaintiffs injured in state-sponsored
terrorist bombings to recover for personal injuries,
including pain and suffering, under tort of
“intentional infliction of emotional distress”); Estate
of Bland v. Islamic Republic of Iran, 831 F. Supp. 2d
150, 153 (D.D.C. 2011) (same). Hence, “those who
survived the attack may recover damages for their
pain and suffering, . . . [and for] economic losses
caused by their injuries. . . .” Oveissi v. Islamic
Republic of Iran, 879 F. Supp. 2d 44, 55 (D.D.C. 2012)
(“Oveissi II”) (citing Valore, 700 F. Supp. 2d at 82-83);
see 28 U.S.C. § 1605A(c). Accordingly, all plaintiffs
who were injured in the 1998 bombings can recover
for their pain and suffering as well as their economic
losses, and their immediate family members—if U.S.
nationals—can recover for solatium. Bland, 831 F.
Supp. 2d at 153. In addition, the estates of those who
were killed in the attack are entitled to recover
compensatory damages for wrongful death. See, e.g.,
Valore, 700 F. Supp. at 82 (permitting estates to
recover economic damages caused to deceased
victims’ estates).
b. Family Members Who Lack A Federal Cause Of
Action Are Entitled To Damages Under D.C.
Law
This Court will apply District of Columbia law to
the claims of any plaintiffs for whom jurisdiction is
proper, but who lack a federal cause of action under
the FSIA. This category includes only the foreignnational family members of the injured victims from
the 1998 bombings. Individuals in this category seek
to recover solatium damages under D.C. law based on
claims of intentional infliction of emotional distress.

389a
To establish a prima facie case of intentional
infliction of emotional distress under D.C. law, a
plaintiff must show: (1) extreme and outrageous
conduct on the part of the defendant which, (2) either
intentionally or recklessly, (3) causes the plaintiff
severe emotional distress. Larijani v. Georgetown
Univ., 791 A.2d 41, 44 (D.C. 2002). Acts of terrorism
“by their very definition” amount to extreme and
outrageous conduct, Valore, 700 F. Supp. 2d at 77;
the defendants in this case acted intentionally and
recklessly; and their actions caused each plaintiff
severe emotional distress, see Owens, 826 F. Supp. 2d
at 136-45; Murphy v. Islamic Republic of Iran, 740 F.
Supp. 2d 51, 74-75 (D.D.C. 2010). Likewise, D.C. law
allows spouses and next of kin to recover solatium
damages. D.C. Code § 16-2701. Based on the evidence
submitted to the special masters, the Court concludes
that the foreign-national family members of the
victims of the 1998 bombings have each made out
claims for intentional infliction of emotional distress
and are entitled to solatium damages (with the few
exceptions detailed below). As a result, the Court will
award plaintiffs a total judgment of over $3.1 billion.
III. DAMAGES
Having established that plaintiffs are entitled to
damages, the Court now turns to the question of the
amount of damages, which involves resolving
common questions related to plaintiffs with similar
injuries. The damages awarded to each plaintiff are
laid out in the tables in the separate Order and
Judgment issued on this date.

390a
a. Compensatory Damages
1. Economic damages
Under the FSIA, injured victims and the estates of
deceased victims may recover economic damages,
which typically include lost wages, benefits and
retirement pay, and other out-of-pocket expenses. 28
U.S.C. § 1605A(c). The special masters recommended
that the estates of four deceased plaintiffs be
awarded economic damages. To determine those
plaintiffs’ economic losses resulting from the
bombings, the special masters relied on economic
reports submitted by the Center for Forensic
Economic Studies (“CFES”), which estimated lost
earnings, fringe benefits, retirement income, and the
value of household services lost as a result of the
injuries sustained from the bombing. In turn, CFES
relied on information from the survivors as well as
other documentation, including country-specific
economic data and employment records. See, e.g.,
Report of Special Master Jackson Williams
Concerning Hesbon Bulimu [ECF No. 235] at 10-17
(further explaining methodology employed in creating
the economic loss reports). The Court adopts the
findings and recommendations of the special masters
as to economic losses to be awarded to the estates of
deceased victims.
2. Awards for pain and suffering due to injury
Courts determine pain-and-suffering awards for
survivors based on factors including “the severity of
the pain immediately following the injury, the length
of hospitalization, and the extent of the impairment
that will remain with the victim for the rest of his or
her life.” See O’Brien v. Islamic Republic of Iran, 853

391a
F. Supp. 2d 44, 46 (D.D.C. 2012) (internal quotation
marks omitted). When calculating damages amounts,
“the Court must take pains to ensure that individuals
with similar injuries receive similar awards.”
Peterson II, 515 F. Supp. 2d at 54. Recognizing this
need for uniformity, courts in this district have
developed a general framework for assessing painand-suffering damages for victims of terrorist
attacks, awarding a baseline of $5 million to
individuals who suffer severe physical injuries, such
as compound fractures, serious flesh wounds, and
scars from shrapnel, as well as lasting and severe
psychological pain. See Valore, 700 F. Supp. 2d at 84.
Where physical and psychological pain is more
severe—such as where victims suffered relatively
more numerous and severe injuries, were rendered
quadriplegic, partially lost vision and hearing, or
were mistaken for dead—courts have departed
upward from this baseline to $7 million and above.
See O’Brien, 853 F. Supp. 2d at 47. Similarly,
downward departures to a range of $1.5 to $3 million
are warranted where the victim suffers severe
emotional injury accompanied by relatively minor
physical injuries. See Valore, 700 F. Supp. 2d at 8485. Damages for extreme pain and suffering are
warranted for those individuals who initially survive
the attack but then succumb to their injuries, but to
the estates of those who are killed instantly, courts
award no pain-and-suffering damages. See Haim v.
Islamic Republic of Iran, 425 F. Supp. 2d 56, 71
(D.D.C. 2006); see also Peterson II, 515 F. Supp. 2d at
53-55.
The need to maintain uniformity with awards to
plaintiffs in prior cases and between plaintiffs in this
case is particularly evident. A great number of

392a
plaintiffs were injured in the bombings. Those
injuries, and evidence of those injuries, span a broad
range. Although the special masters ostensibly
applied the same guidelines, their interpretations of
those guidelines understandably brought about
recommendations of different awards even for
plaintiffs who suffered very similar injuries—
particularly those plaintiffs who did not suffer severe
physical injuries. For those plaintiffs, the Valore
court explained that downward departures to a range
of $1.5 million to $3 million are appropriate, and the
Court will apply that guideline as described at length
in this Court’s opinion in Wamai v. Republic of
Sudan, No. 08-1349 (D.D.C. July 25, 2014). Those
who suffered from injuries similar to plaintiffs who
are generally awarded the “baseline” award of $5
million (involving some mix of serious hearing or
vision impairment, many broken bones, severe
shrapnel wounds or burns, lengthy hospital stays,
serious spinal or head trauma, and permanent
injuries) will be awarded that baseline. See Valore,
700 F. Supp. 2d at 84.
And for two plaintiffs, who suffered even more
grievous wounds, upward departures to $7.5 million
are in order.
Jael Oyoo was injured in the blast at the United
States Embassy in Nairobi. See Report of Special
Master Stephen Saltzburg Concerning Jael Oyoo
[ECF No. 97] at 2-3. When she was pulled out of the
rubble by rescuers, the burns to her face and head
were so severe that rescuers thought she was dead.
Id. at 3. She suffered total vision loss in her left eye
and severely impaired vision in her right eye. Id. She
continues to suffer from shrapnel embedded in her

393a
skin and eyes. Id. She has never regained the full use
of her right hand. Id. And she spent two years
recovering in hospitals. Id.
William Maina was working off-site during the
blast at the United States Embassy in Nairobi, but
after hearing of the attack, he rushed to the site of
the bombing to help with recovery efforts. Report of
Special Master Jackson Williams Concerning William
Maina [ECF No. 233] at 3. While digging through the
rubble, he suffered cuts and scratches, and was
exposed to victims’ blood. Id. Afterwards, he was
diagnosed with HIV, which is a bloodborne pathogen
and an occupational risk for first responders. Id.; see
Ctrs. for Disease Control & Prev., First Responders:
Encourage Your Workers to Report Bloodborne
Pathogen Exposures (July 2008).5 In 1998,
approximately 12% of adults between the ages of 15
and 49 in urban Kenya were HIV-positive. Nat’l Aids
Control Council, United Nations General Assembly
Special Session on HIV/AIDS: Country Report –
Kenya, at 5 Fig.1, (Jan. 2006).6 It seems reasonable to
infer that a foreseeable risk of bombing an embassy is
that first responders might contract bloodborne
diseases, such as HIV, during recovery efforts,
particularly in a country like Kenya with relatively
high incidence rates. The victim here also provided
evidence suggesting that he did not contract the
disease elsewhere. Maina testified that he did not
have HIV before the bombing, that he does not use
intravenous drugs, that he has not engaged in
5 Available at http://www.cdc.gov/niosh/docs/2008118/default.html.
6 Available at http://data.unaids.org/pub/Report/2006/
2006_country_progress_report _kenya_en.pdf

394a
unprotected sexual intercourse, that he has not had
contact with prostitutes, and that he has never had a
blood transfusion. Report of Special Master Jackson
Williams Concerning William Maina at 6.
Considering the circumstances and the evidence
presented, Maina has shown “some reasonable
connection between the act or omission of the
defendant and the damages which [he] has suffered.”
Valore, 700 F. Supp. 2d at 66 (citation omitted).
Although he otherwise suffered only minor physical
injuries during the recovery efforts, HIV is a chronic,
serious, and stigmatizing disease requiring a lifetime
of treatment. Oyoo’s and Maina’s injuries are
comparable to those plaintiffs awarded $7–$8 million
in Peterson II, and the Court will award them $7.5
million for pain and suffering. See 515 F. Supp. 2d at
55-57.
The Court adopts the recommendations by special
masters of awards consistent with these adjusted
guidelines, and will adjust inconsistent awards
accordingly.
3. Solatium
“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for pain and suffering,
and to those awarding damages for solatium.” Acosta
v. Islamic Republic of Iran, 574 F. Supp. 2d 15, 29
(D.D.C. 2008). Only immediate family members—
parents, siblings, spouses,7 and children—are entitled
7
The Court adopts Special Master Brad Pigott’s
recommendation that the common-law wife of Zephania Mboge
Salima Rajabu, be awarded solatium damages, for the reasons
discussed in the special master report, although the Court will
adjust that award to be consistent with the guidelines discussed

395a
to solatium awards. See Valore, 700 F. Supp. 2d at
79. The commonly accepted framework for solatium
damages in this district is that used in Peterson II,
515 F. Supp. 2d at 52. See Valore, 700 F. Supp. 2d at
85; Belkin, 667 F. Supp. 2d at 23. According to
Peterson II, the appropriate amount of damages for
family members of deceased victims is as follows: $8
million to spouses of deceased victims, $5 million to
parents of deceased victims, and $2.5 million to
siblings of deceased victims. 515 F. Supp. 2d at 52.
The appropriate amount of damages for family
members of injured victims is as follows: $4 million to
spouses of injured victims, $2.5 million to parents of
injured victims, and $1.25 million to siblings of
injured victims. Id. Courts in this district have
differed somewhat on the proper amount awarded to
children of victims. Compare Peterson II, 515 F.
Supp. 2d at 51 ($2.5 million to child of injured
victim), with Davis v. Islamic Republic of Iran, 882 F.
Supp. 2d 7, 14 (D.D.C. 2012) ($1.5 million to child of
injured victim). The Court finds the Peterson II
approach to be more appropriate: to the extent such
suffering can be quantified, children who lose parents
are likely to suffer as much as parents who lose
children. Children of injured victims will thus be
awarded $2.5 million and, consistent with the
Peterson II approach of doubling solatium awards for
relatives of deceased victims, children of deceased
victims will be awarded $5 million.
Although these amounts are guidelines, not rules,
see Valore, 700 F. Supp. 2d at 86, the Court finds the
distinctions made by the Valore court to be
in this opinion. See Report of Special Master Brad Pigott
Concerning Zephania Mboge [ECF No. 161] at 5-6.

396a
responsible and reasonable, and hence it will adopt
the same guidelines for determining solatium
damages here. In the interests of fairness and to
account for the difficulty in assessing the relative
severity of each family member’s suffering, in this
case and in related cases, the Court will depart from
those guidelines only for a few plaintiffs for whom the
special master’s report is particularly convincing.
In some instances, special masters recommended
that spouses of deceased victims receive $10 million.
See, e.g., Report Concerning Hesbon Bulimu at 3.
Because the Court adopts the Peterson II guidelines,
each of these recommendations will be adjusted and
those plaintiffs will be awarded $8 million. See 515 F.
Supp. 2d at 52. Similarly, in some instances, special
masters recommended that spouses and children of
injured victims receive $5 million and $3 million,
respectively. See, e.g., Report of Special Master
Kenneth Adams Concerning Livingstone Busera
Madahana [ECF No. 175] at 5-8. The Court will
decrease those awards to $4 million and $2.5 million,
respectively. See 515 F. Supp. 2d at 52.
The special masters also recommended against
awarding solatium damages to some injured victims’
children who were born after the bombings occurred.
While the Court acknowledges that the bombings’
terrible impact on the victims and their families
continues to this day, in similar cases courts have
found that children born following terrorist attacks
are not entitled to damages under the FSIA. See
Davis, 882 F. Supp. 2d at 15; Wultz v. Islamic
Republic of Iran, 864 F. Supp. 2d 24, 36 (D.D.C.
2012). In holding that a plaintiff must have been
alive at the time of an attack to recover solatium

397a
damages, the Davis court recognized the need to draw
lines in order to avoid creating “an expansive and
indefinite scope of liability” under the FSIA—for
example, liability to children born fifteen years after
an attack (a real possibility in this drawn-out
litigation). 882 F. Supp. 2d at 15. The Court agrees
with the special masters and with the Davis court’s
interpretation of the FSIA, and holds that those
plaintiffs not alive at the time of the bombings cannot
recover solatium damages. Hence, the Court adopts
the special masters’ recommendations and dismisses
the claims of Jackline Wambui, James Gwaro, Onael
David Mdobilu, Joshua Daniel Mdobilu, and Mercy
Bulimu because they were all born after the
bombings. See Report of Special Master John Aldock
Concerning Simon Ngure [ECF No. 120] at 7-8;
Report of Special Master John Aldock Concerning
Julius Ogoro [ECF No. 134] at 8; Report of Special
Master Jackson Williams Concerning Justina
Mdobilu [ECF No. 221] at 10-11; Report Concerning
Hesbon Bulimu at 8.
For a few plaintiffs in this case, the special masters
recommended that no solatium damages be awarded
because the record does not contain sufficient
evidence to support their claims. See Peterson II, 515
F. Supp. 2d at 46. The Court adopts each of those
recommendations, and also finds that in some
instances the special masters recommended awarding
solatium damages to plaintiffs despite insufficient
evidence or evidence directly disclaiming any
emotional harm. So in addition to the plaintiffs for
whom the special masters recommend no solatium
awards, Asha Abdullah, Said Katimba, Valentina
Hiza,
Christopher
Hiza,
Christianson Hiza,
Christemary Hiza, Sally Omondi, and Miriam

398a
Muthoni will not be awarded damages. See Report of
Special Master Stephen Saltzburg Concerning
Katimba Mohamed Selemani [ECF No. 100] at 4
(finding that “[t]here is little in the evidence before
me about” Asha Abdullah and noting “absence of
specific evidence”); Report of Special Master Jackson
Williams Concerning Victor Mpoto [ECF No. 136] at 6
(noting that Denis Mpoto was very young at the time
of the bombings and that he “did not feel personally
impacted by his father’s injuries”); Report of Special
Master Brad Pigott Concerning Christant Hiza [ECF
No. 157] at 6-9 (Valentina Hiza “denied . . . that she
has herself suffered long-term emotional damage
from the bombing”; Christopher Hiza, Christianson
Hiza, and Christemary Hiza each denying that they
suffered continuing emotional damages from the
bombing).
The Court finds that the special masters have
appropriately applied the solatium damages
framework to most of the plaintiffs in this case, and
will adopt their recommendations with a few
exceptions. Other courts in this district have held
that it is inappropriate for the solatium awards of
family members to exceed the pain-and-suffering
awards of surviving victims. See Davis, 882 F. Supp.
2d at 15; O’Brien, 853 F. Supp. 2d at 47; Bland, 831
F. Supp. 2d at 157. The Court will follow that
approach here.8 The special masters recommended
8 Some special masters recommended proportionally reducing
solatium awards to reflect downward departures from the
“standard” $5 million pain-and-suffering amount. See, e.g.,
Report of Special Master Jackson Williams Concerning Justina
Mdobilu [ECF No. 221] at 8-11. For consistency, and because
other courts in this district usually reduce solatium awards only
to match injured victims’ pain-and-suffering awards, the Court

399a
solatium awards exceeding the pain-and-suffering
awards to the related victim in several cases, albeit
sometimes inadvertently, because of this Court’s
adjustment of pain-and-suffering awards. Hence, the
Court will reduce those solatium awards to match
corresponding pain-and-suffering awards where
appropriate.
b. Punitive Damages
Plaintiffs request punitive damages under section
1605A(c). Punitive damages “serve to punish and
deter the actions for which they are awarded.” Valore,
700 F. Supp. 2d at 87. Courts calculate the proper
amount of punitive damages by considering four
factors: “(1) the character of the defendants’ act, (2)
the nature and extent of harm to the plaintiffs that
the defendants caused or intended to cause, (3) the
need for deterrence, and (4) the wealth of the
defendants.” Oveissi II, 879 F. Supp. 2d at 56
(quoting Acosta, 574 F. Supp. 2d at 30). In this case,
the first three factors weigh heavily in favor of an
award of punitive damages: the character of
defendants’ actions and the nature and extent of
harm to plaintiffs can accurately be described as
horrific. Scores were murdered, hundreds of families
were torn asunder, and thousands of lives were
irreparably damaged. The need for deterrence here is
tremendous. And although specific evidence in the
record on defendants’ wealth is scant, they are
foreign states with substantial wealth.

will not proportionally reduce solatium awards. Instead, the
Court will reduce solatium awards to match pain-and-suffering
awards.

400a
Previous courts in this district, confronted with
similar facts, have calculated punitive damages in
different ways. See, e.g., Baker, 775 F. Supp. 2d at 85
(surveying cases). One attractive method often used
in FSIA cases is to multiply defendants’ annual
expenditures on terrorist activities by a factor of
three to five. See, e.g., Valore, 700 F. Supp. 2d at 8890. Unfortunately, there is not enough evidence in
the record on defendants’ expenditures during the
relevant time period to adopt that approach here.
Other courts have simply awarded families of
terrorism victims $150 million in punitive damages.
See, e.g., Gates v. Syrian Arab Republic, 580 F. Supp.
2d 53, 75 (D.D.C. 2008), aff’d, 646 F.3d 1 (D.C. Cir.
2011). Using that approach here would result in a
colossal figure, given the number of families involved.
This case, when combined with the related cases
involving the same bombings where plaintiffs seek
punitive damages,9 involves over 600 plaintiffs.
Valore was a similar case, involving another terrorist
bombing sponsored by Iran: the bombing of the
United States Marine barracks in Beirut, Lebanon.
Two hundred and forty-one military servicemen were
murdered in that bombing. A similar number of
people, 224, died here, and hundreds more were
injured. In Valore, then-Chief Judge Lamberth used
the expenditures-times-multiplier method. All told,
Judge Lamberth awarded approximately $4 billion in
compensatory damages in cases involving the Beirut
bombing and about $5 billion in punitive damages.
9 Plaintiffs in Owens, Mwila, and Khaliq, cases (involving the
same bombings) in which this Court previously awarded
damages, did not seek punitive damages. See, e.g., Khaliq v.
Republic of Sudan, No. 10-356, 2014 WL 1284973, at *3 (D.D.C.
Mar. 28, 2014).

401a
Estate of Brown v. Islamic Republic of Iran, 872 F.
Supp. 2d 37, 45 n.1 (D.D.C. 2012) (tallying awards).
This case is quite similar in magnitude: all told,
including the judgments issued in Owens, Mwila, and
Khaliq, and the judgments to be issued in conjunction
with this opinion and in Wamai, Amduso, and
Onsongo, the Court will have issued just over $5
billion in compensatory damages. Given that
similarity, the inability of this Court to employ the
expenditure-times-multiplier method, and in light of
the “societal interests in punishment and deterrence
that warrant imposition of punitive sanctions” in
cases like this, the Court finds it appropriate to
award punitive damages in an amount equal to the
total compensatory damages awarded in this case.
Beer v. Islamic Republic of Iran, 789 F. Supp. 2d 14,
17 (D.D.C. 2011) (citing Flatow v. Islamic Republic of
Iran, 999 F. Supp. 2d 1 (D.D.C. 1998)). Doing so will
result in a punitive damage award consistent with
the punitive damage awards in analogous cases,
particularly those involving the Beirut bombing, and
will hopefully deter defendants from continuing to
sponsor terrorist activities. The Court will apportion
punitive damages among plaintiffs according to their
compensatory damages. See Valore, 700 F. Supp. 2d
at 90.
c. Prejudgment Interest
An award of prejudgment interest at the prime rate
is appropriate in this case. See Oldham v. Korean Air
Lines Co., 127 F.3d 43, 54 (D.C. Cir. 1997); Forman v.
Korean Air Lines Co., 84 F.3d 446, 450-51 (D.C. Cir.
1996). Prejudgment interest is appropriate on the
whole award, including pain and suffering and
solatium—although not including the punitive

402a
damage award, as that is calculated here by reference
to the entire compensatory award—with one
exception. See Reed v. Islamic Republic of Iran, 845
F. Supp. 2d 204, 214-15 (D.D.C. 2012) (awarding
prejudgment interest on the full award). But see
Oveissi v. Islamic Republic of Iran, 768 F. Supp. 2d
16, 30 n.12 (D.D.C. 2011) (declining to award
prejudgment interest on solatium damages). Because
some of the economic loss figures recommended by
the special masters have already been adjusted to
reflect present discounted value, see District of
Columbia v. Barritaeu, 399 A.2d 563, 568-69 (D.C.
1979), the Court will not apply the prejudgment
interest multiplier to the economic loss amounts
except those calculated in 1998 dollars. See Doe, 943
F. Supp. 2d at 186 (citing Oldham, 127 F.3d at 54);
Report Concerning Hesbon Bulimu at 11-18
(explaining how to properly apply interest here
without double-counting). Awards for pain and
suffering and solatium are calculated without
reference to the time elapsed since the attacks.
Because plaintiffs were unable to bring their claims
immediately after the attacks, they lost use of the
money to which they were entitled upon incurring
their injuries. Denying prejudgment interest on these
damages would allow defendants to profit from the
use of the money over the last fifteen years. Awarding
prejudgment interest, on the other hand, reimburses
plaintiffs for the time value of money, treating the
awards as if they were awarded promptly and
invested by plaintiffs.
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge
for
short-term
unsecured
loans
to

403a
creditworthy customers—is the most appropriate
measure of prejudgment interest, one “more
appropriate” than more conservative measures such
as the Treasury Bill rate, which represents the return
on a risk-free loan. See Forman, 84 F.3d at 450.
Although the prime rate, applied over a period of
several years, can be measured in different ways, the
D.C. Circuit has approved an award of prejudgment
interest “at the prime rate for each year between the
accident and the entry of judgment.” See id. Using
the prime rate for each year is more precise than, for
example, using the average rate over the entire
period. See Doe, 943 F. Supp. 2d at 185 (noting that
this method is a “substantially more accurate
‘market-based estimate’” of the time value of money
(citing Forman, 84 F. 3d at 451)). Moreover,
calculating interest based on the prime rate for each
year is a simple matter.10 Using the prime rate for
each year results in a multiplier of 2.26185 for

10 To calculate the multiplier, the Court multiplied $1.00 by
the prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields a multiplier of 2.26185.

404a
damages incurred in 1998.11 Accordingly, the Court
will use this multiplier to calculate the total award.12
CONCLUSION
The 1998 embassy bombings shattered the lives of
all plaintiffs in this case. Reviewing their personal
stories reveals that, even more than fifteen years
later, they each still feel the horrific effects of that
awful day. Damages awards cannot fully compensate
people whose lives have been torn apart; instead,
they offer only a helping hand. But that is the very
least that these plaintiffs are owed. Hence, it is what
this Court will facilitate.
A separate Order consistent with these findings has
issued on this date.
/s/
JOHN D. BATES
United States District Judge

Dated: July 25, 2014
11 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year
between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federal
reserve.gov/releases/h15/data.htm (last visited July 25, 2014).
As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous six years.
12 The product of the multiplier and the base damages amount
includes both the prejudgment interest and the base damages
amount; in other words, applying the multiplier calculates not
the prejudgment interest but the base damages amount plus the
prejudgment interest, or the total compensatory damages
award.

405a
APPENDIX G
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 07/25/2014]

Civil Action No. 12-1224 (JDB)

MONICAH OKOBA OPATI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of the special masters’ reports
in the related case before this Court, Wamai v.
Republic of Sudan, No. 08-1349 [ECF Nos. 63-244],
and the entire record herein, it is hereby
ORDERED that [63-244] the special master reports
are adopted in part and modified in part as described
in the accompanying Memorandum Opinion issued on
this date; it is further
ORDERED that judgment is entered in favor of
plaintiffs and against defendants in the total amount
of $3,163,433,873.00; and it is further

406a
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: July 25, 2014

407a

408a

409a

410a

411a

412a

413a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 10/24/2014]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

AMENDED MEMORANDUM OPINION
Over sixteen years ago, simultaneous suicide
bombings in Nairobi, Kenya, and Dar es Salaam,
Tanzania, devastated two United States embassies,
killed hundreds of people, and injured over a
thousand more. This Court has entered final
judgment on liability under the Foreign Sovereign
Immunities Act (“FSIA”) and District of Columbia
law in this and other civil actions—brought by
victims of the bombings and their families—against
the Republic of Sudan, the Ministry of the Interior of
the Republic of Sudan, the Islamic Republic of Iran,
and the Iranian Ministry of Information and Security
for their roles in these unconscionable acts. And with

414a
the help of special masters, the Court has assessed
and awarded damages to most of the individual
plaintiffs in these cases. See, e.g., Mar. 28, 2014
Mem. Op. [ECF No. 300] at 3. But a few plaintiffs
remain. Currently before the Court are a special
master’s award recommendations for these remaining
plaintiffs.
Plaintiffs—the so-called “Aliganga plaintiffs,” who
take their name from Jesse Nathanael Aliganga, a
United States Marine Corps sergeant who died in the
1998 attack—are twelve United States citizens
injured or killed in the Nairobi bombing and their
immediate family members. See Am. Compl. in
Intervention [ECF No. 262] (“Am. Compl.”) at 9; Apr.
11, 2014 Mem. Op. at 1. Although these plaintiffs did
not participate in the opening stages of the original
Owens lawsuit, this Court allowed them to intervene
in this case. July 23, 2012 Order [ECF No. 233] at 1.
By that time, other plaintiffs had already served
process on each defendant, defendants had failed to
respond, and the Court had entered a default against
defendants. Moreover, this Court had already held
that it has jurisdiction over defendants and that the
United States national plaintiffs have a federal cause
of action under 28 U.S.C. § 1605A(c), while the
foreign-national family members of the bombing
victims may pursue their claims under the laws of
the District of Columbia.1 See Owens v. Rep. of
Sudan, 826 F. Supp. 2d 128, 148–51, 153–57 (D.D.C.
2011). Finally (and perhaps most importantly), this
Court had already found that defendants were
1 Amongst the Aliganga plaintiffs, only one—Egambi Fred
Kibuhiru Dalizu—is not a United States national. See Am.
Compl. at 44; see also infra at 5.

415a
responsible for supporting, funding, or otherwise
carrying out the Nairobi bombing, and it therefore
entered final judgment on liability against them
pursuant to the FSIA. See id. at 135–47, 157.
The Court then referred the Aliganga plaintiffs’
claims to a special master, Paul G. Griffin, to prepare
proposed
findings
of
fact
and
damages
recommendations for each plaintiff. Sept. 18, 2012
Order [ECF No. 253] at 1. The special master has
now filed his reports, which rely on sworn testimony,
expert reports, medical records, and other evidence.
See Reports of Special Master [ECF Nos. 332–39,
341–42]; see also Filing of Special Master [ECF No.
344] (“Wolf Expert Report”). The reports describe the
facts relevant to each plaintiff and carefully analyze
each plaintiff’s claim for damages under the
framework established in other mass-tort-terrorism
cases from this District. The Court thanks Special
Master Griffin for his work.
The Court hereby adopts all facts found by the
special master relating to plaintiffs in this case.
Where the special master has received evidence
sufficient to find that a plaintiff is a United States
national and is thus entitled to maintain a federal
cause of action, the Court adopts that finding. In
addition, the Court adopts the special master’s
finding that each plaintiff has established the
familial relationship necessary to support standing
under the FSIA. See 28 U.S.C. § 1605A(a)(2)(A)(ii);
see also Owens, 826 F. Supp. 2d at 149. The Court
also adopts all damages recommendations in the
reports—with the exception of the few adjustments
described below. See Valore v. Islamic Rep. of Iran,
700 F. Supp. 2d 52, 82–83 (D.D.C. 2010) (“Where

416a
recommendations deviate from the Court’s damages
framework, those amounts shall be altered so as to
conform with . . . the framework.” (internal quotation
marks omitted)). As a result, the Court will award
the Aliganga plaintiffs a total judgment of over $622
million.
This opinion and judgment brings to a close this
Court’s role in assessing the responsibility for, and
the damages recoverable as a result of, the 1998
embassy bombings. But the story is hardly over for
the victims of these attacks, who not only must
continue the effort to actually recover their awarded
damages, but, more importantly, must also continue
to live with the devastating consequences of these
callous acts. That, after all, is the design of such
terrorist activity—to inflict present and future fear
and pain on individuals and governments. The Court
commends the dedicated, creative, and courageous
resolve of all plaintiffs—and their conscientious
attorneys—in the cases brought against the terrorists
responsible for the embassy bombings and their
supporters. They have helped to ensure that
terrorism, and its support by defendants, will not
ultimately succeed in achieving its long-term goals.
CONCLUSIONS OF LAW
Defendants’ liability in this case under both the
FSIA and District of Columbia law was decided long
ago.2 See Owens, 826 F. Supp. 2d at 157. But two
2 It bears repeating from previous opinions in this case that
“for plaintiffs’ federal claims under § 1605A(c), the Court [was]
presented with the difficulty of evaluating the[ ] claims under
the FSIA . . . which does not spell out the [applicable] elements
of these claims . . . . Hence, the Court [was] forced to apply
general principles of tort law.” Owens, 826 F. Supp. 2d at 157

417a
questions remain. First, what kinds of damages may
plaintiffs recover from the (now liable) defendants?
And second, what damages awards are appropriate
for each plaintiff?
I.

PLAINTIFFS MAY RECOVER DAMAGES UNDER
EITHER 28 U.S.C. § 1605A OR DISTRICT OF
COLUMBIA LAW

Both the FSIA and District of Columbia law provide
a basis for damages awards here. Start with the
FSIA. That statute allows United States national
plaintiffs to recover various types of damages,
including “economic damages, solatium, pain and
suffering, and punitive damages.” 28 U.S.C.
§ 1605A(c). But “[t]o obtain damages in an FSIA
action, the plaintiff must prove that the consequences
of the defendants’ conduct were reasonably certain
(i.e., more likely than not) to occur, and must prove
the amount of the damages by a reasonable estimate
n.3 (internal quotation marks, citations, and alterations
omitted); see also Mar. 28, 2014 Mem. Op. at 4–5 (concluding
that plaintiffs are entitled to damages under the FSIA).
Plaintiffs, here, proffered various theories of recovery under the
FSIA that typically sound in tort, including wrongful death and
intentional infliction of emotional distress. See, e.g., Am. Compl.
at 29–31. In this Court’s judgment, plaintiffs met their burden
regarding these claims. As other terrorism cases explain, “there
is no but-for causation requirement under the FSIA; proximate
cause is sufficient.” Valore, 700 F. Supp. 2d at 75. And there is
no doubt—based on this Court’s earlier factual findings—that
defendants proximately caused the wrongful, “premature death”
of several plaintiffs. Id. at 78 (internal quotation marks
omitted); see also Owens, 826 F. Supp. 2d at 135–47. The family
members of the injured or killed plaintiffs also satisfied the
traditional
intentional-infliction-of-emotional-distress
test,
because acts of terrorism “by their very definition” amount to
extreme and outrageous conduct. Valore, 700 F. Supp. 2d at 77
(internal quotation marks omitted).

418a
consistent with this Circuit’s application of the
American rule on damages.” Valore, 700 F. Supp. 2d
at 83 (internal quotation marks and alterations
omitted).
The Aliganga plaintiffs satisfy these requirements.
As discussed in this Court’s previous opinions,
plaintiffs have proven that the consequences of
defendants’ conduct were reasonably certain to—and
indeed intended to—cause plaintiffs’ injuries. See
Owens, 826 F. Supp. 2d at 135–47. According to the
FSIA’s remedial scheme, then: “[T]hose who survived
the attack may recover damages for their pain and
suffering, as well as any other economic losses caused
by their injuries; estates of those who did not survive
can recover economic losses stemming from wrongful
death of the decedent; [and] family members [so long
as they are United States nationals] can recover
solatium for their emotional injury.” Oveissi v.
Islamic Rep. of Iran, 879 F. Supp. 2d 44, 55 (D.D.C.
2012); see also Amduso v. Rep. of Sudan, --- F. Supp.
2d ---, 2014 WL 3687126, at *2 (D.D.C. July 25, 2014)
(limiting solatium-damages awards under the FSIA
to United States national family members). The
Court will therefore award plaintiffs “reasonable”
economic, pain-and-suffering, and solatium damages,
as appropriate.
This conclusion covers all but one of the Aliganga
plaintiffs. And District of Columbia law suffices to
cover the damages claim of the sole remaining
plaintiff: Egambi Fred Kibuhiru Dalizu, who is a
national of the Republic of Kenya, and who was the
husband of Jean Rose Dalizu, a United States citizen
and embassy employee killed in the Nairobi attack.
Am. Compl. at 44. Dalizu hopes to recover solatium

419a
damages under District of Columbia law, because, he
alleges, defendants’ actions amounted to intentional
infliction of emotional distress. As this Court has
previously held, District of Columbia law applies to
Dalizu’s claim. Owens, 826 F. Supp. 2d at 153–57. A
prima facie claim for intentional infliction of
emotional distress under that jurisdiction’s law
requires Dalizu to show: (1) extreme and outrageous
conduct on the part of defendants which, (2) either
intentionally or recklessly, (3) causes him severe
emotional distress. Larijani v. Georgetown Univ., 791
A.2d 41, 44 (D.C. 2002).
Dalizu meets every element of this tort. Here, just
as in the FSIA context, acts of terrorism “by their
very definition” amount to extreme and outrageous
conduct, Valore, 700 F. Supp. 2d at 77 (internal
quotation marks omitted), and the facts in this case
prove that defendants acted intentionally and
recklessly, causing Dalizu severe and lasting
emotional trauma, see Report of Special Master [ECF
No. 339] (“Dalizu Report”) at 3–6, 25; see also Owens,
826 F. Supp. 2d at 135–46; Murphy v. Islamic Rep. of
Iran, 740 F. Supp. 2d 51, 74–75 (D.D.C. 2010)
(describing
an
immediate
family
member’s
intentional-infliction-of-emotional-distress claim in
the state-sponsored-terrorism context). Because
Dalizu presented evidence sufficient to prove his
intentional-infliction-of-emotional-distress
claim
under District of Columbia law, and because that law
allows spouses to recover solatium damages, see D.C.
Code § 16-2701, the Court concludes that he is
entitled to recover such damages here.

420a
II.

DAMAGES

Having established that plaintiffs are entitled to
damages, the Court will now assess the type and
amount of damages to award each plaintiff. This
issue requires the Court to consider the
recommendations of the special master and to weigh
the severity and extent of plaintiffs’ injuries against
those alleged by other plaintiffs in other terrorism
cases. See, e.g., Mwila v. Islamic Rep. of Iran, --- F.
Supp. 2d ---, 2014 WL 1284978, at *3–7 (D.D.C. Mar.
28, 2014). The Court will accept most (but will reject
or adjust some) of the special master’s recommended
awards. A complete list of the damages awarded each
plaintiff can be found in the table attached to the
Order separately issued on this date.
a.

Compensatory Damages
1.

Economic damages

Under the FSIA, injured victims and the estates of
deceased victims may recover economic damages,
which typically include lost wages, benefits and
retirement pay, and other out-of-pocket expenses. See
28 U.S.C. § 1605A(c). The special master
recommended that the Court award economic
damages to the estates of eleven deceased plaintiffs.3
See Wolf Expert Report at 6. To determine the
economic losses resulting from each plaintiff’s death,
the special master relied on a report submitted by
Steven A. Wolf, an accounting and financial forensics
3 They are: Jesse Nathanael Aliganga, Julian Leotis Bartley,
Sr., Julian Leotis Bartley, Jr., Jean Rose Dalizu, Molly Huckaby
Hardy, Kenneth Ray Hobson II, Prabhi Guptara Kavaler, Arlene
Bradley Kirk, Mary Louise Martin, Ann Michelle O’Connor, and
Sherry Lynn Olds. See Am. Compl. at 9.

421a
expert. See, e.g., Dalizu Report at 3, 22; Wolf Expert
Report at 18. Wolf’s report, in turn, relied on such
factors as each plaintiff’s annual income, expected
future income, and work-life expectancy. Wolf Expert
Report at 6–11 (explaining methodology used to
calculate the economic losses for each plaintiff). The
Court will adopt the findings and recommendations of
the special master and award economic damages to
the estates of these eleven victims in the amounts
calculated and recommended.
2.

Pain and suffering awards

Courts determine pain-and-suffering awards for
injured and killed victims based on factors including
“the severity of the pain immediately following the
injury, the length of hospitalization, and the extent of
the impairment that will remain with the victim for
the rest of his or her life.” O’Brien v. Islamic Rep. of
Iran, 853 F. Supp. 2d 44, 46 (D.D.C. 2012) (internal
quotation marks omitted); see also Haim v. Islamic
Rep. of Iran, 425 F. Supp. 2d 56, 71 (D.D.C. 2006).
But when calculating damages awards, “the Court
must take pains to ensure that individuals with
similar injuries receive similar awards.” Peterson v.
Islamic Rep. of Iran, 515 F. Supp. 2d 25, 54 (D.D.C.
2007), abrogation on other grounds recognized in
Mohammadi v. Islamic Rep. of Iran, 947 F. Supp. 2d
48, 65 (D.D.C. 2013). Courts in this District have
therefore developed a general framework for
assessing pain-and-suffering awards for victims of
terrorist attacks. Plaintiffs who suffer serious
physical injuries tend to receive a $5 million award;
plaintiffs who suffer relatively more serious or
numerous injuries may receive $7 million (or more);
and plaintiffs whose injuries are relatively less

422a
serious or who only suffer emotional injuries may
receive something closer to $1.5 million. See Valore,
700 F. Supp. 2d at 84–85; O’Brien, 853 F. Supp. 2d at
47.
The special master has recommended that the
Court award pain-and-suffering damages to three
Aliganga plaintiffs. One recommended award—
advising the Court to award $1.5 million to Howard
Charles Kavaler, who worked in the Nairobi embassy
at the time of the attack, and who continues to suffer
severe post-traumatic stress syndrome as a result of
the bombing, see Report of Special Master [ECF No.
338] (“Kavaler Report”) at 3–4, 11—complies with
this District’s general damages framework. The Court
will
therefore
adopt
the
special
master’s
recommendation regarding Kavaler.
Two recommended awards, however, depart from
this District’s framework and require significant
adjustment. The first relates to Jesse Nathanael
Aliganga, the Marine killed in the Nairobi attack.
The special master recommended that the Court
award Aliganga $12 million in pain-and-suffering
damages, because he “suffered severe physical
injuries prior to his death.” Report of Special Master
[ECF No. 333] (“Aliganga Report”) at 10. But while
there is no doubt that Aliganga’s injuries were severe,
this recommendation ignores that the touchstone of
any pain-and-suffering award is whether the victim
suffered “conscious pain” for some period of time.
Peterson, 515 F. Supp. 2d at 53; see also Oldham v.
Korean Air Lines Co., 127 F.3d 43, 56 (D.C. Cir. 1997)
(“[T]he key factual dispute [in pre-death pain-andsuffering cases] turns on whether the [victim was]
immediately
rendered
unconscious.”
(internal

423a
quotation marks omitted)). In other words, if the
victim was conscious after suffering injury, then a
pain-and-suffering award might be appropriate; if
not, then not. Here, all the available evidence
suggests that Aliganga’s injuries put him on the
inappropriate side of the divide. As the special master
recognized, Aliganga’s “head was crushed in the
bombing and his brain avulsed [i.e., separated] from
his skull.” Aliganga Report at 3. And though the
Marines initially told Aliganga’s family that he was
“alive but injured,” no one testified that Aliganga was
conscious at any point before dying from his wounds.
See id. at 4–5. The Court therefore cannot award
Aliganga’s estate any pain-and-suffering damages.
The second problematic award presents a similar
issue. The special master recommended that the
Court award $12 million to the estate of Julian Leotis
Bartley, Jr., because he “endured bodily pain and
suffering after the attack and prior to his death.”
Report of Special Master [ECF No. 342] at 11–12.
There is some basis for awarding pain-and-suffering
damages in Bartley’s case. After all, he “suffered
horrific injuries and terrible pain when both his legs
were . . . amputated in the explosive blast.” Id. at 12.
But the special master admitted that “it is unclear
how long [Bartley] suffered before succumbing to his
injuries,” and he could only conclude that Bartley did
not die “immediately,” but instead died some time
later “due to a severe loss of blood.” Id. Though
Bartley’s injuries were undeniably terrible, in cases
like this—“[w]hen the victim endured extreme pain
and suffering for a period of several hours or less”—
the courts will “rather uniformly award[] $1 million”
in damages. Haim, 425 F. Supp. 2d at 71 (emphasis
added). Indeed, courts will sometimes settle on

424a
smaller awards, if the evidence suggests that the
victim suffered for only a very brief period. See, e.g.,
Peterson, 515 F. Supp. 2d at 53. Here, Bartley almost
certainly survived for less than several hours. The
Court will therefore adopt the usual award for such
cases: $1 million.
3.

Solatium

“In determining the appropriate amount of
compensatory damages, the Court may look to prior
decisions awarding damages for . . . solatium.” Acosta
v. Islamic Rep. of Iran, 574 F. Supp. 2d 15, 29 (D.D.C.
2008). Only immediate family members—parents,
siblings, spouses, and children—are entitled to
solatium awards. See Valore 700 F. Supp. 2d at 79;
see also D.C. Code § 16-2701 (allowing recovery by
“the spouse or domestic partner and the next of kin of
the deceased person”). The commonly accepted
framework for solatium damages in this District’s
FSIA terrorism cases is that used in Peterson, where
spouses of deceased victims receive $8 million,
parents of deceased victims receive $5 million, and
siblings of deceased victims receive $2.5 million. 515
F. Supp. 2d at 52. And where the victim does not die,
but instead only suffers injury, the solatium awards
are halved: Spouses receive $4 million, parents
receive $2.5 million, and siblings receive $1.25
million. Id. Moreover, this Court has previously held
that children of deceased and injured victims should
receive awards akin to those given to parents (i.e., $5
million where the victim died, and $2.5 million where
the victim suffered injury). See, e.g., Mwila, 2014 WL
1284978, at *5 (“[C]hildren who lose parents are
likely to suffer as much as parents who lose
children.”). Although these amounts are guidelines,

425a
not rules, see Valore, 700 F. Supp. 2d at 85–86, the
Court finds the distinctions made in Peterson and
other cases to be reasonable, and thus will adopt this
framework for determining solatium damages here.
For most plaintiffs, the special master properly
applied the preceding framework in making his
damages calculations, and the Court will therefore
accept the bulk of his recommendations. But there
are a few exceptions. One is straightforward. The
special master recommended a $5 million solatium
award to the estate of Frederick Arthur Bradley, the
father of a deceased victim of the Nairobi attack. See
Report of Special Master [ECF No. 334] at 20. But
there is a significant problem with this award:
Frederick Arthur Bradley is no longer a plaintiff in
this case, as he voluntarily dismissed his claim in
2012. See Notice of Vol. Dismissal [ECF No. 258] at 1.
The Court therefore declines to award Bradley any
damages.
Four other solatium awards also require
adjustment. Other courts in this District have held
that it is inappropriate for the solatium award of a
family member to exceed the pain-and-suffering
award of the surviving victim. See, e.g., Davis v
Islamic Rep. of Iran, 882 F. Supp. 2d 7, 15–16 (D.D.C.
2012). This Court has followed that approach in
previous embassy-bombing cases, see, e.g., Mwila,
2014 WL 1284978, at *6, and it will do the same here.
Therefore, the solatium awards for several family
members of Howard Charles Kavaler—who suffered
severe emotional injury after the bombing, and who
the Court has awarded $1.5 million in pain-andsuffering damages—must be modified. The special
master recommended awarding $2.5 million each to

426a
Tara and Maya Kavaler (Howard’s daughters) and to
the estates of Pearl and Leon Kavaler (Howard’s
parents). See Kavaler Report at 13–14. But $2.5
million is obviously greater than $1.5 million, and so
the Court will reduce these family members’ awards
to match Howard’s pain-and-suffering compensation.4
b.

Pre-Judgment Interest

Plaintiffs are not only entitled to damages in this
case. They are also owed pre-judgment interest at the
prime rate on most of those damages. See Oldham,
127 F.3d at 54; Forman v. Korean Air Lines Co., 84
F.3d 446, 450–51 (D.C. Cir. 1996). The special master
already adjusted the recommended economic loss
figures for each plaintiff to reflect the present
discounted value of those awards, see, e.g., Aliganga
Report at 9; see also District of Columbia v.
Barriteau, 399 A.2d 563 (D.C. 1979), but he did not
adjust the recommended awards for pain and
suffering and solatium. These awards therefore do
not account for the time that has elapsed since the
1998 attacks, meaning plaintiffs have lost the use of
this money which should have been theirs
immediately after the bombings. Moreover, denying
4 The special master actually recommended that each of
Howard’s daughters receive $7.5 million in solatium damages,
because their mother (Prabhi Guptara Kavaler) died in the
bombing, which entitles them to an additional $5 million under
this District’s solatium-damages framework. This $5 million
award is entirely appropriate, and the Court’s reduction of their
award only applies to the solatium damages stemming from
their father’s injury. The Court therefore awards each daughter
$6.5 million in solatium damages: $5 million based on their
mother’s death and $1.5 million based on their father’s injury.
See, e.g., Valore, 700 F. Supp. 2d at 86 (awarding solatium
damages for each lost relationship).

427a
pre-judgment interest on these damages would allow
defendants to profit from their use of these funds over
the intervening sixteen years. The Court will
therefore award pre-judgment interest on plaintiffs’
pain-and-suffering and solatium awards—which
should suffice to place plaintiffs in the same position
they would have been in had they received (and
invested) their damages awards in 1998. See, e.g.,
Doe v. Islamic Rep. of Iran, 943 F. Supp. 2d 180, 184–
85 (D.D.C. 2013); Reed v. Islamic Rep. of Iran, 845 F.
Supp. 2d 204, 214–15 (D.D.C. 2012). But see Oveissi,
768 F. Supp. 2d at 30 n.12 (declining to award prejudgment interest on solatium damages).5
The Court will calculate the applicable interest
using the prime rate for each year. The D.C. Circuit
has explained that the prime rate—the rate banks
charge for short-term, unsecured loans to
creditworthy customers—is the most appropriate
measure of pre-judgment interest. See Forman, 84
F.3d at 450–51. Although the prime rate, applied over
a period of several years, can be measured in
different ways, this Circuit has approved an award of
pre-judgment interest “at the prime rate for each
year between the accident and the entry of
5 In Oveissi, the court awarded damages in amounts above
and beyond the usual solatium framework (i.e., the framework
called for a $5 million award for plaintiff, but the court awarded
$7.5 million). 768 F. Supp. 2d at 30. And the court in that case
denied plaintiff’s request for pre-judgment interest, because its
“upward adjustments” from the usual framework sufficed “to
fully compensate [plaintiff] for the enormous loss he sustained.”
Id. at n.12 (internal quotation marks omitted). Unlike Oveissi,
this Court has not made any “upward adjustments” from the
usual framework, and the Court therefore finds that prejudgment interest on plaintiffs’ solatium awards is required if
plaintiffs are to be “fully compensate[d].”

428a
judgment.” Id. at 450. Using the prime rate for each
year is more precise than, for example, using the
average rate over the entire period. See Doe, 943 F.
Supp. 2d at 185 (noting that this method is a
“substantially more accurate market-based estimate”
of the time value of money (internal quotation marks
omitted)). Moreover, calculating interest based on the
prime rate for each year is a simple matter.6 Using
the prime rate for each year results in a multiplier of
2.26185 for damages incurred in 1998,7 and the Court
will use this multiplier to calculate the total award
for each plaintiff in this case.8
CONCLUSION
The August 7, 1998, embassy bombings shattered
the lives of thousands—including the seventy-one
plaintiffs in this case. Reading plaintiffs’ personal
6 To calculate the multiplier, the Court multiplied $1.00 by the
prime rate in 1999 (8%) and added that amount to $1.00,
yielding $1.08. Then, the Court took that amount and multiplied
it by the prime rate in 2000 (9.23%) and added that amount to
$1.08, yielding $1.17968. Continuing this iterative process
through 2014 yields a multiplier of 2.26185.
7 The Court calculated the multiplier using the Federal
Reserve’s data for the average annual prime rate in each year
between 1998 and 2014. See Bd. of Governors of the Fed.
Reserve Sys. Historical Data, available at http://www.federal
reserve.gov/releases/h15/data.htm (last visited October 14,
2014). As of the date of this opinion, the Federal Reserve has not
posted the annual prime rate for 2014, so the Court will
conservatively estimate that rate to be 3.25%, the rate for the
previous five years.
8 The product of the multiplier and the base damages amount
includes both the pre-judgment interest and the base damages
amount. In other words, applying the multiplier calculates not
the pre-judgment interest but the base damages amount plus
the pre-judgment interest—or the total damages award.

429a
stories reveals that, even after some sixteen years,
they each still feel the horrific effects of that awful
day. Damages awards cannot fully compensate these
innocent people, who have suffered so much. But they
can offer a helping hand. That is the very least that
plaintiffs are owed—and that is what this Court
seeks to accomplish.
A separate Order consistent with this Memorandum
Opinion has issued on this date.
/s/
JOHN D. BATES
United States District Judge
Dated: October 24, 2014

430a
APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 10/24/2014]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

AMENDED ORDER
Upon consideration of [332–39, 341–42] Special
Master Paul Griffin’s Reports, and the entire record
herein, it is hereby
ORDERED that [332–39, 341–42] the Special
Master Reports are adopted in part and modified in
part as described in the accompanying Memorandum
Opinion issued on this date; it is further
ORDERED that judgment is entered in favor of the
remaining plaintiffs (“Aliganga Plaintiffs”) and
against defendants in the total amount of
$622,301,129.50; and it is further

431a
ORDERED that each plaintiff is entitled to
damages in the amounts listed in the accompanying
chart.
SO ORDERED.
/s/
JOHN D. BATES
United States District Judge
Dated: October 24, 2014

432a

433a

434a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Civil Action No. 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

Civil Action No. 08-1349 (JDB)

WINFRED WAIRIMU WAMAI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

Civil Action No. 08-1361 (JDB)

435a
MILLY MIKALI AMDUSO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

Civil Action No. 08-1377 (JDB)

JUDITH ABASI MWILA, et al.,

Plaintiffs,
v.
ISLAMIC REPUBLIC OF IRAN, et al.,

Defendants.

Civil Action No. 08-1380 (JDB)

MARY ONSONGO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

436a

Civil Action No. 10-0356 (JDB)

RIZWAN KHALIQ, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

Civil Action No. 12-1224 (JDB)

MONICAH OKOBA OPATI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

MEMORANDUM OPINION
On August 7, 1998, the United States embassies
in Nairobi, Kenya, and Dar es Salaam, Tanzania,
were devastated by the nearly simultaneous
detonations of a pair of truck bombs. More than 200
people were killed, including 12 Americans, and

437a
thousands were injured. There is no doubt the
attacks were the work of al Qaeda, a grisly precursor
to the bombing of the U.S.S. Cole and the atrocities of
September 11, 2001.
Starting in 2001, various groups of plaintiffs—
comprising individuals directly injured in the two
embassy bombings, estates of individuals who were
killed, and family members of the wounded and
dead—filed lawsuits against the Republic of Sudan
and the Islamic Republic of Iran, charging those
nations with responsibility for the attacks. With
respect to Sudan, the only defendant relevant for
present purposes, the essence of the plaintiffs’
allegations was that Sudan had given Osama bin
Laden and al Qaeda safe haven throughout the mid1990s, as well as other forms of assistance, and that
this support had allowed al Qaeda to grow, train,
plan, and eventually carry out the 1998 embassy
attacks. In the plaintiffs’ view, this support of al
Qaeda was sufficient both to divest Sudan of the
immunity generally granted to foreign states by the
Foreign Sovereign Immunities Act (FSIA), 28 U.S.C.
§ 1602 et seq., and also to render it liable for the
plaintiffs’ physical and emotional injuries stemming
from the attacks.
Sudan hired U.S. counsel and defended against
the first of these lawsuits in its early stages. But even
as this Court denied its repeated requests that the
suit be dismissed, Sudan stopped paying and
communicating with its lawyers, and eventually
ignored the case entirely. Sudan never participated at
all in the six other cases at issue here. Because the
FSIA requires plaintiffs to substantiate their claims
with evidence even when a foreign sovereign defaults,

438a
in October 2010 the Court held a three-day hearing at
which the plaintiffs presented a range of evidence
about the bombings and Sudan’s relationship with al
Qaeda. Roughly a year later, the Court issued an
opinion in which it concluded that Sudan had indeed
provided material support to al Qaeda, was not
entitled to sovereign immunity, and was liable for the
plaintiffs’ injuries. The Court then referred the
hundreds of claims to special masters, who heard
evidence relevant to individual plaintiffs’ damages,
reported their findings to the Court, and
recommended awards. Between March and October of
2014, the Court entered final judgments against
Sudan in all seven cases, awarding a total of over $10
billion in compensatory and punitive damages.
One month after the entry of the first of these
final judgments, Sudan reappeared with new counsel
and began to participate in the litigation. Sudan first
filed notices of appeal in all seven cases. Then, in
April 2015, it filed with this Court motions to vacate
all of the judgments pursuant to Federal Rule of Civil
Procedure 60(b). The Court of Appeals ordered the
appeals held in abeyance pending this Court’s
resolution of the motions to vacate, which are now
ripe for decision.
The Court will deny Sudan’s motions in all
respects. Sudan’s years of total nonparticipation in
this litigation, despite full awareness of its existence,
cannot be justified as “excusable neglect.” Nor did
this Court lack subject-matter jurisdiction for any of
the reasons Sudan offers: these bombings were acts of
“extrajudicial killing” within the meaning of the
jurisdictional provision; there was sufficient evidence
of the necessary jurisdictional facts; and the

439a
jurisdictional provision extends to claims of emotional
harms by immediate family members. Sudan’s
nonjurisdictional arguments also fail: some are
without merit, and for those with some heft, Sudan
fails to explain what would justify relief from a final
judgment.
Perhaps Sudan could have prevailed in these
cases, fully or partially, if it had defended in a timely
fashion. But, as a result of either deliberate choice or
inexcusable recklessness, it did not do so. Either way,
Sudan has no one to blame for the consequences but
itself.
BACKGROUND
STATUTORY BACKGROUND
Because many of the issues Sudan has raised in
its vacatur motions concern the proper interpretation
of the Foreign Sovereign Immunities Act (FSIA), and
because Congress amended the FSIA significantly
during the long course of this litigation, the Court
begins with a brief overview of the Act and its
history.
Enacted in 1976, “the FSIA provides the sole basis
for obtaining jurisdiction over a foreign state in
federal court.” Argentine Republic v. Amerada Hess
Shipping Corp., 488 U.S. 428, 439 (1989). The Act
provides that federal district courts shall have
jurisdiction over civil claims against foreign states
“with respect to which the foreign state is not entitled
to immunity either under sections 1605–1607 of [Title
28] or under any applicable international agreement.”
28 U.S.C. § 1330(a). Subject-matter jurisdiction is
thus intertwined with immunity: insofar as a foreign
sovereign defendant is entitled to immunity, a federal

440a
court lacks subject-matter jurisdiction to hear claims
against it. Verlinden B.V. v. Cent. Bank of Nigeria,
461 U.S. 480, 493 (1983). And § 1604 provides that
foreign states are generally entitled to immunity,
subject to specific statutory exceptions, most notably
those contained in § 1605. 28 U.S.C. §§ 1604–1605.
As originally enacted, § 1605’s exceptions
generally codified the “restrictive” theory of foreign
sovereign immunity, under which “immunity is
confined to suits involving the foreign sovereign’s
public acts, and does not extend to cases arising out
of a foreign state’s strictly commercial acts.”
Verlinden, 461 U.S. at 487–88. None of the original
immunity exceptions overtly had anything to do with
terrorism or human rights abuses. In 1996, however,
Congress enacted § 1605(a)(7), commonly referred to
as the “terrorism exception” to foreign sovereign
immunity. Antiterrorism and Effective Death Penalty
Act of 1996, Pub. L. No. 104-132, § 221, 110 Stat.
1214, 1241–43 (“Jurisdiction for Lawsuits Against
Terrorist States”). Subject to certain exceptions, that
provision removed immunity in cases
in which money damages are sought
against a foreign state for personal
injury or death that was caused by an
act of torture, extrajudicial killing,
aircraft sabotage, hostage taking, or the
provision of material support or
resources (as defined in section 2339A of
title 18) for such an act if such act or
provision of material support is engaged
in by an official, employee, or agent of
such foreign state while acting within

441a
the scope of his or
employment, or agency.

her

office,

28 U.S.C. § 1605(a)(7) (2006). Only foreign states
designated as state sponsors of terrorism under
certain federal statutes could be sued under this
provision. Id. § 1605(a)(7)(A). And a suit could not
proceed if “neither the claimant nor the victim was a
national of the United States . . . when the act upon
which the claim [was] based occurred.” Id. §
1605(a)(7)(B)(ii).
Like the other provisions in § 1605, subsection
(a)(7) eliminated immunity and thereby created
federal jurisdiction for a certain set of claims, but it
did not provide plaintiffs with a federal cause of
action. Cicippio-Puleo v. Islamic Republic of Iran, 353
F.3d 1024, 1032 (D.C. Cir. 2004); see also Republic of
Austria v. Altmann, 541 U.S. 677, 695 n.15 (2004)
(“The [FSIA] does not create or modify any causes of
action . . . .”). Shortly after the enactment of §
1605(a)(7), however, in what is frequently called the
“Flatow Amendment,” Congress did create a related
federal cause of action. The Flatow Amendment
provided that
an official, employee, or agent of a
foreign state designated as a state
sponsor of terrorism . . . while acting
within the scope of his or her office,
employment, or agency shall be liable to
a United States national or the
national’s legal representative for
personal injury or death caused by acts
of that official, employee, or agent for
which the courts of the United States

442a
may maintain jurisdiction under section
1605(a)(7) of title 28.
Pub. L. No. 104-208, § 589, 110 Stat. 3009, 3009-172
(1996). Although several district courts initially held
that the Flatow Amendment created a cause of action
against foreign states, in 2004 the D.C. Circuit
clarified that the statute “only provides a private
right of action against officials, employees, and
agents of a foreign state, not against the foreign state
itself.” Cicippio-Puleo, 353 F.3d at 1033. After
Cicippio-Puleo, plaintiffs suing foreign states under §
1605(a)(7), like those suing under the FSIA’s other
immunity exceptions, generally had to rely on state
law for causes of action. See, e.g., Holland v. Islamic
Republic of Iran, 496 F. Supp. 2d 1, 23–24 (D.D.C.
2005).
In the National Defense Authorization Act
(NDAA) of 2008, Congress significantly amended the
terrorism-related provisions of the FSIA. Pub. L. No.
110-181, § 1083, 122 Stat. 3, 338–44. Section
1605(a)(7) was struck, and an entirely new section, §
1605A, was enacted. Section 1605A, entitled
“Terrorism exception to the jurisdictional immunity
of a foreign state,” contains several provisions
relevant here. Subsection (a) contains an immunity
exception that closely tracks the repealed §
1605(a)(7). Subsection (b), in conjunction with §
1083(c) of the 2008 NDAA, establishes a somewhat
convoluted statute of limitations. And subsection (c)
supersedes Cicippio-Puleo by creating a federal cause
of action for certain plaintiffs against foreign states
(and their agents) that engage in, or provide material
support for, the four predicate acts for which
immunity is not provided (torture, extrajudicial

443a
killing, hostage taking, and aircraft sabotage). The
Court will examine these provisions in greater detail
as they become relevant to Sudan’s arguments.
PROCEDURAL BACKGROUND
James Owens, a U.S. citizen injured in the Dar
es Salaam attack, filed the first of the seven cases at
issue here on October 26, 2001. Compl. [Owens ECF
No. 1]. Owens was eventually joined by several dozen
co-plaintiffs, some of whom had been directly injured
or killed in the embassy bombings, and some of whom
were family members of those directly harmed. They
brought suit against Sudan and Iran (as well as
Sudan’s Ministry of the Interior and Iran’s Ministry
of Information and Security), whom they alleged had
provided support to the terrorists who carried out the
attacks. Am. Compl. [Owens ECF No. 4]. The
plaintiffs sought to recover for the physical injuries
(or death) inflicted on those present during the
attacks and also for the emotional injuries suffered by
both those direct victims and their relatives.
Initially, neither Sudan nor Iran appeared in
Owens, and in May 2003 the Court entered defaults
against them. Order of May 8, 2003 [Owens ECF No.
11]. In February 2004, however, Sudan retained U.S.
counsel and began to participate in the litigation.
Notice of Appearance [Owens ECF No. 43]. Sudan
quickly moved to vacate the default and to dismiss
the case, raising a host of arguments, most notably
that it was immune under the Foreign Sovereign
Immunities Act. Mot. to Dismiss [Owens ECF No.
49]. In March 2005 the Court granted in part and
denied in part Sudan’s motion. Owens v. Republic of
Sudan, 374 F. Supp. 2d 1 (D.D.C. 2005) (“Owens I”).
Although the Court rejected most of Sudan’s

444a
arguments, it concluded that the plaintiffs’ existing
allegations were insufficient to show that the
immunity exception in § 1605(a)(7) applied to Sudan.
Id. at 14–15, 17–18. But the Court felt that the
plaintiffs could overcome these pleading failures and
therefore gave them leave to file an amended
complaint. Id.
The plaintiffs did so, Sudan again moved to
dismiss, and the Court denied its motion. Owens v.
Republic of Sudan, 412 F. Supp. 2d 99 (D.D.C. 2006)
(“Owens II”). The applicability of § 1605(a)(7) was
again the headline issue. Although Sudan did not
dispute that the embassy bombings were acts of
“extrajudicial killing,” it argued that the plaintiffs’
allegations remained insufficient to show that Sudan
had provided material support to al Qaeda or that
there was a legally cognizable causal link between
the alleged material support and the plaintiffs’
injuries. See id. at 106 & n.11. The Court rejected
these arguments, holding that the plaintiffs’ amended
complaint sufficiently alleged the provision of
material support in various forms by Sudanese
government officials acting in their official capacities,
id. at 106–09, and that those allegations, if true,
could justify the conclusion that Sudan’s support
caused the bombings, id. at 109–15.
During these two rounds of motion-to-dismiss
proceedings, relations between Sudan and its U.S.
counsel deteriorated. In January 2005 Sudan’s
counsel informed the Court that Sudan had “made no
payment for any of the legal services provided to
date,” and that there had been a “lack of effective
communication from the client” on legal issues. Mot.
to Withdraw [Owens ECF No. 100] at 2. Counsel’s

445a
difficulties communicating with Sudanese officials
persisted, and by late 2007 it appears that Sudan had
stopped responding to counsel’s communications
entirely. Mot. to Withdraw [Owens ECF No. 129] at
4. Counsel apparently received an inquiry about the
case from a Sudanese official on September 1, 2008,
but there were no accompanying instructions and no
follow-up. Status Report [Owens ECF No. 144] at 3.
Despite the communication difficulties and
eventual breakdown, Sudan’s counsel continued to
defend. After the January 2006 denial of its second
motion to dismiss, Sudan took an interlocutory
appeal to the D.C. Circuit, which affirmed this
Court’s decision in July 2008. Owens v. Republic of
Sudan, 531 F.3d 884 (D.C. Cir. 2008) (“Owens III”).
As relevant here, Sudan again argued that the
plaintiffs had “failed to plead sufficient facts to
‘reasonably support a finding’ that Sudan’s material
support of al Qaeda in the early 1990s caused the
embassy bombings in Kenya and Tanzania in 1998.”
Id. at 893–94. The D.C. Circuit rejected this
argument:
Although Plaintiffs’ allegations are
somewhat imprecise as to the temporal
proximity of Sudan’s actions to and their
causal connection with the terrorist act
and do not chart a direct and unbroken
factual line between Sudan’s actions and
the terrorist act, this imprecision is not
fatal for purposes of jurisdictional
causation so long as the allegations, and
the
reasonable
inferences
drawn
therefrom, demonstrate a reasonable

446a
connection between the foreign state’s
actions and the terrorist act.
Id. at 895 (internal quotation marks omitted). The
court concluded that the allegations and reasonable
inferences drawn therefrom did indeed demonstrate
such a connection. Id.
Within roughly a month of the D.C. Circuit’s
decision, four groups of plaintiffs filed four new
lawsuits—Wamai, Amduso, Mwila, and Onsongo—
against Iran and Sudan for their alleged roles in the
embassy bombings. Sudan did not appear to defend
against these actions. And in January 2009 the Court
granted Sudan’s counsel’s request to withdraw in
Owens. Order of January 26, 2009 [Owens ECF No.
148]. From that point until April 2014, Sudan did not
participate in any of these cases or communicate with
the Court in any way.
A new default against Sudan was entered on
March 25, 2010. Entry of Default [Owens ECF No.
173]. The FSIA forbids the entry of a default
judgment, however, “unless the claimant establishes
his claim or right to relief by evidence satisfactory to
the court.” 28 U.S.C. § 1608(e). Accordingly, in
October 2010 the Court held a three-day evidentiary
hearing in Sudan’s absence. (By this time, a sixth
case, Khaliq, had joined the group.) The plaintiffs
presented a wide range of evidence—including live
testimony (of both lay and expert witnesses),
videotaped testimony, transcripts of testimony from
other cases, affidavits, and U.S. government
reports—concerning the embassy attacks and
Sudan’s relationship with al Qaeda.
In November 2011 the Court issued an opinion
that presented its findings of fact and conclusions of

447a
law. Owens v. Republic of Sudan, 826 F. Supp. 2d 128
(D.D.C. 2011) (“Owens IV”). As a factual matter, the
Court found that Sudan had provided safe harbor, as
well as financial, military, and intelligence
assistance, to al Qaeda, id. at 139–46, and that
“Sudanese government support was critical to the
success of the 1998 embassy bombings,” id. at 146.
Because this amounted to the provision of material
support for acts of extrajudicial killing, under §
1605A(a) Sudan was not entitled to immunity. Id. at
148–51. The Court also clarified that while plaintiffs
who were U.S. nationals or employees of the U.S.
government (essentially everyone directly injured in
the bombings) could recover under the federal cause
of action provided by § 1605A(c), foreign family
members of direct victims were not within the ambit
of that provision, but could instead recover under the
tort law of the District of Columbia. Id. at 151–57.
The Court deemed Sudan’s (and Iran’s) fundamental
liability established, but referred the hundreds of
plaintiffs’ claims to special masters, “who [would]
receive evidence and prepare proposed findings and
recommendations for the disposition of each
individual claim in a manner consistent with [the
Court’s] opinion.” Id. at 157.
The work of the special masters took several
years, during which time a number of events worth
noting occurred. First, the Court’s November 2011
opinion was translated into Arabic and forwarded to
the State Department to be served on Sudan through
diplomatic channels. That service was effected in
September 2012, when the U.S. embassy in
Khartoum delivered the translated opinion to the
Sudanese Ministry of Foreign Affairs. See Letter from
William P. Fritzlen [Owens ECF No. 282]. Also in

448a
2012, two new sets of plaintiffs entered the picture.
One group filed a new case, Opati, the last of the
seven at issue here. The other—referred to as the
“Aliganga plaintiffs” after Marine Sergeant Jesse
Nathanael Aliganga, who was killed in the Nairobi
attack—did not file a new case, but instead sought
and received permission to intervene in Owens. Order
of July 3, 2012 [Owens ECF No. 233]. Because the
Opati and Aliganga plaintiffs’ claims arose from the
same attacks for which the Court had already found
Sudan liable (and Sudan again did not respond), the
Court did not revisit the question of liability, and
instead referred these plaintiffs’ claims to special
masters just as it had done in the other cases. Order
of July 31, 2012 [Owens ECF No. 236]; Opati v.
Republic of Sudan, 60 F. Supp. 3d 68, 73–75 (D.D.C.
2014).
On March 28, 2014, having received and
reviewed the special masters’ reports, the Court
issued final judgments awarding hundreds of millions
of dollars to the plaintiffs in Owens1, Mwila, and
Khaliq. Mem. Op. of March 28, 2014 [Owens ECF No.
300] at 3 (over $487 million); Mwila v. Islamic
Republic of Iran, 33 F. Supp. 3d 36, 40 (D.D.C. 2014)
(over $419 million); Khaliq v. Republic of Sudan, 33
F. Supp. 3d 29, 32 (D.D.C. 2014) (over $49 million).
On July 25, 2014, the Court issued four more final
judgments, bringing Wamai, Amduso, Onsongo, and
This judgment resolved only the claims of the original
Owens plaintiffs, not those of the Aliganga plaintiffs. As such, it
was not automatically a final judgment. See Fed. R. Civ. P.
54(b). On April 11, 2014, however, on the original plaintiffs’
motion, the Court certified the judgment of March 28, 2014, as
final pursuant to Federal Rule of Civil Procedure 54(b). Order of
April 11, 2014 [Owens ECF No. 305].
1

449a
Opati to a close. Wamai v. Republic of Sudan, 60 F.
Supp. 3d 84, 89 (D.D.C. 2014) (over $3.5 billion);
Amduso v. Republic of Sudan, 61 F. Supp. 3d 42, 46
(D.D.C. 2014) (over $1.7 billion); Onsongo v. Republic
of Sudan, 60 F. Supp. 3d 144, 148 (D.D.C. 2014) (over
$199 million); Opati, 60 F. Supp. 3d at 76 (over $3.1
billion). Finally, on October 24, 2014, the Court
entered judgment in favor of the Aliganga plaintiffs,
the eighth and last judgment at issue in these seven
cases. Owens v. Republic of Sudan, 71 F. Supp. 3d
252, 256 (D.D.C. 2014) (over $622 million).
Shortly after the Court entered the first group
of judgments, Sudan at long last arrived on the scene
(or, in the case of Owens, returned). On April 28,
2014, new counsel for Sudan entered appearances in
Owens, Mwila, and Khaliq, and filed a notice of
appeal in each. Sudan did not, however, take any
immediate action in the four other cases, in which
final judgments had not yet been entered. Only
several weeks after judgment was subsequently
entered in those cases did Sudan appear, again filing
notices of appeal. Similarly, despite reappearing in
Owens in April 2014, Sudan took no action with
respect to the Aliganga plaintiffs until after judgment
was entered in their favor in October 2014.
In April 2015 Sudan retained new counsel and,
over the course of several weeks, filed the eight
motions to vacate that are presently before the Court.
Soon after, Sudan filed its opening brief in the
consolidated appeal of these cases before the D.C.
Circuit. Br. for Appellants, Owens v. Islamic Republic
of Iran, No. 14-5105 (D.C. Cir. May 11, 2015)
(“Sudan’s D.C. Cir. Br.”). Before any of the plaintiffs
filed their appellees’ briefs, however, the D.C. Circuit

450a
granted their request to stay the appeal pending this
Court’s consideration of the motions to vacate. Order,
Owens v. Islamic Republic of Iran, No. 14-5105 (D.C.
Cir. July 22, 2015). After all filings related to the
motions were received, the Court held a consolidated
motions hearing on December 18, 2015. See generally
Mot. Hr’g Tr. [Owens ECF No. 399]. Mindful that
these cases might impact foreign relations, the Court
also invited the United States to file a statement of
interest concerning any of the issues raised by
Sudan’s motions, but the United States declined to
file such a statement. Notice by the United States
[Owens ECF No. 396].
DISCUSSION
Sudan moves to vacate the eight judgments in
these cases pursuant to Federal Rule of Civil
Procedure 60(b). As relevant to these motions, Rule
60(b) provides:
On motion and just terms, the court may relieve a
party or its legal representative from a final
judgment, order, or proceeding for the following
reasons:
(1) mistake, inadvertence, surprise, or
excusable neglect; . . .
(4) the judgment is void; . . . or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60(b). Sudan fits—or tries to fit—a
host of arguments into these three categories. Some
of its arguments apply to all of these cases, others to
only a subset. Some, if correct, would require the
outright dismissal of some or even all of these cases.
Others would lead to the dismissal of only certain
plaintiffs’ claims. And still others would merely give

451a
Sudan another chance to dispute its liability.
Unconvinced there is one “correct” order in which to
address Sudan’s various arguments, the Court will
proceed as follows. It will first address Sudan’s
argument under Rule 60(b)(1) that the failure to
contest these cases before final judgment was the
result of excusable neglect. It will then turn to
Sudan’s several arguments under Rule 60(b)(4) that
these judgments, in whole or in part, are void for lack
of subject-matter jurisdiction. Finally, it will address
Sudan’s claims of nonjurisdictional error, which
Sudan lodges under Rule 60(b)(6).
RULE 60(B)(1): SUDAN HAS FAILED TO
DEMONSTRATE EXCUSABLE NEGLECT
Sudan moves to vacate all of the judgments,
except those in Mwila and Khaliq, on the basis of
Rule 60(b)(1), which permits relief from a final
judgment based on “mistake, inadvertence, surprise,
or excusable neglect.” Sudan does not raise this
argument in Mwila and Khaliq because relief under
Rule 60(b)(1) must be sought not later than a year
after the entry of judgment, see Fed. R. Civ. P.
60(c)(1), a deadline Sudan missed in those two cases.
In the other cases, however, Sudan says relief under
Rule 60(b)(1) is appropriate because its failure to
participate in this litigation until after the entry of
judgment was the product of “excusable neglect.” See,
e.g., Mem. Supp. Mot. to Vacate [Owens ECF No.
367-1] (“Sudan’s Aliganga Mem.”) at 32–36.
“‘[E]xcusable neglect’ is understood to encompass
situations in which the failure to comply with a filing
deadline is attributable to negligence.” Pioneer Inv.
Servs. Co. v. Brunswick Assocs. Ltd. P’ship, 507 U.S.
380, 394 (1993). “[T]he determination of excusable

452a
neglect is an equitable matter” that depends on
“several relevant factors: the risk of prejudice to the
non-movant, the length of delay, the reason for the
delay, including whether it was in control of the
movant, and whether the movant acted in good faith.”
FG Hemisphere Assocs., LLC v. Democratic Republic
of Congo, 447 F.3d 835, 838 (D.C. Cir. 2006) (citing
Pioneer, 507 U.S. at 395–397). “[A] party seeking
relief on grounds of excusable neglect” must also
“assert a potentially meritorious defense.” Id. at 842.
The burden of proving the right to relief under Rule
60(b)(1) rests on the movant seeking vacatur. See
Gates v. Syrian Arab Republic, 646 F.3d 1, 5 (D.C.
Cir. 2011).
On the facts of these cases, shouldering that
burden is a Herculean task. Consider first the length
of the delay. Even if one looks only at the most
recently filed of these cases, Opati, Sudan did not
enter an appearance until more than seventeen
months after the complaint and summons had been
served through diplomatic channels. See Letter from
William P. Fritzlen [Opati ECF No. 36] (service
effected on March 11, 2013); Notice of Appearance
[Opati ECF No. 49] (appearance by Asim A. Ghafoor
on August 21, 2014). But given the close relationship
among these cases, it is far too generous to Sudan to
measure the length of delay with reference to Opati.
A much fairer starting point would be the date of
Sudan’s second default in Owens, which the Clerk
entered on March 25, 2010. Clerk’s Entry of Default
[Owens ECF No. 173]. (And even that is likely too
generous, for in practice Sudan had stopped being a
responsible litigant in Owens years before.) Taking
March 25, 2010, as the starting point, Sudan was
absent from this litigation for just over four years,

453a
and it was only after nearly five years that Sudan
filed the first of these motions to vacate. This is an
extraordinary amount of delay. Sudan has not
pointed to a single case in which a delay of this
magnitude was found excusable.
Of course, turning to the next factor, a delay of
this length could be consistent with excusable neglect
if the reasons for the delay were sufficiently
compelling. The lack of actual knowledge of a lawsuit
or filing deadline can be a compelling reason, see 11
Charles Alan Wright et al., Federal Practice and
Procedure § 2858, at 333–37 (3d ed. 2012), but Sudan
has made no such claim. Nor could it. Sudan was
obviously aware of Owens—after its initial default, it
actively participated in that case before defaulting a
second time. Although Sudan did not participate in
any of the other six cases until after the entry of final
judgment, it was served with the complaint in each,
as well as with the Court’s 2011 liability opinion. And
as Sudan’s counsel conceded, “there’s no dispute
about service being proper.” Mot. Hr’g Tr. at 11:20.
Thus, Sudan was well aware of these cases and yet
did nothing.
Rather than lack of knowledge, Sudan offers two
other reasons for its delay, both of which are
contained in a declaration from Sudan’s ambassador
to the United States. Sudan first points to its
troubled domestic situation, noting that its absence
from this litigation
was principally during periods of wellknown civil unrest and political turmoil
in Sudan, in addition to times of natural
disaster wrought by heavy flooding . . . .
The cession of south Sudan and the

454a
attendant and protracted diplomatic
moves and negotiations completely preoccupied the Government of Sudan and
necessitated the diversion of all meager
legal and diplomatic personnel to that
process.
Khalid Decl. [Owens ECF No. 367-2] ¶ 4. Sudan also
claims an ignorance of American law, citing “a
fundamental lack of understanding in Sudan about
the litigation process in the United States, in
particular surrounding the limits of foreign sovereign
immunity and developments in that area of the law.”
Id. ¶ 5.
The Court finds neither of these proffered
justifications particularly persuasive. As for the first,
the Court will not deny that Sudan has experienced
serious turmoil over the past decade. Some of that
turmoil, however, has been of the Sudanese
government’s own making. See, e.g., Darfur Peace
and Accountability Act of 2006, Pub. L. No. 109-344, §
4(1), 120 Stat. 1869, 1873 (expressing Congress’s
sense that “the genocide unfolding in the Darfur
region of Sudan is . . . [occurring] with the complicity
and support of the National Congress Party-led
faction of the Government of Sudan”); Sudan
Accountability and Divestment Act of 2007, Pub. L.
No. 110-174, §§ 7–8, 121 Stat. 2516, 2522 (expressing
Congress’s sense that “the Government of Sudan . . .
continue[s] to oppress and commit genocide against
people in the Darfur region and other regions of
Sudan” and “refus[es] to allow the implementation of
a peacekeeping force in Sudan”).2 But even setting
2 See also President Bush’s Statement on Signing the Sudan
Accountability and Divestment Act of 2007, 43 Weekly Comp.

455a
the question of blame aside, the Court does not find
this an adequate reason. Domestic turmoil would
surely have justified requests by Sudan for
extensions of time in which to respond to the
plaintiffs’ filings. It would have also probably led the
Court to forgive late filings. And perhaps it would
have even justified a blanket stay of these cases. But
Sudan was not merely a haphazard, inconsistent, or
sluggish litigant during the years in question—it was
a complete and utter non-litigant. Sudan never
sought additional time or to pause any of these cases
in light of troubles at home. Sudan never even
advised the Court of those troubles at the time they
were allegedly preventing Sudan’s participation—not
through formal filings, and not through any letters or
other mode of communication with the Court. The
idea that the relevant Sudanese officials could not
find the opportunity over a period of years to send so
much as a single letter or email communicating
Sudan’s desire but inability to participate in these
cases is, quite literally, incredible. Sudan’s single,
vague paragraph of explanation simply does not
convince the Court.
In relying on its domestic troubles, Sudan
attempts to liken these cases to FG Hemisphere
Associates, in which the D.C. Circuit held that the
district court abused its discretion by denying Rule
60(b)(1) relief to the Democratic Republic of Congo
(DRC). See 447 F.3d at 839–43. But the factual gulf
between that case and these is unbridgeably wide. In
FG Hemisphere Associates, the DRC was a mere two
Pres. Doc. 1646 (Dec. 31, 2007) (“I share the deep concern of the
Congress over the continued violence in Darfur perpetrated by
the Government of Sudan and rebel groups.”).

456a
months late in responding to a motion to execute,
some of which delay was attributable to the movant’s
failure to translate the motion. Id. at 839–41. True,
the D.C. Circuit relied in part on the fact that the
DRC “was plainly hampered by its devastating civil
war,” id. at 841, but that hardly suggests that
Sudan’s domestic upheaval is a sufficient justification
here. Despite its devastating civil war, “the DRC
secured counsel only one day after receiving its first
actual notice, filing its motion to quash less than four
weeks later.” Id. at 840. Sudan, by contrast, did
absolutely nothing for years, while plainly aware of
the litigation. The DRC’s relatively minor lateness,
rectified by prompt efforts to respond, is a world
apart from Sudan’s years of knowing inaction.
Nor is the Court persuaded by Sudan’s alleged
lack of understanding of U.S. litigation. As a general
matter, it is true, courts should be mindful that
foreign sovereigns might not be familiar with our
judicial system or might misconceive the scope of
their immunity. See Practical Concepts, Inc. v.
Republic of Bolivia, 811 F.2d 1543, 1551 n.19 (D.C.
Cir. 1987). But see 11 Wright et al., supra, § 2858, at
352–55 & n.26 (noting that “ignorance of the law” is
generally not grounds for Rule 60(b)(1) relief). Indeed,
it was in part for this reason that the Court vacated
Sudan’s first default in Owens. See Owens I, 374 F.
Supp. 2d at 8–10. But the fundamental-ignorance
card cannot convincingly be played a second time,
especially not after hiring sophisticated U.S. legal
counsel, as Sudan did in 2004. Sudan’s more specific
claim that it was ignorant of “the limits of foreign
sovereign immunity and developments in that area of
the law,” Khalid Decl. ¶ 5, is hard to understand. The
claim would make sense if an early decision in Owens

457a
had indicated that Sudan was immune, but then a
later development that Sudan was conceivably
unaware of, such as the 2008 FSIA amendments, had
undermined that immunity. But that is not what
happened. Although the Owens I decision identified
deficiencies in the plaintiffs’ allegations, it clearly
indicated that Sudan might not be immune. See, e.g.,
374 F. Supp. 2d at 17 (“[I]t cannot be said at this
early stage of the proceedings that plaintiffs will be
unable to show that the Sudan defendants provided
material support to al Qaeda within the meaning of
the [FSIA] and that this support was a proximate
cause of the embassy bombings.”). By rejecting
Sudan’s FSIA-based arguments for dismissal, this
Court in Owens II and the D.C. Circuit in Owens III
put Sudan on even clearer notice that it might not be
immune. And this Court’s 2011 decision in Owens IV
renders Sudan’s claim of ignorance wholly untenable.
That decision, issued after the 2008 FSIA
amendments, definitively concluded that Sudan was
not immune and was liable in connection with the
embassy bombings. That decision, moreover, was
translated into Arabic and delivered to Sudan
through diplomatic channels on September 11, 2012.
See Letter from William P. Fritzlen [Owens ECF No.
282]. If an honestly held but mistaken conception of
its immunity had truly been the reason Sudan was
not participating in these cases, Owens IV should
have spurred it to action. Instead, Sudan did nothing
for more than 19 months.
In light of the foregoing, the Court is by no means
persuaded that Sudan has behaved in good faith.
That is, the Court is not convinced that Sudan would
have participated in the prejudgment proceedings if
only circumstances had been more favorable. Viewing

458a
the entire history of the litigation, it seems more
likely that Sudan chose (for whatever reason) to
ignore these cases over the years, changing course
only when the final judgments saddled it with
massive liability. A defendant who disputes a federal
court’s jurisdiction is free to take this approach,
letting a default judgment be entered and raising his
objection only in subsequent proceedings. See
Practical Concepts, 811 F.2d at 1547. But he must
accept the consequences of that choice: “If he loses on
the jurisdictional issue . . . his day in court is
normally over; as a consequence of deferring the
jurisdictional challenge, he ordinarily forfeits his
right to defend on the merits.” Id. To be clear, the
Court is not calling into question the current good
faith of the Sudanese officials who have now decided
to defend these cases. But the question is not whether
Sudan now wishes to participate fully—or now
wishes it had done so all along—but rather whether
it was acting in good faith during the years of
inaction. Given how long-lasting and complete that
inaction was, and how weak Sudan’s proffered
explanations are, the Court cannot conclude that
Sudan acted in good faith.
Turning to the final factor, vacatur would pose a
real risk of prejudice to the plaintiffs, Sudan’s blithe
assertion to the contrary notwithstanding. There is,
to start, the time and money the plaintiffs have spent
litigating these cases in Sudan’s absence, much of
which will have been wasted if Sudan now gets a
mulligan. For example, much of the plaintiffs’ efforts
preparing for and conducting the 2010 liability
hearing will have been for naught—a serious waste
that could have been avoided by Sudan’s timely
participation. Sudan’s suggestion that the hearing

459a
will not have been wasted because it also addressed
Iran’s misconduct, and the default judgment against
Iran will remain, is unpersuasive. Throwing half a
ripe apple in the garbage may be less wasteful than
tossing the whole thing, but wasteful it remains.
More troubling than the pointless loss of the
plaintiffs’ resources, however, is the fact that the
delay would surely make it harder for them to prove
their case going forward. “[L]itigation is better
conducted when the dispute is fresh and additional
facts may, if necessary, be taken without a
substantial risk that witnesses will die or memories
fade.” Sibron v. New York, 392 U.S. 40, 57 (1968); see
also Wilson v. Garcia, 471 U.S. 261, 271 (1985) (“Just
determinations of fact cannot be made when, because
of the passage of time, the memories of witnesses
have faded or evidence is lost.”). The years of delay
spawned by Sudan’s nonparticipation presents a
serious likelihood of lost witnesses, memories, and
documentary evidence, to the detriment of the
plaintiffs, who bear the burden of proof on the merits.
Finally, a number of plaintiffs have in fact died
during the course of this litigation, and others might
die during the years it would take to relitigate these
cases. See Ndeda Aff. [Amduso ECF No. 288-14].
Hence, there is sufficient danger of prejudice that
this factor, like the others, weighs against Sudan.
In sum, Sudan has failed to carry its burden of
showing that its failure to participate was the result
of excusable neglect. The Court doubts that Sudan’s
nonparticipation was a matter of neglect at all—as
opposed to a matter of choice, whether wellconsidered or reckless. But if indeed neglect, then
that neglect—so complete and so enduring—was
inexcusable. (Accordingly, the Court need not address

460a
whether Sudan has “assert[ed] a potentially
meritorious defense.” FG Hemisphere Assocs., 447
F.3d at 842.) Insofar as they rely on Rule 60(b)(1),
therefore, Sudan’s motions to vacate the judgments
are denied.
Equally unavailing is Sudan’s argument that its
years of domestic turmoil justify vacating the
judgments under Rule 60(b)(6), which permits
vacatur for “any other reason that justifies relief.”
Sudan makes this argument most clearly in Mwila
and Khaliq, see, e.g., Mem. Supp. Mot. to Vacate
[Mwila ECF No. 121-1] (“Sudan’s Mwila Mem.”) at
13–15, though it makes a perfunctory version in the
other cases as well, see, e.g., Sudan’s Aliganga Mem.
at 35–36. The Court is hard pressed to see how this
argument is anything but a rehash of Sudan’s Rule
60(b)(1) argument for excusable neglect. With respect
to Mwila and Khaliq, therefore, it is not only
unpersuasive but time-barred—for Rule 60(b)’s
“provisions are mutually exclusive, and thus a party
who failed to take timely action due to ‘excusable
neglect’ may not seek relief more than a year after
the judgment by resorting to subsection (6).” Pioneer,
507 U.S. at 393.
Moreover, Sudan points to no precedent for Rule
60(b)(6) relief under circumstances like these.
Sudan’s primary reliance on Ungar v. Palestine
Liberation Organization, 599 F.3d 79 (1st Cir. 2010),
is puzzling. The defendants in that case, forsaking
any argument for excusable neglect, “freely
admit[ted] that the default judgment resulted from
their deliberate strategic choice,” but “insist[ed] that
they [had] had a good-faith change of heart” and
wished to present their defenses, circumstances they

461a
thought justified relief under Rule 60(b)(6). 599 F.3d
at 85–86. Sudan has made no admission of a
deliberate choice, and doing so would flatly contradict
its primary claim of excusable neglect, as Ungar itself
teaches. See id. at 85 (“willfulness . . . is directly
antagonistic to a claim premised on any of the
grounds specified in [Rule 60(b)(1)]”). What does
Sudan mean, then, when it says that it too has had a
“good-faith change of heart”? Sudan’s Mwila Mem. at
13 (quoting Ungar, 599 F.3d at 86). Isn’t Sudan’s
position that its heart has been in the right place all
along, just not its resources? In any event, even if
Sudan’s Rule 60(b)(6) argument could be fit into
Ungar’s mold without contradicting Sudan’s claim of
excusable neglect, the court in Ungar did not—
contrary to Sudan’s misreading of the case—“vacat[e
the] default judgment under Rule 60(b)(6).” Sudan’s
Aliganga Mem. at 36. The First Circuit held in Ungar
that the denial of the defendants’ Rule 60(b)(6)
motion had rested on an erroneous categorical rule,
but it did not say that the motion should have been
granted. 599 F.3d at 87 & n.6.
Here, the Court does not rely on the categorical
rule disapproved in Ungar. It instead rejects Sudan’s
Rule 60(b)(6) argument because, first, it appears
simply to reiterate Sudan’s (already rejected) Rule
60(b)(1) argument. And to the extent it can be
construed as a distinct argument, it is simply
unconvincing and unsupported by factually apposite
precedent. Relief under Rule 60(b)(6) requires the
existence of “extraordinary circumstances.” Gonzalez
v. Crosby, 545 U.S. 524, 536 (2005). “In a vast
majority of the cases finding that extraordinary
circumstances do exist so as to justify relief, the
movant is completely without fault for his or her

462a
predicament; that is, the movant was almost unable
to have taken any steps that would have resulted in
preventing the judgment from which relief is sought.”
12 James Wm. Moore et al., Moore’s Federal Practice
§ 60.48[3][b] (3d ed. 2015). For the reasons already
discussed, Sudan cannot possibly be deemed
“completely without fault”—not for its own domestic
turmoil, and certainly not for its predicament in this
litigation.
RULE 60(B)(4): THE BOMBINGS WERE ACTS OF
EXTRAJUDICIAL KILLING
Although Rule 60(b) speaks of grounds on which a
court “may” grant relief from a final judgment, relief
from a void judgment under Rule 60(b)(4) is not
discretionary. Bell Helicopter Textron, Inc. v. Islamic
Republic of Iran, 734 F.3d 1175, 1179 (D.C. Cir.
2013). “Under [Rule 60(b)(4)], the only question for
the court is whether the judgment is void; if it is,
relief from it should be granted.” Austin v. Smith, 312
F.2d 337, 343 (D.C. Cir. 1962). In this circuit, a
judgment is void within the meaning of Rule 60(b)(4)
“whenever the issuing court lacked [subject-matter]
jurisdiction.” Bell Helicopter, 734 F.3d at 1180.3 And
because under the FSIA subject-matter jurisdiction
Other circuits, by contrast, hold “that a lack of subject
matter jurisdiction will not always render a final judgment
‘void.’ Only when the jurisdictional error is ‘egregious’ will
courts treat the judgment as void” under Rule 60(b)(4). United
States v. Tittjung, 235 F.3d 330, 335 (7th Cir. 2000); see also
United Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260, 271
(2010) (“Federal courts considering Rule 60(b)(4) motions that
assert a judgment is void because of a jurisdictional defect
generally have reserved relief only for the exceptional case in
which the court that rendered judgment lacked even an
‘arguable basis’ for jurisdiction.”).
3

463a
exists where immunity is absent, and is absent where
immunity exists, Sudan can raise a range of
arguments concerning its sovereign immunity under
Rule 60(b)(4).
The first and most expansive of these
jurisdictional arguments is that the embassy
bombings were not acts of “extrajudicial killing”
within the meaning of the FSIA. Section 1605A
provides, in relevant part, that a foreign state is not
immune from a suit
in which money damages are sought
against a foreign state for personal
injury or death that was caused by an
act of torture, extrajudicial killing,
aircraft sabotage, hostage taking, or the
provision of material support or
resources for such an act if such act or
provision of material support or
resources is engaged in by an official,
employee, or agent of such foreign state
while acting within the scope of his or
her office, employment, or agency.
28 U.S.C. § 1605A(a)(1) (emphasis added). The
plaintiffs’ theory of jurisdiction has always been that
the bombings were acts of extrajudicial killing for
which Sudan provided material support or resources.
Sudan of course denies that it provided such support,
but it now also denies that the bombings qualify as
extrajudicial killings. And if that contention were
correct, § 1605A would not eliminate Sudan’s
immunity even if Sudan had provided vital support to
al Qaeda’s attacks, or even if it had carried out the
bombings directly. If the bombings were not acts of
extrajudicial killing, then, all eight judgments must

464a
be vacated in full and all of these cases dismissed.
The Court concludes, however, consistent with all the
FSIA precedent it has found, that the bombings
qualify as acts of extrajudicial killing within the
meaning of the statute.
“Extrajudicial killing” is a defined term in the
FSIA. For purposes of § 1605A, “the terms ‘torture’
and ‘extrajudicial killing’ have the meaning given
those terms in section 3 of the Torture Victim
Protection Act of 1991” (TVPA). 28 U.S.C. §
1605A(h)(7).4 Section 3 of the TVPA in turn specifies
that
the term “extrajudicial killing” means a
deliberated killing not authorized by a
previous judgment pronounced by a
regularly constituted court affording all
the judicial guarantees which are
recognized as indispensable by civilized
peoples. Such term, however, does not
include any such killing that, under
international law, is lawfully carried out
under the authority of a foreign nation.
Pub. L. No. 102-256, § 3(a), 106 Stat. 73, 73 (codified
at 28 U.S.C. § 1350 note). On its face, this definition
encompasses the embassy bombings. First and most
obviously, the bombings were “killing[s].” They were
also “deliberated”: it is clear from the careful timing
and magnitude of the bombings that the killers
planned their actions carefully and intended those
actions to result in death. See, e.g., Mamani v.
Berzain, 654 F.3d 1148, 1155 (11th Cir. 2011)
The same definition of “extrajudicial killing” existed under
the now repealed § 1605(a)(7). See 28 U.S.C. § 1605(e)(1) (2006).
4

465a
(deliberated killing is one “undertaken with studied
consideration and purpose”). The killings were
plainly not authorized by the judgment of any court.
And, finally, there is no suggestion that these killings
were permissible under international law. Numerous
district court decisions in this circuit have followed
this basic reasoning to conclude that similar terrorist
bombings were extrajudicial killings under the FSIA.
See, e.g., Ben-Rafael v. Islamic Republic of Iran, 540
F. Supp. 2d 39, 53 (D.D.C. 2008); Blais v. Islamic
Republic of Iran, 459 F. Supp. 2d 40, 53 (D.D.C.
2006); Salazar v. Islamic Republic of Iran, 370 F.
Supp. 2d 105, 113 (D.D.C. 2005).
In Sudan’s view, however, these decisions are all
mistaken. For, according to Sudan, there is more to
the term “extrajudicial killing” than the statutory
definition in the TVPA. Specifically, “[t]he language
and context of the definition of ‘extrajudicial killing’
in the TVPA indicates that Congress intended to
adopt the international law meaning of that term.”
Sudan’s D.C. Cir. Br. at 19. And that “international
law meaning,” Sudan continues, does not encompass
bombings like these for two reasons: it covers only
killings by state actors, and it does not include
“broad-based terrorist attack[s].” Id. at 16, 22; see
also Consolidated Reply Mem. [Owens ECF No. 378]
(“Reply”) at 5 (“‘extrajudicial killing’ does not
encompass terrorist bombings”).
The Court parts ways with Sudan at the first step.
Section 3 of the TVPA defines “extrajudicial killing”
the way it defines “extrajudicial killing.” It does not
secretly adopt by reference some different definition
that is broader or narrower than the definition in its
text. “Statutes are law, not evidence of law,” much

466a
less evidence of meaningfully different law. Matter of
Sinclair, 870 F.2d 1340, 1343 (7th Cir. 1989). (And it
is hard to see why Sudan spends pages and pages
establishing its “international law meaning” premise
unless it thinks that meaning is advantageously
different from the statutory definition.) It may be, as
some legislative history suggests, that the drafters of
the TVPA believed that their statutory definition was
consistent with the international law understanding
of the term “extrajudicial killing.” See S. Rep. No.
102-249, at 6 (1991); H.R. Rep. No. 102-367, at 4
(1991). But that justifies, at most, turning to
international law to help clarify any ambiguous
terms in the statutory definition—not turning to
international law instead of the statutory definition.
If, for instance, international law did not in fact
always require extrajudicial killings to be
“deliberated,” it would nonetheless be the case that
only “deliberated” killings are actionable under the
TVPA and § 1605A of the FSIA. “When a statute
includes an explicit definition, [courts] must follow
that definition, even if it varies from that term’s
ordinary meaning,” Stenberg v. Carhart, 530 U.S.
914, 942 (2000), or its meaning in another legal
context, see, e.g., Burgess v. United States, 553 U.S.
124, 129–30 (2008).
The fact that the second sentence of the definition
excludes killings that are lawful “under international
law” does not alter this conclusion. Indeed, it shows
that when Congress wants to incorporate
international law directly into U.S. law, without
further distillation or qualification, it says so. The
FSIA itself provides another example, eliminating
foreign sovereign immunity in certain cases where
“rights in property taken in violation of international

467a
law are in issue.” 28 U.S.C. § 1605(a)(3). Thus, the
way the TVPA (or the FSIA) would indicate that
“extrajudicial killing” means whatever it means in
international law is by saying precisely that. Cf. 18
U.S.C. § 1651 (punishing with life imprisonment “the
crime of piracy as defined by the law of nations”); 18
U.S.C. § 2339C(e)(14) (“the term ‘state’ has the same
meaning as that term has under international law”).
Hence, whatever the international law definition
of “extrajudicial killing,” there is no requirement
under the FSIA that the killers be state actors.5
Section 1605A of the FSIA says that “extrajudicial
killing” has the meaning given in section 3 of the
TVPA, and section 3 of the TVPA is devoid of any
state-actor requirement. It would be no more
appropriate for the Court to add a new requirement
to the definition than to delete an existing one. Jama
v. Immigration & Customs Enf’t, 543 U.S. 335, 341
Sudan has not even made a compelling case that the
international law definition demands state actors. For instance,
Sudan points to the definition of “extrajudicial killing” found in
the U.N. Terminology Database. See Sudan’s D.C. Cir. Br. at 18.
But that definition does not include a state-actor requirement,
and in fact encompasses “[k]illings committed . . . by vigilante
groups.”
U.N.
Terminology
Database,
http://untermportal.un.org/UNTERM/display/Record/UNHQ/ext
ra-legal_execution/c253667 (last visited Mar. 23, 2016). Sudan
also discusses the work of the U.N. Special Rapporteur on
Summary or Arbitrary Executions. See Sudan’s D.C. Cir. Br. at
16–18. The Special Rapporteur has not reported only on killings
by state actors. Indeed, the Special Rapporteur from 2004 to
2010 has compiled an online “Handbook” that contains an entire
chapter on “Killings by non-state actors and affirmative State
obligations.” Project on Extrajudicial Executions, UN Special
Rapporteur
on
Extrajudicial
Executions
Handbook,
http://www.extrajudicialexecutions.org/LegalObservations.html
(last visited Mar. 23, 2016).
5

468a
(2005) (“We do not lightly assume that Congress has
omitted from its adopted text requirements that it
nonetheless intends to apply . . . .”); 62 Cases, More
or Less, Each Containing Six Jars of Jam v. United
States, 340 U.S. 593, 596 (1951) (“Congress expresses
its purpose by words. It is for us to ascertain—neither
to add nor to subtract, neither to delete nor to
distort.”). It is true that liability under the TVPA
itself is limited to those who act “under actual or
apparent authority, or color of law, of any foreign
nation,” but that limitation is not part of the
definition of “extrajudicial killing” in section 3, but is
rather part of the cause of action in section 2. TVPA
section 2(a), 28 U.S.C. § 1350 note. Had Congress
wished to limit extrajudicial killings under the FSIA
to those perpetrated directly by state actors, it could
have cross-referenced both TVPA sections. But it did
not. First in 1996, and again in 2008, Congress
incorporated only TVPA section 3. See 28 U.S.C. §
1605A(h)(7) (enacted 2008); 28 U.S.C. § 1605(e)(1)
(enacted 1996, repealed 2008); cf. Sudan’s D.C. Cir.
Br. at 50 (“Where Congress knows how to say
something but chooses not to, its silence is
controlling.” (internal quotation marks omitted)).
The absence of a state-actor requirement is also
consistent with § 1605A’s removal of immunity not
only when a defendant state is responsible for an
extrajudicial killing, but also when it is responsible
for “the provision of material support or resources for
such an act.” 28 U.S.C. § 1605A(a)(1). Congress
clearly wanted to permit liability both when states
themselves perpetrate the predicate acts and also
when they help others do so. And the most obvious
actors that Congress would worry might receive
material support from designated state sponsors of

469a
terrorism (which are the only states covered by §
1605A) are non-state terrorist organizations. The
Court does not mean to say that Sudan’s
interpretation would actually render statutory text
meaningless. But it is more consonant with the
overall thrust of § 1605A—namely, to render
designated state sponsors of terrorism liable for
directly perpetrating or materially supporting the
predicate acts—not to import an extra-textual stateactor requirement into the definition of “extrajudicial
killing.”
What of Sudan’s contention that, even apart from
the state-actor issue, a terrorist bombing just cannot
be an extrajudicial killing? Even if the Court accepted
Sudan’s “international law meaning” premise, Sudan
has not provided an authoritative international law
definition of “extrajudicial killing” that clearly
excludes these bombings. Sudan says that under
international law “extrajudicial killing” means
“summary execution,” Sudan’s D.C. Cir. Br. at 19, but
offering a synonym does not advance the analysis.
Sudan’s papers nowhere identify exactly what it is
that puts the bombings outside the scope of either
term. At the motions hearing, Sudan’s counsel had to
concede (what seems obvious to the Court) that it
cannot be the mere fact that the weapon used was a
bomb. Mot. Hr’g Tr. at 32:10–11. Counsel also
conceded (what again seems obvious) that it cannot
be the mere fact of multiple victims. Id. at 32:15–17.
The bottom-line objection seemed to be that a
bombing of this sort “is indiscriminate in its killing of
individuals.” Id. at 32:21–24; see also id. at 35:11–14
(contending that “[e]xtrajudicial killing” and
“[i]ndiscriminate terrorism bombing” are “at opposite

470a
ends of [a] spectrum”).6 Put otherwise, and with far
more precision than Sudan has provided, the alleged
problem is that the bombers did not know whom
exactly they would kill and could not be certain that
any specific individual would die.
The Court is unconvinced, however, that this
characteristic precludes an act of killing from being
an act of “extrajudicial killing” within the meaning of
§ 1605A. The statutory definition does not contain a
precision-targeting
element.
Sudan’s
counsel
suggested for the first time at the motions hearing
that this notion inheres in the word “deliberated.”
Mot. Hr’g Tr. at 33:13–15; see TVPA section 3(a), 28
U.S.C. § 1350 note (“[T]he term ‘extrajudicial killing’
means a deliberated killing . . . .”). The Court
disagrees. A “deliberated” killing is simply one
undertaken with careful consideration, not on a
sudden impulse. See, e.g., Webster’s Third New
International Dictionary 596 (1993) (“deliberate”: “to
ponder or think about with measured careful
consideration and often with formal discussion before
reaching a decision or conclusion”); 4 The Oxford
English Dictionary 414 (2d ed. 1989) (“deliberated”:
“Carefully weighed in the mind”); Black’s Law
Dictionary 492 (9th ed. 2009) (“deliberation”: “The act
of carefully considering issues and options before
making a decision or taking some action”); see also,
e.g., State v. Hamlet, 321 S.E.2d 837, 842–43 (N.C.
1984) (“Deliberation means an intent to kill carried
out by the defendant in a cool state of blood, in
furtherance of a fixed design for revenge or to
accomplish an unlawful purpose and not under the
Readers are invited to try to find a clear enunciation of this
point anywhere in Sudan’s filings.
6

471a
influence of a violent passion, suddenly aroused by
lawful or just cause or legal provocation.”); People v.
Dykhouse, 345 N.W.2d 150, 154 (Mich. 1984)
(“Deliberate means that the defendant must have
considered the pros and cons of that design and have
measured and chosen his actions. The intent must be
formed by a mind that is free from undue excitement.
This excludes acts done on a sudden impulse without
reflection.” (quoting jury instructions with approval)).
The killings here were obviously the product of
deliberation. No one can seriously doubt that the
bombers carefully planned their attack with the goal
and expectation of killing those in and around the
embassies. No, they did not look their victims in the
eye, nor could they have produced a list of names of
those who would perish, but their killings were
nonetheless deliberated.
In addition to its unpersuasive argument about
what § 1605A does say, Sudan makes an argument
about what it does not. These bombings do not come
within § 1605A, the argument goes, because § 1605A
“does not include ‘terrorism’ as a predicate act.”
Sudan’s D.C. Cir. Br. at 26. Sudan explains that in
the early 1990s Congress considered adding a broad
“international terrorism” exception to the FSIA but
decided against it, instead confining the new
immunity exception to the four predicate acts of
torture, extrajudicial killing, hostage taking, and
aircraft sabotage. See id. at 22–25 (citing S. 825, 103d
Cong. (1993)). To read “extrajudicial killing” as
encompassing terrorist bombings, Sudan argues,
would effectively nullify Congress’s decision not to
enact the broader statute. Mot. Hr’g Tr. at 36:12–21.
Moreover, says Sudan, there is a federal statute that
creates a cause of action for victims of terrorism: the

472a
Anti-Terrorism Act (ATA), 18 U.S.C. § 2331 et seq.
That act was even amended in 2002 to specifically
cover bombings, including bombings of U.S.
embassies and consulates. See 18 U.S.C. §
2332f(b)(2)(E). The ATA illustrates how Congress
creates liability for terrorist bombings, Sudan argues,
but it specifically excludes foreign states from
liability. See id. § 2337. According to Sudan, the
logical inference to be drawn is that Congress does
not intend the FSIA to permit liability for terrorist
bombings like these. Sudan’s D.C. Cir. Br. at 26–29.
As to the basic point, the Court cannot disagree
with Sudan: § 1605A does not contain an immunity
exception for acts of “terrorism.” Nor did its
predecessor, § 1605(a)(7). A plaintiff trying to sue
under § 1605A on the theory that a foreign state’s
conduct amounted to “terrorism” is out of luck. But
Sudan’s conclusion does not follow. That § 1605A does
not include “terrorism” does not mean that it excludes
everything that could be called (or meet some legal
definition of) “terrorism.” For the past fifteen years it
has been hard to think of a more quintessential act of
terrorism than the purposeful destruction of a
passenger aircraft in flight—yet such an act is
manifestly covered by § 1605A. That it is “terrorism”
is irrelevant; all that matters is that it is “aircraft
sabotage” within the meaning of § 1605A. See 28
U.S.C. § 1605A(h)(1) (incorporating Article 1 of the
Convention for the Suppression of Unlawful Acts
Against the Safety of Civil Aviation). The same logic
applies to any act that a plaintiff claims is an
extrajudicial killing under § 1605A. If it falls within
the statutory definition, it is; if it doesn’t, it isn’t. For
the reasons already explained, these bombings fit
within the FSIA’s definition of “extrajudicial killing.”

473a
That they can also be called “terrorism” does not pull
them out. To give such an immunity-expanding effect
to the label “terrorism” is especially perverse when
one remembers that the very reason a foreign state is
even subject to the immunity exceptions in § 1605A is
that the Secretary of State has determined that its
government “has repeatedly provided support for acts
of international terrorism”—i.e., is a state sponsor of
terrorism. 28 U.S.C. § 1605A(h)(6).
Although the foregoing suffices to explain the
Court’s conclusion that the bombings were acts of
extrajudicial killing under § 1605A, the Court’s
conviction is bolstered by another principle: “If a
statute uses words or phrases that have already
received
authoritative
construction
by
the
jurisdiction’s court of last resort, or even uniform
construction by inferior courts or a responsible
administrative agency, they are to be understood
according to that construction.” Antonin Scalia &
Bryan A. Garner, Reading Law 322 (2012) (emphasis
added). The FSIA exception for extrajudicial killings
was first enacted in 1996, in § 1605(a)(7). Over the
next twelve years, numerous district court decisions
from this circuit (where the vast majority of §
1605(a)(7) litigation occurred) held that terrorist
bombings could be extrajudicial killings under the
FSIA. And among the cases in which they did so were
a number that involved some of the most infamous
terrorist attacks of the late 20th century: the 1983
bombing of the U.S. embassy in Beirut,7 the 1983
Dammarell v. Islamic Republic of Iran, 281 F. Supp. 2d
105, 192 (D.D.C. 2003), vacated in part on other grounds by
Dammarell v. Islamic Republic of Iran, 404 F. Supp. 2d 261
(D.D.C. 2005); Salazar v. Islamic Republic of Iran, 370 F. Supp.
2d 105, 113 (D.D.C. 2005).
7

474a
bombing of the U.S. Marine barracks in Beirut,8 the
1984 bombing of the U.S. embassy annex in East
Beirut,9 the 1992 bombing of the Israeli embassy in
Buenos Aires,10 the 1996 Khobar Towers bombing,11
and the 1998 embassy attacks at issue here.12 And a
federal court in Virginia likewise held that victims of
the 2000 bombing of the U.S.S. Cole could sue under
§ 1605(a)(7).13 True, as Sudan notes, in none of these
cases did the foreign sovereign contest the meaning of
“extrajudicial killing.” But that is irrelevant for
present purposes. The point is that by 2008 the
unmistakable and unanimous judicial reading of §
1605(a)(7)—even if not the product of adversarial
litigation—was that its use of “extrajudicial killing”
encompassed terrorist bombings of this kind.
This reading was hardly hidden from Congress.
Indeed, in 2000, Congress passed a statute that
provided a compensation scheme for certain
individuals who “held a final judgment for a claim or
Peterson v. Islamic Republic of Iran, 264 F. Supp. 2d 46, 61
(D.D.C. 2003).
8

9 Wagner v. Islamic Republic of Iran, 172 F. Supp. 2d 128,
133 (D.D.C. 2001)

Ben-Rafael v. Islamic Republic of Iran, 540 F. Supp. 2d 39,
53 (D.D.C. 2008)
10

Blais v. Islamic Republic of Iran, 459 F. Supp. 2d 40, 53
(D.D.C. 2006).
11

Owens II, 412 F. Supp. 2d 99, 104–06 & nn.9–11 (D.D.C.
2006).
13 Rux v. Republic of Sudan, 2005 WL 2086202, at *13 (E.D. Va.
Aug. 26, 2005), aff’d in part, appeal dismissed in part, 461 F.3d 461 (4th
Cir. 2006). The court in Rux did not discuss the meaning of “extrajudicial
killing,” but because the elements of § 1605(a)(7) were jurisdictional—as
the court recognized—it implicitly concluded that the bombing met the
definition of the term.
12

475a
claims brought under section 1605(a)(7) of title 28,”
as well as for plaintiffs who had “filed a suit under
such section 1605(a)(7) on” five specific dates. Victims
of Trafficking and Violence Protection Act of 2000,
Pub. L. No. 106-386, § 2002(a)(2)(A), 114 Stat. 1464,
1542. One of the cases specifically identified by filing
date concerned the death of a U.S. Marine in the
1984 bombing of the U.S. embassy annex in East
Beirut. See id. (listing “July 27, 2000”); Wagner v.
Islamic Republic of Iran, 172 F. Supp. 2d 128 (D.D.C.
2001) (filed July 27, 2000). And, as the accompanying
Conference Report noted, two of the covered §
1605(a)(7) cases that had already gone to final
judgment involved suicide bombings of buses in Israel
that had been deemed extrajudicial killings. See H.R.
Rep. No. 106-939, at 116 (2000) (Conf. Rep.) (noting
the cases of Alisa Flatow and of Matthew Eisenfeld
and Sara Duker). A victim of one of those bombings
was Alisa Flatow, whose death inspired the creation
of the federal cause of action linked to § 1605(a)(7)
(discussed earlier, see supra p. 6), which became
known in courts and Congress alike as the “Flatow
Amendment.” See, e.g., Price v. Socialist People’s
Libyan Arab Jamahiriya, 294 F.3d 82, 87 (D.C. Cir.
2002); 150 Cong. Rec. 24,003 (2004) (statement of
Sen. Specter); 153 Cong. Rec. 22,665 (2007)
(statement of Sen. Lautenberg); see also 144 Cong.
Rec. 3339 (1998) (statement of Rep. Saxton)
(describing the origins of the provision). Furthermore,
press coverage, legal commentary, and government
reports also made clear that § 1605(a)(7) had
repeatedly been interpreted to encompass terrorist
bombings. See, e.g., Carol D. Leonnig, Damages
Awarded In Beirut Bombing; Judge Says Iran Backed
’83 Attack, Wash. Post, Sept. 9, 2003, at A4; Jennifer

476a
K. Elsea, Cong. Research Serv., RL31258, Suits
Against Terrorist States By Victims of Terrorism 8
n.24, 13 n.42, 17 n.53, 21 n.62, 43 (2005) (discussing
bombing cases).
In light of this history, the 2008 FSIA
amendments take on added significance. In those
amendments, Congress deleted § 1605(a)(7) and
enacted the new § 1605A, and in doing so it chose to
use the same language to define the same four
predicate acts that § 1605(a)(7) had covered. That is,
it used the same language that anyone who had paid
the slightest attention would know had been
universally read as reaching terrorist bombings. It is
fair to say, then, that by choosing to reuse in § 1605A
the exact terms and definitions from § 1605(a)(7),
Congress implicitly ratified the courts’ prior
construction of “extrajudicial killing.” It might be
unusual for a ratification argument to rest on district
court decisions, but it is not impossible. See Scalia &
Garner, supra, at 325. And because FSIA terrorism
cases are more likely than most to actually become
known to Congress—given the notoriety of the
underlying events, the magnitude of the judgments,
and the potential diplomatic repercussions—this is a
context in which prior construction even by district
courts deserves serious weight. The history of §
1605A thus strengthens the Court’s view that these
bombings qualify as acts of “extrajudicial killing”
within the meaning of the statute.
One final point regarding “extrajudicial killing.”
In some of its motions to vacate (though not in its
reply or D.C. Circuit brief), Sudan makes a cryptic
argument, the gist of which seems to be that
plaintiffs who did not die cannot sue under § 1605A

477a
because their injuries “were not ‘caused by’ the
‘extrajudicial killing’ of others.” Sudan’s Aliganga
Mem. at 21. Sudan also suggests it would be “absurd”
for “an injured person’s ability to bring a claim [to
turn] on the happenstance of whether others were
killed in the bombing.” Id. Both parts of this
argument are misguided. First, § 1605A covers
“personal injury or death that was caused by an act of
. . . extrajudicial killing,” 28 U.S.C. § 1605A(a)(1)
(emphasis added), and the same act of killing one
person can quite obviously injure another. See, e.g.,
Death of a Terrorist, Time, Feb. 5, 1979, at 111
(noting that the car-bomb assassination of Black
September leader Ali Hassan Salameh wounded 18
bystanders). And there is nothing absurd about
eliminating immunity only for those acts that
actually cause death, for those are likely to be the
most
heinous.
Moreover,
Sudan’s
proffered
“absurdity” would exist even under its own narrow
view of “extrajudicial killing”: the estate of an
individual killed by the bullet of a state-employed
assassin can sue, yet if the same individual
miraculously survives, but suffers terrible injuries, he
cannot. The fact that the statute draws a line that
will not always appear just does not make it absurd.
In sum, the Court remains convinced that these
bombings qualify as acts of “extrajudicial killing”
within the meaning of § 1605A, and thus that the
Court did not lack subject-matter jurisdiction for this
reason.
RULE 60(B)(4): THE PLAINTIFFS’ CLAIMS WERE TIMELY
FILED
Subsection (b) of § 1605A, entitled “Limitations,”
provides:

478a
An action may be brought or maintained
under this section if the action is
commenced, or a related action was
commenced under section 1605(a)(7) (before
the date of the enactment of this section) . .
. not later than the latter of—
(1) 10 years after April 24, 1996; or
(2) 10 years after the date on which the
cause of action arose.
28 U.S.C. § 1605A(b). Sudan contends that the
Khaliq, Aliganga, and Opati plaintiffs—who filed
their actions in March 2010 (Khaliq) and July 2012
(Aliganga and Opati)—did not comply with this
statute of limitations because their actions were filed
more than 10 years after the 1998 bombings and
there is no timely “related action” they can rely on.
Sudan further argues that the statute of limitations
is jurisdictional, and so the untimeliness of these
claims is grounds for relief under Rule 60(b)(4). The
Court disagrees with Sudan on both points.
A. Section 1605A(b) Is Not Jurisdictional
First, the Court is unpersuaded that the statute of
limitations in § 1605A(b) is jurisdictional. The
Supreme Court has recently reiterated that “most
time bars are nonjurisdictional.” United States v.
Wong, 135 S. Ct. 1625, 1632 (2015) (holding statute of
limitations
in
Federal
Tort
Claims
Act
nonjurisdictional). Indeed, courts should “treat a time
bar as jurisdictional only if Congress has clearly
stated that it is.” Musacchio v. United States, 136 S.
Ct. 709, 717 (2016) (internal quotation marks
omitted). There is no clear statement here. “Although
[§ 1605A(b)] uses mandatory language, it does not

479a
expressly refer to subject-matter jurisdiction or speak
in jurisdictional terms.” Id. True, § 1605A(b) follows
subsection (a), which does speak to subject-matter
jurisdiction, but “[m]ere proximity will not turn a rule
that speaks in nonjurisdictional terms into a
jurisdictional hurdle.” Gonzalez v. Thaler, 132 S. Ct.
641, 651 (2012). And other subsections of § 1605A,
most notably subsection (c), plainly do not concern
subject-matter jurisdiction, so the mere fact that the
statute of limitations is located within § 1605A is not
a clear statement of its jurisdictional character.
Finally, there is no long history of this provision
being treated as jurisdictional.14 See Worley v.
Islamic Republic of Iran, 75 F. Supp. 3d 311, 330–31
(D.D.C. 2014); cf. John R. Sand & Gravel Co. v.
United States, 552 U.S. 130, 134–139 (2008) (holding
statute of limitations in Tucker Act jurisdictional
primarily because a “long line of earlier cases” had
already so held). In arguing otherwise, Sudan leans
heavily on a statement in a D.C. Circuit opinion that
§ 1605A(b)’s predecessor, § 1605(f),15 was
“contain[ed]” in a “jurisdictional provision.” Simon v.
Candor compels the Court to acknowledge that in a 2009
order it concluded that the limitations period in § 1605A(b) was
jurisdictional. See Order of Oct. 26, 2009, Khaliq v. Republic of
Sudan, No. 04-1536 [ECF No. 35] at 3. But several intervening
decisions from higher courts, most notably United States v.
Wong, 135 S. Ct. 1625 (2015), and Van Beneden v. Al-Sanusi,
709 F.3d 1165 (D.C. Cir. 2013), have convinced the Court to
rethink its analysis.
14

“No action shall be maintained under [§ 1605(a)(7)] unless
the action is commenced not later than 10 years after the date
on which the cause of action arose. All principles of equitable
tolling, including the period during which the foreign state was
immune from suit, shall apply in calculating this limitation
period.” 28 U.S.C. § 1605(f) (repealed 2008).
15

480a
Republic of Iraq, 529 F.3d 1187, 1194 (D.C. Cir. 2008)
(“The jurisdictional provision upon which the
plaintiffs rely contains a limitation period.”), rev’d on
other grounds sub nom. Republic of Iraq v. Beaty, 556
U.S. 848 (2009); see Sudan’s Aliganga Mem. at 5–6.
But Simon did not actually hold that § 1605(f)’s time
bar was jurisdictional. And in a more recent decision,
Van Beneden v. Al-Sanusi, 709 F.3d 1165 (D.C. Cir.
2013), the D.C. Circuit treated § 1605A(b) as
nonjurisdictional.
On appeal in Van Beneden was a 2010 decision in
which the district court had held that an action
against Libya was untimely under § 1605A(b)
because an earlier suit did not qualify as a “related
action.” The district court had given two independent
reasons that the earlier suit was not a “related
action”: first, because it was not brought by the same
plaintiffs, and second, because it did not stem from
the same act or incident. Knowland v. Great Socialist
People’s Libyan Arab Jamahiriya, No. 08-1309, slip
op. at 6–11 (D.D.C. Oct. 8, 2010). On appeal, however,
Libya wholly failed to defend the first of these
holdings. The D.C. Circuit “[v]iew[ed] this as an
implicit concession” and “d[id] not address the district
court’s determination that Knowland’s suit fails
because he was not involved in” the earlier suit
against Libya. Van Beneden, 709 F.3d at 1167 n.3. It
then reversed the district court’s second holding and
remanded the case for further proceedings. Id. at
1169. This disposition makes sense only if the D.C.
Circuit concluded that timeliness under § 1605A(b) is
not jurisdictional. If it were jurisdictional, the court
could not have treated the district court’s first
holding as conceded by Libya’s silence, a point a
member of the panel recognized at the oral argument.

481a
Oral Arg. Recording at 3:05, Van Beneden, No. 117045 (D.C. Cir. Dec. 7, 2012) (“Is it something we
nevertheless have to address? Is it jurisdictional?”).
That the Van Beneden court concluded the issue is
not jurisdictional is further signaled by the opinion’s
citation of Southern California Edison Co. v. FERC,
which states: “A party can and does waive any
argument not presented in our court except those
going to our own jurisdiction or similar structural
issues and a concession is analogous to a waiver.” 603
F.3d 996, 1000 (D.C. Cir. 2010) (emphasis added)
(cited by Van Beneden, 709 F.3d at 1167 n.3).
Because the time limitation in § 1605A(b) is not
jurisdictional, the alleged untimeliness of the Khaliq,
Aliganga, and Opati plaintiffs’ claims could not
render their judgments “void” within the meaning of
Rule 60(b)(4).
B. The Actions Were Timely
Even if § 1605A(b) is jurisdictional, the Court
would not grant Sudan relief on this ground, for these
plaintiffs’ claims were timely. As noted, for an action
to be timely under § 1605A(b), either (1) the action
itself must have been filed by the later of April 24,
2006, or ten years after the cause of action arose, or
(2) a “related action” must have been filed by the
later of those two dates. See 28 U.S.C. § 1605A(b).
The “related action” concept is elaborated in § 1083(c)
of the 2008 NDAA (the act that created § 1605A),
which provides in relevant part:
Related actions. — If an action arising out
of an act or incident has been timely
commenced under section 1605(a)(7) of title
28, United States Code, . . . any other
action arising out of the same act or

482a
incident may be brought under section
1605A of title 28, United States Code, if the
action is commenced not later than the
latter of 60 days after—
(A) the date of the entry of judgment in
the original action; or
(B) the date of the enactment of this Act
[Jan. 28, 2008].
Pub. L. No. 110-181, § 1083(c)(3), 122 Stat. at 343
(codified at 28 U.S.C. § 1605A note). The Khaliq,
Aliganga, and Opati actions are timely under this
provision. These actions “aris[e] out of the same act
or incident” as the original Owens action. Owens was
“timely commenced under section 1605(a)(7)” in
October 2001. And the Khaliq, Aliganga, and Opati
actions were “commenced not later than . . . 60 days
after . . . the date of the entry of judgment in the
original action,” because judgment was not entered in
Owens until 2014.
Sudan argues that these three actions are not
“related” to Owens because a “related action” must be
filed by the same plaintiffs. See Sudan’s Aliganga
Mem. at 8–11. In Sudan’s view, § 1083(c)(3) would
allow Plaintiff X, whose timely § 1605(a)(7) action
went to final judgment on January 1, 2009, to file a
new action under § 1605A within 60 days of that
date—but it would not allow Plaintiff Y to file a
“related” § 1605A action within that window, even if
Y’s action arises from the “same act or incident” as
X’s. Sudan points to two cases that it thinks support
this “same plaintiffs” argument. The first is Simon, in
which the D.C. Circuit said that “[s]ection 1083(c)(3) .
. . authorizes a plaintiff who had ‘timely commenced’
a ‘related action’ under § 1605(a)(7) to bring ‘any

483a
other action arising out of the same act or incident.’ ”
529 F.3d at 1192. Sudan reads this sentence to mean
that “the plaintiff bringing the ‘related action’ must
be the same plaintiff who previously had timely filed
a § 1605(a)(7) action.” Sudan’s D.C. Cir. Br. at 54.
And the second is Knowland, the district court
decision that squarely held that a “related action”
requires the same plaintiffs, but which was then
reversed on other grounds in Van Beneden. See
Sudan’s Aliganga Mem. at 8–9 (relying on
Knowland).
The Court rejects Sudan’s “same plaintiffs”
argument. First and foremost, there is no such
requirement in the text of § 1083(c)(3), which
requires only that the actions arise from the same
incident. Nor did Simon require identical plaintiffs:
the sentence Sudan quotes comes from a discussion of
the options available to plaintiffs with “cases that
were pending under [§ 1605(a)(7)] when the Congress
enacted the NDAA,” 529 F.3d at 1192, so it makes
perfect sense that the court described how §
1083(c)(3) operates with respect to plaintiffs who had
previously filed a § 1605(a)(7) action. But Simon
neither said nor held that only such plaintiffs can
bring a “related action.” By contrast, the district court
in Knowland did so hold, but this Court is not bound
by that decision and, with all respect, does not find
its analysis convincing. The Court gives far greater
weight to a more recent statement from the D.C.
Circuit: “[T]he related action provision of § 1083(c)(3)
. . . speaks of ‘any other action,’ and it turns on
whether the new action ‘arises from’ the same act or
incident, not on whether it is identical to the prior
suit or even brought by the same plaintiff.” Roeder v.
Islamic Republic of Iran, 646 F.3d 56, 61 (D.C. Cir.

484a
2011) (second emphasis added). This statement might
be dictum (as Sudan notes, see Reply at 18), but it is
a highly persuasive dictum that accords with this
Court’s own reading of § 1083(c)(3). Because there is
no “same plaintiffs” requirement, the Khaliq,
Aliganga, and Opati actions were “related” to Owens
and timely filed under § 1083(c)(3).
Sudan’s fallback argument is that, even if
identical plaintiffs are not required, these three
actions cannot be deemed “related” to Owens because
at the time they were commenced Owens no longer
had any § 1605(a)(7) claims pending. Sudan’s
Aliganga Mem. at 11. Sudan is correct as a
descriptive matter. Section 1083(c)(2) of the 2008
NDAA provided a mechanism whereby plaintiffs with
pending § 1605(a)(7) actions could move to convert
them into § 1605A actions. The Owens plaintiffs filed
such a motion, which the Court granted, and they
amended their complaint to allege jurisdiction under
§ 1605A. See Pls.’ Mot. [Owens ECF No. 131]; Order
of Jan. 26, 2009 [Owens ECF No. 148]; Fourth Am.
Compl. [Owens ECF No. 149]. But this fact does not
have the significance Sudan wishes. Section
1083(c)(3) does not say the original action must still
have § 1605(a)(7) claims pending; it says the original
action must “ha[ve] been timely commenced under
section 1605(a)(7)” (emphasis added). There is no
question that Owens was timely commenced under §
1605(a)(7).
Although the foregoing discussion adequately
explains the timeliness of these three actions, some
additional discussion of Khaliq may be justified,
given the complicated history of that case and
Sudan’s effort to single it out. See Sudan’s D.C. Cir.

485a
Br. at 55–57. Rizwan Khaliq and Jenny Lovblom
originally filed a § 1605(a)(7) action against Sudan in
2004. See Khaliq v. Republic of Sudan, No. 04-1536
(D.D.C. filed Sept. 3, 2004). After the passage of the
2008 NDAA, they moved under § 1083(c)(2) to convert
their action into a § 1605A action. But § 1083(c)(2)
required such a conversion motion to be filed within
60 days of the NDAA’s enactment, and Khaliq and
Lovblom missed that deadline; the Court accordingly
denied them leave to amend their complaint. Order of
Sept. 9, 2009, Khaliq, No. 04-1536 [ECF No. 32].
Roughly six months later, Khaliq and Lovblom (now
joined by seven additional co-plaintiffs) filed a new
action, the Khaliq case now before the Court. They
explained that this new action was timely under §
1083(c)(3) because it was “related” to Owens (and
other embassy bombing cases). See Pls.’ Mem.,
Khaliq, No. 10-356 [ECF No. 8] at 2.
Sudan thinks this must not be allowed—that a
plaintiff who missed the § 1083(c)(2) deadline should
not be able to “evade [it] simply by filing an action
‘related’ to his (or someone else’s) pending action,” as
this would “effectively nullif[y] § 1083(c)(2).” Reply at
17. But Sudan is simply incorrect that the original
Khaliq plaintiffs had to proceed through § 1083(c)(2)
or not at all. As the D.C. Circuit has observed, the
2008 NDAA gave plaintiffs with pending § 1605(a)(7)
actions several “options for obtaining the benefits of §
1605A,” one of which was to file a new related action
in accordance with § 1083(c)(3). Bakhtiar v. Islamic
Republic of Iran, 668 F.3d 773, 775 (D.C. Cir. 2012)
(emphasis added). The plaintiffs in Bakhtiar failed to
exercise any of those options correctly: they neither
converted their § 1605(a)(7) action within the time set
by § 1083(c)(2) nor filed a new related action under §

486a
1083(c)(3) within 60 days of the entry of judgment in
their original action (which appears to have been the
only case “arising from the same act or incident”). See
id. at 774–75. But the same is not true of the Khaliq
plaintiffs. True, the original Khaliq plaintiffs did not
convert their action within the time set by §
1083(c)(2), but they did file a new related action not
later than 60 days after the entry of judgment in
another case arising from the same incident: namely,
Owens, in which judgment was not entered until
2014. That they did not successfully employ §
1083(c)(2) does not bear on whether they complied
with § 1083(c)(3). Cf. Roeder, 646 F.3d at 62 (noting
that “subsections [(c)(2) and (c)(3)] were added at
different times in the legislative process, serve
different purposes and share little similar language”).
In sum, the Court will not vacate the Khaliq,
Aliganga, or Opati judgments under Rule 60(b)(4) on
timeliness grounds. The Court is unconvinced
timeliness under § 1605A(b) is of jurisdictional
significance. And even if the Court is mistaken on
that point, these actions were timely because they are
“related” to Owens and brought in compliance with §
1083(c)(3) of the 2008 NDAA.
RULE 60(B)(4): THERE WAS SUFFICIENT EVIDENCE TO
SUPPORT JURISDICTION
Sudan’s next attack on the judgments concerns
the sufficiency of the evidence introduced at the
October 2010 hearing. It is too late for Sudan to use
this argument to attack the Court’s merits
determination. “A judgment is not void . . . simply
because it is or may have been erroneous.” United
Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260,
270 (2010) (internal quotation marks omitted).

487a
Recognizing as much, Sudan frames its evidentiary
attack as going to the Court’s subject-matter
jurisdiction and therefore a ground to vacate under
Rule 60(b)(4). The Court will address this argument
in two stages. It will first explore whether Sudan’s
evidentiary objections actually pertain to subjectmatter jurisdiction. The Court concludes that Sudan’s
objections are irrelevant to the Court’s jurisdiction to
hear claims based on the federal cause of action in
§ 1605A(c), but that they do bear on jurisdiction to
hear the foreign family members’ state-law claims.
The Court then proceeds to examine whether the
evidence was sufficient to support its jurisdiction over
these claims, and concludes it was.
A. The Nature of the Jurisdictional Inquiry
In much federal litigation, the sufficiency of the
evidence presented is unrelated to jurisdiction,
because jurisdiction does not turn on the existence of
facts. Federal question jurisdiction under 28 U.S.C. §
1331, most obviously, depends solely on the nature of
the plaintiff’s claims, not on the truth of any of his
factual allegations. See, e.g., Montana-Dakota Utils.
Co. v. Nw. Pub. Serv. Co., 341 U.S. 246, 249 (1951)
(“If the complaint raises a federal question, the mere
claim confers power to decide that it has no merit, as
well as to decide that it has.”). Thus, in a § 1331
case—for instance, a suit under the Americans with
Disabilities Act—a judgment that rests on
insufficient evidence is erroneous, but not void for
lack of jurisdiction. Cf. EEOC v. St. Francis Xavier
Parochial Sch., 117 F.3d 621, 623 (D.C. Cir. 1997).
The FSIA is a more complicated font of
jurisdiction. Its various exceptions to immunity rest
(at least to some extent) on factual predicates, and so

488a
a foreign sovereign “defendant may challenge either
the legal sufficiency or the factual underpinning of an
exception.” Phoenix Consulting Inc. v. Republic of
Angola, 216 F.3d 36, 40 (D.C. Cir. 2000). Thus, for
instance, in a case brought under § 1605(a)(1)—which
permits actions when “the foreign state has waived
its immunity either explicitly or by implication”—a
defendant could argue that the plaintiff’s allegations,
even if accepted as true, do not demonstrate a waiver.
But the defendant could also argue that the alleged
waiver did not occur in fact—that, for example, the
contract containing the purported waiver is actually a
forgery. If the defendant were correct as a matter of
fact, the court would lack jurisdiction. See Phoenix
Consulting, 216 F.3d at 41.
Not without reason, Sudan points to Kilburn v.
Socialist People’s Libyan Arab Jamahiriya, 376 F.3d
1123 (D.C. Cir. 2004), as an example of how these
principles apply to the present litigation. See Sudan’s
Aliganga Mem. at 12–13. The plaintiff in Kilburn
sued Libya under § 1605(a)(7), alleging hostage
taking, torture, and extrajudicial killing. 376 F.3d at
1125. After the district court denied Libya’s motion to
dismiss, Libya pursued two arguments on appeal that
are relevant here. Libya first argued that the
plaintiff’s allegations, even if true, failed to state a
sufficient “causal connection between the foreign
state’s alleged acts and the victim’s alleged injuries.”
Id. at 1127. The D.C. Circuit agreed that “because §
1605(a)(7) is a jurisdictional provision, causation is
indeed a jurisdictional requirement,” id. (citation
omitted), but it concluded that the plaintiff’s
allegations sufficed to show the necessary degree of
causation, id. at 1127–31. Second, and more
importantly for present purposes, Libya contested

489a
“the factual basis for the district court’s jurisdiction.”
Id. at 1131. The D.C. Circuit entertained this
challenge, weighing the evidence of causation and
concluding that the plaintiff’s submissions were
sufficient to defeat Libya’s motion to dismiss. Id. at
1131–33.
Kilburn thus appears to confirm Sudan’s view
that whether the Court had subject-matter
jurisdiction to enter the judgments in these cases
depended in part on whether the plaintiffs introduced
enough evidence showing that Sudan provided
material support to al Qaeda that was causally
connected to the bombings. And the Court will
ultimately explain why, assuming this premise is
correct, there was sufficient factual support. See infra
pp. 49–59. Before doing so, however, the Court will
explain why more recent D.C. Circuit decisions
persuade the Court that at least some of the plaintiffs
in these cases are impervious to Sudan’s factual
attack on jurisdiction.
In Agudas Chasidei Chabad of U.S. v. Russian
Federation, 528 F.3d 934 (D.C. Cir. 2008), the D.C.
Circuit addressed the FSIA’s expropriation exception
to immunity. That exception removes immunity in
any case
in which [A] rights in property taken in
violation of international law are in
issue and [B][1] that property or any
property exchanged for such property is
present in the United States in
connection with a commercial activity
carried on in the United States by the
foreign state; or [2] that property or any
property exchanged for such property is

490a
owned or operated by an agency or
instrumentality of the foreign state and
that agency or instrumentality is
engaged in a commercial activity in the
United States . . . .
28 U.S.C. § 1605(a)(3). The Chabad court explained
that this exception “rest[s] jurisdiction in part on the
character of a plaintiff’s claim (designated ‘A’) and in
part on the existence of one or the other of two
possible ‘commercial activity’ nexi between the
United States and the defendants (designated ‘B’).”
528 F.3d at 940. The alternative requirements in part
B, the court continued, “are purely factual predicates
independent of the plaintiff’s claim, and must . . . be
resolved in the plaintiff’s favor before the suit can
proceed.” Id. at 941. However, part A “does not
involve jurisdictional facts, but rather concerns what
the plaintiff has put ‘in issue,’ effectively requiring
that the plaintiff assert a certain type of claim.” Id.
Critically, “to the extent that jurisdiction depends on
the plaintiff’s asserting a particular type of claim,
and it has made such a claim, there typically is
jurisdiction unless the claim is ‘immaterial and made
solely for the purpose of obtaining jurisdiction or . . .
wholly insubstantial and frivolous.’ ” Id. at 940
(footnote omitted) (quoting Bell v. Hood, 327 U.S.
678, 682–83 (1946)). In other words, while
jurisdiction depended on the plaintiff’s proving that
one or the other links to commercial activity actually
existed, the plaintiff did not have to show that the
property was actually “taken in violation of
international law”—it merely had to make a nonfrivolous claim of such a taking. See id. at 940–41.

491a
Section 1605A(a) contains a two-part structure
much like the one Chabad identified in § 1605(a)(3).
Indeed, it is clearer in § 1605A, for it lines up
precisely with subsections (a)(1) and (a)(2).
Subsection (a)(1), recall, eliminates immunity in
cases
in which money damages are sought
against a foreign state for personal
injury or death that was caused by an
act of torture, extrajudicial killing,
aircraft sabotage, hostage taking, or the
provision of material support or
resources for such an act if such act or
provision of material support or
resources is engaged in by an official,
employee, or agent of such foreign state
while acting within the scope of his or
her office, employment, or agency.
28 U.S.C. § 1605A(a)(1). By eliminating immunity in
cases where damages are “sought” for a particular
kind of injury, this provision “requir[es] that the
plaintiff assert a certain type of claim.” Chabad, 528
F.3d at 941; see also Robinson v. Gov’t of Malaysia,
269 F.3d 133, 149 (2d Cir. 2001) (Sotomayor, J.,
concurring in the judgment) (proposing similar
reading of § 1605(a)(5)). Subsection (a)(2), by
contrast, contains three collateral requirements: that
the foreign state was designated a state sponsor of
terrorism; that the claimant or victim was a U.S.
national, servicemember, or government employee at
the relevant time; and that, in certain circumstances,
the foreign state was given a chance to arbitrate. See
28 U.S.C. § 1605A(a)(2)(A)(i)–(iii). These three
requirements are “purely factual predicates” and

492a
hence traditional “jurisdictional facts.” Chabad, 528
F.3d at 941.
On this reading, a court has jurisdiction only if the
three requirements in subsection (a)(2) are actually
met. If, say, it turned out that neither the claimant
nor the victim in fact had the necessary U.S. status,
the court would lack jurisdiction. But not so for
subsection (a)(1). The question with respect to
subsection (a)(1) is not whether the foreign state
actually provided material support for an act of
extrajudicial killing, it is merely whether the plaintiff
has made a plausible claim that it did. See Chabad,
528 F.3d at 940. To analogize to a provision outside
the FSIA, subsection (a)(1) is read like the Tucker
Act, which gives the Court of Federal Claims
“jurisdiction to render judgment upon any claim
against the United States founded . . . upon any
express or implied contract with the United States.”
28 U.S.C. § 1491(a)(1). Jurisdiction under this
provision, the Federal Circuit has held, does not
depend on the plaintiff proving that a contract
actually exists—rather, “a non-frivolous allegation of
a contract with the government” suffices. Engage
Learning, Inc. v. Salazar, 660 F.3d 1346, 1353 (Fed.
Cir. 2011); see, e.g., Gould, Inc. v. United States, 67
F.3d 925, 929–30 (Fed. Cir. 1995).
This reading of § 1605A(a) might at first seem
inconsistent with Kilburn, which did not simply
accept the plaintiff’s non-frivolous claim but
examined the factual sufficiency of the plaintiff’s
allegations of torture, extrajudicial killing, and
hostage taking. But a recent D.C. Circuit decision
explains how to reconcile the two. In Simon v.
Republic of Hungary, the court explained that
Chabad and subsequent expropriation cases had

493a
required only a non-frivolous claim of a taking in
violation of international law “because, in those
cases, the plaintiff’s claim on the merits directly
mirrored the jurisdictional standard.” 812 F.3d 127,
140 (D.C. Cir. 2016). That is, those plaintiffs had
used the expropriation immunity exception in §
1605(a)(3) to bring a substantive claim of
expropriation in violation of international law. “When
the jurisdictional and merits inquiries fully overlap in
that fashion, a plaintiff need not prove a winning
claim on the merits merely to establish jurisdiction.”
Id. at 141. In Simon itself, by contrast, the “plaintiffs’
claim on the merits [was] not an expropriation claim
asserting a taking without just compensation in
violation of international law. The plaintiffs instead
[sought] recovery based on garden-variety commonlaw causes of action such as conversion, unjust
enrichment, and restitution.” Id. Because “the
jurisdictional and merits inquiries [did] not overlap,”
the court “ask[ed] for more than merely a nonfrivolous argument,” instead “assess[ing] whether the
plaintiffs’ allegations satisfy the jurisdictional
standard.” Id. The court assumed the truth of
allegations because the defendants challenged only
the complaint’s legal sufficiency, but the court noted
that the defendants could in theory “challenge the
factual basis of those allegations on remand.” Id. at
144.
Simon thus reveals why Kilburn required not just
a non-frivolous claim but actual evidence that Libya
caused the torture, extrajudicial killing, and hostage
taking: because the jurisdictional and merits
inquiries did not overlap. Kilburn, recall, predated
the 2008 amendments. Jurisdiction might have
existed under § 1605(a)(7), but there was no

494a
corresponding federal cause of action against Libya.
The plaintiff was therefore necessarily going to rely
on a substantive cause of action from some other
source of law—a cause of action that would not neatly
overlap with the jurisdictional grant in § 1605(a)(7).
See 376 F.3d at 1129.
Chabad and Simon suggest a different
jurisdictional inquiry here, however—at least with
respect to some of the plaintiffs. The substantive law
relied on by many of the plaintiffs here was the
federal cause of action in § 1605A(c). That provision
creates a “claim on the merits [that] directly mirror[s]
the jurisdictional standard.” Simon, 812 F.3d at 140.
It renders foreign states liable to certain plaintiffs
“for personal injury or death caused by acts described
in subsection (a)(1) of that foreign state . . . for which
the courts of the United States may maintain
jurisdiction under this section for money damages.”
28 U.S.C. § 1605A(c); see also Mot. Hr’g Tr. at 43:14–
16 (Sudan’s counsel: “I do think that the
jurisdictional inquiry and the merits inquiry on
causation are conjoined and may be inseparable.”).
Because “the jurisdictional and merits inquiries fully
overlap” in cases brought under § 1605A(c), Simon
teaches that plaintiffs invoking that cause of action
“need not prove a winning claim on the merits merely
to establish jurisdiction.” Simon, 812 F.3d at 141.
“Rather, the plaintiff need only show that its claim is
‘non-frivolous’ at the jurisdictional stage, and then
must definitively prove its claim in order to prevail at
the merits stage.” Id. (citing Bell, 327 U.S. at 682 (“If
the court does later exercise its jurisdiction to
determine that the allegations in the complaint do
not state a ground for relief, then dismissal of the
case would be on the merits, not for want of

495a
jurisdiction.”)); cf. Kevin M. Clermont, Jurisdictional
Fact, 91 Cornell L. Rev. 973, 1020 (2006) (“On any
factual element or legal question of forum authority, .
. . if that element or question overlaps the merits of
the claim, the proponent need provide only prima
facie proof to establish the forum’s authority.”).
On this reading, there is no doubt that the Court
had subject-matter jurisdiction over the claims
brought under § 1605A(c). The plaintiffs’ claim that
Sudan provided material support causally connected
to the bombings was nowhere near frivolous. See
infra pp. 49–59; Owens III, 531 F.3d 884, 893–954
(D.C. Cir. 2008). Under Chabad and Simon, that was
enough to invest the Court with subject-matter
jurisdiction to hear the claims. See also Williamson v.
Tucker, 645 F.2d 404, 415 (5th Cir. 1981) (“Where the
defendant’s challenge to the court’s jurisdiction is
also a challenge to the existence of a federal cause of
action, the proper course of action for the district
court . . . is to find that jurisdiction exists and deal
with the objection as a direct attack on the merits of
the plaintiff’s case.”). If, as Sudan claims, the
plaintiffs failed to put forward sufficient evidence to
substantiate those claims, that means only that the
Court should have decided against the plaintiffs on
the merits, not that it lacked jurisdiction. Hence, an
insufficiency of evidence might render the judgments
erroneous, but not void for lack of jurisdiction under
Rule 60(b)(4).
Not only is this view of subject-matter jurisdiction
under § 1605A supported by the statutory text,
Chabad, and Simon, it also has the practical value of
simplicity. “[A]dministrative simplicity is a major
virtue in a jurisdictional statute.” Hertz Corp. v.

496a
Friend, 559 U.S. 77, 94 (2010). “Complex
jurisdictional tests” create a variety of problems,
including excessive “appeals and reversals,” the
danger of “gamesmanship,” and—given federal
courts’ independent obligation to examine the issue—
a drain on judicial resources. Id.; see also Sisson v.
Ruby, 497 U.S. 358, 375 (1990) (Scalia, J., concurring
in the judgment) (cautioning
that “vague
boundar[ies]” are “to be avoided in the area of
subject-matter jurisdiction wherever possible”). Those
problems are avoided by a simple jurisdictional
inquiry: is the claim under subsection (a)(1) nonfrivolous and are the three requirements in
subsection (a)(2) satisfied? If so, the court has
jurisdiction to determine whether a plaintiff can
recover under § 1605A(c).
But the claims of the foreign family-member
plaintiffs are another matter. Because those plaintiffs
could not invoke § 1605A(c), they relied on District of
Columbia tort law, claiming intentional infliction of
emotional distress (IIED). See, e.g., Amduso v.
Republic of Sudan, 61 F. Supp. 3d 42, 47–48 (D.D.C.
2014). IIED is akin to the “garden-variety commonlaw causes of action” at issue in Simon, and like them
does not “mirror[] the jurisdictional standard.” 812
F.3d at 140. Hence, jurisdiction over these claims
requires “more than merely a non-frivolous
argument.” Id. at 141. Instead, as Kilburn also
indicates, there must be evidence substantiating the
claim under § 1605A(a)(1). The Court must therefore
examine whether the evidence was sufficient to
support its jurisdiction.

497a
B. The Sufficiency of the Evidence
The fundamental question Sudan’s challenge
poses is whether the plaintiffs adduced sufficient
admissible evidence that Sudan provided “material
support or resources” that “caused” the bombings. See
Sudan’s D.C. Cir. Br. at 30 (contending that plaintiffs
“did not prove that any ‘material support or
resources’ provided by Sudan ‘caused’ the Embassy
bombings.” (quoting 28 U.S.C. § 1605A(a)(1))). Before
elaborating what this inquiry entails, a word about
what it does not. The question is not whether every
factual proposition in the Court’s 2011 opinion can be
substantiated by record evidence admissible under
the Federal Rules of Evidence. Sudan may have
plausible arguments that some cannot. This is hardly
surprising: the best safeguard against evidentiary
error is an alert adversary raising timely objections—
a role Sudan wholly failed to play. See, e.g., 1
Christopher B. Mueller & Laird C. Kirkpatrick,
Federal Evidence § 1:5, at 19–20 (4th ed. 2013). But
the fact that particular statements in that opinion
may not be adequately supported is irrelevant if
there is nonetheless sufficient evidence in the record
of the necessary jurisdictional facts. Cf. Jennings v.
Stephens, 135 S. Ct. 793, 799 (2015) (“This Court,
like all federal appellate courts, does not review lower
courts’ opinions, but their judgments.”); Wilburn v.
Robinson, 480 F.3d 1140, 1148, 1151 (D.C. Cir. 2007)
(affirming grant of summary judgment, despite
district court’s evidentiary error, on alternative
ground supported by the record).
Assessing whether the record evidence was
sufficient requires, of course, a proper understanding
of the parties’ respective burdens. “[T]he FSIA begins

498a
with a presumption of immunity, which the plaintiff
bears the initial burden to overcome by producing
evidence that an exception applies.” Bell Helicopter
Textron, Inc. v. Islamic Republic of Iran, 734 F.3d
1175, 1183 (D.C. Cir. 2013). If the plaintiff satisfies
this “burden of production,” “the defendant[] will bear
the burden of persuasion to establish the absence of
the factual basis by a preponderance of the evidence.”
Simon, 812 F.3d at 147 (internal quotation marks
omitted); accord Chevron Corp. v. Ecuador, 795 F.3d
200, 204 (D.C. Cir. 2015). The meaning of “burden of
production” here is not wholly self-evident, as that
term usually refers to the amount of evidence a party
must present to allow an issue to go to a jury—a
concept not directly applicable in the jury-less context
of FSIA cases. See, e.g., 2 Kenneth S. Broun et al.,
McCormick on Evidence § 336, at 645 (7th ed. 2013).
But that usual meaning suggests a burden akin to
the requirement of “substantial evidence” in
administrative law. See Kay v. FCC, 396 F.3d 1184,
1188 (D.C. Cir. 2005) (noting that substantial
evidence “is the amount of evidence constituting
enough to justify, if the trial were to a jury, a refusal
to direct a verdict” (internal quotation marks
omitted)). The point is: the bar is relatively low. Yes,
the existence of the burden of production means that
the plaintiff must provide some evidence that could
convince a factfinder of the jurisdictional fact in
question. But because the ultimate burden of
persuasion lies with the defendant, in cases where
the defendant offers little or no evidence of its own,
even a meager showing by the plaintiff will suffice. It
is for this reason that the D.C. Circuit has adverted
to the “risk[]” run by a FSIA “defendant that chooses
to remain silent.” Simpson v. Socialist People’s

499a
Libyan Arab Jamahiriya, 470 F.3d 356, 361 (D.C. Cir.
2006) (affirming denial of motion to dismiss); see also
Price v. Socialist People’s Libyan Arab Jamahiriya,
389 F.3d 192, 199 (D.C. Cir. 2004) (same). Sudan ran
that risk here, offering no evidence whatsoever at the
2010 hearing.16 The question, then, is simply whether
the plaintiffs offered enough to satisfy their burden of
production.
Although the record contains much else as well,
the opinions of the plaintiff’s three expert witnesses
are enough to satisfy that burden. Expert opinions
are often used in terrorism cases and can be of
critical importance. See, e.g., Boim v. Holy Land
Found. for Relief & Dev., 549 F.3d 685, 705 (7th Cir.
2008) (en banc) (“[W]ith [the plaintiff’s expert report]
in the record and nothing on the other side the
[district] court had no choice but to enter summary
judgment for the plaintiffs with respect to Hamas’s
responsibility for the Boim killing.”); United States v.
Benkahla, 530 F.3d 300, 309–10 (4th Cir. 2008);
Simpson, 470 F.3d at 361; United States v. Damrah,
412 F.3d 618, 625 (6th Cir. 2005); Kilburn, 376 F.3d
at 1132; Smith ex rel. Smith v. Islamic Emirate of
Afghanistan, 262 F. Supp. 2d 217, 228–32 (S.D.N.Y.
2003). Standard forms of direct evidence are for
Sudan did attach two affidavits to its first motion to
dismiss in Owens, filed in March 2004. See Carney Decl. [Owens
ECF No. 49-1]; Cloonan Decl. [Owens ECF No. 49-2]. But those
affidavits were never part of the record in any of the other cases.
Sudan (obviously) did not attempt to introduce them at the 2010
evidentiary hearing it did not attend, so the plaintiffs had no
opportunity or occasion to raise any evidentiary objections they
might have had. And Sudan’s own view appears to be that these
declarations would have been inadmissible. See Sudan’s
Aliganga Mem. at 20.
16

500a
various reasons difficult, if not impossible, to obtain
in terrorism cases. Terrorist groups and their state
sponsors generally wish to hide their activities. See
Kilburn, 376 F.3d at 1129 (noting Congress’s
recognition that “‘material support’ of terrorist acts
by . . . state sponsors . . . is difficult to trace”). They
are unlikely to keep the sorts of records that are
crucial in other forms of litigation, see id. at 1130
(“[T]errorist organizations can hardly be counted on
to keep careful bookkeeping records.”), and even if
they did, they generally do not (as Sudan did not
here) participate in the discovery process, see Han
Kim v. Democratic People’s Republic of Korea, 774
F.3d 1044, 1048 (D.C. Cir. 2014) (noting North
Korea’s refusal “to appear in court and subject itself
to discovery”). Security concerns give terrorists and
their state sponsors good reason to minimize what
any one individual knows of the group’s (or state’s)
larger activities, making knowledgeable firsthand
witnesses rare. And even when such witnesses exist,
locating and bringing them into a U.S. court is
incredibly difficult. In light of these circumstances,
the opinions of experts who have studied these
organizations and their links to state sponsors are
extremely useful. Indeed, given the evidentiary
difficulties in terrorism cases, discounting the value
of expert testimony “would defeat [§ 1605A’s] very
purpose: to give American citizens an important
economic and financial weapon to compensate the
victims of terrorism, and in so doing to punish foreign
states who have committed or sponsored such acts
and deter them from doing so in the future.” Id.
(internal quotation marks, citation, and alterations
omitted). Thankfully, “courts have the authority—
indeed . . . the obligation—to adjust evidentiary

501a
requirements to differing situations.” Id. (internal
quotation marks and alterations omitted). In the
context of § 1605A, that means an obligation to take
expert testimony seriously. See id. at 1049–1051
(relying heavily on the declarations of expert
witnesses).
The easiest way to see the weight of the expert
evidence here is simply to reproduce the experts’
opinions. First were the conclusions of Evan F.
Kohlmann, provided during live testimony at the
October 2010 hearing:
[A]l-Qaeda would not have been able to
carry out the 1998 East Africa bombings
had it not had a presence in Khartoum,
Sudan. The presence, the safe haven
that al-Qaeda had in the Sudan was
absolutely integral for its capability of
launching operations not just in Kenya,
but in Somalia, in Eritrea, in Libya.
Without this base of operations, none of
this would have happened.
Al-Qaeda did not have the capability of
bringing in resources to that extent into
this area. It did not have a place to base
its leadership or its operatives. It did not
have a ready supply of passports, of
infrastructure. Sudan was the base for
which almost everything that al-Qaeda
did in the space between 1992 and 1998
leads back to. Without the support given
by the Sudanese government, the
attempted assassination attempt on
Hosni Mubarak, the involvement in

502a
Somalia, the embassy bombings, none of
this would have happened.
[Sudanese government support] was
integral [to al-Qaeda’s ability to launch
the two embassy attacks]. Again,
without the base that Sudan provided,
without the capabilities provided by the
Sudanese intelligence service, without
the resources provided, none of this
would have happened. If you look, it’s
quite clear because of the fact that the
vast
majority
of
planning
and
preparation that went into the al-Qaeda
cell in Nairobi took place between the
years of 1991 and 1997. The vast
majority of that was done by al-Qaeda
operatives transiting back and forth
between Nairobi from Khartoum.
And you can take the words of al-Qaeda
operatives themselves. They label the
cell in Nairobi as the key way station
that allowed them back and forth into
Somalia. Without Sudan, there never
would have been Nairobi, there would
have never been a Somalia, there would
have never been any of this. It was
absolutely essential, integral.
Evidentiary Hr’g Tr., Oct. 28, 2010 [Owens ECF No.
213] at 317–18.
Next, Dr. Lorenzo Vidino submitted an expert
report on “Sudan’s State Sponsorship of al Qaeda”
that arrived at the following conclusions:

503a
The twin attacks on the United States
Embassies in Nairobi, Kenya, and Dar
Es Salaam, Tanzania, were part of a
decade-long plan conceived by Osama
Bin Laden’s terrorist organization, al
Qaeda, to attack US interests in the
Middle East and East Africa. Since the
end of the 1980s, Bin Laden had worked
on creating a worldwide terrorist
organization whose main aim was to
strike at American targets.
From 1991 to 1996, Osama Bin Laden
and his organization were sheltered and
supported by the Sudanese government
in Sudan. During these five years, al
Qaeda and the Sudanese government
established a deeply intertwined,
symbiotic relationship, which required
cooperation on many fronts. Early
during its stay in Sudan, al Qaeda
publicized its intent to attack American
interests. This was demonstrated by
several fatwas and by attacks on US
contractors in Riyadh, Saudi Arabia, an
attempted attack on US soldiers in
Aden, Yemen, as they were en route to
Somalia to carry out Operation Restore
Hope, and al Qaeda’s infamous
campaign against the US forces in
Somalia during the Operation Restore
Hope. The Sudanese government even
facilitated attempted terrorist attacks in
the United States. The Sudanese
government can not claim that it
allowed Bin Laden to stay in Khartoum

504a
but did not know of and support his
goals to attack US interests.
During the years that the Sudanese
government sheltered al Qaeda, the
organization flourished both financially
and militarily. It developed critical ties
with several terrorist organizations and
trained its operatives who subsequently
carried out increasingly sophisticated
attacks throughout the world.
The material support that the Sudanese
government provided was indispensable,
as al Qaeda could not have achieved its
attacks on the US Embassies in 1998 if
it had not operated in a country that not
only tolerated, but actually actively
assisted and participated in al Qaeda
terrorist activities, despite knowing al
Qaeda’s intent to attack US interests.
Vidino Report [Amduso ECF No. 288-5] at 34–35.
(Vidino’s report was introduced as Exhibit V during
the October 2010 evidentiary hearing. See
Evidentiary Hr’g Tr., Oct. 26, 2010 [Owens ECF No.
212] at 142–43.)
Finally, there was the opinion of Steven Simon,
who both submitted an expert report and provided
live testimony. In his report he concluded:
The Republic of Sudan supplied al
Qaeda with important resources and
support during the 1990s knowing that
al Qaeda intended to attack the citizens,
or interests of the United States. This
support encompassed the safe haven of

505a
the entire country for bin Laden and the
top al Qaeda leadership. This enabled
bin Laden and his followers to plot
against the US and build their
organization free from US interference.
Sudanese shelter enabled Bin Laden to
create training camps, invest in—and
use—banking facilities, create business
firms to provide cover for operatives,
generate funds for an array of terrorist
groups, provide official documents to
facilitate clandestine travel, and enjoy
the protection of Sudan’s security service
against infiltration, surveillance and
sabotage.
Simon Report [Amduso ECF No. 288-3] at 5–6.
(Simon’s report was introduced as Exhibit W-2 during
the October 2010 evidentiary hearing. See
Evidentiary Hr’g Tr., Oct. 28, 2010, at 343–44.) And
in his live testimony Simon concluded:
I think it’s fair to say that in the
absence of the safe haven provided by
Sudan to al-Qaeda, that the planning
for and the execution of the attacks
against those embassies would have
been vastly more complicated. I can’t
say that they would have been
impossible, but it’s difficult to see how,
in the absence of the active support and
freedom of action that Bin Laden
enjoyed in the Sudan, and the fact that
much of the preoperational activities
were directed from Khartoum, that the

506a
attacks could have been carried out
with equal success.
Evidentiary Hr’g Tr., Oct. 28, 2010, at 344.
It is important to note that the foregoing are the
experts’ ultimate conclusions—that is, their expert
opinions. Sudan spills a great deal of ink attacking as
inadmissible hearsay particular statements the
experts made in the course of explaining the bases for
their opinions. See, e.g., Sudan’s Aliganga Mem. at
16–17. But the admissibility of statements along the
way is irrelevant if—as the Court concludes—the
ultimate opinions themselves are sufficient.17 For it is
perfectly clear that an expert’s opinion need not be
based on evidence that is itself admissible. Fed. R.
Evid. 703; see, e.g., Williams v. Illinois, 132 S. Ct.
2221, 2233–35 (2012) (plurality opinion); Simpson,
470 F.3d at 362 & n.1 (discussing expert opinion in
FSIA terrorism case). As Judge Posner ably put the
point—in the context of expert testimony concerning
terrorism, no less—to confine experts’ analysis to
admissible evidence alone
would be a crippling limitation because
experts don’t characteristically base
their expert judgments on legally
admissible evidence; the rules of
evidence are not intended for the
guidance of experts. Biologists do not
It would be a different matter if Sudan were attacking a
jury verdict on the theory that the revelation of inadmissible
evidence underlying an expert’s opinion was unduly prejudicial.
See Fed. R. Evid. 703 advisory committee’s note to 2000
amendments (noting “the risk of prejudice resulting from the
jury’s potential misuse of the information for substantive
purposes”). But that of course is not the situation here.
17

507a
study animal behavior by placing
animals under oath, and students of
terrorism do not arrive at their
assessments solely or even primarily by
studying the records of judicial
proceedings.
Boim, 549 F.3d at 704; see also Damrah, 412 F.3d at
625 (“‘Given the secretive nature of terrorists, the
Court can think of few [non-hearsay] materials that
experts in the field of terrorism would rely upon.’”
(quoting district court)). Thus, Sudan’s contention
that the experts’ “conclusions are inadmissible
because they are based on underlying inadmissible
evidence,” Reply at 14, is just flat wrong.
Sudan’s fallback argument, which makes its
first appearance in Sudan’s reply brief, is that
Kohlmann and Vidino should not have been accepted
as experts in the first place. Reply at 11–13. (Sudan
does not, presumably because it cannot, question the
expertise of Simon.) The proper occasion for such an
argument was not Sudan’s reply brief, nor even its
opening motion for vacatur—it was October 2010. See
Fed. R. Evid. 103(a)(1)(A); Hinds v. Gen. Motors
Corp., 988 F.2d 1039, 1046 (10th Cir. 1993) (refusing
to
consider
untimely
attack
on
expert’s
qualifications). And even if the merits of this
argument deserved consideration, the Court would
rule against Sudan. Sudan is effectively asking the
Court to review its own qualification decision. The
Court sees no abuse of discretion. See Haarhuis v.
Kunnan Enters., Ltd., 177 F.3d 1007, 1015 (D.C. Cir.
1999) (“[T]he decision whether to qualify an expert
witness is within the broad latitude of the trial court
and is reviewed for abuse of discretion.”). That

508a
conclusion is bolstered by the fact that both
Kohlmann and Vidino have repeatedly been qualified
as experts on this or similar subject matter. See, e.g.,
United States v. Hassan, 742 F.3d 104, 131 (4th Cir.
2014) (Kohlmann); Harrison v. Republic of Sudan,
882 F. Supp. 2d 23, 31 n.10 (D.D.C. 2012) (Vidino).
In sum, the consistent and admissible opinions
of these three experts were sufficient to satisfy the
plaintiffs’ burden of producing evidence that Sudan
provided “material support” that “caused” the
embassy bombings. Because Sudan offered nothing—
neither evidence nor argument—in response, it failed
to carry its “burden of persuasion to establish the
absence of the factual basis by a preponderance of the
evidence.” Simon, 812 F.3d at 147 (internal quotation
marks omitted). The Court therefore had subjectmatter jurisdiction to decide the plaintiffs’ claims.
Although the Court sees no need to review all
of the other evidence the plaintiffs introduced or to
respond to all of Sudan’s much-belated evidentiary
objections, it will address one further issue, on the
chance that its views might assist the D.C. Circuit.
One significant piece of evidence the plaintiffs
introduced was a transcript of testimony given in an
earlier federal criminal trial by Jamal al-Fadl, a
former al Qaeda member who had “served as an
intermediary between al Qaeda and the Sudanese
intelligence service.” Owens IV, 826 F. Supp. 2d 128,
140 (D.D.C. 2011); see Evidentiary Hr’g Tr., Oct. 26,
2010, at 136–37 (introduction of al-Fadl’s prior
testimony). Sudan argues that al-Fadl’s prior
testimony was inadmissible in its entirety because it
was hearsay. Sudan’s Aliganga Mem. at 18; Reply at
7–9. That is incorrect.

509a
To understand why Sudan is wrong, it is
important to recall the nature of the 2010 proceeding.
It was not an adversarial trial. It was an evidentiary
hearing to satisfy the FSIA provision that prohibits
entry of a default judgment “unless the claimant
establishes his claim or right to relief by evidence
satisfactory to the court.” 28 U.S.C. § 1608(e).
Although courts seeking to comply with this
requirement often hold hearings featuring live
witness testimony, the provision does not actually
demand a hearing or live testimony; it demands
evidence. Commercial Bank of Kuwait v. Rafidain
Bank, 15 F.3d 238, 242 (2d Cir. 1994) (“[W]e do not
believe that § 1608(e) requires evidentiary hearings
or explicit findings where the record shows that the
plaintiff provided sufficient evidence in support of its
claims.”). Courts have accordingly recognized that
FSIA plaintiffs seeking a default judgment can
proceed by affidavit. See, e.g., Antoine v. Atlas
Turner, Inc., 66 F.3d 105, 111 (6th Cir. 1995);
Rafidain Bank, 15 F.3d at 242; Rimkus v. Islamic
Republic of Iran, 750 F. Supp. 2d 163, 171 (D.D.C.
2010). “Affidavits, though usually not admitted into
evidence in ordinary trials, are allowed in hearings
conducted under 28 U.S.C. § 1608(e) since the
hearings are ex parte. That is, courts have found that
there is no reason to require live witness testimony in
these hearings because the defendants have failed to
enter an appearance in the actions, and, accordingly,
would not be there to cross-examine the affiant in
open court.” Hutira v. Islamic Republic of Iran, 211 F.
Supp. 2d 115, 124 (D.D.C. 2002). Thus, for instance,
although the district court never held a hearing with
live testimony in Han Kim v. Democratic People’s
Republic of Korea, the D.C. Circuit found sufficient

510a
admissible evidence to support a FSIA default
judgment in the various affidavits the plaintiffs had
submitted. See 774 F.3d at 1049–51.18
In the context of FSIA default proceedings, sworn
prior testimony is just as admissible as a sworn
affidavit. An affidavit in which Jane swears, “I saw
X,” is not meaningfully different from a transcript of
a trial in which Jane took the stand and swore, “I saw
X.” That is why prior testimony can support a motion
for summary judgment just as well as an affidavit
can. E.g., Int’l Distrib. Corp. v. Am. Dist. Tel. Co., 569
F.2d 136, 138 (D.C. Cir. 1977) (“[E]ither an affidavit
or a certified transcript of prior testimony may
provide the basis for summary judgment.”). Of course,
the content of either type of submission could in
theory be inadmissible, but they are both equally
admissible forms of evidence. See 11 James Wm.
Moore et al., Moore’s Federal Practice § 56.91[1]–[3]
(3d ed. 2015) (discussing the distinction between
admissible content and admissible form). That is just
as true in FSIA default judgment proceedings as in
Rule 56 summary judgment proceedings.
Sudan’s attack on al-Fadl’s prior testimony is a
misguided objection to its form, not its content. If
Sudan had shown up in 2010 and gone to trial, it
could have demanded that the plaintiffs put al-Fadl
on the stand (or fit his prior testimony into a hearsay
exception)—but it didn’t. In light of Sudan’s default,
al-Fadl’s prior testimony was a perfectly appropriate
form of evidence. By the same logic, Sudan’s hearsay
objections to the deposition testimony of Essam alThat the district court did not hold a hearing with live
testimony is evident from the district court docket entries and
the various filings in both the district court and the D.C. Circuit.
18

511a
Ridi and the plea hearing testimony of Ali Mohamed
also fail. See Sudan’s Aliganga Mem. at 19; Reply at
14. The consideration of all three sets of testimony
was proper. And any objection to aspects of the
content of that testimony should have—as is true of
so many of Sudan’s arguments—been raised long ago.
In sum, the Court had jurisdiction to hear claims
brought under § 1605A(c) because that cause of
action directly mirrors the jurisdictional standard in
§ 1605A(a) and the plaintiffs’ claims were not
frivolous. Jurisdiction to hear the state-law claims
depended on the plaintiffs’ producing admissible
evidence that Sudan provided “material support or
resources” that “caused” the bombings. The plaintiffs
met their burden of production by offering the three
expert opinions (as well as the testimony of al-Fadl
and others), and Sudan failed to carry its burden of
persuasion. The Court therefore had a sufficient
factual basis for jurisdiction to hear all of the
plaintiffs’ claims.
RULE 60(B)(4): “INDIRECT” VICTIMS CAN SUE
UNDER § 1605A
Sudan’s final jurisdictional argument is that
§ 1605A does not provide subject-matter jurisdiction
for the claims of “indirect” victims, that is, immediate
family members of those physically injured or killed
in the bombings, who have claimed emotional injuries
stemming from the attacks. Subsection (a)(1) of §
1605A is limited to cases in which damages are
sought “for personal injury or death,” and in Sudan’s
view “personal injury” requires bodily harm. Sudan’s
Aliganga Mem. at 26–27. Sudan also relies on
subsection (a)(2), which (among other things)
requires that at the time of the predicate act “the

512a
claimant or the victim was” a U.S. national, a
member of the U.S. armed forces, or a U.S.
government employee. 28 U.S.C. § 1605A(a)(2)(A)(ii).
In Sudan’s view, this indicates that claims can be
brought only by the direct “victim” or by a legal
representative (“claimant”) on the victim’s behalf if
the victim is killed or incapacitated. Reply at 15–16;
Sudan’s D.C. Cir. Br. at 46–48. Sudan also points to
the district court opinion in Cicippio Puleo v. Islamic
Republic of Iran, which concluded (correctly, in
Sudan’s estimation) that “Congress did not intend the
FSIA to so enlarge the scope of potential liability of
sovereign foreign states—even ‘terrorist’ states—to
require them to compensate non-victim plaintiffs for
damages.” 2002 WL 34408105, at *3 (D.D.C. June 21,
2002); see Sudan’s Aliganga Mem. at 25–26; Sudan’s
D.C. Cir. Br. at 48–49.
The short answer to this argument is that it is
foreclosed by precedent. In fact, it is the CicippioPuleo case that forecloses it. That action was brought
by family members of Joseph J. Cicippio, Sr., who had
been taken hostage and held for years by Hezbollah.
The plaintiffs sued Iran under § 1605(a)(7), alleging
emotional injuries stemming from Cicippio’s
captivity. As Sudan notes, the district court
dismissed the case, both for failure to state a claim
and for lack of jurisdiction. Cicippipo Puleo, 2002 WL
34408105, at *2 (“dismiss[ing] the complaint
pursuant to Fed. R. Civ. P. 12(b)(6) and 12(h)(3)”).
But Sudan ignores what happened on appeal. After
noting that the district court had dismissed on these
two alternative grounds, the D.C. Circuit said: “The
second ground is inapposite, for it is clear that the
District Court had jurisdiction pursuant to the
statutory waiver of sovereign immunity under 28

513a
U.S.C. § 1605(a)(7).” Cicippio-Puleo v. Islamic
Republic of Iran, 353 F.3d 1024, 1030 (D.C. Cir.
2004). That is, it was “clear” that § 1605(a)(7)
provided jurisdiction to family members suing for
intentional infliction of emotional distress (IIED).
The D.C. Circuit went on to hold that the plaintiffs
lacked a cause of action under the Flatow
Amendment (thus affirming the district court in
part), but because it held that there was jurisdiction
under § 1605(a)(7), it remanded the case “to allow
plaintiffs an opportunity to amend their complaint to
state a cause of action under some other source of
law.” Id. at 1036. Thus, the D.C. Circuit has squarely
held that § 1605(a)(7) provided jurisdiction for family
members’ claims. This holding cannot be waved off as
unconsidered: this was an issue of subject-matter
jurisdiction, which the court surely knew it must
consider carefully. Moreover, the court received
briefing that directly addressed whether IIED fit
within § 1605(a)(7)’s terms. See Br. for Appointed
Amicus Curiae at 26–27, Cicippio-Puleo, 353 F.3d
1024 (No. 02-7085), 2003 WL 25585771.19 Because
the language of § 1605A(a) is not different from the
language of § 1605(a)(7) in any relevant way—and
nothing suggests the enactment of § 1605A(a) was
intended to expand immunity—Sudan’s argument
And the court concluded likewise in Oveissi v. Islamic
Republic of Iran, 573 F.3d 835 (D.C. Cir. 2009). There, the
grandson of a former Iranian general who was assassinated by
Hezbollah sued Iran under the FSIA, alleging IIED and
wrongful death. Although the D.C. Circuit remanded the case
without determining whether the plaintiff had viable causes of
action, it noted that “the district court correctly determined that
it had jurisdiction over the plaintiff’s suit under the terrorism
exception of the FSIA,” i.e., § 1605(a)(7). 573 F.3d at 840.
19

514a
that the Court lacked jurisdiction to hear family
members’ claims must be rejected.
Cicippio-Puleo’s conclusion, moreover, is correct as
a matter of statutory interpretation. Sudan thinks
not, in part (as noted earlier) because it thinks
“personal injury” means only physical bodily injury.
But “personal injury” does not usually receive so
narrow an interpretation. Indeed, four years before §
1605(a)(7) was enacted, the Supreme Court
interpreted the term as used in a tax code provision
to encompass “nonphysical injuries to the individual,
such as those affecting emotions, reputation, or
character,” an interpretation it deemed “in accord
with common judicial parlance and conceptions” of
the term. United States v. Burke, 504 U.S. 229, 235
n.6 (1992). Burke relied in part on the sixth edition of
Black’s Law Dictionary, which observed that the
“narrow sense” of “personal injury” is bodily injury,
but the “wider sense,” found “usually in statutes,”
includes “any injury which is an invasion of personal
rights, and in this signification it may include such
injuries to the person as . . . mental suffering.”
Black’s Law Dictionary 786 (6th ed. 1990) (defining
various types of “injury”). And IIED is commonly
described as a “personal injury” claim. See, e.g.,
Leach v. Taylor, 124 S.W.3d 87, 91 (Tenn. 2004);
Hawkes v. Commercial Union Ins. Co., 764 A.2d 258,
264 (Me. 2001); Curtis v. Firth, 850 P.2d 749, 752
(Idaho 1993); Luddeke v. Amana Refrigeration, Inc.,
387 S.E.2d 502, 504 (Va. 1990). Still, says Sudan,
“personal injury” could mean only bodily injury, and
any ambiguity in § 1605A should be construed
narrowly, in favor of its immunity. Sudan’s Aliganga
Mem. at 26–29. But the D.C. Circuit has rejected
such a rule of narrow construction (albeit in a

515a
decision that was later reversed on other grounds).
See Simon v. Republic of Iraq, 529 F.3d 1187, 1196
(D.C. Cir. 2008) (“[N]or are we aware of any case in
which a court presumed or suggested exceptions to
foreign sovereign immunity should be construed
narrowly.”), rev’d on other grounds sub nom. Republic
of Iraq v. Beaty, 556 U.S. 848 (2009). Interpretation
of § 1605A proceeds “unencumbered by any special
canons of construction,” id., and the better reading is
that “personal injury” includes emotional injuries of
the sort the family members suffered.
Nor is the Court persuaded by Sudan’s argument
that the only possible “claimant” apart from the
“victim” directly injured by the incident is a legal
representative of that “victim.” Reply at 15–16;
Sudan’s D.C. Cir. Br. at 46–48. No doubt “claimant”
can encompass the legal representative of a direct
victim who has been killed or incapacitated. But it
seems strange to limit “claimant” to only that
meaning, given that in the cause of action in §
1605A(c)—enacted at the same time as § 1605A(a)—
Congress specifically used the term “legal
representative.” 28 U.S.C. § 1605A(c)(4); see Sosa v.
Alvarez-Machain, 542 U.S. 692, 711 n.9 (2004)
(noting the “usual rule” that differences of language
within a statute indicate differences of meaning). The
more natural reading is that “claimant” means
whoever is bringing the claim under § 1605A(a).
Subsection (a)(2), after all, is devoted to explaining
the circumstances in which “[t]he court shall hear a
claim under this section.” 28 U.S.C. § 1605A(a)(2).
And because IIED is a claim that fits within
subsection (a)(1), the Court sees no reason why the
“claimant”/“victim” language in subsection (a)(2)
forecloses jurisdiction over family members’ claims.

516a
The far more obvious function of subsection (a)(2) is
to ensure that only claims with a connection to a U.S.
national, service member, or government employee
can be heard. That function is not undermined by
allowing family members’ claims. See Oveissi v.
Islamic Republic of Iran, 573 F.3d 835, 840 (D.C. Cir.
2009) (finding jurisdiction under § 1605(a)(7) for suit
alleging IIED by U.S. grandson of assassinated
Iranian general, and describing grandson as “the
claimant”); see also Leibovitch v. Islamic Republic of
Iran, 697 F.3d 561, 568–72 (7th Cir. 2012) (finding
jurisdiction under § 1605A for family members’
claims).
RULE 60(B)(6): THE COURT WILL NOT VACATE
FOREIGN FAMILY MEMBERS’ JUDGMENTS
Sudan’s next argument is that, even if § 1605A(a)
gave the Court subject-matter jurisdiction to hear the
claims of victims’ family members, those familymember plaintiffs who are foreign nationals did not
have a valid cause of action. That is so, Sudan argues,
for two independent reasons. First, § 1606, which
Sudan characterizes as a “gateway” through which
FSIA plaintiffs must pass to access substantive law,
does not cross-reference § 1605A, but only §§ 1605
and 1607. According to Sudan, this means that the
only cause of action available to plaintiffs proceeding
under § 1605A(a) is the one in § 1605A(c), and that
cause of action (as this Court has held) is not
available to foreign plaintiffs. Sudan’s Aliganga Mem.
at 29–30; see also Owens IV, 826 F. Supp. 2d 128,
151–53 (D.D.C. 2011). Second, Sudan argues that
even if the foreign family members could access D.C.
law—the substantive law this Court held would apply
to those plaintiffs, see Owens IV, 826 F. Supp. 2d at

517a
153–57—they failed to state viable IIED claims
because they did not personally witness (or at least
contemporaneously perceive) their direct-victim
relatives suffer their injuries. Sudan’s Aliganga Mem.
at 30–32. And because the foreign family members
did not have a valid cause of action, Sudan says, their
judgments should be vacated under Rule 60(b)(6). Id.
at 32.
Sudan completely fails, however, to explain why
these nonjurisdictional arguments, even if correct,
would justify relief under Rule 60(b)(6). As noted
earlier, that provision, which follows the more
specific circumstances identified in subsections (b)(1)
through (b)(5), allows a court to vacate a final
judgment for “any other reason that justifies relief.”
“[R]elief under Rule 60(b)(6) . . . requires a showing of
‘extraordinary circumstances.’ ” Gonzalez v. Crosby,
545 U.S. 524, 536 (2005); accord Kramer v. Gates,
481 F.3d 788, 792 (D.C. Cir. 2007) (noting “that Rule
60(b)(6) should be only sparingly used” and requires
movants to “clear a very high bar to obtain relief”
(internal quotation marks omitted)). Sudan provides
no authority suggesting that the mere existence of a
nonjurisdictional legal error is such an extraordinary
circumstance. Precedent suggests the contrary. In
Gonzalez, for instance, the Supreme Court said that a
district court’s (assumedly) “incorrect” dismissal,
based on circuit precedent later held to be erroneous,
did not amount to extraordinary circumstances under
Rule 60(b)(6). 545 U.S. at 536. And the D.C. Circuit
has noted that “a dispute over the proper
interpretation of a statute does not qualify as an
extraordinary circumstance under Rule 60(b)(6).”
Carter v. Watkins, 995 F.2d 305, 1993 WL 210853, at
*2 (D.C. Cir. 1993) (per curiam) (table); see also, e.g.,

518a
Pierce v. United Mine Workers of Am. Welfare & Ret.
Fund for 1950 & 1974, 770 F.2d 449, 451 (6th Cir.
1985) (“Because of the residual nature of Rule
60(b)(6), a claim of simple legal error, unaccompanied
by extraordinary or exceptional circumstances, is not
cognizable under Rule 60(b)(6).”); Elgin Nat’l Watch
Co. v. Barrett, 213 F.2d 776, 779–80 (5th Cir. 1954)
(“The mere fact that the judgment was erroneous
does not constitute ‘any other reason justifying relief’
from it.” (footnote omitted)).
If the mere fact of nonjurisdictional error can ever
be the basis for Rule 60(b) relief, it should be limited
to instances of clear or obvious error, or (perhaps)
where the controlling law has changed after the entry
of judgment. See Van Skiver v. United States, 952
F.2d 1241, 1244 (10th Cir. 1991) (relief based on
“mistake” of law under Rule 60(b)(1) “is available
only for obvious errors of law”); Alvestad v. Monsanto
Co., 671 F.2d 908, 913 (5th Cir. 1982) (similar); Ctr.
for Nuclear Responsibility, Inc. v. U.S. Nuclear
Regulatory Comm’n, 781 F.2d 935, 940 (D.C. Cir.
1986) (correction of legal errors permitted under Rule
60(b)(1), at least during the appeal period, “where the
controlling law of the circuit had changed between
the time of the judgment and the time of the
motion”).20 Even under the more forgiving Rule 59(e)
standard, relief need not be granted absent “an
As these citations suggest, those courts that have held that
legal error alone can justify relief from a final judgment have
usually done so under Rule 60(b)(1). See generally 11 Charles
Alan Wright et al., Federal Practice and Procedure § 2858.1 (3d
ed. 2012). Sudan has made no argument of this sort, and would
have been time-barred from doing so in Mwila and Khaliq. See
Fed. R. Civ. P. 60(c)(1) (requiring motions under Rule 60(b)(1) to
be brought no more than one year after the entry of judgment).
20

519a
intervening change of controlling law, the availability
of new evidence, or the need to correct a clear error or
prevent manifest injustice.” Patton Boggs LLP v.
Chevron Corp., 683 F.3d 397, 403 (D.C. Cir. 2012)
(emphasis added) (internal quotation marks
omitted).) There is no suggestion here of any change
in controlling law. And Sudan has not identified clear
or obvious errors.
Start with Sudan’s contention that § 1605A(c)
provides the only cause of action available to
plaintiffs proceeding under the jurisdictional grant in
§ 1605A(a). As noted, the premise underlying this
argument is that in order to access substantive law
outside the FSIA, a plaintiff needs the “gateway” of §
1606, and § 1606 refers only to claims brought under
§§ 1605 or 1607, not § 1605A. Sudan’s Aliganga Mem.
at 29–30. But § 1606 (reproduced in full in the
margin)21 does not by its terms create an exclusive
“gateway” through which a plaintiff must pass in
order to access substantive law. The section does not
grant access to substantive law, or even define what
21

Section 1606 (“Extent of liability”) provides:

As to any claim for relief with respect to which a foreign state is
not entitled to immunity under section 1605 or 1607 of this
chapter, the foreign state shall be liable in the same manner and
to the same extent as a private individual under like
circumstances; but a foreign state except for an agency or
instrumentality thereof shall not be liable for punitive damages;
if, however, in any case wherein death was caused, the law of
the place where the action or omission occurred provides, or has
been construed to provide, for damages only punitive in nature,
the foreign state shall be liable for actual or compensatory
damages measured by the pecuniary injuries resulting from
such death which were incurred by the persons for whose benefit
the action was brought.

520a
substantive law applies to claims brought under the
FSIA. See Oveissi, 573 F.3d at 841 (“The FSIA does
not contain an express choice-of-law provision.”).
Instead, as suggested by its title, “Extent of liability,”
§ 1606 places certain limits on the liability that the
applicable substantive law—whatever its source—can
impose on the foreign sovereign. True, courts have
relied in part on § 1606 in deciding what choice-oflaw rules to apply in FSIA cases, see id., but that
does not make § 1606 the indispensable “gateway”
that Sudan envisions.
To put the point another way, imagine if § 1606
were deleted entirely: would that mean FSIA
plaintiffs proceeding under the jurisdiction provided
by § 1605 would have no access to substantive law?
The Court thinks not. It is aware of no authority
suggesting that a grant of subject-matter jurisdiction
is a nullity if Congress fails to expressly define the
substantive law that applies. Early Supreme Court
decisions repeatedly avowed that even if the first
Congress had not enacted the Rules of Decision Act—
which instructed federal courts to use state laws as
rules of decision in certain circumstances, see
Judiciary Act of 1789, ch. 20, § 34, 1 Stat. 73, 92
(codified as amended at 28 U.S.C. § 1652)—federal
courts would have the obligation (and a fortiori the
ability) to apply state law to cases within their
jurisdiction. See Hawkins v. Barney’s Lessee, 30 U.S.
(5 Pet.) 457, 464 (1831) (“[The Rules of Decision Act]
has been uniformly held to be no more than a
declaration of what the law would have been without
it: to wit, that the lex loci must be the governing rule
of private right, under whatever jurisdiction private
right comes to be examined.”); Bank of Hamilton v.
Dudley’s Lessee, 27 U.S. (2 Pet.) 492, 525 (1829)

521a
(observing that state law would “be regarded as a
rule of decision in the courts of the United States . . .
independent of” the Rules of Decision Act); see also
Agency Holding Corp. v. Malley-Duff & Assocs., Inc.,
483 U.S. 143, 161–63 (1987) (Scalia, J., concurring in
the judgment).22 Hence, it appears that even if § 1606
did not exist at all, federal courts could still
adjudicate cases falling within the subject-matter
jurisdiction provided by the FSIA. They would
continue to do what they do now: use the choice-oflaw rules of the state in which they sit to determine
the applicable substantive law. See Oveissi, 573 F.3d
at 841; cf. 19 Charles Alan Wright et al., Federal
Practice and Procedure § 4520 (2d ed. 1996)
(discussing the application of state law by federal
courts in nondiversity cases). The upshot is that
Congress’s failure to add a cross-reference to § 1605A
in § 1606 does not block state law from applying to
claims for which subject-matter jurisdiction is
provided by § 1605A(a). It merely means that the
special rules of liability in § 1606 do not apply to
claims arising under § 1605A(a).
That brings us to Sudan’s second argument: that
the foreign family members failed to state viable
IIED claims under D.C. law. Sudan argues that D.C.
law would not allow recovery for IIED unless these
plaintiffs had been present at the time of, or at least
had contemporaneously perceived, the outrageous
conduct (i.e., the bombings). But Sudan cannot point
to a decision by the D.C. Court of Appeals that
actually imposes a bright-line presence requirement.
True, Sudan can and does point to a D.C. Circuit
decision that reads D.C. tort law in this way: Pitt v.
22

28 U.S.C. § 1606.

522a
District of Columbia, which said that “under D.C. tort
law, a family member can only recover for IIED if she
was ‘present’ when the extreme or outrageous
conduct took place.” 491 F.3d 494, 507 (D.C. Cir.
2007). But with all due respect, this Court does not
believe Pitt clearly controls under the circumstances
here. Pitt noted that the District of Columbia had
adopted the IIED standard laid out in the
Restatement (Second) of Torts, which does suggest
that presence is usually required for family-member
plaintiffs. See id. But the Restatement also contains a
“Caveat” that leaves open “whether there may not be
other circumstances under which the actor may be
subject to liability for the intentional or reckless
infliction of emotional distress,” and more specifically
“leave[s] open the possibility of situations in which
presence at the time may not be required.”
Restatement (Second) of Torts § 46, Caveat (1965); id.
§ 46, cmt. l. Relying on this Caveat, courts in this
district have held that terrorist attacks are a form of
outrageous conduct to which the presence
requirement should not apply. See, e.g., Estate of
Heiser v. Islamic Republic of Iran, 466 F. Supp. 2d
229, 328 (D.D.C. 2006) (“[A] terrorist attack is
precisely the sort of situation in which presence at
the time is not required in light of the severity of the
act and the obvious range of potential grief and
distress that directly results from such a heinous
act.”) (applying New Hampshire law, which follows
the Restatement). The D.C. Court of Appeals has
never addressed the Restatement’s Caveat or an IIED
claim arising out of terrorism, and nor did the D.C.
Circuit in Pitt. This Court therefore does not find it
clear that D.C. law would require the foreign familymember plaintiffs to have been present at the

523a
bombings. And even if it is ultimately determined
that D.C. law does require presence under these
circumstances, the Court’s error on this open and
debatable point of law is not, for the reasons
discussed earlier, a basis under Rule 60(b) for
vacating the judgments.
One might wonder, the Court recognizes, whether
it makes sense to apply the demanding Rule 60(b)
standard to Sudan’s nonjurisdictional arguments,
given that Sudan filed timely notices of appeal. That
is, one might think that if Sudan will get to raise
these nonjurisdictional arguments in its direct appeal
of the judgments, then for efficiency’s sake this Court
should give them plenary consideration in the first
instance. But, for one thing, there is simply no
authority suggesting, nor does Sudan contend, that
the Court has discretion to apply anything but the
Rule 60(b) standard here, regardless of what concern
for judicial efficiency might suggest. Moreover,
Sudan’s nonjurisdictional arguments will likely not
receive plenary consideration on appeal either.
Arguments not raised in the district court are
generally forfeit on appeal. E.g., Benoit v. U.S. Dep’t
of Agric., 608 F.3d 17, 21 (D.C. Cir. 2010). If the D.C.
Circuit agrees that Sudan’s default was inexcusable,
this forfeiture rule would seem to apply. Hence, this
Court does not believe it is reviewing any of Sudan’s
arguments under a standard more demanding than
what Sudan will face on appeal.
RULE 60(B)(6): THE COURT WILL NOT VACATE
THE PUNITIVE DAMAGES AWARDS
Sudan also challenges the judgments in Wamai,
Amduso, Onsongo, and Opati insofar as they included
awards of punitive damages, which Sudan says were

524a
not available to any plaintiffs. Punitive damages
were not available to foreign family-member
plaintiffs, Sudan argues, because the only mechanism
for obtaining punitive damages under the FSIA is the
cause of action in § 1605A(c), which has never been
available to foreign family members. Mem. Supp.
Mot. to Vacate [Amduso ECF No. 285-1] (“Sudan’s
Amduso Mem.”) at 25. And as for those plaintiffs
properly proceeding under § 1605A(c), Sudan
contends that § 1605A(c) should not be read to
authorize punitive damages for pre-enactment
conduct, lest it run afoul of the Ex Post Facto Clause.
Reply at 20–22. Hence, says Sudan, the punitive
damages portions of these judgments should be
vacated under Rule 60(b)(6). Sudan’s Amduso Mem.
at 25.
But Sudan has once again completely failed to
explain why these arguments, even if persuasive,
come within the ambit of Rule 60(b)(6). Like the
arguments discussed in the preceding section of this
opinion, these are claims of nonjurisdictional legal
error. And for the reasons explained in that section,
error by itself—unless, perhaps, it is obvious—is not
an extraordinary circumstance. The fact that one of
Sudan’s arguments has a constitutional component
does not alter the analysis. Constitutional arguments
are generally subject to forfeiture and waiver just like
any other legal argument, see, e.g., Al Bahlul v.
United States, 767 F.3d 1, 8–10 (D.C. Cir. 2014) (en
banc) (forfeiture of ex post facto argument); United
States v. Behrman, 235 F.3d 1049, 1051–52 (7th Cir.
2000) (guilty pleas can waive constitutional
arguments), and the Court is aware of no authority
suggesting that claims of constitutional error render

525a
final judgments more susceptible to reopening under
Rule 60(b)(6).
One might wonder whether the sheer magnitude
of the punitive damages awarded here—billions of
dollars—is an extraordinary circumstance. But,
although Sudan mentions the size of the awards, see
Sudan’s Amduso Mem. at 25, it does not argue that
this is relevant to Rule 60(b)(6)—perhaps because
there is no authority to that effect. This Court has
found no precedent suggesting that the magnitude of
a damages award can itself be an extraordinary
circumstance that would justify relief from the
judgment. Consistent with the general thrust of Rule
60(b), courts applying Rule 60(b)(6) have largely
focused on flaws in the adjudicatory process—such as
fraud, lack of actual notice, or a party’s disability—
not on the nature or scope of the relief awarded. See
12 James Wm. Moore et al., Moore’s Federal Practice
§ 60.48[3][b], [4][a] (3d ed. 2015). Once again, then,
Sudan has failed to persuade the Court that its
arguments—however strong they might have been if
presented at the appropriate time—justify vacating
the judgments.
In fairness to Sudan, however, and in case it
might assist the D.C. Circuit (if it reviews this issue),
the Court must acknowledge the apparent strength of
Sudan’s
underlying
arguments
about
the
unavailability of punitive damages. Take first
Sudan’s argument regarding punitive damages under
§ 1605A(c). As Sudan correctly notes, there is a
“presumption against retroactive legislation [that] is
deeply rooted in our jurisprudence, and [that]
embodies a legal doctrine centuries older than our
Republic.” Landgraf v. USI Film Prods., 511 U.S. 244,

526a
265 (1994). A statute will not be interpreted to
“impair rights a party possessed when he acted,
increase a party’s liability for past conduct, or impose
new duties with respect to transactions already
completed . . . absent clear congressional intent
favoring such a result.” Id. at 280; see also Lindh v.
Murphy, 521 U.S. 320, 325 (1997) (noting “the
traditional rule requiring retroactive application to be
supported by a clear statement”). Before the
enactment of the 2008 NDAA, Sudan was not subject
to punitive damages for the conduct at issue in these
cases. See 28 U.S.C. § 1606 (“a foreign state . . . shall
not be liable for punitive damages” for claims under §
1605); Owens I, 374 F. Supp. 2d 1, 25–26 (D.D.C.
2005). It would therefore only be appropriate to
interpret the amendments in the 2008 NDAA as
authorizing punitive damages for that same
behavior—thereby “increas[ing Sudan’s] liability for
past conduct”—if there is a clear statement of that
intent.
The Court does not see such a clear statement.
The plaintiffs argue that because “§ 1605A(b) permits
retroactive § 1605A(c) claims ‘under this section’ and
subsection (c) provides for punitive damages,
Congress has unequivocally expressed its intent that
punitive damages have a retroactive effect under §
1605A.” Pls.’ Surreply [Amduso ECF No. 294-1] at
2.22 But the mere fact that Congress has authorized

22 The plaintiffs in the four cases in which punitive damages
were awarded have moved for leave to file surreplies addressing
this issue of retroactivity and three other issues. See, e.g., Pls.’
Mot. for Leave to File Sur-Reply [Amduso ECF No. 294] at 2–3.
Sudan does not oppose the plaintiffs’ request insofar as it relates
to this one issue. The Court will grant the plaintiffs leave to file

527a
plaintiffs to bring § 1605A(c) claims on the basis of
pre-2008 conduct is not a clear statement that
punitive damages are available for that subset of
claims. If § 1605A(c) said, “Punitive damages are
available in all actions brought under this
subsection,” the Court might agree with the
plaintiffs. But as Sudan notes, it says only that an
award “may include . . . punitive damages.” 28 U.S.C.
§ 1605A(c) (emphasis added). That language does not
compel the conclusion that punitive damages are
available for pre-enactment conduct.
The plaintiffs also point to Arnold v. Islamic
Republic of Iran, 787 F. Supp. 2d 37, 42 (D.D.C.
2011), which discusses the retroactive effect of the
2008 amendments. Pls.’ Surreply at 2. Arnold did say
that the punitive damages provision in § 1605A(c)
should be applied retroactively in some cases, but it
based that conclusion not on any clear statement in §
1605A itself, but rather on the particular language in
§ 1083(c)(2) of the 2008 NDAA, the provision allowing
the conversion of pending § 1605(a)(7) actions. 787 F.
Supp. 2d at 43 (noting that “the NDAA instructs
courts to treat a case converted into a § 1605A suit
under that section [i.e., § 1083(c)(2)] ‘as if the action
had originally been filed’ under § 1605A” (quoting 28
U.S.C. §1083(c)(2)(A)). Arnold expressly distinguished
“related actions” brought pursuant to § 1083(c)(3),
which it said “lacks any express directive” regarding
retroactivity. Id. at 45. Arnold may or may not be
correct about § 1083(c)(2), but since none of the four
actions at issue here were brought under that

those portions of their surreplies that address this issue, but not
the portions that address the other three issues.

528a
provision, Arnold does not help the plaintiffs here in
any event.
In connection with this dispute over retroactivity,
Sudan and the plaintiffs spar over the applicability of
the Ex Post Facto Clause. Sudan says the retroactive
imposition of punitive damages might very well
violate that provision of the Constitution. See
Landgraf, 511 U.S. at 281 (“Retroactive imposition of
punitive damages would raise a serious constitutional
question.”). The plaintiffs contend, however, that a
foreign sovereign like Sudan “cannot avail itself of
the U.S. Constitution to object to punitive damages.”
Pls.’ Surreply at 3. The plaintiffs raise an interesting
question: do foreign sovereigns have standing (so to
speak) to object when Congress exceeds its Article I
authority? On the one hand, the D.C. Circuit has held
that a foreign sovereign is not a “person” protected by
the Fifth Amendment, observing along the way that
“legal disputes between the United States and foreign
governments are not mediated through the
Constitution.” Price v. Socialist People’s Libyan Arab
Jamahiriya, 294 F.3d 82, 96–97 (D.C. Cir. 2002); see
also Lori Fisler Damrosch, Foreign States and the
Constitution, 73 Va. L. Rev. 483, 489, 515–34 (1987)
(arguing that foreign states’ “constitutional claims
against the actions of the federal political branches
must fail on the merits because of the relationship of
foreign states to the federal structure,” Id. at 489). On
the other hand, the D.C. Circuit has at least once—in
this litigation, no less—addressed on the merits an
Article I argument by a foreign sovereign, never
suggesting the sovereign had no right to make it. See
Owens III, 531 F.3d 884, 888–93 (D.C. Cir. 2008)
(rejecting Sudan’s contention that aspects of the FSIA
violate the nondelegation doctrine). Ultimately,

529a
however, the Court does not think the applicability of
the Ex Post Facto Clause is dispositive, for as Sudan
rightly notes, the interpretive presumption that
statutes
affecting
substantive
rights
are
nonretroactive is a general legal principle not
dependent on the Constitution. See Landgraf, 511
U.S. at 265 & n.17. And the fact that the Supreme
Court has wrestled with how this presumption
applies to the FSIA generally, see Republic of Austria
v. Altmann, 541 U.S. 677, 692–702 (2004), shows that
it is fully applicable to cases involving foreign
sovereigns. Here, that presumption leaves the Court
with serious doubt about whether § 1605A(c) should
be read as authorizing punitive damages for preenactment conduct.
The Court has equally serious doubt about
whether the foreign family-member plaintiffs could
receive punitive damages. As Sudan notes, the
Court’s only explanation for its award of punitive
damages was § 1605A(c), see, e.g., Amduso v.
Republic of Sudan, 61 F. Supp. 3d 42, 51–53 (D.D.C.
2014), but the foreign family-member plaintiffs were
not (and could not have been) bringing claims under
that provision. They were instead bringing claims
under state law. Could the punitive damages
nonetheless have been justified under state law?
Sudan says no, relying on the FSIA’s general
prohibition on the award of punitive damages against
a foreign state. But that prohibition is contained in
§ 1606, and as Sudan itself highlights in the context
of its “gateway” argument (see supra p. 65), § 1606
does not apply to claims brought under § 1605A. See
Sudan’s Amduso Mem. at 23 (“By its terms, § 1606
pertains only to §§ 1605 and 1607, not § 1605A.”).
Sudan does not get to selectively apply § 1606 to §

530a
1605A when it helps but not when it hurts. Hence, as
a general matter, the Court does not see why a
plaintiff bringing state-law claims through the
jurisdiction provided by § 1605A(a) cannot obtain
punitive damages against a foreign state (assuming
such damages are warranted under state law, of
course).
In these cases, however, there remains the
problem of retroactivity. If state-law punitive
damages are indeed now available against foreign
sovereigns, it is the 2008 NDAA that made this so, by
creating a new jurisdictional provision, § 1605A(a),
that is unconstrained by the liability limitations of §
1606. This “increase[d] a party’s liability for past
conduct,” Landgraf, 511 U.S. at 280; at the time of
Sudan’s conduct, it was not subject to punitive
damages in any American court, but now (on this
reading) it would be. The presumption against
retroactivity thus again directs a court not to give the
2008 NDAA that construction absent a clear
statement. (By contrast, a change merely in the scope
of the jurisdiction the FSIA provides would not be
subject to the presumption against retroactivity.
Republic of Iraq v. Beaty, 556 U.S. 848, 864 (2009).)
And if there was no clear statement of retroactivity
with respect to the express authorization of punitive
damages by § 1605A(c), there is certainly no clear
statement with respect to the 2008 NDAA’s implicit
authorization of state-law punitive damages under §
1605A(a).
In sum, the Court now has significant doubt about
whether any of the punitive damages awards in these
cases involving conduct predating the 2008 NDAA
were proper. It is not certain they were improper,

531a
however—the parties’ briefing of these complex
issues is rather scant—and to return to the critical
point, Sudan has provided no authority suggesting
that such error alone is a proper basis for vacating
the judgments. Perhaps the D.C. Circuit will expand
the range of circumstances in which legal error
justifies vacatur, cf. Ctr. for Nuclear Responsibility,
Inc. v. U.S. Nuclear Regulatory Comm’n, 781 F.2d
935, 940 (D.C. Cir. 1986) (leaving open whether “to
allow corrections of substantive legal errors where no
. . . change in the law of the circuit has occurred”
under Rule 60(b)(1)), but this Court will not do so on
its own. Even with its doubts, then, the Court will not
vacate the punitive damages awards, which at most
entail nonjurisdictional legal error not amounting to
an “extraordinary circumstance” within the ambit of
Rule 60(b)(6).
CONCLUSION
For all of the foregoing reasons, the Court will
deny Sudan’s motions to vacate the judgments in
each of these cases. See Fed. R. Civ. P. 62.1(a)(2)
(authorizing the denial of relief when an appeal is
pending). A separate order will issue today in each
case.
/s/
JOHN D. BATES
United States District Judge
Dated: March 23, 2016

532a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Docket No: 01-2244 (JDB)

JAMES OWENS, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of [362] [367] the motions of
defendants the Republic of Sudan and the Ministry of
the Interior of the Republic of Sudan to vacate the
judgments in this case, [374] [375] plaintiffs’
oppositions, [378] Sudan’s reply, and the entire
record herein, for the reasons given in [402] the
accompanying Memorandum Opinion, it is hereby
ORDERED that [362] [367] the motions to vacate
are DENIED.
SO ORDERED.

533a
/s/
JOHN D. BATES
United States District Judge
Dated: March 23, 2016

534a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Civil Action No: 08-1349 (JDB)

WINFRED WAIRIMU WAMAI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of [264] the motion of
defendants the Republic of Sudan and the Ministry of
the Interior of the Republic of Sudan to vacate the
judgment in this case, [266] plaintiffs’ opposition,
[267] Sudan’s reply, [269] plaintiffs’ motion for leave
to file a surreply, [270] Sudan’s opposition to
plaintiffs’ motion for leave to file a surreply, [272]
plaintiffs’ reply in support of leave to file a surreply,
and the entire record herein, for the reasons given in
[279] the accompanying Memorandum Opinion, it is
hereby
ORDERED that [264] the motion to vacate is
DENIED; and it is further

535a
ORDERED that [269] plaintiffs’ motion for leave to
file a surreply is GRANTED IN PART and DENIED
IN PART.
SO ORDERED.

/s/
JOHN D. BATES
United States District Judge
Dated: March 23, 2016

536a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Civil Action No: 08-1361 (JDB)

MILLY MIKALI AMDUSO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of [285] the motion of
defendants the Republic of Sudan and the Ministry of
the Interior of the Republic of Sudan to vacate the
judgment in this case, [288] plaintiffs’ opposition,
[291] Sudan’s reply, [294] plaintiffs’ motion for leave
to file a surreply, [295] Sudan’s opposition to
plaintiffs’ motion for leave to file a surreply, [297]
plaintiffs’ reply in support of leave to file a surreply,
and the entire record herein, for the reasons given in
[305] the accompanying Memorandum Opinion, it is
hereby

537a
ORDERED that [285] the motion to vacate is
DENIED; and it is further ORDERED that [294]
plaintiffs’ motion for leave to file a surreply is
GRANTED IN PART and DENIED IN PART.
SO ORDERED.

/s/
JOHN D. BATES
United States District Judge
Dated: March 23, 2016

538a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Civil Action No: 08-1377 (JDB)

JUDITH ABASI MWILA, et al.,

Plaintiffs,
v.
ISLAMIC REPUBLIC OF IRAN, et al.,

Defendants.

ORDER
Upon consideration of [121] the motion of
defendants the Republic of Sudan and the Ministry of
the Interior of the Republic of Sudan to vacate the
judgment in this case, [128] plaintiffs’ opposition,
[129] Sudan’s reply, and the entire record herein, for
the reasons given in [137] the accompanying
Memorandum Opinion, it is hereby
ORDERED that [121] the motion to vacate is
DENIED.
SO ORDERED.

539a
/s/

JOHN D. BATES
United States District Judge
Dated: March 23, 2016

540a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Civil Action No: 08-1380 (JDB)

MARY ONSONGO, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.

ORDER
Upon consideration of [252] the motion of
defendants the Republic of Sudan and the Ministry of
the Interior of the Republic of Sudan to vacate the
judgment in this case, [254] plaintiffs’ opposition,
[255] Sudan’s reply, [257] plaintiffs’ motion for leave
to file a surreply, [258] Sudan’s opposition to
plaintiffs’ motion for leave to file a surreply, [260]
plaintiffs’ reply in support of leave to file a surreply,
and the entire record herein, for the reasons given in
[267] the accompanying Memorandum Opinion, it is
hereby
ORDERED that [252] the motion to vacate is
DENIED; and it is further

541a
ORDERED that [257] plaintiffs’ motion for leave to
file a surreply is GRANTED IN PART and DENIED
IN PART.
SO ORDERED.

/s/
JOHN D. BATES
United States District Judge
Dated: March 23, 2016

542a
APPENDIX I
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
[Filed: 03/23/2016]
Civil Action No: 12-1224 (JDB)

MONICAH OKABA OPATI, et al.,

Plaintiffs,
v.
REPUBLIC OF SUDAN, et al.,

Defendants.
ORDER
Upon consideration of [65] the motion of defendants
the Republic of Sudan and the Ministry of the
Interior of the Republic of Sudan to vacate the
judgment in this case, [67] plaintiffs’ opposition, [68]
Sudan’s reply, [69] plaintiffs’ motion for leave to file a
surreply, [70] Sudan’s opposition to plaintiffs’ motion
for leave to file a surreply, [72] plaintiffs’ reply in
support of leave to file a surreply, and the entire
record herein, for the reasons given in [79] the
accompanying Memorandum Opinion, it is hereby
ORDERED that [65] the motion to vacate is
DENIED; and it is further

543a
ORDERED that [69] plaintiffs’ motion for leave to
file a surreply is GRANTED IN PART and DENIED
IN PART.
SO ORDERED.

/s/
JOHN D. BATES
United States District Judge
Dated: March 23, 2016

544a
APPENDIX J
U.S. Const. art. I, § 8
The Congress shall have power to lay and collect
taxes, duties, imposts and excises, to pay the debts
and provide for the common defense and general
welfare of the United States; but all duties, imposts
and excises shall be uniform throughout the United
States;
To borrow money on the credit of the United States;
To regulate commerce with foreign nations, and
among the several states, and with the Indian tribes;
To establish a uniform rule of naturalization, and
uniform laws on the subject of bankruptcies
throughout the United States;
To coin money, regulate the value thereof, and of
foreign coin, and fix the standard of weights and
measures;
To provide for the punishment of counterfeiting the
securities and current coin of the United States;
To establish post offices and post roads;
To promote the progress of science and useful arts, by
securing for limited times to authors and inventors
the exclusive right to their respective writings and
discoveries;
To constitute tribunals inferior to the Supreme Court;

545a
To define and punish piracies and felonies committed
on the high seas, and offenses against the law of
nations;
To declare war, grant letters of marque and reprisal,
and make rules concerning captures on land and
water;
To raise and support armies, but no appropriation of
money to that use shall be for a longer term than two
years;
To provide and maintain a navy;
To make rules for the government and regulation of
the land and naval forces;
To provide for calling forth the militia to execute the
laws of the union, suppress insurrections and repel
invasions;
To provide for organizing, arming, and disciplining,
the militia, and for governing such part of them as
may be employed in the service of the United States,
reserving to the states respectively, the appointment
of the officers, and the authority of training the
militia according to the discipline prescribed by
Congress;
To exercise exclusive legislation in all cases
whatsoever, over such District (not exceeding ten
miles square) as may, by cession of particular states,
and the acceptance of Congress, become the seat of
the government of the United States, and to exercise
like authority over all places purchased by the
consent of the legislature of the state in which the
same shall be, for the erection of forts, magazines,

546a
arsenals, dockyards, and other needful buildings;-And
To make all laws which shall be necessary and proper
for carrying into execution the foregoing powers, and
all other powers vested by this Constitution in the
government of the United States, or in any
department or officer thereof.

547a

U.S. Const. art. I, § 10
No state shall enter into any treaty, alliance, or
confederation; grant letters of marque and reprisal;
coin money; emit bills of credit; make anything but
gold and silver coin a tender in payment of debts;
pass any bill of attainder, ex post facto law, or law
impairing the obligation of contracts, or grant any
title of nobility.
No state shall, without the consent of the Congress,
lay any imposts or duties on imports or exports,
except what may be absolutely necessary for
executing it's inspection laws: and the net produce of
all duties and imposts, laid by any state on imports or
exports, shall be for the use of the treasury of the
United States; and all such laws shall be subject to
the revision and control of the Congress.
No state shall, without the consent of Congress, lay
any duty of tonnage, keep troops, or ships of war in
time of peace, enter into any agreement or compact
with another state, or with a foreign power, or engage
in war, unless actually invaded, or in such imminent
danger as will not admit of delay.

548a

U.S. Const. art. II, § 2
The President shall be commander in chief of the
Army and Navy of the United States, and of the
militia of the several states, when called into the
actual service of the United States; he may require
the opinion, in writing, of the principal officer in each
of the executive departments, upon any subject
relating to the duties of their respective offices, and
he shall have power to grant reprieves and pardons
for offenses against the United States, except in cases
of impeachment.
He shall have power, by and with the advice and
consent of the Senate, to make treaties, provided two
thirds of the Senators present concur; and he shall
nominate, and by and with the advice and consent of
the Senate, shall appoint ambassadors, other public
ministers and consuls, judges of the Supreme Court,
and all other officers of the United States, whose
appointments are not herein otherwise provided for,
and which shall be established by law: but the
Congress may by law vest the appointment of such
inferior officers, as they think proper, in the
President alone, in the courts of law, or in the heads
of departments.
The President shall have power to fill up all
vacancies that may happen during the recess of the
Senate, by granting commissions which shall expire
at the end of their next session.

549a

U.S. Const. art. II, § 3
He shall from time to time give to the Congress
information of the state of the union, and recommend
to their consideration such measures as he shall
judge necessary and expedient; he may, on
extraordinary occasions, convene both Houses, or
either of them, and in case of disagreement between
them, with respect to the time of adjournment, he
may adjourn them to such time as he shall think
proper; he shall receive ambassadors and other public
ministers; he shall take care that the laws be
faithfully executed, and shall commission all the
officers of the United States.

550a

U.S. Const. art. VI, cl. 2
***
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land; and the judges in every state shall be
bound thereby, anything in the Constitution or laws
of any State to the contrary notwithstanding.
***

551a

28 U.S.C. § 1330. Actions against foreign states
(a) The district courts shall have original
jurisdiction without regard to amount in controversy
of any nonjury civil action against a foreign state as
defined in section 1603(a) of this title as to any claim
for relief in personam with respect to which the
foreign state is not entitled to immunity either under
sections 1605-1607 of this title or under any
applicable international agreement.
(b) Personal jurisdiction over a foreign state shall
exist as to every claim for relief over which the
district courts have jurisdiction under subsection (a)
where service has been made under section 1608 of
this title.
***

552a
28 U.S.C. § 1391. Venue generally
***
(f) CIVIL ACTIONS AGAINST A FOREIGN
STATE.—A civil action against a foreign state as
defined in section 1603(a) of this title may be
brought—
(1) in any judicial district in which a substantial
part of the events or omissions giving rise to the
claim occurred, or a substantial part of property
that is the subject of the action is situated;
(2) in any judicial district in which the vessel or
cargo of a foreign state is situated, if the claim is
asserted under section 1605(b) of this title;
(3) in any judicial district in which the agency or
instrumentality is licensed to do business or is
doing business, if the action is brought against
an agency or instrumentality of a foreign state
as defined in section 1603(b) of this title; or
(4) in the United States District Court for the
District of Columbia if the action is brought
against a foreign state or political subdivision
thereof.
***

553a
28 U.S.C. § 1603. Definitions
For purposes of this chapter—
(a) A “foreign state”, except as used in section 1608
of this title, includes a political subdivision of a
foreign state or an agency or instrumentality of a
foreign state as defined in subsection (b).
***

554a
28 U.S.C. § 1604. Immunity of a foreign state from
jurisdiction
Subject to existing international agreements to
which the United States is a party at the time of
enactment of this Act a foreign state shall be immune
from the jurisdiction of the courts of the United
States and of the States except as provided in
sections 1605 to 1607 of this chapter.

555a

28 U.S.C. § 1605A. Terrorism exception to the
jurisdictional immunity of a foreign state
(a) IN GENERAL.—
(1) NO IMMUNITY.—A foreign state shall not be
immune from the jurisdiction of courts of the United
States or of the States in any case not otherwise
covered by this chapter in which money damages
are sought against a foreign state for personal
injury or death that was caused by an act of torture,
extrajudicial killing, aircraft sabotage, hostage
taking, or the provision of material support or
resources for such an act if such act or provision of
material support or resources is engaged in by an
official, employee, or agent of such foreign state
while acting within the scope of his or her office,
employment, or agency.
(2) CLAIM HEARD.—The court shall hear a claim
under this section if—
(A)(i)(I) the foreign state was designated as a
state sponsor of terrorism at the time the act
described in paragraph (1) occurred, or was so
designated as a result of such act, and, subject to
subclause (II), either remains so designated when
the claim is filed under this section or was so
designated within the 6-month period before the
claim is filed under this section; or
(II) in the case of an action that is refiled under
this section by reason of section 1083(c)(2)(A) of
the National Defense Authorization Act for Fiscal
Year 2008 or is filed under this section by reason
of section 1083(c)(3) of that Act, the foreign state

556a
was designated as a state sponsor of terrorism
when the original action or the related action
under section 1605(a)(7) (as in effect before the
enactment of this section) or section 589 of the
Foreign Operations, Export Financing, and
Related Programs Appropriations Act, 1997 (as
contained in section 101(c) of division A of Public
Law 104-208) was filed;
(ii) the claimant or the victim was, at the time
the act described in paragraph (1) occurred—
(I) a national of the United States;
(II) a member of the armed forces; or
(III) otherwise an employee of the
Government of the United States, or of an
individual performing a contract awarded by
the United States Government, acting within
the scope of the employee’s employment; and
(iii) in a case in which the act occurred in the
foreign state against which the claim has been
brought, the claimant has afforded the foreign
state a reasonable opportunity to arbitrate the
claim in accordance with the accepted
international rules of arbitration; or
(B) the act described in paragraph (1) is related
to Case Number 1:00CV03110 (EGS) in the
United States District Court for the District of
Columbia.

557a
(b) LIMITATIONS.—An action may be brought or
maintained under this section if the action is
commenced, or a related action was commenced
under section 1605(a)(7) (before the date of the
enactment of this section) or section 589 of the
Foreign Operations, Export Financing, and Related
Programs Appropriations Act, 1997 (as contained in
section 101(c) of division A of Public Law 104–208)
not later than the latter of—
(1) 10 years after April 24, 1996; or
(2) 10 years after the date on which the cause of
action arose.
(c) PRIVATE RIGHT OF ACTION.—A foreign state
that is or was a state sponsor of terrorism as
described in subsection (a)(2)(A)(i), and any official,
employee, or agent of that foreign state while acting
within the scope of his or her office, employment, or
agency, shall be liable to—
(1) a national of the United States,
(2) a member of the armed forces,
(3) an employee of the Government of the United
States, or of an individual performing a contract
awarded by the United States Government, acting
within the scope of the employee’s employment, or
(4) the legal representative of a person described
in paragraph (1), (2), or (3),
for personal injury or death caused by acts described
in subsection (a)(1) of that foreign state, or of an
official, employee, or agent of that foreign state, for
which the courts of the United States may maintain
jurisdiction under this section for money damages. In

558a
any such action, damages may include economic
damages, solatium, pain and suffering, and punitive
damages. In any such action, a foreign state shall be
vicariously liable for the acts of its officials,
employees, or agents.
(d) ADDITIONAL DAMAGES.—After an action has
been brought under subsection (c), actions may also
be brought for reasonably foreseeable property loss,
whether insured or uninsured, third party liability,
and loss claims under life and property insurance
policies, by reason of the same acts on which the
action under subsection (c) is based.
(e) SPECIAL MASTERS.—
(1) IN GENERAL.— The courts of the United
States may appoint special masters to hear damage
claims brought under this section.
(2) TRANSFER OF FUNDS.—The Attorney
General shall transfer, from funds available for the
program under section 1404C of the Victims of
Crime Act of 1984 (42 U.S.C. 10603c), to the
Administrator of the United States district court in
which any case is pending which has been brought
or maintained under this section such funds as may
be required to cover the costs of special masters
appointed under paragraph (1). Any amount paid in
compensation to any such special master shall
constitute an item of court costs.
(f) APPEAL.— In an action brought under this
section, appeals from orders not conclusively ending
the litigation may only be taken pursuant to section
1292(b) of this title.

559a
(g) PROPERTY DISPOSITION.—
(1) IN GENERAL.—In every action filed in a
United States district court in which jurisdiction is
alleged under this section, the filing of a notice of
pending action pursuant to this section, to which is
attached a copy of the complaint filed in the action,
shall have the effect of establishing a lien of lis
pendens upon any real property or tangible
personal property that is—
(A) subject to attachment in aid of execution, or
execution, under section 1610;
(B) located within that judicial district; and
(C) titled in the name of any defendant, or titled
in the name of any entity controlled by any
defendant if such notice contains a statement
listing such controlled entity.
(2) NOTICE.— A notice of pending action
pursuant to this section shall be filed by the clerk of
the district court in the same manner as any
pending action and shall be indexed by listing as
defendants all named defendants and all entities
listed as controlled by any defendant.
(3) ENFORCEABILITY.— Liens established by
reason of this subsection shall be enforceable as
provided in chapter 111 of this title.
(h) DEFINITIONS.—For purposes of this section—
(1) the term “aircraft sabotage” has the meaning
given that term in Article 1 of the Convention for
the Suppression of Unlawful Acts Against the
Safety of Civil Aviation;

560a
(2) the term “hostage taking” has the meaning
given that term in Article 1 of the International
Convention Against the Taking of Hostages;
(3) the term “material support or resources” has
the meaning given that term in section 2339A of
title 18;
(4) the term “armed forces” has the meaning given
that term in section 101 of title 10;
(5) the term “national of the United States” has
the meaning given that term in section 101(a)(22) of
the Immigration and Nationality Act (8 U.S.C.
1101(a)(22));
(6) the term “state sponsor of terrorism” means a
country the government of which the Secretary of
State has determined, for purposes of section 6(j) of
the Export Administration Act of 1979 (50 U.S.C.
App. 2405(j)), section 620A of the Foreign
Assistance Act of 1961 (22 U.S.C. 2371), section 40
of the Arms Export Control Act (22 U.S.C. 2780), or
any other provision of law, is a government that has
repeatedly
provided
support
for
acts
of
international terrorism; and
(7) the terms “torture” and “extrajudicial killing”
have the meaning given those terms in section 3 of
the Torture Victim Protection Act of 1991 (28 U.S.C.
1350 note).

561a

28 U.S.C. § 1606. Extent of Liability
As to any claim for relief with respect to which a
foreign state is not entitled to immunity under
section 1605 or 1607 of this chapter, the foreign state
shall be liable in the same manner and to the same
extent as a private individual under like
circumstances; but a foreign state except for an
agency or instrumentality thereof shall not be liable
for punitive damages; if, however, in any case
wherein death was caused, the law of the place where
the action or omission occurred provides, or has been
construed to provide, for damages only punitive in
nature, the foreign state shall be liable for actual or
compensatory damages measured by the pecuniary
injuries resulting from such death which were
incurred by the persons for whose benefit the action
was brought.

562a

28 U.S.C. § 1608. Service; time to answer; default
***
(e) No judgment by default shall be entered by a
court of the United States or of a State against a
foreign state, a political subdivision thereof, or an
agency or instrumentality of a foreign state, unless
the claimant establishes his claim or right to relief by
evidence satisfactory to the court. A copy of any such
default judgment shall be sent to the foreign state or
political subdivision in the manner prescribed for
service in this section.

563a
APPENDIX K
Re statement (Second) of Torts
§ 46. Outrageous Conduct Causing Severe Emotional
Distress
(1) One who by extreme and outrageous
conduct intentionally or recklessly causes severe
emotional distress to another is subject to liability for
such emotional distress, and if bodily harm to the
other results from it, for such bodily harm.
(2) Where such conduct is directed at a third
person, the actor is subject to liability if he
intentionally or recklessly causes severe emotional
distress
(a) to a member of such person's immediate
family who is present at the time, whether or not
such distress results in bodily harm, or
(b) to any other person who is present at the
time, if such distress results in bodily harm.
Caveat:
The Institute expresses no opinion as to
whether there may not be other circumstances under
which the actor may be subject to liability for the
intentional or reckless infliction of emotional distress.
Comment:
***

l. Conduct directed at a third person. Where

the extreme and outrageous conduct is directed at a

564a
third person, as where, for example, a husband is
murdered in the presence of his wife, the actor may
know that it is substantially certain, or at least
highly probable, that it will cause severe emotional
distress to the plaintiff. In such cases the rule of this
Section applies. The cases thus far decided, however,
have limited such liability to plaintiffs who were
present at the time, as distinguished from those who
discover later what has occurred. The limitation may
be justified by the practical necessity of drawing the
line somewhere, since the number of persons who
may suffer emotional distress at the news of an
assassination of the President is virtually unlimited,
and the distress of a woman who is informed of her
husband's murder ten years afterward may lack the
guarantee of genuineness which her presence on the
spot would afford. The Caveat is intended, however,
to leave open the possibility of situations in which
presence at the time may not be required.
Furthermore, the decided cases in which
recovery has been allowed have been those in which
the plaintiffs have been near relatives, or at least
close associates, of the person attacked.
The
language of the cases is not, however, limited to such
plaintiffs, and there appears to be no essential reason
why a stranger who is asked for a match on the street
should not recover when the man who asks for it is
shot down before his eyes, at least where his
emotional distress results in bodily harm.

